<html>
<title> - THE BUSINESS CASE FOR CLIMATE SOLUTIONS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                THE BUSINESS CASE FOR CLIMATE SOLUTIONS

=======================================================================

                                (117-7)

                             REMOTE HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2021

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-617 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
  
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      RICK LARSEN, Washington
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
THOMAS MASSIE, Kentucky              STEVE COHEN, Tennessee
SCOTT PERRY, Pennsylvania            ALBIO SIRES, New Jersey
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
BRIAN J. MAST, Florida               DONALD M. PAYNE, Jr., New Jersey
MIKE GALLAGHER, Wisconsin            ALAN S. LOWENTHAL, California
BRIAN K. FITZPATRICK, Pennsylvania   MARK DeSAULNIER, California
JENNIFFER GONZALEZ-COLON,            STEPHEN F. LYNCH, Massachusetts
  Puerto Rico                        SALUD O. CARBAJAL, California
TROY BALDERSON, Ohio                 ANTHONY G. BROWN, Maryland
PETE STAUBER, Minnesota              TOM MALINOWSKI, New Jersey
TIM BURCHETT, Tennessee              GREG STANTON, Arizona
DUSTY JOHNSON, South Dakota          COLIN Z. ALLRED, Texas
JEFFERSON VAN DREW, New Jersey       SHARICE DAVIDS, Kansas, Vice Chair
MICHAEL GUEST, Mississippi           JESUS G. ``CHUY'' GARCIA, Illinois
TROY E. NEHLS, Texas                 ANTONIO DELGADO, New York
NANCY MACE, South Carolina           CHRIS PAPPAS, New Hampshire
NICOLE MALLIOTAKIS, New York         CONOR LAMB, Pennsylvania
BETH VAN DUYNE, Texas                SETH MOULTON, Massachusetts
CARLOS A. GIMENEZ, Florida           JAKE AUCHINCLOSS, Massachusetts
MICHELLE STEEL, California           CAROLYN BOURDEAUX, Georgia
                                     KAIALI`I KAHELE, Hawaii
                                     MARILYN STRICKLAND, Washington
                                     NIKEMA WILLIAMS, Georgia
                                     MARIE NEWMAN, Illinois
                                     Vacancy

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     1
    Prepared statement...........................................     6
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     7
    Prepared statement...........................................     8
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, opening statement................................     9
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   133

                               WITNESSES

Jack Allen, Chief Executive Officer and Chairman, Proterra, Inc.:

    Oral statement...............................................    14
    Prepared statement...........................................    16
Shameek Konar, Chief Executive Officer, Pilot Flying J, on behalf 
  of the National Association of Truckstop Operators:

    Oral statement...............................................    23
    Prepared statement...........................................    25
Troy Rudd, Chief Executive Officer, AECOM:

    Oral statement...............................................    32
    Prepared statement...........................................    34
Rafael Santana, President and Chief Executive Officer, Wabtec 
  Corporation:

    Oral statement...............................................    38
    Prepared statement...........................................    40
Frederick W. Smith, Chairman and Chief Executive Officer, FedEx 
  Corporation:

    Oral statement...............................................    45
    Prepared statement...........................................    46
Laurie M. Giammona, Senior Vice President for Customer Care, 
  Pacific Gas and Electric Company:

    Oral statement...............................................    50
    Prepared statement...........................................    52
Tom Lewis, P.E., J.D., National Business Line Executive for 
  Climate, Resilience, and Sustainability, WSP USA:

    Oral statement...............................................    56
    Prepared statement...........................................    58
Charles Hernick, Vice President of Policy and Advocacy, Citizens 
  for Responsible Energy Solutions:

    Oral statement...............................................    67
    Prepared statement...........................................    69

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Peter A. DeFazio:

    Statement of Ed Mortimer, Vice President, Transportation and 
      Infrastructure, U.S. Chamber of Commerce...................     3
    Letter of March 17, 2021, from Cathy Bennett, Sr. Vice 
      President for Public Policy, Greater Kansas City Chamber of 
      Commerce et al.............................................   134
    Statement of the Carnegie Mellon University..................   135
    Letter of February 7, 2021, from Joy Ditto, President & CEO, 
      American Public Power Association; Tom Kuhn, President, 
      Edison Electric Institute; and Jim Matheson, CEO, National 
      Rural Electric Cooperative Association.....................   136
    Letter of March 15, 2021, from Joe Britton, Executive 
      Director, Zero Emission Transportation Association.........   138
    Amazon and Global Optimism Co-founded The Climate Pledge.....   139
Submissions for the Record by Hon. Sam Graves of Missouri:

    Letter of March 17, 2021, from Sean O'Neill, Senior Vice 
      President of Government Affairs, Portland Cement 
      Association................................................    10
    Letter of March 17, 2021, from Dave Schryver, President and 
      CEO, American Public Gas Association.......................    12
    Statement of Nicholas Guida, Chairman and Chief Executive 
      Officer, Tamarack Aerospace Group Corporation..............   141
Letter of March 17, 2021, from the National Association of 
  Convenience Stores and the Society of Independent Gasoline 
  Marketers of America, Submitted for the Record by Hon. Tim 
  Burchett.......................................................    22
Submissions for the Record by Hon. Bruce Westerman:

    Article entitled, ``Buildings as a Global Carbon Sink,'' by 
      Alan Organschi and Galina Churkina, Scientist, Potsdam 
      Institute for Climate Impact Research, Springer Nature 
      Sustainability Community, February 5, 2020.................   120
    Article entitled, ``Buildings as a Global Carbon Sink,'' by 
      G. Churkina, A. Organschi, C.P.O. Reyer, et al., Nature 
      Sustainability, Vol. 3, April 2020.........................   123
Submissions for the Record by Hon. Conor Lamb:

    Letter of March 17, 2021, from Matt Smith, President, Greater 
      Pittsburgh Chamber of Commerce.............................   127
    Letter of March 16, 2021, from Rich Fitzgerald, County 
      Executive, Allegheny County, PA............................   128
    Letter of March 22, 2021, from William Peduto, Mayor, City of 
      Pittsburgh, PA.............................................   145
    Letter of March 22, 2021, from Sam Williamson, Board Chair 
      and Greg Flisram, Executive Director, Urban Redevelopment 
      Authority of Pittsburgh....................................   146
Letter of March 29, 2021, from Frederick W. Smith, Chairman of 
  the Board and Chief Executive Officer, FedEx Corporation, 
  Submitted for the Record by Hon. Steve Cohen...................   144

                                APPENDIX

Questions to Jack Allen, Chief Executive Officer and Chairman, 
  Proterra, Inc., from:

    Hon. Peter A. DeFazio........................................   147
    Hon. Julia Brownley..........................................   148
    Hon. Michael Guest...........................................   150
    Hon. Scott Perry.............................................   150
Questions to Shameek Konar, Chief Executive Officer, Pilot Flying 
  J, on behalf of the National Association of Truckstop 
  Operators, from:

    Hon. Peter A. DeFazio........................................   152
    Hon. Michael Guest...........................................   153
    Hon. Scott Perry.............................................   154
Questions to Troy Rudd, Chief Executive Officer, AECOM, from:

    Hon. Peter A. DeFazio........................................   155
    Hon. Michael Guest...........................................   156
    Hon. Scott Perry.............................................   157
Questions to Rafael Santana, President and Chief Executive 
  Officer, Wabtec Corporation, from:

    Hon. Michael Guest...........................................   159
    Hon. Scott Perry.............................................   159
Questions to Frederick W. Smith, Chairman and Chief Executive 
  Officer, FedEx Corporation, from:

    Hon. Jared Huffman...........................................   160
    Hon. Michael Guest...........................................   161
    Hon. Scott Perry.............................................   162
Questions to Laurie M. Giammona, Senior Vice President for 
  Customer Care, Pacific Gas and Electric Company, from:

    Hon. Peter A. DeFazio........................................   163
    Hon. Michael Guest...........................................   164
    Hon. Greg Stanton............................................   165
    Hon. Nikema Williams.........................................   165
    Hon. Scott Perry.............................................   167
Questions to Tom Lewis, P.E., J.D., National Business Line 
  Executive for Climate, Resilience, and Sustainability, WSP USA, 
  from:

    Hon. Peter A. DeFazio........................................   169
    Hon. Nikema Williams.........................................   171
    Hon. Michael Guest...........................................   172
    Hon. Scott Perry.............................................   173
Question to Charles Hernick, Vice President of Policy and 
  Advocacy, Citizens for Responsible Energy Solutions, from:

    Hon. Peter A. DeFazio........................................   174
    Hon. Michael Guest...........................................   174
    Hon. Scott Perry.............................................   175

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 12, 2021

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Committee on Transportation and 
Infrastructure
    FROM:  LStaff, Committee on Transportation and 
Infrastructure
    RE:      LFull Committee Hearing on ``The Business Case for 
Climate Solutions''
_______________________________________________________________________


                                PURPOSE

    The Committee on Transportation and Infrastructure will 
meet on Wednesday, March 17, 2021, at 11:00 a.m. EDT in 2167 
Rayburn House Office Building and via Cisco Webex to hold a 
hearing titled ``The Business Case for Climate Solutions.'' The 
hearing will explore private sector actions to develop and 
implement solutions to climate change, with an emphasis on the 
surface transportation sector. The Committee will hear 
testimony from Proterra, Inc; Pacific Gas and Electric Company 
(PG&E); Pilot Flying J; WSP USA; AECOM; Wabtec Corporation; 
FedEx Corporation; and Citizens for Responsible Energy 
Solutions (CRES).

                               BACKGROUND

CLIMATE CHANGE AND THE TRANSPORTATION SECTOR

    Global use of carbon has resulted in corresponding 
greenhouse gas emissions (GHGs), which is the dominant cause of 
climate change.\1\ According to the Environmental Protection 
Agency (EPA), the transportation sector is the largest source 
of U.S. GHGs, at 28 percent of U.S. emissions.\2\ Electric 
power and industry (iron, steel, chemical, and cement 
production) follow with 27 percent and 22 percent of emissions, 
respectively.\3\ Within the transportation sector, light-duty 
vehicles and medium- and heavy-duty trucks account for 82 
percent of those emissions, with aircraft accounting for 9 
percent, rail accounting for 2 percent, ships and boats 
accounting for 2 percent and other forms of transportation--
including buses and motorcycles--making up the remainder.\4\
---------------------------------------------------------------------------
    \1\ National Aeronautics and Space Administration. ``The Causes of 
Climate Change.'' Accessed March 8, 2021.
    \2\ EPA. ``Fast Facts on Transportation Greenhouse Gas Emissions,'' 
https://www.epa.gov/greenvehicles/fast-facts-transportation-greenhouse-
gas-emissions. Accessed March 5, 2021.
    \3\ Id.
    \4\ Id.
---------------------------------------------------------------------------
    The U.S. transportation sector has been the largest 
consumer of petroleum products since at least 1949, the first 
year for which the Energy Information Administration has 
data.\5\ In 2018, the U.S. transportation sector consumed 
approximately 14 million barrels per day of petroleum 
products,\6\ out of a total of 20.5 million barrels per day 
consumed in all sectors domestically.\7\
---------------------------------------------------------------------------
    \5\ Energy Information Administration. ``In the United States, most 
petroleum is consumed in transportation,'' https://www.eia.gov/
todayinenergy/detail.php?id=40752. Accessed March 5, 2021.
    \6\ Id.
    \7\ Id.; see also Energy Information Administration. ``Petroleum 
and other liquids,'' https://www.eia.gov/petroleum/. Accessed March 5, 
2021.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Source: EPA, https://nepis.epa.gov/Exe/ZyPDF.cgi?Dockey=P100ZK4P.pdf
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Source: Energy Information Administration https://www.eia.gov/
                   todayinenergy/detail.php?id=40752.

    The impacts of climate change can pose risks to our 
infrastructure, the economy, and communities nationwide. At the 
same time, transitioning to a more sustainable surface 
transportation system may bring the opportunity for new 
domestic jobs and a more competitive position in the global 
economy.\8\
---------------------------------------------------------------------------
    \8\ E2. Clean Jobs America 2020. https://e2.org/wp-content/uploads/
2020/04/E2-Clean-Jobs-America-2020.pdf. Accessed March 11, 2021.
---------------------------------------------------------------------------

CLIMATE CHANGE MITIGATION AND RESILIENCE

    As of 2019, the U.S. was leading the world in energy-
related emissions reduction due to the expanding role of 
renewable energy sources and switching from coal to natural 
gas.\9\ The COVID-19 pandemic led to a further drop in 
emissions, estimated at 7 percent in 2020.\10\ U.S. GHG 
emissions are now below 1990 levels.\11\
---------------------------------------------------------------------------
    \9\ IEA. ``Global CO2 Emissions in 2019.'' https://www.iea.org/
articles/global-co2-emissions-in-2019. Accessed March 9, 2021.
    \10\ Global Carbon Project: Coronavirus causes `record fall' in 
fossil-fuel emissions in 2020. https://www.carbonbrief.org/global-
carbon-project-coronavirus-causes-record-fall-in-fossil-fuel-
emissions-in-2020.
    \11\ Rhodium Group. ``Preliminary US Greenhouse Gas Emissions 
Estimates for 2020.'' https://rhg.com/research/preliminary-us-
emissions-2020/. Accessed March 9, 2021.
---------------------------------------------------------------------------
    However, between 1990 and 2018, GHG emissions in the 
transportation sector increased 24 percent, more than any other 
sector.\12\ According to EPA, the increase is driven by 
increased demand for travel with vehicle miles traveled by 
light-duty motor vehicles increasing by 46.1 percent.\13\ EPA 
attributes this increase to a confluence of factors including 
population growth, economic growth, urban sprawl, and periods 
of low fuel prices.\14\ Without changes in carbon use, 
emissions will likely rise in tandem with increased economic 
activity as the U.S. recovers from the COVID-19 pandemic.\15\
---------------------------------------------------------------------------
    \12\ EPA. Inventory of U.S. Greenhouse Gas Emissions and Sinks. 
https://www.epa.gov/sites/production/files/2020-04/documents/us-ghg-
inventory-2020-chapter-executive-summary.pdf. Accessed March 10, 2021.
    \13\ Id.
    \14\ Id.
    \15\ Rhodium Group. ``Preliminary US Greenhouse Gas Emissions 
Estimates for 2020.'' https://rhg.com/research/preliminary-us-
emissions-2020/. Accessed March 11, 2021.
---------------------------------------------------------------------------
    Total carbon emissions have declined by nearly 11 percent 
since 2010.\16\ Energy innovations have allowed the U.S. to 
decrease dependence on foreign energy with more net exports 
than imports since 2019.\17\ As a result, public and private 
sector entities have a range of options by which to reduce the 
emissions generated by the transportation sector and to improve 
the resilience of the sector against the already-occurring 
impacts of climate change.
---------------------------------------------------------------------------
    \16\ IEA. ``CO2 Emissions by Energy Source, United States 1990-
2018.'' https://www.iea.org/countries/united-states. Accessed March 9, 
2021.
    \17\ IEA. ``Net Energy Imports, United States 1990-2019.'' https://
www.iea.org/countries/united-states. Accessed March 9, 2021.
---------------------------------------------------------------------------
    Mitigation of transportation related GHGs may be achieved 
through a variety of means. These can include: conversion of 
individual vehicles and fleets of vehicles to low- and zero-
emission forms of power; provision of alternative charging and 
fueling infrastructure; provision of low- and zero-emission 
forms of transportation including transit, rail, walking, and 
biking; increased fuel economy standards that reduce the use of 
fossil fuels and associated operating costs for vehicle users; 
\18\ improved operational practices to reduce idling and 
traffic congestion; shifting freight and passenger movements to 
more efficient modes; and innovations within the construction 
sector to reduce or trap emissions produced throughout the 
lifecycle of transportation projects. These types of 
interventions have the ability to reduce the transportation 
sector's GHGs.\19\
---------------------------------------------------------------------------
    \18\ Consumer Reports. ``Electric Vehicle Ownership Costs: Today's 
Electric Vehicles Offer Big Savings for Consumers.'' 2020. https://
advocacy.consumerreports.org/wp-content/uploads/2020/10/
EV-Ownership-Cost-Final-Report-1.pdf. Accessed March 8, 2021.
    \19\ EPA. ``Sources of Greenhouse Gas Emissions: Transportation 
Sector Emissions.'' https://www.epa.gov/ghgemissions/sources-
greenhouse-gas-emissions. Accessed March 10, 2020.
---------------------------------------------------------------------------
    Because air pollution and greenhouse gases are often 
released from the same sources, reducing GHGs in an effort to 
slow climate change also reduces air pollutants, such as fine 
particulate matter (PM2.5).\20\ Reducing these co-emitted air 
pollutants improves air quality and benefits human health.\21\
---------------------------------------------------------------------------
    \20\ West, J., Smith, S., Silva, R. et al. ``Co-benefits of 
mitigating global greenhouse gas emissions for future air quality and 
human health.'' Nature Climate Change 3, 885-889 (2013). https://
www.niehs.nih.gov/research/programs/geh/geh_newsletter/2013/12/
spotlight/reducing_
greenhouse_gas_emissions_can_improve_air_quality_and_save_lives_.cfm#::
text=
Because%20air%20pollution%20and%20greenhouse,quality%20and%20benefits%20
human
%20health. Accessed March 8, 2021.
    \21\ Id.
---------------------------------------------------------------------------
    Resiliency, or strengthening the ability to anticipate, 
withstand, and recover from natural disasters and extreme 
weather, is also a central element of the U.S. response to the 
ongoing impacts of climate change. Resilient infrastructure 
pays off by saving at least $2 on average for every $1 
spent.\22\ Options to improve the resilience of the 
transportation system include: assessing vulnerability and 
identifying critical infrastructure; raising roadways and 
improving drainage; upgrading evacuation routes; relocating 
assets to higher ground or less flood-prone areas; using 
natural infrastructure to provide protection against extreme 
weather; stabilizing or strengthening facilities to protect 
against erosion and landslides; seeking distributed sources of 
power to maintain transportation services in the event of a 
disruption to the grid; and diversifying transportation options 
to ensure continuity of service following a natural 
disaster.\23\
---------------------------------------------------------------------------
    \22\ Engineering News-Record. ``Resilient Infrastructure Could Save 
$4.2 Trillion.'' https://www.enr.com/articles/47135-resilient-
infrastructure-could-save-42-trillion. Accessed March 9, 2021.
    \23\ Federal Highway Administration. ``Vulnerability Assessment and 
Adaption Framework, 3rd Ed.'' (2017) https://www.fhwa.dot.gov/
environment/sustainability/resilience/adaptation_
framework/chap00.cfm. Accessed March 10, 2021; Federal Highway 
Administration. ``Synthesis of Approaches for Addressing Resilience in 
Project Development.'' (2017).
---------------------------------------------------------------------------

PRIVATE SECTOR ACTIONS TO ADDRESS CLIMATE CHANGE

    A growing number of corporations have set targets to reduce 
GHGs, and goals to achieve carbon neutrality by a certain date, 
some as early as 2030.\24\ In the United States, 209 companies 
have joined the Science-Based Targets Initiative to set and 
disclose targets.\25\ Worldwide, more than 1,200 companies have 
taken such action.\26\ These voluntary actions by corporations 
demonstrate businesses' steps in reducing emissions.
---------------------------------------------------------------------------
    \24\ In January 2020, Microsoft announced it would be carbon 
negative by 2030. https://news.microsoft.com/climate/#january-carbon-
announcement. Accessed March 7, 2021.
    \25\ Science-Based Targets. ``Companies Taking Action.'' https://
sciencebasedtargets.org/companies-taking-action. Accessed March 7, 
2021.
    \26\ Id.
---------------------------------------------------------------------------
    Many corporations are formally calling for public policy 
solutions, in addition to setting their own targets, to achieve 
a higher scale of emissions reductions. On January 20, 2021, 
the U.S. re-started the process to join to the Paris Agreement 
and on February 19, 2021, officially rejoined.\27\ Under the 
agreement, the U.S. promises to reduce its emissions by about 
25 percent from 2005 levels by 2025.\28\ The U.S. was already 
on track to reduce emissions by about 17 percent.\29\ Broader 
policy changes and innovations may help achieve the emissions 
reductions necessary for the U.S. to meet its commitments under 
the Paris agreement.
---------------------------------------------------------------------------
    \27\ Press Release, U.S. State Department, The United States 
Officially Rejoins the Paris Agreement, Feb. 19, 2021, available at 
https://www.state.gov/the-united-states-officially-rejoins-the-paris-
agreement/; The Paris Agreement is a multi-lateral treaty, negotiated 
in 2015, in which developed countries commit to making the individual 
GHG reduction, contributions necessary to halt the overall rate of 
temperature increase. See: https://unfccc.int/process-andmeetings/the-
paris-agreement/the-paris-agreement; https://www.aar.org/wp-content/
uploads/2021/02/AAR
Climate-Change-Report.pdf.
    \28\ OBP. ``U.S. Officially Rejoins Paris Agreement on Climate 
Change.'' Feb. 19, 2021. https://www.opb.org/article/2021/02/19/u-s-
officially-rejoins-paris-agreement-on-climate-change/.
    \29\ Id.
---------------------------------------------------------------------------
    The CEO Climate Dialogue, which includes 22 major U.S. 
corporations among its members, states in its guiding 
principles: ``It is urgent that the President and Congress put 
in place a long-term federal policy as soon as possible to 
protect against the worst impacts of climate change.'' \30\ In 
December 2020, 47 leading U.S. companies issued a statement 
letter urging ``President-elect Joe Biden and the new Congress 
to work together to enact ambitious, durable, and bipartisan 
climate solutions.'' \31\
---------------------------------------------------------------------------
    \30\ CEO Climate Dialogue. ``Guiding Principles for Federal Action 
on Climate.'' https://www.ceoclimatedialogue.org/guiding-principles. 
Accessed March 7, 2021.
    \31\ Center for Climate and Energy Solution. ``Top Companies Call 
for Ambitious U.S. Climate Policy.'' https://www.c2es.org/content/top-
companies-call-for-ambitious-us-climate-policy/. Accessed March 7, 
2021.
---------------------------------------------------------------------------
    The U.S. Chamber of Commerce updated its position on 
climate change in January 2021 to include support for ``a 
market-based approach to accelerate GHG emissions reductions 
across the U.S. economy.'' \32\ In September 2020, the Business 
Roundtable issued new principles on climate change, calling for 
market-based solutions and a ``complementary suite of policies 
to drive innovation, significantly reduce greenhouse gas 
emissions and limit global temperature rise.'' \33\ On March 1, 
2021, the Association of American Railroads (AAR) released a 
report stating ``the rail industry recognize(s) that the 
climate is changing. If action is not taken, climate change 
will have significant repercussions for the planet, our 
economies, our society, and even day-to-day railroad 
operations.'' \34\
---------------------------------------------------------------------------
    \32\ U.S. Chamber of Commerce. ``Our Approach to Climate Change.'' 
https://www.uschamber.com/climate-change-position. Accessed March 7, 
2021.
    \33\ Business Roundtable. ``Addressing Climate Change.'' https://
www.businessroundtable.org/climate. Accessed March 7, 2021.
    \34\ American Assn. of Railroads. ``Freight Railroads & Climate 
Change.'' https://www.aar.org/wp-content/uploads/2021/02/AAR-Climate-
Change-Report.pdf. Accessed March 7, 2021.
---------------------------------------------------------------------------

CLIMATE-RELATED TRANSPORTATION LEGISLATION FROM THE 116TH CONGRESS

H.R. 2, THE MOVING FORWARD ACT

    On July 1, 2020, the House of Representatives passed with a 
bipartisan vote of 233-188 the Majority's H.R. 2, the Moving 
Forward Act, which included a surface transportation 
reauthorization proposal titled the Investing in a New Vision 
for the Environment and Surface Transportation in America 
(INVEST in America) Act. The INVEST in America Act proposed 
several provisions related to climate change mitigation and 
resilience. The bill proposed investments in:
    <bullet> LA new carbon pollution reduction apportionment 
program to fund highway, transit, and rail projects that would 
reduce greenhouse gases.\35\
---------------------------------------------------------------------------
    \35\ Division B, title I, section 1213.
---------------------------------------------------------------------------
    <bullet> LA new resilience-focused pre-disaster mitigation 
program to help States prepare for and reduce the impacts of 
climate change and extreme weather.\36\
---------------------------------------------------------------------------
    \36\ Division B, title I, section 1202.
---------------------------------------------------------------------------
    <bullet> LTransit, rail, pedestrian, and bicycle funding to 
provide more transportation options.\37\
---------------------------------------------------------------------------
    \37\ Divisions B and D.
---------------------------------------------------------------------------
    <bullet> LAlternative charging and fueling infrastructure 
to support Americans in shifting to lower-emission 
vehicles.\38\
---------------------------------------------------------------------------
    \38\ Division B, title I, section 1303.
---------------------------------------------------------------------------
    <bullet> LA locally-driven climate discretionary grant 
program, allowing communities to advance innovative solutions 
to reducing carbon pollution.\39\
---------------------------------------------------------------------------
    \39\ Division B, title I, section 1302.
---------------------------------------------------------------------------
    <bullet> LDeployment of technologies that would reduce 
greenhouse gas emissions from the surface transportation 
system.\40\
---------------------------------------------------------------------------
    \40\ Divisions B and D.
---------------------------------------------------------------------------
    <bullet> LLower-emission multimodal freight projects.\41\
---------------------------------------------------------------------------
    \41\ See, e.g., division B, title I, section 1212.
---------------------------------------------------------------------------
    <bullet> LZero-emission buses to reduce greenhouse gases 
and other air pollutants.\42\
---------------------------------------------------------------------------
    \42\ Division B, title II, sections 2101 and 2403.
---------------------------------------------------------------------------
    <bullet> LA new sustainable highway materials research, 
development, and deployment program to reduce or sequester 
greenhouse gases generated during production and 
construction.\43\
---------------------------------------------------------------------------
    \43\ Division B, title I, section 5302.
---------------------------------------------------------------------------
    <bullet> LA new gridlock reduction program focused on 
operational improvements, travel demand management, and multi-
modal solutions to traffic congestion.\44\
---------------------------------------------------------------------------
    \44\ Division B, title I, section 1306.

    The bill also proposed policy changes to support climate 
change mitigation and resilience by:
    <bullet> LClarifying that the Federal Highway 
Administration's (FHWA) Emergency Relief Program may be used 
for resilience betterments.\45\
---------------------------------------------------------------------------
    \45\ Division B, title I, section 1203.
---------------------------------------------------------------------------
    <bullet> LReforming the largest highway construction 
program to ensure that States also consider operational 
improvements and transit when proposing additional highway 
capacity.\46\
---------------------------------------------------------------------------
    \46\ Division B, title I, section 1201.
---------------------------------------------------------------------------
    <bullet> LEstablishing a new greenhouse gas performance 
measure to track States' progress in reducing carbon pollution 
from our highway system.\47\
---------------------------------------------------------------------------
    \47\ Division B, title I, section 1403.
---------------------------------------------------------------------------
    <bullet> LCreating new incentives for transit-oriented 
development to provide more Americans access to walkable and 
transit-supportive communities.\48\
---------------------------------------------------------------------------
    \48\ Division B, title II, subtitle G.
---------------------------------------------------------------------------
    <bullet> LEnsuring consideration of climate mitigation and 
resilience through the planning process to encourage 
sustainable building for the future.\49\
---------------------------------------------------------------------------
    \49\ Division B, title I, sections 1202, 1401, and 1402.
---------------------------------------------------------------------------
    <bullet> LModifying federal design standards to support 
context-sensitive street design and support the use of low- and 
zero-emission modes.\50\
---------------------------------------------------------------------------
    \50\ Division B, title I, section 1107.
---------------------------------------------------------------------------
    <bullet> LRequiring a National Academies of Science 
assessment of the potential impacts of climate change on the 
national rail network.\51\
---------------------------------------------------------------------------
    \51\ Division D, title I, section 9106.
---------------------------------------------------------------------------
    <bullet> LSpurring Amtrak to improve passenger rail service 
to encourage a shift towards passenger rail which produces less 
greenhouse gas emissions.\52\
---------------------------------------------------------------------------
    \52\ Division D, title II.
---------------------------------------------------------------------------

H.R. 7248, THE STARTER ACT

    On June 18, 2020, Ranking Member Sam Graves introduced H.R. 
7248, the Surface Transportation Advanced through Reform, 
Technology, and Efficient Review (STARTER) Act, a five-year 
surface transportation reauthorization bill.
    The bill proposed policy changes to support climate change 
mitigation and resiliency by:
    <bullet> LEstablishing the Promoting Resilient Operations 
for Transformative, Efficient, and Cost-saving Transportation 
(PROTECT) grant program to fund highway projects that reduce 
the cost and risk related to natural disasters (Sec. 7001).
    <bullet> LModifying the purpose of the National Highway 
Performance Program (NHPP) to incorporate resiliency measures 
to diminish the impacts of natural disasters (Sec. 7002).
    <bullet> LAllowing States to use up to 15 percent of NHPP 
funds for protective features to improve the resiliency of a 
Federal-aid highway or bridge off the National Highway System 
(Sec. 7002).
    <bullet> LEstablishing that funding under the Federal 
Transit Administration's (FTA) Emergency Relief Program for 
mitigation activities will support projects that are cost 
beneficial and will reduce actual risk (Sec. 7003).
    <bullet> LClarifying that FHWA's Emergency Relief Program 
may be used for projects related to wildfires and sea level 
rise (Sec. 7004).
    <bullet> LPermitting funding under the FHWA's Emergency 
Relief Program to be used for mitigation projects that are 
demonstrated to mitigate against and reduce the risk of 
recurring damage from extreme weather events, flood, and other 
disasters (Sec. 7004).
    <bullet> LAuthorizing an increase in the Federal cost share 
in highway funding for activities that are designed and 
demonstrated to reduce cost and risk associated with extreme 
weather (Sec. 7005).
    <bullet> LExtending University Transportation Centers' 
research focus to mitigation and resiliency (Sec. 7009).
    <bullet> LEstablishing a five-year pre-disaster mitigation 
pilot program under the FHWA with funding to support projects 
that substantially reduce the risk of or increase the 
resilience to future damage from weather events (Sec. 7010).

    This Congress the Committee will continue work on a surface 
transportation reauthorization ahead of the expiration of the 
current surface transportation programs on September 30, 2021.

                              WITNESS LIST

    <bullet> LMr. Jack Allen, Chief Executive Officer, 
Proterra, Inc.
    <bullet> LMs. Laurie Giammona, Senior Vice President for 
Customer Care, Pacific Gas and Electric Corporation
    <bullet> LMr. Charles Hernick, Vice President of Policy and 
Advocacy, Citizens for Responsible Energy Solutions
    <bullet> LMr. Shameek Konar, Chief Executive Officer, Pilot 
Flying J, on behalf of the National Association of Truckstop 
Operators
    <bullet> LMr. Tom Lewis, National Business Line Executive 
for Climate, Resilience, and Sustainability, WSP USA
    <bullet> LMr. Troy Rudd, Chief Executive Officer, AECOM
    <bullet> LMr. Rafael Santana, President and Chief Executive 
Officer, Wabtec Corporation
    <bullet> LMr. Frederick W. Smith, Chairman and Chief 
Executive Officer, FedEx Corporation

 
                THE BUSINESS CASE FOR CLIMATE SOLUTIONS

                              ----------                              


                       WEDNESDAY, MARCH 17, 2021

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 11:03 a.m., in 2167 
Rayburn House Office Building and via Cisco Webex, Hon. Peter 
A. DeFazio (Chair of the committee) presiding.
    Present in person: Mr. DeFazio, Mr. Larsen, Mr. Cohen, Mr. 
Carbajal, Mr. Stanton, Ms. Newman, Mr. Graves of Missouri, Mr. 
Crawford, Mr. Webster, Mr. Massie, Mr. Perry, Mr. Rodney Davis, 
Dr. Babin, Mr. Graves of Louisiana, Mr. Rouzer, Mr. Bost, Mr. 
Westerman, Mr. Mast, Mr. Stauber, Mr. Burchett, Mr. Guest, Mr. 
Nehls, Ms. Mace, and Mrs. Steel.
    Present remotely: Ms. Norton, Mrs. Napolitano, Mr. Sires, 
Mr. Johnson of Georgia, Ms. Titus, Mr. Huffman, Ms. Brownley, 
Mr. Payne, Mr. Lowenthal, Mr. DeSaulnier, Mr. Malinowski, Ms. 
Davids, Mr. Garcia of Illinois, Mr. Delgado, Mr. Pappas, Mr. 
Lamb, Mr. Auchincloss, Ms. Bourdeaux, Ms. Strickland, Ms. 
Williams of Georgia, Mr. Gibbs, Mr. LaMalfa, Mr. Fitzpatrick, 
Mr. Johnson of South Dakota, Mr. Van Drew, and Ms. Van Duyne.
    Mr. DeFazio. The hearing of the Committee on Transportation 
and Infrastructure will come to order.
    I ask unanimous consent that the chair be authorized to 
declare a recess at any time during today's hearing.
    Without objection, so ordered.
    For Members participating remotely, if Members experience 
any connectivity issues--do I really have to keep reading this 
stuff? Do people not know this? It has been shortened. Good.
    For Members experiencing connectivity issues or other 
technical problems, please inform the committee staff as soon 
as possible so you can receive assistance.
    As chair of today's hearing, I will make a good-faith 
effort to provide every Member experiencing connectivity issues 
an opportunity to participate fully in the proceedings. It is 
the responsibility of each Member seeking recognition to unmute 
their microphone prior to speaking. Keep the microphone on mute 
when not speaking and avoid inadvertent background noise.
    Should I hear any inadvertent background noise, I will yell 
at you. And finally, to insert a document into the record, 
please have your staff email it to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91d5fef2e4fcf4ffe5e2c5b7d8d1fcf0f8fdbff9fee4e2f4bff6fee7bf">[email&#160;protected]</a>
    Wow, you did shorten it. That is good. Thank you.
    So today's hearing is an important step on the path to a 
more sustainable transportation future. The depth of interest 
in this hearing which resulted in eight witnesses today 
demonstrates the willingness and readiness of corporate America 
to be active partners in solving the monumental challenges we 
face regarding infrastructure and climate change.
    As we will hear today, both private-sector action and sound 
public policy are necessary to meaningfully address climate 
change. This is not about whether we need either private 
voluntary reductions or Government measures. We need both.
    We will need commitment at all levels of Government and 
from the private sector to achieve significant reduction in 
carbon pollution in the transportation sector, to transition to 
large-scale decarbonization, and to invest in the 
infrastructure upgrades to make our assets and facilities 
resilient to extreme weather events and sea level rise.
    Failure to protect assets and invest in emission reductions 
will have real financial consequences for business and 
transportation agencies both now and in the long run.
    So we will hear those messages loud and clear today. In 
2021, we have thankfully moved beyond the polarizing discussion 
of whether we need to act, which has stalled progress on an 
existential threat to our planet and our citizens for far too 
long.
    If any are here today to make that argument, I urge you to 
review the prepared remarks of our panel. Every one of the 
business leaders here today can affirm the denial of this 
reality is a bad business decision.
    But these decisions are about more than just the bottom 
line. We will hear from our panel today that the transportation 
sector, in particular, holds tremendous promise for new norms 
that will move the needle on climate change.
    To quote from Mr. Smith's written testimony, ``we believe 
that a connected world is a better world . . . and we recognize 
that with the privilege of connecting the world also comes the 
responsibility of being good stewards of the planet.''
    While some sectors have begun to move in the right 
direction on climate, the same is not true in the majority of 
the transportation sector, which is the largest contributor of 
greenhouse gas emissions in the United States.
    Over the last three decades, those emissions have risen 24 
percent, more than any other sector. Passenger and freight 
vehicles account for 82 percent of transportation sector 
emissions, which is why so much of this hearing will focus on 
surface transportation policy. The contribution to the carbon 
pollution problem from the way we currently move people and 
goods is clear.
    The available solutions are equally plentiful and 
promising. Conversion of personal vehicles, transit buses, 
trucks, and locomotives to low- and zero-emission forms of 
power and providing alternative charging and fueling 
infrastructure is a rapidly expanding area that several 
witnesses will discuss today. Support of this transition 
through robust Federal investment was a key element of the bill 
this committee approved in the last Congress as part of H.R. 2.
    Boosting investment in low- and zero-emission, and more 
efficient modes of transportation, including transit, freight 
and passenger rail, walking, and biking, is an equally 
important mitigation strategy, and we have several witnesses 
who actively work on projects to expand mode choice.
    H.R. 2 substantially increased investment in each of these 
modes while enhancing the safety of these options.
    Improved operational practices to reduce idling and traffic 
congestion will also help make better use of the infrastructure 
we have. That is the smart use of our infrastructure where we 
get more throughput without having to add lane-miles.
    And innovation within the construction sector to reduce or 
trap emissions produced through the life cycle of 
transportation projects holds significant promise. H.R. 2 
focuses heavily on the development and implementation of these 
technologies and practices.
    Each of these ideas taken together can add up to a 
substantial difference in mitigating the effects of climate 
change. Yet we know that we need to adapt. It is very real 
right now.
    Strengthening the ability to anticipate, withstand, and 
recover from natural disasters and extreme weather is a major 
portion of the U.S. response to the ongoing impacts of climate 
change.
    We will hear case examples from witnesses today about how 
these investments are no longer optional but a necessity, and 
that this reality is impacting the way we build and rebuild 
transportation assets.
    Climate is changing rapidly. Time is not on our side. This 
committee intends to take bold steps again this Congress to 
support significant emissions reductions from the 
transportation sector, and support for action among the 
business community is growing.
    The U.S. Chamber of Commerce recently issued updated policy 
that states, ``durable climate policy must be made by 
Congress.''
    At this time, I will insert into the record a statement 
from the U.S. Chamber of Commerce, submitted for this hearing 
in support of addressing climate change.
    Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
     Statement of Ed Mortimer, Vice President, Transportation and 
 Infrastructure, U.S. Chamber of Commerce, Submitted for the Record by 
                         Hon. Peter A. DeFazio
    The U.S. Chamber of Commerce (the Chamber) is the world's largest 
business federation representing the interests of more than 3 million 
businesses of all sizes, sectors, and regions, as well as state and 
local chambers and industry associations. The Chamber is dedicated to 
promoting, protecting, and defending America's free enterprise system.
    More than 96% of Chamber member companies have fewer than 100 
employees, and many of the nation's largest companies are also active 
members. We are therefore cognizant not only of the challenges facing 
smaller businesses, but also those facing the business community at 
large.
    Besides representing a cross-section of the American business 
community with respect to the number of employees, major 
classifications of American business--e.g., manufacturing, retailing, 
services, construction, wholesalers, and finance--are represented; the 
Chamber has membership in all 50 states.
    The Chamber's international reach is substantial as well. We 
believe that global interdependence provides opportunities, not 
threats. In addition to the American Chambers of Commerce abroad, an 
increasing number of our members engage in the export and import of 
both goods and services and have ongoing investment activities. The 
Chamber favors strengthened international competitiveness and opposes 
artificial U.S. and foreign barriers to international business.
                              Introduction
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for the opportunity to provide this statement for 
the record concerning the urgent need for bipartisan congressional 
action to modernize America's infrastructure that can bring innovation 
and technology to address climate issues. My name is Ed Mortimer and I 
serve as the Vice President of Transportation and Infrastructure at the 
U.S. Chamber of Commerce.
                            Need for Action
    The Chamber has been a long-time advocate for modernizing America's 
infrastructure. A central component of that modernization should be 
policies designed to advance a cleaner, stronger transportation 
system--not just the roads, bridges, and transit systems that are the 
foundation of America's infrastructure, but the enabling systems that 
are necessary to modernize transportation in America.
    The most recent Infrastructure Report Card from the American 
Society of Civil Engineers highlights the lack of infrastructure 
investment and the need to not just fix existing infrastructure but to 
modernize the aging network using the latest private sector ingenuity 
to build infrastructure that is durable and resilient to changing 
climate conditions.
    The Chamber believes that effectively addressing climate change 
will require citizens, government, and business to work together. The 
American business community is central to this effort, not only through 
its leadership in developing and investing in innovative solutions and 
deploying low-carbon technologies, but also as a partner in the 
development of sound policies to guide this transition.
    The Chamber has outlined a set of principles (attached) that shapes 
our advocacy and policy development as we engage with policymakers at 
both ends of Pennsylvania Avenue. This includes leveraging the power of 
business, maintaining U.S. leadership in climate science, embracing 
technology and innovation, aggressively pursuing energy efficiency, 
promoting resilient climate infrastructure, supporting trade in U.S. 
technologies and products, and encouraging international cooperation.
    Our principles also reflect the overall consensus of the Chamber's 
membership that Congress should pursue market-based solutions to 
accelerate emissions reductions, and that the Chamber will continue its 
engagement to pursue meaningful, achievable progress to address the 
challenge of climate change.
    Overall, our message remains clear: inaction is not an option.
    Two areas the Chamber believes can bring bipartisan support as this 
Committee formulates a surface transportation bill include increased 
investment in electric vehicle (EV) charging stations and promoting the 
design and construction of modern, resilient infrastructure.
   Incentives to Promote Building Alternative Vehicle Infrastructure
    As this Committee looks to formulate policy to modernize the 
nation's infrastructure, providing flexibility and investment 
opportunities for state and local governments to make investments in 
electric charging stations are a good start.
    The private sector continues its efforts to diversify the energy 
sources of new vehicles entering the fleet over the next 20 years. 
Several automakers and trucking industry companies have publicly stated 
their intent, without government mandate, to move toward lower emission 
vehicles. Building upon these efforts to encourage more private sector 
actions is an area many Democrats and Republicans support.
    With many automakers expressing their intent to significantly 
increase production of electric vehicles and other alternatives, any 
infrastructure bill should include adequate investments to allow states 
flexibility to make such investments as we look to modernize the 
network.
    To build on strong bipartisan support for the concept that users of 
our infrastructure must help fund the roads, bridges and transit they 
depend on, we must also ensure that electric and other alternative fuel 
vehicles contribute to this critical investment.
    More than 30 states have instituted an EV fee that approximates 
their use of the surface transportation network, and we believe such an 
approach must be included in any federal legislation. Ensuring EVs and 
other alternative fuel vehicles invest in a modern transportation 
network will broaden support for this important effort from Congress 
and the stakeholder community.
               Building Modern, Resilient Infrastructure
    The Chamber believes there is broad agreement on both sides of the 
aisle and among experts across our nation that advancing resilience is 
a win-win for the environment and the economy, in particular to 
responding to climate risks to companies and communities.
    The U.S. Chamber supports building modern, resilient 
infrastructure, and pre-disaster mitigation promotes projects that 
harden infrastructure to prepare, in advance, for future crises.
    An example of what bipartisan solutions can be made includes 
enactment of the Safeguarding Tomorrow through Ongoing Risk Mitigation 
Act (STORM) of 2020. We were pleased to work with the American Society 
of Civil Engineers, the Mississippi River Cities and Towns Initiative, 
and other stakeholders on this important legislation that will 
capitalize state revolving loan funds that provide low-interest loans 
for pre-disaster mitigation. We appreciate Congress' thoughtful 
leadership in passing this legislation.
    Enactment of this important legislation is just one tool among many 
that are needed. More must be done.
    The U.S. Chamber has outlined our resilience policy principles 
(attached). Below are a few practical suggestions we believe could 
advance smart, bipartisan policy reforms:
    <bullet>  Elevate resilience as a national priority by establishing 
a chief resilience officer reporting directly to the President and 
developing a national resilience strategy, leveraging current 
interagency coordination under the Federal Emergency Management Agency 
(FEMA).
    <bullet>  Urge FEMA to provide the full 6% funding for the Building 
Resilient Infrastructure and Communities program.
    <bullet>  Set aside a small portion of infrastructure funding to 
create a resilience pre-development fund to assist small disadvantaged 
communities in the planning and preparing for pre-disaster mitigation 
projects.
    <bullet>  Broaden the focus on pre-disaster mitigation as the 
infrastructure debate proceeds across the federal family of agencies 
and programs (e.g., highway and Community Development Block Grant 
programs).
    <bullet>  Encourage coordination among relevant federal and state 
agencies to align actions, avoid duplication, and optimize resources.
    <bullet>  Convene state lifeline infrastructure leaders to share 
experiences across program areas and identify federal policy 
implementation and funding needs.
    <bullet>  Incentivize and institutionalize resilience by providing 
additional funding, technical assistance, and other benefits to states 
and communities that are most active in implementing pre-disaster 
mitigation, such as green infrastructure and other nature-based 
solutions.
    <bullet>  Pilot small business planning grants to catalyze 
strategic, contingency planning among small businesses ahead of the 
next disaster that may reduce possible future losses and improve 
resilience.
    <bullet>  Ensure that projects reduce risks and are cost effective 
by funding actions where the benefits outweigh the costs.
        Chamber Works to Broaden Stakeholder Support for Action
    To build upon our efforts to promote infrastructure modernization, 
the U.S. Chamber of Commerce announced in January with the Bipartisan 
Policy Center an important new campaign--``Build by the Fourth of 
July,'' (BB4J) which, as the name implies, calls on Congress to pass 
comprehensive infrastructure legislation into law by July 4, 2021. This 
effort includes more than 300 organizations, including major voices 
from business, labor, and environmental groups. While these 
organizations will not agree on every issue, we hope that this unified 
message will provide critical momentum to finally pass a historic 
infrastructure bill that the country sorely needs.
    In our view, a successful ``BB4J'' effort must be comprehensive, 
addressing not only crumbling roads, bridges, and transit, but many 
other components of U.S. infrastructure, and do so in a manner that 
stimulates our economic recovery, improves federal project approvals, 
and accelerates environmental progress of recent decades. As the pledge 
states, ``As a nation we must be able to build big things promptly to 
accelerate the economic recovery and build the resilient low-carbon 
economy of the future. We need a durable commitment and clear 
strategy.''
    Our coalition recently sent a letter to every member of Congress 
(attached) urging their support for these priorities.
                               Conclusion
    The time to make important infrastructure investments that address 
climate is NOW. Delaying action only makes the decisions more difficult 
and projects more costly. From the business community's perspective, 
the question is not if we need to make these decisions, but when.
    Infrastructure investment has traditionally enjoyed broad 
bipartisan support, and we believe the Administration, House, and 
Senate must act to address the critical needs of a system that was 
built 60-150 years ago. We must plan to provide every American a 21st 
Century infrastructure system that addresses climate issues and 
provides multimodal mobility solutions. This critical effort starts 
with a timely surface transportation authorization.
    The Chamber has also provided lawmakers with a variety of funding 
and financing options to pay for infrastructure improvements. For 
surface transportation, we continue to believe adjusting the federal 
motor fuel tax, then transitioning to a vehicle miles traveled 
mechanism must be considered.
    Bottom line, we believe there is much common ground on which all 
sides of this discussion could come together to address the important 
climate issues the Committee is discussing today with policies that are 
practical, flexible, predictable, and durable. As this debate evolves 
with Congress and the Administration, we pledge to work constructively 
with this committee to engage on and evaluate specific policy 
approaches. Thank you for considering our views.
                              attachments:
https://www.uschamber.com/climate-change-position

https://www.uschamber.com/series/above-the-fold/resilience-good-public-
policy#:
:text=According%20to%20a%20Metlife%20and,the%20environment%20and%20the
%20economy.

    Mr. DeFazio. I thank each of our witnesses for being here 
today and persevering through what I know may be a long 
hearing. I know your time is valuable. The committee is 
grateful for your participation, and the time we invest in 
discussion today is nothing compared to the time we stand to 
preserve if we get this right.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Today's hearing marks an important step on the path to a more 
sustainable transportation future. The depth of interest in this 
hearing--which resulted in eight witnesses today--demonstrates the 
willingness and the readiness of corporate America to be active 
partners in solving the monumental challenge we face.
    As we will hear today, both private sector action and sound public 
policy are necessary to meaningfully address climate change. This is 
not about whether we need either private voluntary reductions or 
government measures. This is an all-hands-on-deck situation.
    We will need commitment at all levels of government, and from the 
private sector, to achieve significant reductions in carbon pollution 
in the transportation sector, to transition to large-scale 
decarbonization, and to invest in the infrastructure upgrades to make 
our assets and facilities resilient to extreme weather events. Failure 
to protect assets and to invest in emissions reductions will have real 
financial consequences to businesses and transportation agencies both 
now and in the long run. And we will hear these messages loud and clear 
today.
    In 2021, we have thankfully moved beyond the polarizing discussion 
of whether we need to act, which has stalled progress on an existential 
threat to our planet and our citizens for far too long. If any of my 
colleagues are here today to take that line of argument, I urge you to 
review the prepared remarks of our panel. Every one of the business 
leaders here today can affirm that denial of reality is a bad business 
decision.
    But these decisions are about more than just the bottom line. We 
will hear from our panel today that the transportation sector in 
particular holds tremendous promise for new norms that will move the 
needle on climate change. To quote from Mr. Smith's written testimony: 
``We believe that a connected world is a better world . . . and we 
recognize that with the privilege of connecting the world also comes 
the responsibility of being good stewards of the planet.''
    While some sectors have begun to move in the right direction on 
climate, the same is not true of the transportation sector, which is 
the largest contributor to greenhouse gas (GHG) emissions in the United 
States. Over the last three decades, those emissions have risen 24 
percent, more than any other sector. Passenger and freight vehicles 
account for 82 percent of transportation sector emissions, which is why 
much of this hearing will focus on surface transportation policy. The 
contribution to the carbon pollution problem from the way we currently 
move people and goods is clear.
    The available solutions in the transportation sector are equally 
plentiful and promising. Conversion of personal vehicles, transit 
buses, trucks, and locomotives to low- and zero-emission forms of power 
and providing alternative charging and fueling infrastructure is a 
rapidly expanding area that several witnesses will discuss today. 
Support of this transition through robust Federal investment was a key 
element of the bill this Committee approved last Congress, H.R. 2.
    Boosting investment in low- and zero-emission, and more efficient, 
modes of transportation including transit, freight and passenger rail, 
walking, and biking is an equally important mitigation strategy, and we 
have several witnesses who actively work on projects to expand mode 
choice. H.R. 2 substantially increased investment in each of these 
modes, while enhancing the safety of these options.
    Improved operational practices to reduce idling and traffic 
congestion will also help make better use of the infrastructure we 
have. And innovation within the construction sector to reduce or trap 
emissions produced throughout the lifecycle of transportation projects 
holds significant promise. H.R. 2 focuses heavily on the development 
and implementation of these technologies and practices.
    Each of these ideas, taken together, can add up to a substantial 
difference in mitigating the effects of climate change. Yet we know 
that the need to adapt is very real, right now. Strengthening the 
ability to anticipate, withstand, and recover from natural disasters 
and extreme weather is a major portion of the U.S. response to the 
ongoing impacts of climate change. We will hear case examples from 
witnesses today about how these investments are no longer optional, but 
a necessity, and that this reality is impacting the way we build and 
rebuild transportation assets.
    The climate is changing rapidly. Time is not on our side. This 
Committee intends to take bold steps again this Congress to support 
significant emissions reductions from the transportation sector. And 
support for action among the business community is growing. The U.S. 
Chamber of Commerce recently issued updated policy that states 
``durable climate policy must be made by Congress.'' At this time, I'll 
insert into the record a letter from Chamber President Suzanne Clark 
submitted for this hearing in support of addressing climate change. 
Without objection, so ordered.
    Thank you to each of our witnesses for being here today and 
persevering through what may be a long hearing. I know your time is 
valuable and this Committee is grateful for your participation. The 
time we invest in the discussion today, however, is nothing compared to 
the time on earth we stand to preserve if we get this right.

    Mr. DeFazio. So, again, thanks to all, and I will note that 
Mr. Smith has noted that he can only be here for 2 hours. I 
hope that the other witnesses can stay. I expect we may go a 
little bit longer than that.
    With that I yield to the ranking member, Mr. Graves.
    Mr. Graves of Missouri. Thank you, Mr. Chairman.
    I think we can all agree that we want clean air and clean 
water for our communities, and that we have to prepare for the 
challenges that are posed by severe weather events. And those 
are happening with greater frequency and intensity.
    While climate change is often considered to be a loaded 
issue that sends us all to our respective opposing partisan 
corners, I can tell you that protecting the environment is very 
much a bipartisan issue.
    We have leaders on this committee who have been working 
hard to address the issue, and this committee has a bipartisan 
track record of addressing issues like resiliency and 
mitigation, which prepares our infrastructure to withstand the 
impacts of climate change.
    We are willing to work with our Democratic colleagues on 
goals of reducing emissions in transportation. However, my 
colleagues must also understand that people are not going to 
stop driving cars or flying on airplanes.
    While dramatically increasing funding for transit and 
passenger rail as proposed in last year's H.R. 2 is going to 
take some cars off of the road in urban centers, it is often 
inefficient and very much unjustified in rural America.
    Meanwhile, there are a couple of key points that help keep 
things in perspective. America is the world leader in reducing 
emissions, and according to the International Energy Agency, 
U.S. emissions reductions in the last 10 years have been the 
largest in world history. Plus, goods manufactured in the U.S. 
now are 80 percent more carbon-efficient than the world 
average.
    There are a lot of innovative American companies that are 
coming up with some great solutions to reduce our emissions, 
and it is important as we hear from our witnesses today about 
the solutions that they have developed on their own so that 
Congress does not trample on the progress that they are making.
    What works for larger companies may not work for smaller 
companies. Larger companies have the resources to be able to 
deploy.
    The way to lead the world to becoming greener and more 
resilient is not through unachievable, one-size-fits-all 
policies or spending trillions on a patchwork of pilot 
programs. Heavy-handed mandates are only going to waste money 
and constrain innovation and put many of our job creators out 
of business.
    Instead, incentives that spur American innovation and 
accelerate what is already being done are the key to achieving 
our climate goals without taking down the economy and 
regulating jobs simply out of existence.
    I look forward to hearing from the witnesses today on the 
unique ways in which each of them is working to find a viable, 
long-term solution to reducing carbon use and growing American 
businesses.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair DeFazio. We can all agree that we want clean air 
and clean water for our communities, and that we must prepare for the 
challenges posed by severe weather events that are happening with 
greater frequency and intensity.
    While ``climate change'' is often considered to be a loaded issue 
that sends us all to our respective partisan corners, I can tell you 
that protecting the environment has bipartisan interest. We have 
leaders on this Committee who have been working hard to address this 
issue. And this committee has a bipartisan track record of addressing 
issues like resiliency and mitigation, which prepares our 
infrastructure to withstand the impacts of climate change.
    Having said that, you will not find bipartisan support for heavy-
handed government mandates, one-size-fits-all policies, or the complete 
upending of our traditional infrastructure programs to enact excessive 
climate goals that look more like the liberal agenda outlined in the 
Green New Deal.
    We are willing to work with our Democratic colleagues on the goal 
of reducing emissions in transportation. However, my colleagues must 
also understand that people are not going to stop driving cars or 
flying on airplanes.
    While dramatically increasing funding for transit and passenger 
rail--as proposed in last year's H.R. 2--may take some cars off the 
road in urban centers, it is often inefficient and unjustifiable in 
rural America. Additionally, COVID has completely disrupted our 
transportation network, and it's important to see how the system 
rebalances itself and what our new reality will look like.
    Meanwhile, I think there are a couple of key points that help keep 
things in perspective.
    America is the world leader in reducing emissions. According to the 
International Energy Agency, U.S. emissions reductions in the last 10 
years have been the largest in world history. Plus, goods manufactured 
in the U.S. now are 80 percent more carbon-efficient than the world 
average.
    There are a lot of innovative American companies coming up with 
solutions to reduce our emissions. It's important, as we hear from our 
witnesses about the solutions they have developed on their own, that 
Congress doesn't trample on the progress they are making.
    We must also keep in perspective that while many of these 
businesses testifying today are great American companies, they have the 
resources and manpower to change and adapt more quickly. What works for 
larger companies may not work for the smaller operators.
    The way to lead the world in becoming greener and more resilient is 
not through unachievable, one-size-fits-all policies or spending 
trillions on a patchwork of pilot programs. Heavy-handed mandates will 
only waste money, constrain innovation, and put many of our job-
creators out of business.
    Instead, incentives that spur American innovation and accelerate 
what is already being done are the key to achieving our climate goals 
without taking down the economy and regulating jobs out of existence.
    I look forward to hearing from our witnesses today on the unique 
ways in which each of them is working to find a viable, long-term 
solution to reducing carbon use and growing American business.

    Mr. Graves of Missouri. And with that, I would like to 
yield my remaining time to the ranking member on the Select 
Committee on the Climate Crisis, Mr. Graves.
    Mr. Graves of Louisiana. Thank you, Ranking Member Graves, 
for the yield.
    Mr. Chairman, I just want to follow up quickly on the 
conversation that the ranking member noted and also on your 
comments.
    Mr. Chairman, as we move forward, we have got to keep in 
mind that, number one, this committee has jurisdiction over 
transportation infrastructure and that, like the following up 
on the successful work of the FAST Act and other bills we have 
done in the past, we need to continue to advance our 
transportation solutions, and we need to do it in an efficient 
way because there is no question that we are decades behind 
where we need to be in regard to infrastructure progress, and 
it is impacting our economy. It is squeezing our economy.
    Mr. Chairman, as we move forward, we also need to keep in 
mind that the United States has reduced emissions more than the 
next 12 emissions-reducing countries combined in regard to 
emission reductions in the energy sector. We are the global 
leader today in reducing emissions.
    And we have done that not through regulation, not through 
requirements, not through picking winners and losers in 
technology, but by letting the markets do what they do.
    As a matter of fact, when President Obama put the Clean 
Power Plan together, his objective was to reduce emissions by 
32 percent, by 32 percent off of a 2005 baseline, and the goal 
that President Obama set was to do that by 2030, and, Mr. 
Chairman, without the impact of regulations, without the impact 
of mandates, without the impact of picking winners and losers, 
we actually hit that target nearly 11 years earlier under 
President Trump.
    And we hit it in 2019, proving once again that we can move 
forward with affordable solutions, with clean solutions, with 
solutions that are based on U.S. resources and U.S. technology 
that are exportable as opposed to picking winners and losers 
and moving in the direction where we subject ourselves to the 
manufacturing and production capabilities of China and other 
countries that do not share our objectives.
    So, Mr. Chairman, I look forward to working with everyone 
on this committee to build upon the successes and the lessons 
learned that we have had in the energy sector in reducing 
emissions and to make sure that we have a transportation bill 
with some clean energy solutions, not a climate change bill 
with transportation afterthoughts.
    I yield back.
    Mr. Graves of Missouri. Mr. Chairman, if you do not mind, I 
have got two letters from the Portland Cement Association and 
the American Public Gas Association. Could I have unanimous 
consent to insert them in the record?
    Mr. DeFazio. Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
 Letter of March 17, 2021, from Sean O'Neill, Senior Vice President of 
  Government Affairs, Portland Cement Association, Submitted for the 
                 Record by Hon. Sam Graves of Missouri
                                                    March 17, 2021.
Hon. Peter DeFazio,
Chairman,
Transportation and Infrastructure Committee, 2165 Rayburn House Office 
        Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Transportation and Infrastructure Committee, 2164 Rayburn House Office 
        Building, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves:
    The Portland Cement Association (PCA), which represents cement 
manufacturers across the country, appreciates the opportunity to submit 
comments for the Transportation and Infrastructure Committee's ``The 
Business Case for Climate Solutions'' hearing. We believe it is 
important to take steps to combat climate change and believe cement is 
critical to building infrastructure to better withstand the climate 
crisis.
    As you may know, PCA is a premier policy, research, education, and 
market intelligence organization serving America's cement 
manufacturers. PCA's members represent 93 percent of the U.S. cement 
production capacity and have facilities in all 50 states. Our members 
manufacture portland cement, the primary ingredient in concrete, an 
essential construction material and a basic component of our nation's 
infrastructure. Portland cement is used in the construction of 
highways, bridges, tunnels, mass transit systems, airports, runways, 
locks, dams, and wastewater infrastructure. Cement and concrete product 
manufacturing, directly and indirectly, employs approximately 600,000 
people across the United States, and our collective industries 
contribute over $100 billion to our economy.
    The cement industry commends the attention being placed by the 
Committee on combatting climate change. PCA and our members are 
committed to working with Congress to ensure our industry continues 
playing our part in building our nation's resilient infrastructure and 
lowering our industry's carbon footprint. Recently, PCA announced our 
ambition to reach carbon neutrality 2050 through the entire concrete 
value chain. We are in the process of drafting our industry's roadmap 
to carbon neutrality and look forward to sharing the roadmap with you 
upon its completion.
    From an infrastructure perspective, there is an opportunity to 
advance policy that reduces carbon emissions associated with the use 
phase of an infrastructure asset and considers the carbon sink 
opportunity associated with carbonization. According to the 
Environmental Protection Agency, the transportation sector makes up 28 
percent of the United States' total emissions. Critical to reducing 
these emissions is designing and building transportation assets with 
elements to address the impacts of climate change. It is important to 
recognize that from an infrastructure perspective, this means not only 
building projects that will reduce transportation-related emissions but 
also improving the resiliency of our nation's infrastructure. Concrete 
construction plays as important role in both reducing transportation 
related emissions and improving the resiliency and sustainability of 
transportation assets.
    Part of reducing transportation-related emissions is accounting for 
emissions reductions during the use of a transportation asset. A 
critical part of reducing use phase emissions is the design and 
construction of roadways that reduce excess fuel consumption. Whether 
gasoline, diesel, or electric, all vehicles use energy to move, but 
some of that energy is wasted. Pavement vehicle interaction (PVI) is 
the relationship between a vehicle's tires and a road's surface, such 
as roughness, texture, and deflection. PVI can lead to excess fuel 
consumption and greenhouse gas emissions. Research by the Massachusetts 
Institute of Technology's (MIT) Concrete Sustainability Hub of 
Virginia's interstate highway system identified 1 million tons of 
carbon dioxide emissions associated with excess fuel consumption over a 
seven-year period.\1\ MIT's Concrete Sustainability Hub research also 
shows that 1.3 percent of Virginia's interstate roadways are 
responsible for 10 percent of its total greenhouse gas emissions. 
Improving PVI is especially important on our nation's freight 
corridors. Research has shown that lessening the impacts of deflection 
of 40-ton trucks could generate up to four percent in fuel savings. 
Building and maintaining stiffer pavements is important to reducing 
transportation related greenhouse gas emissions. Policies seeking to 
reduce transportation related emissions should seek to advance road 
construction using materials that translate to stiffer pavements.
---------------------------------------------------------------------------
    \1\ http://cshub.mit.edu/sites/default/files/documents/
CSHub_PVI_v4_final_print.pdf
---------------------------------------------------------------------------
    Additionally, as steps are taken to combat climate change, it is 
important to recognize that certain infrastructure building materials 
can absorb more carbon than is released as carbon dioxide, therefore 
serving as a carbon sink. Specifically, a chemical reaction called 
carbonation occurs in concrete roadways, which forms calcium carbonate. 
Calcium carbonate forms when carbon dioxide from the air reacts with 
the water in concrete pores, and then with calcium compounds in 
concrete. As a result, the concrete roadway serves as a concrete sink. 
Research by MIT's Concrete Sustainability Hub demonstrates that the 
carbonation process could offset five percent of the carbon dioxide 
emissions generated from the cement used in U.S. pavements.\2\ MIT's 
research also shows that 5.8 million tons of carbon dioxide could be 
sequestered, with 2.8 million tons from the use phase and 3 million 
tons coming from the end of life. This research demonstrates that 
policy seeking to reduce transportation related emissions consider the 
full life cycle of a project.
---------------------------------------------------------------------------
    \2\ https://cshub.mit.edu/sites/default/files/images/
0120%20Carbon%20Uptake%20Brief.pdf
---------------------------------------------------------------------------
    The federal government's 2019 National Climate Assessment, compiled 
by 13 agencies, highlights that extreme weather events will 
increasingly disrupt and damage critical infrastructure in communities 
across the country due to an increase in heavy precipitation, coastal 
flooding, heat, and wildfires with regional differences. PCA encourages 
the Committee to prioritize combatting climate change by investing in 
projects to improve resiliency and adaption, enabling the nation's 
infrastructure to withstand a disaster better and return to operation 
quickly. Concrete is a durable and resilient building material critical 
to building infrastructure that can withstand the increase in extreme 
weather events. The cement industry recognizes that both gray 
infrastructure and natural and nature-based features (NNBF) are used to 
improve the resiliency of infrastructure assets. Many times, both 
features are used in concert with each other to improve the resiliency 
of infrastructure. It is important that policy seeking to improve the 
resiliency of infrastructure provides engineers the discretion to 
choose the best features on a project-by-project basis. To do this, it 
is important to consider the costs and benefits of project features 
over the life cycle of the project. Doing so will ensure the best and 
most cost-effective project alternative over the long-term are used in 
each instance.
    PCA appreciates the opportunity to share our perspective on climate 
solutions as it relates to transportation and infrastructure. If you 
have any further questions, please feel free to contact Sean O'Neill, 
PCA's Senior Vice President of Government Affairs.
        Sincerely,
                                              Sean O'Neill,
      Senior Vice President of Government Affairs, Portland Cement 
                                                       Association.

                                 <F-dash>
   Letter of March 17, 2021, from Dave Schryver, President and CEO, 
 American Public Gas Association, Submitted for the Record by Hon. Sam 
                           Graves of Missouri
                                                    March 17, 2021.
Hon. Peter A. DeFazio,
Chairman,
House Committee on Transportation and Infrastructure, 2165 Rayburn 
        House Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
House Committee on Transportation and Infrastructure, 2164 Rayburn 
        House Office Building, Washington, DC.

Re:  March 17, 2021 Full Committee Hearing on ``The Business Case for 
Climate Solutions''

    Dear Chairman DeFazio and Ranking Member Graves,
    APGA represents roughly 1,000 retail natural gas distribution 
entities owned by, and accountable to, the citizens they serve. They 
include municipal gas distribution systems, public utility districts, 
county districts, and other public agencies that own and operate 
natural gas distribution infrastructure in their communities. Their 
primary focus is on providing safe, reliable, affordable, efficient, 
and clean natural gas service to their customers and communities. APGA 
members deliver natural gas to be used for residential space and water 
heating, cooking, and clothes drying, as well as for various commercial 
and industrial applications. In regard to the March 17th full 
Transportation and Infrastructure Committee hearing on ``The Business 
Case for Climate Solutions,'' several public natural gas utilities also 
supply fuel for natural gas vehicle (NGV) fueling stations, and many 
maintain and manage fueling operations for their own fleets or for 
vehicles within their community.
    APGA was very appreciative of the discussion on transportation 
technologies, and the importance of low and no-emission vehicles in 
America's pursuit of a clean energy future. Public natural gas 
utilities continue to play a role in reducing greenhouse gas (GHG) 
emissions in all sectors. Our members are good stewards of their 
systems and the environment; they also take seriously their role in 
providing affordable and reliable energy. In addition to the 
residential and industrial uses most are more familiar with, natural 
gas is used for transportation. NGVs have significantly less emissions 
and given the price of natural gas, offer relative price stability, 
which makes them an attractive option for urban fleets, long-haul 
shipping, and municipal or local vehicles. APGA knows that natural gas 
and the infrastructure and workforce that get it to America's homes and 
businesses, as well as NGV fueling stations, are essential in the US 
furthering all aspects of clean energy policy, while still ensuring a 
resilient and economical energy source. The following further details 
how NGVs can play a critical role in achieving America's transportation 
decarbonization goals. APGA suggests that the Committee consider this 
input, as it develops clean energy legislation, recognizing complete 
electrification of our nation's transportation is bad policy.
    Many APGA members are heavily invested in natural gas 
transportation fuels, mostly via compressed natural gas (CNG). This 
fuel has proven to be safe, clean, abundant, and affordable, and our 
members are proud to distribute. NGVs increase fuel diversity, spurring 
economic growth and potential for expanded application across the 
country. NGVs also provide two specific benefits that other fuels 
cannot: unmatched fuel delivery reliability and the ability for 
communities to reach attainment status under the National Ambient Air 
Quality Standards (NAAQS), as set forth in the Clean Air Act.\1\ 
Municipalities take advantage of these characteristics by running and 
maintaining their own natural gas fleets, including maintenance and 
utility trucks.
---------------------------------------------------------------------------
    \1\ ``Clean Air Act'' Sections, P.L. 91-604, Sec. 109.
---------------------------------------------------------------------------
    CNG is resilient. Its delivery is only dependent on the 
availability of the natural gas via underground pipelines. Gasoline and 
electricity, on the other hand, can only be used so long as gasoline 
supply remains uninterrupted, and the electricity infrastructure 
remains functional. However, these are often disrupted in severe 
weather events. For example, the 2017 hurricane season resulted in 
widespread power outages and major gasoline shortages. Fortunately, 
natural gas was fully functional through it all. NGVs proved resilient 
for two reasons. One, the supply could be delivered relatively 
uninterrupted. Natural gas pipelines, being underground, were mostly 
protected from debris, wind, and storm surges. Second, CNG can be 
pumped without the use of electricity. The fueling stations are run on 
generators that are fueled by natural gas. With no need for 
electricity, the pumps were able to flow CNG to stations reliably.
    There is an environmental benefit to NGVs, too. They offer the 
fastest path to reducing heavy-duty vehicle emissions.\2\ As an 
example, California has the most rigorous emission standards for 
nitrogen oxides (NOx), but the Cummins Westport 8.9-liter ISL G NZ 
engine is certified to meet the California Air Resource Board (CARB) 
standard. As well, this same manufacturer has an engine with near-zero 
NOx emissions. Generally speaking, these innovations from Cummins 
Westport are 90% cleaner than what the current EPA standard 
requires.\3\ Everyone is discussing electricity as the next 
transportation fuel, but why dismiss natural gas so quickly? Even in 
states like California, Oregon, and Washington that have the cleanest 
electrical grids in the nation, the NOx emitted through emissions is 
much worse than the direct use of natural gas in a heavy-duty vehicle 
with a natural gas engine.\4\
---------------------------------------------------------------------------
    \2\ ``Environment,'' NGV America, Accessed March 15, 2021, https://
www.ngvamerica.org/environment/.
    \3\ ``Report Overview One Sheet,'' NGV America, Accessed March 15, 
2021, https://cdn.ngvgamechanger.com/pdfs/game-changer-graphic-
onesheet.pdf.
    \4\ Ibid.
---------------------------------------------------------------------------
    The US may soon face challenges of how to properly dispose of spent 
vehicle batteries. If electric vehicles are to be the future of 
transportation, the grid will likely need significant upgrades. 
Research by the Smart Electric Power Alliance (SEPA), shows that 75 
percent of all electric utilities in the United States are not prepared 
to meet expected future demand in terms of grid capacity and 
distribution needs.\5\ As proponents of full-fuel-cycle metrics, APGA 
also wants to highlight that the Union of Concerned Scientists has 
provided it takes so much energy to make batteries that electric 
vehicles with a 250-mile range have a carbon footprint 68 percent 
higher due to manufacturing.\6\
---------------------------------------------------------------------------
    \5\ ``Utilities and Electric Vehicles: Evolving to Unlock Grid 
Value,'' Smart Electric Power Alliance, Accessed March 15, 2021, 
https://sepapower.org/resource/utilities-electric-vehicles-evolving-
unlock-grid-value/.
    \6\ ``Cleaner Cars from Cradle to Grave,'' Union of Concerned 
Scientists, Published Oct 29, 2015, https://www.ucsusa.org/resources/
cleaner-cars-cradle-grave.
---------------------------------------------------------------------------
    There are additional emissions reductions opportunities if 
renewable natural gas (RNG) is utilized in the transportation fuel 
market. Both APGA members, as well as private companies, are investing 
in this technology. The United Parcel Service (UPS) is making 
significant investments in RNG and CNG transportation initiatives. They 
recently announced plans to purchase more than 6,000 natural gas-
powered trucks between 2020 and 2022, a commitment representing a $450 
million investment in the company's alternative fuel program to reduce 
emissions and a complement to its current RNG commitments.\7\ Also, 
buses used by cities for transit can take advantage of RNG to lower 
emissions in their locales. Fueling with natural gas can lower GHG 
emissions about 12 percent, when compared to diesel. However, in 
research led by CARB, buses fueled with RNG can yield a carbon-negative 
lifecycle emissions result. Additionally, this CARB data shows RNG 
holds the lowest carbon intensity of any on-road vehicle fuel, 
including fully renewable electric.\8\ APGA and its members support RNG 
technologies in the transportation sector and all others. RNG is 
derived from the breakdown of organic wastes and processed for use in 
existing natural gas infrastructure, interchangeable with geologic 
natural gas in homes, businesses, vehicles, manufacturing, and 
industrial applications. RNG, a low-carbon pathway, takes an existing 
carbon-emitting waste stream, either from waste or agriculture, and 
recycles into a usable product. APGA members' support for RNG 
demonstrates their investment in balanced energy solutions as it 
lessens environmental impacts. The Committee should consider federal 
support for this valuable technology.
---------------------------------------------------------------------------
    \7\ ``UPS adding 6,000 NGVs,'' Shale Directories, Accessed March 
15, 2021, https://www.shaledirectories.com/blog/ups-adding-6000-ngvs/.
    \8\ ``Maximize Clean Transit Investment: Natural Gas Outperforms 
Electric,'' Accessed March 15, 2021, https://ngvamerica.org/wp-content/
uploads/2021/02/NGVA-Transit-Full-Study-December-2020.pdf
---------------------------------------------------------------------------
    APGA's members agree that action is needed to further clean 
transportation policy and are grateful for the full Committee holding 
this hearing, but APGA urges pursuit of equitable energy policy through 
a balanced solution. Do not pursue only electric vehicles. This drastic 
approach misses the mark discarding the value natural gas 
infrastructure and NGVs has delivered through decreased emissions now 
and will continue to deliver well into the future through innovations 
around increased use of RNG. APGA hopes the Committee will pursue 
policies that allow for multiple fuels, with a focus on environmental 
benefits balanced with reliability and affordability for all Americans. 
Thank you again for the opportunity to submit this input. APGA stands 
ready to work together in this effort.
                                             Dave Schryver,
                  President & CEO, American Public Gas Association.

    Mr. DeFazio. We will now proceed to our witnesses.
    Mr. Jack Allen, chief executive officer and chairman, 
Proterra, Inc.
    Mr. Shameek Konar, chief executive officer, Pilot Flying J, 
on behalf of the National Association of Truckstop Operators.
    Mr. Troy Rudd, chief executive officer, AECOM.
    Mr. Rafael Santana, president and chief executive officer 
of Wabtec.
    Mr. Frederick Smith, chairman and chief executive officer 
of the Federal Express Corporation.
    Ms. Laurie Giammona, senior vice president for customer 
care, Pacific Gas and Electric Company.
    Mr. Tom Lewis, national business line executive for 
climate, resilience, and sustainability at WSP USA.
    And Mr. Charles Hernick, vice president of policy and 
advocacy, Citizens for Responsible Energy Solutions.
    As I said, this is a long witness list, but I appreciate 
you all being here. We have your written remarks, so if you 
would all summarize in a 5-minute statement, that would be most 
desirable.
    With that, Mr. Allen.

TESTIMONY OF JACK ALLEN, CHIEF EXECUTIVE OFFICER AND CHAIRMAN, 
 PROTERRA, INC.; SHAMEEK KONAR, CHIEF EXECUTIVE OFFICER, PILOT 
 FLYING J, ON BEHALF OF THE NATIONAL ASSOCIATION OF TRUCKSTOP 
 OPERATORS; TROY RUDD, CHIEF EXECUTIVE OFFICER, AECOM; RAFAEL 
    SANTANA, PRESIDENT AND CHIEF EXECUTIVE OFFICER, WABTEC 
 CORPORATION; FREDERICK W. SMITH, CHAIRMAN AND CHIEF EXECUTIVE 
  OFFICER, FEDEX CORPORATION; LAURIE M. GIAMMONA, SENIOR VICE 
PRESIDENT FOR CUSTOMER CARE, PACIFIC GAS AND ELECTRIC COMPANY; 
  TOM LEWIS, P.E., J.D., NATIONAL BUSINESS LINE EXECUTIVE FOR 
 CLIMATE, RESILIENCE, AND SUSTAINABILITY, WSP USA; AND CHARLES 
 HERNICK, VICE PRESIDENT OF POLICY AND ADVOCACY, CITIZENS FOR 
                  RESPONSIBLE ENERGY SOLUTIONS

    Mr. Allen. Thank you, and good morning, Chairman DeFazio, 
Ranking Member Graves, and the members of the committee.
    I thank you for the opportunity to testify at today's 
hearing on the business case for climate solutions.
    Mr. Chairman, I want to thank you and this committee for 
driving the Federal surface transportation policies and funding 
levels that will position America to compete and lead the 
future of transportation globally.
    The investments and overarching focus on reducing emissions 
through H.R. 2 are exactly the bold steps that climate change 
and the opportunity for jobs and new industries demand.
    I am here today representing Proterra, Inc., an American 
electric vehicle technology company. Proterra has been 
delivering battery-electric transit buses to U.S. transit 
agencies since 2010. Our buses have delivered over 17 million 
miles of service, and we serve communities in over 40 States 
and the District of Columbia.
    We have over 130 customers, including municipal transit 
agencies, airports, universities, and commercial businesses.
    Proterra is also a leader in the design and manufacturing 
of battery systems and electric drivetrains for commercial 
vehicles, and we provide charging infrastructure solutions for 
agencies and fleets.
    Our charging solutions enable bidirectional vehicle-to-grid 
applications, allowing electric vehicles to be strategic assets 
to the power grid.
    We provide our products and our services to other vehicle 
manufacturers, and our technology will be powering coachbuses, 
schoolbuses, delivery trucks, low-floor shuttles, and 
construction equipment in the United States and globally, in 
collaboration with some of the biggest names in the industry.
    Most importantly, we are an American company, an American 
technology leader. Our products are designed, engineered, and 
manufactured in our factories in the United States.
    We hold over 70 patents. We employ over 600 people across 
the Nation, and we operate 3 U.S. factories. Our products 
comply with Made in America policies, and our businesses 
support hundreds of other U.S. businesses, including small 
businesses.
    Over 75 percent of the components in Proterra vehicles are 
sourced from American companies in more than 30 States, 
including Illinois, Minnesota, North Carolina, Ohio, 
Pennsylvania, Tennessee, and Texas.
    As battery costs continue to decline and vehicle ranges 
increase, transitioning to zero-emission electric vehicles is 
not just the right thing to do for public health and to lower 
emissions, it is the smart thing to do for businesses.
    Compared to just 4 miles per gallon in diesel vehicles, 
Proterra vehicles have a fuel economy of 25 miles per gallon 
equivalent and a low total cost of ownership compared to diesel 
or natural gas vehicles.
    In addition to heavy-duty electric vehicle battery systems 
like Proterra's, we create economies and business opportunities 
well beyond transportation of goods and services. We have 
designed our battery systems to serve the development of 
multiple industries and applications.
    Our battery systems are built to last. They carry 6- to 12-
year warranties, and after that they still have the capacity 
for second-life applications, such as stationary energy 
storage, and beyond that, our batteries are designed for easy 
separation of components and are recyclable.
    The United States is positioned to lead the world in this 
emerging market for clean energy and clean mobility. This 
opportunity for U.S. leadership and manufacturing expansion is 
worthy of strong support from the Federal Government.
    The Federal Government, including the work of this 
committee, has already played a critical role in the early 
adoption of electric vehicle technology, and we ask that you 
continue to do so.
    Public transit funding through the FAST Act's Low or No 
Emission Vehicle program, for example, has accelerated our 
technology development to support the demand from U.S. transit 
agencies' investments in battery-electric buses.
    By driving greater investment into the market, the Federal 
Government can send a strong signal to the industry and to the 
supply chains that the United States is committed to 
electrification, strengthening domestic supply chains for 
manufacturing and materials that will lower cost through 
economies of scale while creating even more American jobs in 
this rapidly growing global market.
    Thank you for the opportunity to testify before you today, 
and I look forward to answering your questions.
    Thank you.
    [Mr. Allen's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Jack Allen, Chief Executive Officer and Chairman, 
                             Proterra, Inc.
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, thank you for the opportunity to testify at today's hearing 
on ``The Business Case for Climate Solutions.''
    My name is Jack Allen, and I am the CEO of Proterra.
    I am honored to appear before you today to discuss the opportunity 
for American industry to drive the next wave of innovation and economic 
growth and provide solutions to reduce greenhouse gas emissions through 
electric vehicle technology.
    Proterra is a leader in the design and manufacture of battery 
systems and electric drivetrains for commercial vehicles, charging 
infrastructure solutions for commercial vehicle fleets, and zero-
emission, battery-electric transit buses. Our mission is to advance 
electric vehicle technology to deliver the world's best performing 
commercial vehicles.
    Proterra is an American company and an American technology leader. 
Our products are designed, engineered, and manufactured at our 
factories in the United States. We employ over 600 people across the 
nation, with most of those employees located at our bus production 
plant in Greenville, South Carolina, our battery and bus production 
plant in City of Industry, California, and our battery production and 
powertrain testing lab in Burlingame, California.
    Our sole focus is battery-electric vehicles. We are not hampered by 
investments in legacy technologies. While the internal combustion 
engine has had a good run, the future is electric. Market demand for 
electric vehicles is rising because battery electric vehicles can meet 
the demands of customers at a lower cost of ownership than diesel 
vehicles. At the same time, electric vehicles impose fewer costs on our 
communities and advance our climate goals.
    Mr. Chairman, I want to thank you and this Committee for driving 
federal surface transportation policies and funding levels that will 
position America to compete and lead the future of transportation 
globally. The investments and overarching focus on reducing emissions 
throughout H.R. 2 are the bold steps that climate change and the 
opportunity for jobs and new industries demand.
    Federal policy supporting the development of alternative fuel 
technologies and investments in zero emission vehicles has been 
critical to U.S. competitiveness in these new industries and to 
advancing U.S. technology leadership. In turn, those policy signals 
have been followed by significant private investment in companies such 
as Proterra that have created new jobs. These jobs are full time, high 
paying, skilled jobs in manufacturing, engineering, and related support 
functions. While the Bureau of Labor Statistics stopped measuring 
employment in industries that produce goods or provide services that 
benefit the environment in 2013, in 2011 more than 3.4 million 
Americans were employed in the green sector, including over 500,000 in 
manufacturing jobs.\1\ In March 2020, The Institute for Applied 
Economics at the Los Angeles County Economic Development Corporation 
reported that the electric vehicle industry in California alone has 
provided over $9.6 billion in labor income and thousands of well-paying 
jobs. California's EV industry provided over 275,600 jobs with average 
annual wages of $91,300 in 2018 alone.\2\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Labor Statistics, https://www.bls.gov/green/
home.htm, last accessed on March 13, 2021.
    \2\ https://laedc.org/2020/03/01/laedc-ev-industry-report/, last 
accessed on March 13, 2021.
---------------------------------------------------------------------------
    Expanding the electric vehicle industry and investing in supporting 
infrastructure, and commercial electric vehicles, will continue to 
create new job opportunities. Such efforts will ensure that American 
companies become global leaders in research, development and 
manufacturing of zero emission vehicles.
    Proterra is one of those leaders.
    We delivered our first battery electric bus to Foothill Transit in 
San Gabriel Valley over ten years ago. Since then, we have delivered 
over 550 battery electric transit buses throughout North America. We've 
sold more than a thousand electric transit buses; however, battery 
electric buses still only represent approximately 1% of the overall 
transit bus market.
    Through deploying those transit buses, we have learned what it 
takes to design and manufacture a commercial, heavy-duty, all-electric 
vehicle. We have just launched our fifth-generation battery electric 
bus, the ZX5, in 2020, and our battery technology has been proven 
through over 17 million miles of revenue service. There is much to be 
done to transition the U.S. transportation system to zero emission 
fleets, and American companies, like Proterra, can meet this 
opportunity.
    We have developed intellectual property and hold over 70 patents on 
our innovative solutions. In addition, we have taken our expertise in 
transit vehicles and built a business providing electric powertrain 
systems to other commercial OEMs. Our battery systems--also designed 
and manufactured in the United States--will power other transit buses, 
coach buses, school buses, delivery trucks, low-floor shuttles, and 
construction equipment in the United States, and other countries.
    Critical to transportation electrification is charging 
infrastructure. In fact, recent news headlines are pressing this point 
to policymakers as well as the public. To date, Proterra has deployed 
an industry-leading 54 megawatts of charging systems for our customers 
through 45 projects in North America. Proterra is a full-service 
provider of charging solutions including the software to manage fleet 
charging and the expertise to plan large-scale, cost-effective charging 
solutions for vehicle fleets. We recently completed our largest 
charging installation for the City of Edmonton, Canada, with 40 
Proterra electric buses and a first-of-its-kind overhead charging 
solution for a bus depot in North America.\3\ Our new charging hardware 
manufacturer, Power Electronics, is investing in a manufacturing 
facility in Arizona to support Proterra's Energy business.
---------------------------------------------------------------------------
    \3\ https://www.thefourth-revolution.com/buses/edmonton-transit-
agency-becomes-first-in-north-
america-to-deploy-overhead-in-depot-charging-for-electric-buses/
---------------------------------------------------------------------------
    Proterra's business supports hundreds of suppliers, including US 
small businesses and disadvantaged business enterprises, women-owned 
businesses, and veteran-owned companies. Over 75 percent of the 
components in Proterra vehicles are sourced from American companies in 
more than 30 states including Illinois, Minnesota, North Carolina, 
Ohio, Pennsylvania, Tennessee, and Texas.
    The road to building the future of zero emission transportation in 
the U.S. begins with public transit. I would like to thank the Members 
of this Committee for your leadership in advancing the American Rescue 
Plan and previous COVID-19 emergency relief legislation which have 
provided necessary funding to public transit agencies in both urban and 
rural areas of the nation that provided a lifeline during the pandemic. 
In 2019, Americans took 9.9 billion trips on public transportation. 
Public transportation brings Americans to work. Over 71% of public 
transit riders are employed.\4\ During the COVID-19 pandemic, our 
essential workers depended on public transportation and your actions 
helped transit agencies meet that need.
---------------------------------------------------------------------------
    \4\ https://www.apta.com/news-publications/public-transportation-
facts/, last accessed on March 14, 2021.
---------------------------------------------------------------------------
    Congress also took the historic step in the FAST Act to fund the 
Federal Transit Administration's Low and No Program from the Highway 
Trust Fund. Stable funding from the authorization act buttressed by 
supplemental funding through the annual appropriations process for the 
past 4 fiscal years has provided approximately $500 million in 
investments for this program which has supported over 200 separate 
awards to help communities electrify. As a result of this modest 
federal investment, more than 2700 zero emission buses are running in 
revenue service or soon will be deployed.\5\ Just as importantly, the 
program has demonstrated a federal commitment to electric vehicle 
deployment and the growing level of funding has sent a signal of 
support for accelerating electric vehicle adoption for public 
transportation.
---------------------------------------------------------------------------
    \5\ https://calstart.org/wp-content/uploads/2021/01/
Zeroing_In_on_ZEBs_FINALREPORT_
1262021.pdf
---------------------------------------------------------------------------
    Driven by technological and cost advancements, electrifying 
transportation increasingly offers a winning formula to cities, states, 
companies, and other fleet operators.
    Over the past decade, battery costs have declined substantially. 
According to Bloomberg New Energy Finance, since 2010, lithium-ion 
battery pack prices have fallen 89 percent.\6\ At Proterra, we have 
lowered our battery pack cost by 86 percent since 2017.
---------------------------------------------------------------------------
    \6\ https://about.bnef.com/blog/battery-pack-prices-cited-below-
100-kwh-for-the-first-time-in-2020-
while-market-average-sits-at-137-kwh/
---------------------------------------------------------------------------
    Over our five generations of bus development, we have routinely 
increased range and drive performance. Our newest model of electric 
bus, the 40-foot Proterra ZX5, can be equipped with 675 kilowatt hours 
of energy storage on board to deliver up to 329 miles of drive range, 
which represents the most energy storage and longest drive range of any 
40-foot electric bus available in the market today.
    Going electric does not mean compromising on vehicle performance. A 
Proterra electric transit bus can accelerate 1.5 times faster than a 
standard diesel bus, with nearly twice the horsepower, giving it the 
ability to tackle steep hills with grades up to 27 percent.
    Battery-electric transit buses offer a low total cost of ownership 
and less volatile fuel costs when compared to internal combustion 
engine vehicles. Proterra's drivetrain and propulsion system enables 
fuel economies of up to 25 MPGe, a substantial improvement over 
conventional combustion engines fueled by CNG or diesel. Further 
because electric buses have fewer parts, require no oil changes or 
emissions tests, and place less wear on braking systems, operating and 
maintenance expenses are substantially lower compared to diesel and CNG 
alternatives.
    Simply put, transitioning to zero-emission, electric vehicles is no 
longer just the right thing to do for public health reasons and to 
address climate change, it is the smart thing to do for businesses.
    That's why private business along with cities, states, schools, 
airports, and others are advancing bold initiatives to switch entirely 
to zero-emission vehicle fleets.
    Last summer, for example, 15 states and Washington D.C. signaled 
their intent to transition to 100% zero-emission trucks and buses by 
2050.\7\ California has continued its embrace of electric vehicles 
through meaningful standards advanced last year to transition 
commercial trucks like delivery vans, school buses and other large 
vehicles to zero-emission technology by 2035.\8\
---------------------------------------------------------------------------
    \7\ https://ww2.arb.ca.gov/news/15-states-and-district-columbia-
join-forces-accelerate-bus-and-truck-electrification
    \8\ https://www.gov.ca.gov/2020/09/23/governor-newsom-announces-
california-will-phase-out-
gasoline-powered-cars-drastically-reduce-demand-for-fossil-fuel-in-
californias-fight-against-
climate-change/
---------------------------------------------------------------------------
    Major automakers including GM and Ford along with truck 
manufacturers like Daimler are driving significant investment into 
accelerating their conversion to electric vehicles.\9\
---------------------------------------------------------------------------
    \9\ https://www.nytimes.com/2021/01/28/business/gm-zero-emission-
vehicles.html
---------------------------------------------------------------------------
    Also, leading delivery and e-commerce companies including FedEx, 
UPS, and Amazon are on a path to electrifying their fleets in the 
coming years.\10\
---------------------------------------------------------------------------
    \10\ https://www.nytimes.com/2020/08/27/business/electric-delivery-
vehicles-ups-fedex-amazon.html
---------------------------------------------------------------------------
    Now, as demand for transportation electrification accelerates, 
electric vehicle technology is an opportunity for the United States to 
be at the leading edge of the innovations that will create good 
American jobs, modernize our nation's infrastructure, and help build a 
more just and resilient economy.
    Last summer, this Committee spearheaded HR2: The Moving Forward Act 
which provided for bold investments in our future and decisive action 
to create US leadership globally in zero emission transportation. The 
competition in these markets is formidable. In China, there are 450,000 
EV buses on the road and China has made massive investments in EV 
technology.
    We believe the technologies we need to meet the global demand for 
zero-emission transportation, can and must be built right here in the 
United States. We've experienced this first-hand at Proterra.
    In December 2020, Proterra marked the opening of a new battery 
production line in Los Angeles County. This facility will expand our 
production capacity to manufacture our industry-leading battery 
technology systems that power our fleet of transit buses as well as 
commercial vehicles, such as school buses and delivery vans. With the 
opening of our new battery production line, we are hiring over 30 
employees in Los Angeles County--providing much needed jobs during the 
pandemic--and these new jobs will include more than two dozen union 
represented positions.
    The new battery production facility is also the first to be co-
located within a vehicle manufacturing plant--showcasing our ability to 
bring state-of-the-art battery production directly to vehicle 
manufacturers.
    Successfully building an advanced manufacturing workforce requires 
investing in training and development. That's why, along with the 
United Steelworkers Local 675, our community partners, and Los Angeles 
County, we launched a first of its kind training program for job 
applicants interested in electric vehicle manufacturing and celebrated 
the first graduating class in January.
    This training program was developed to advance diversity, equity, 
inclusion in the EV manufacturing sector by targeting historically 
underrepresented groups with barriers to employment, including women, 
people of color, aging foster youth, veterans, and the formerly 
incarcerated.
    As the transportation industry transitions from fossil fuels, we, 
along with our partners at USW Local 675, are modeling how American 
manufacturing companies and workers can come together to create the 
manufacturing jobs of the 21st century.
    The benefits of electric vehicle technology extend far beyond how 
we move people and deliver goods throughout our communities, too. 
Proterra has designed our battery systems to serve the development of 
multiple industries and applications.
    The recent widespread power outages in Texas have demonstrated the 
need for grid resilience, and electric vehicles can play an important 
role. We can create a more resilient energy and transportation system 
that works for everyone including cities and states operating electric 
vehicle fleets as well as the utilities and regulators that manage the 
grid.
    Electrifying school bus fleets provides an excellent opportunity. 
In 2018, Proterra and our partner Thomas Built Buses unveiled a 
Proterra powered electric school bus. The all-electric Saf-T-Liner C2 
Jouley is powered by Proterra's electric vehicle technology and built 
on the Thomas Built Buses school bus platform--all manufactured here in 
the United States, in California and North Carolina respectively.
    The Jouley electric school bus is capable of supplying power back 
to the electricity grid using bidirectional charging and vehicle-to-
grid technology. This means we can send stored power back to the 
electricity grid at times when it's needed most or even to provide 
back-up power to critical facilities like schools during a power 
outage, as the electric utility DTE Energy will be testing with their 
recent acceptance of six electric school buses to serve students in 
Michigan.\11\
---------------------------------------------------------------------------
    \11\ https://www.michigan.gov/mienvironment/0,9349,7-385-93394-
551135--,00.html
---------------------------------------------------------------------------
    Just last month, the Montgomery County, Maryland Board of Education 
approved a project with Highland Electric Transportation, to convert 
its school bus fleet to all-electric, starting with 326 school buses 
over the next four years. This project represents the largest single 
procurement of electric school buses in North America. In addition to 
delivering health and climate benefits by reducing diesel pollution, 
these Proterra Powered electric school buses will lend their batteries 
to deliver stored power to the local electricity markets, helping the 
community integrate renewable energy and support grid resiliency.\12\
---------------------------------------------------------------------------
    \12\ https://www.proterra.com/press-release/montgomery-county-
approves-largest-electric-school-bus-order/
---------------------------------------------------------------------------
    Utilities are focused on ensuring the right-sized charging 
infrastructure is in place to meet the needs for electric vehicles. 
These initial deployments show promise and policymakers should support 
additional opportunities to explore how charging infrastructure 
projects can lighten demand and deliver power back to the electricity 
grid.
    Accelerating the switch to clean transportation will require 
partnership and coordination, and we are excited to work with electric 
utilities across the country, including PG&E, which is represented on 
this panel, to advance creative solutions to meet our energy demands.
    Beyond transportation, there are further business opportunities for 
U.S. innovation and job creation.
    Proterra batteries come with up to 12 year warranties, depending on 
the application. When Proterra batteries have met their useful life in 
a vehicle, these batteries still retain a significant amount of energy 
that can be used in second-life applications such as stationary energy 
storage. In fact, our batteries are designed with second life 
applications in mind.
    When batteries are no longer suited for those applications, there 
is an entire industry to be built in the U.S. to recycle components for 
reuse. Proterra battery packs are designed for easy separation of 
components for recycling purposes, allowing for 100% of aluminum used 
in the battery pack to be recycled. We also work with top-tier 
recycling companies such as Redwood Materials in Carson City, Nevada 
that specialize in extracting and repurposing materials inside lithium-
ion automotive batteries.
    This regenerative cycle of use and reuse can support the creation 
of new jobs, help the United States maintain a competitive economic 
advantage by spurring new domestic industries, and strengthen our 
national security by reducing reliance on foreign industries for 
minerals and mining for critical raw materials.
    The United States is positioned to lead the world in this emerging 
market for clean energy and clean mobility. This opportunity for U.S. 
leadership and manufacturing expansion is worthy of strong support of 
the federal government. The federal government has played a meaningful 
role in the early adoption of electric vehicle technology, and we 
strongly urge you to continue to do so at a scale and with a sense of 
urgency that the climate crisis demands. Through meaningful measures to 
expand support for this emerging industry through policies that promote 
manufacturing, a domestic supply chain, and workforce training, we can 
bring the next wave of innovation directly to communities across the 
United States.
    For your consideration, Proterra recommends the following measures 
to accelerate the adoption of zero emission vehicles:
    <bullet>  Increase funding for zero emission buses and related 
infrastructure. The Low or No Emission Vehicle Program (Low No) has 
been responsible for funding thousands of electric transit buses, and 
we urge you to reauthorize the program and apply significantly greater 
resources to it to meet growing demand. The INVEST in America Act, 
which later became the Moving America Forward Act, included bold 
investments that dedicate significant resources for zero emission buses 
through the ``zero-emission bus grants'' program as well ``Bus facility 
and fleet expansion competitive grants'' program. As the Congress and 
this Committee begin the surface transportation reauthorization process 
again, we support reforming the Low No Program as a zero emission bus 
grant program and endorse funding at the levels called for in the HR 2 
or Congresswoman Brownley's Green Bus Act.
    <bullet>  Incentivize domestic manufacturing and supply chain. We 
urge Congress to modify the eligibility of the existing Advanced 
Technology Vehicle Manufacturing (ATVM) loan program to include heavy 
duty vehicle and suppliers to heavy duty original equipment 
manufacturers (OEMs). Access to low cost capital through this program 
would allow companies to invest in state-of-the-art manufacturing and 
build the supply chain for domestic components that will allow us to 
compete against aggressive foreign competition. It will also entice 
foreign battery cell manufacturers that are the market leaders to open 
manufacturing facilities in the United States and to import 
considerable intellectual property and create new American jobs.
    <bullet>  Support deployment of electric vehicles for other public 
fleets. We recommend that Congress establish grant programs that are 
modeled on previous successful efforts like the Low or No Emission 
Vehicle Program that would support the electrification for other heavy 
duty vehicle fleets such as school buses and municipal fleets.
    <bullet>  Electrification of Federal Vehicles. Proterra applauds 
the Administration's goal to electrify the federal fleet of vehicles, 
which boost electric vehicle manufacturing domestically. While 
opportunities for light duty vehicles garner much of the attention, we 
believe that deploying zero emission buses at national parks, military 
facilities, and other federal installations would bring immediate 
environmental and public health benefits while also reducing operating 
costs for these agencies over time.

    Through these policies, the federal government can send a strong 
signal to the industry and supply chains that the United States is 
committed to electrification and will drive greater private investment 
into the market, thereby creating even more American jobs in this 
rapidly growing market.
    Thank you for the opportunity to testify before you today. I look 
forward to answering any questions that you may have.

    Mr. DeFazio. Representative Burchett would like to briefly 
introduce the next witness.
    Mr. Burchett. I caught that ``briefly,'' Mr. Chairman. 
Thank you.
    Mr. Chairman, today I have the honor of introducing Shameek 
Konar from Pilot Flying J. He is the chief executive officer, 
and I note that Congressman Cohen has someone from Tennessee as 
well, Mr. Smith, and I remember meeting him at Jimmy Kelly's in 
Nashville, Tennessee, with then-Senator Cohen. So I am 
interested to hear his testimony as well.
    But today I am honored to welcome Mr. Konar to our hearing. 
Since 2017, Mr. Konar has been instrumental in growing Pilot's 
energy business. Founded in 1958 by Jim Haslam in Knoxville, 
Tennessee, Pilot Flying J is now the 10th largest privately 
held company in the United States.
    And on a personal note, Mr. Haslam has been a good friend 
to me. I saw him Saturday at our little coffee club we have at 
one of his Pilots, and we were practicing social distancing if 
anybody is listening to this.
    But Mr. Haslam has always been very benevolent to the 
community, literally giving millions and millions of dollars to 
the community. I saw just in today's press that his family had 
given another $1 million to the University of Tennessee.
    But on a personal note, when I was a young State 
legislator, I went back to my elementary school, and I asked 
the principal if there is anything any of the kids needed, and 
she said, yeah, there was one kid that needed a jacket and he 
was poor.
    I was pulling down about $16,500 a year, and I figured I 
could afford about half of that jacket. So I called Big Jim 
Haslam on the phone, and he said--he calls me Timmy because 
he's known me since I was a little boy--``Timmy, just come on 
by and pick up the check.''
    We went half on that jacket, I remember, and the kid got to 
go home that day warm. And I remembered one thing he said. He 
said, ``Just don't tell anybody, Timmy. Just keep it 
anonymous.''
    And I have honored that until this point right now, but it 
has been several years. So I feel it is important that we point 
out that these folks have a very huge impact on our local 
community.
    But back to Pilot, it is also the largest operator of 
travel centers in North America with over 900 retail and 
fueling locations in 44 States, employing more than 28,000 team 
members. Pilot's success is emblematic of the American energy 
sector.
    Pilot and other businesses like it have chosen to make 
great strides on environmental issues. Because of private-
sector innovation, the United States is working towards 
significant emissions reduction, and I hope Pilot Flying J 
continues its good work.
    And I will note Mr. Haslam has his autobiography out now, 
and it was started basically in one little station across the 
border in, I believe, Bristol, Virginia, and now its impact is 
literally nationwide.
    Mr. Chairman, I ask unanimous consent to submit for the 
record a letter in support of this testimony from the National 
Association of Convenience Stores and the Society of 
Independent Gasoline Marketers of America.
    Mr. DeFazio. Without objection, so ordered.
    [The information follows:]

                                 <F-dash>
Letter of March 17, 2021, from the National Association of Convenience 
 Stores and the Society of Independent Gasoline Marketers of America, 
             Submitted for the Record by Hon. Tim Burchett
                                                    March 17, 2021.
Hon. Peter DeFazio,
Chairman,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, U.S. House of 
        Representatives, Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves:
    The National Association of Convenience Stores (``NACS'') and the 
Society of Independent Gasoline Marketers of America (``SIGMA'') 
(collectively the ``Associations'') write to support the testimony of 
Mr. Shameek Konar of Pilot Flying J Travel Centers LLC at the hearing 
on ``The Business Case for Climate Solutions.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. House Committee on Transportation and Infrastructure, 
``Hearing on The Business Case for Climate Solutions,'' (Mar. 17, 
2021).
---------------------------------------------------------------------------
    Fuel retailers in the United States are well positioned to play an 
important role in the development of infrastructure to offer American 
motorists not only traditional liquid motor fuels but also a range of 
alternatives, including electricity to power their vehicles.
     Overview of the Associations and the Retail Fuels Marketplace
    Collectively, the Associations represent approximately 80% of 
retail sales of motor fuel in the United States. The fuel wholesaling 
and convenience industry employed about 2.46 million workers and 
generated more than $647.8 billion in total sales in 2019, representing 
approximately 3 percent of U.S. gross domestic product. Of those sales, 
approximately $395.9 billion came from fuel sales alone.\2\
---------------------------------------------------------------------------
    \2\ Data from the National Association of Convenience Stores, State 
of the Industry Report (2019).
---------------------------------------------------------------------------
    The retail fuels market is the most transparent, competitive 
commodities market in the United States. Retailers post fuel prices on 
large exterior signs, which consumers use to shop for the best 
prices.\3\ Many consumers drive out of their way to save a few cents 
per gallon. The Associations' members operate on tiny margins--
generally several cents per gallon of fuel sold.
---------------------------------------------------------------------------
    \3\ In addition to price signs seen from the road, consumers also 
frequently use applications, such as Gas Buddy, to compare fuel prices. 
According to a 2019 NACS survey, 59% of consumers say price is the most 
important factor in determining where they buy fuel. See NACS. (2019). 
Consumer Behavior at the Pump. Retrieved from https://
www.convenience.org/Topics/Fuels/Documents/How-Consumers-React-to-Gas-
Prices.pdf.
---------------------------------------------------------------------------
    The competitive nature of the retail fuels market compels retailers 
to pass through cost savings to consumers in order to maintain and 
increase their market share. It is in retailers' interests to increase 
the amount of fuel they sell to consumers. This is not only because 
those sales drive profit opportunity in and of themselves, but also 
because such sales drive in-store traffic, which is another source of 
profit for the retailer. These dynamics can be harnessed to create a 
growing market for alternative transportation energy sources.
   Electric Utilities, Fuel Retailers, and EV Charging Infrastructure
    The Biden Administration has committed to adding 500,000 electric 
vehicle (EV) charging stations over the next decade. The most 
efficient, cost-effective path to achieving this goal is a partnership 
between utilities and fuel retailers, with support from federal 
policymakers.
    Federal policy should incentivize and leverage private investment 
in bringing electricity as an alternative fuel to market. By the same 
token, federal policies should not undercut incentives for retailers to 
invest in EV charging infrastructure.
    The biggest impediment currently to fuel retailers investing in EV 
charging is the practice of utilities charging all of their electricity 
customers more in order to pay for their investments in EV charging 
infrastructure. Where this occurs, utilities are able to compete with 
private sector groups without risking a single dollar of their own. 
This tilts the cost for electric charging infrastructure in favor of 
utilities such that the private market cannot compete, placing existing 
and new market participants at a competitive disadvantage which they 
cannot overcome. The predictable result is that the private market will 
not risk capital investment in EV infrastructure when it knows it 
cannot make a return on that investment due to the unfair competition 
from utilities.
    Furthermore, some states classify businesses that sell electricity 
for the purpose of charging EVs as utilities, effectively prohibiting 
such sales from anyone other than utilities. Federal policy preempting 
these state regulations should be established, allowing non-utilities 
such as fuel retailers to resell electricity commercially.
    Finally, federal policy should maintain the ban on commercialized 
Interstate rest areas, including disallowing EV charging within federal 
Interstate rights of way. This will ensure that off-highway businesses 
are not discouraged from investing in EV charging. Our industry has 
supported the ban on commercial activity and electric charging should 
be treated no different from any other commercial service. If EV 
charging is opened up at Interstate rest areas, it will undercut 
private sector investments in that infrastructure at Interstate exits. 
That will mean fewer, not more, EV chargers.
                               Conclusion
    The Associations' members' sole objective is to sell legal 
products, in a lawful way, to customers who want to buy them. As new 
fuels enter the market, our members want to be able to sell those fuels 
lawfully and with minimal volatility and risk. While the Associations' 
members are agnostic to the type of fuel sold to satisfy consumer 
demand, it is best for the American consumer to have a reliable source 
of fuel at competitive and stable prices.
    As such, the Associations believe that EV charging should be an 
open, competitive market. Convenience and fuel retailers should be able 
to sell electricity in a competitive market on equal footing with other 
market actors. Allowing private sector competition will spur efficient 
investment in and development of electric charging infrastructure. And, 
it is the best way to ensure that vehicle owners continue to get the 
best prices and experience as electricity is introduced into the fuels 
market.
    This Committee, utilities, and fuel retailers all have vital roles 
to play in building the nation's first EV charging network, together. 
Our industry is eager to work with the Committee to help it achieve 
this objective.
        Sincerely,
                        National Association of Convenience Stores.
              Society of Independent Gasoline Marketers of America.

    Mr. DeFazio. Mr. Konar, you are recognized for 5 minutes.
    Mr. Konar. Thanks for that very, very generous 
introduction.
    Chairman DeFazio, Ranking Member Graves, and members of the 
committee, thank you for inviting me to testify today.
    My name is Shameek Konar. I am the chief executive officer 
for Pilot Flying J, which is the largest travel center network 
in the United States.
    I am testifying on behalf of NATSO, the National 
Association of Truckstop Operators.
    Today I hope to demonstrate to you that travel center 
companies and the broader retail fuel industry are invaluable 
partners as you seek to minimize the transportation sector's 
carbon footprint.
    Our industry has demonstrated that we are prepared to 
invest in any transportation fueling technology that our 
customers desire.
    We are eager to continue playing this important role as we 
transition to the next generation of transportation energy.
    The Biden administration wants to add 500,000 EV charging 
stations over the next decade. My testimony will focus on the 
most efficient, economical way to accomplish this objective and 
lower the carbon footprint of transportation fuel.
    We will need a partnership. We need a partnership between 
utilities and fuel retailers with support from the Federal 
Government to achieve this. In order to develop policies that 
facilitate this partnership, there are fundamentally two 
buckets of activities that we need to pursue.
    First, the power grid needs to be restructured. As EV 
charging stations are installed, generation, transmission, and 
distribution networks will need to be expanded to meet this new 
demand.
    Drivers must be assured that they will be able to refuel as 
reliably as they do today in order to expedite adoption of EVs.
    Second, the market dynamics that govern our industry today 
should be replicated to accommodate EVs. This will ensure that 
customers have multiple recharging options that are competing 
for their business on price, on speed of service, and on 
quality of service.
    As it relates to reducing range anxiety, one of the primary 
impediments to EV adoption is a nationwide network of fast 
charging stations.
    We believe that this is achievable, but there must be a 
policy framework to harness our core competencies of the 
utilities, as well as the retail fuel sectors to make this 
work.
    The utility sector is best suited to perform the 
generation, development, and power grid restructuring work that 
will be essential to facilitate this network.
    The fuel retailers, on the other hand, like us are best 
positioned to own and operate EV charging stations and provide 
transportation energy to customers, along with services, in the 
manner that they are accustomed to today.
    Until the number of EVs on the road reaches a critical 
mass, however, there is an important role for Federal policy to 
bridge this gap and make private investments more viable while 
providing long-term consumer benefits and a reduction in the 
carbon emission footprint of the sector.
    These policies should encourage utilities and fuel 
retailers to focus activities where we are the most productive.
    At the same time, policies that may appear to be quick and 
easy solutions often undermine our objective, either utilities' 
incentives to restructure the power grid or the retailers' 
incentive to invest in charging infrastructure.
    For example, some electric utilities have had to increase 
cost to all ratepayers to underwrite their investment in EV 
charging stations and electricity that powers EVs.
    Businesses like mine cannot do this, and we cannot compete 
in this environment with those who do. But this would make it 
very difficult for us to invest and actually hamper our goal of 
reducing the carbon footprint.
    Some advocates are also interested in allowing EV charging 
at interstate rest areas. This will discourage, again, 
companies like mine and other retailers in this industry from 
investing in charging infrastructure. It will also signal to 
prospective drivers that when they recharge, they will not have 
access to all of the amenities and the security they have come 
to expect from this sector.
    Approaches like these would undermine the business case for 
companies like Pilot and other fuel retailers to leverage our 
existing investment--and we have tens of billions of dollars 
invested in the sector--to develop EV charging infrastructure.
    As I have said, there is a very strong business case for us 
to be actively engaged in this space.
    It is our sincere hope that we can continue working with 
you, your staff, and my fellow witnesses to do just that.
    On behalf of NATSO and Pilot, I thank you for inviting me 
to testify here today, and I am happy to answer any questions 
that you or the committee may have.
    [Mr. Konar's statement follows:]

                                 <F-dash>
  Prepared Statement of Shameek Konar, Chief Executive Officer, Pilot 
 Flying J, on behalf of the National Association of Truckstop Operators
                        I. Summary of Testimony
    <bullet>  The National Association of Truckstop Operators (NATSO) 
is the premier national trade association representing off-highway fuel 
retailers, from multi-billion dollar travel center and convenience 
store chains to small, single-store operators. Pilot Flying J (Pilot) 
is the largest travel center chain in the United States, with more than 
28,000 employees helping operate a nationwide network of more than 900 
retail and fueling locations providing travelers with convenient stops 
that offer a variety amenities and products to make road travel easier.
    <bullet>  NATSO supports policies that incentivize fuel retailers 
to invest in alternative fuels, and reward businesses that make those 
investments. Because fuel retailers are fuel agnostic, we are 
invaluable partners for policymakers whose objectives include 
increasing consumption of alternative fuels. With the right alignment 
of policy incentives, fuel retailers are best equipped to facilitate a 
faster, more widespread and cost-effective transition to alternatives--
including electricity--in the coming years. The optimal way to lower 
transportation fuels' carbon footprint is through policies that (i) 
encourage businesses such as Pilot to offer more alternatives, and (ii) 
make those alternatives more economically attractive to consumers.
    <bullet>  As customers utilize electric vehicle (EV) charging 
stations, they will expect a seamless and predictable experience not 
unlike their current refueling experience, grounded in safe, accessible 
amenities and affordable, competitive pricing. The market dynamics that 
govern today's liquid fuel retail sector should be replicated to 
facilitate greater EV adoption.
    <bullet>  Achieving the Biden Administration's goal of adding 
500,000 EV charging stations over the next decade will require a 
partnership between utilities and fuel retailers, with support from 
federal policymakers. If designed and implemented properly, such a 
partnership would benefit all three stakeholder groups and ultimately 
achieve environmental policy goals.
    <bullet>  There are two components to this partnership: Power grid 
restructuring to accommodate the significant demands that an EV 
refueling network (and electrification of various other sectors such as 
home heating) will place on the grid as the world transitions away from 
fossil fuel; and the consumer fueling experience to provide customers a 
safe, ubiquitous, reliable, affordable and competitive market for 
recharging activities.
    <bullet>  Federal incentive policies should harness the core 
competencies of the utility and retail fuel sectors. Neither sector can 
create a sustainable, nationwide EV charging network without the other, 
especially in an expeditious, efficient and economical way. The utility 
sector is best suited to perform the requisite generation development 
and power grid restructuring work. Fuel retailers are best positioned 
to own and operate EV charging stations (especially along Interstate 
highway locations) and provide transportation energy--including 
electricity--to consumers. Grant programs or other federal policies 
designed to encourage investment in EV charging infrastructure and 
supply equipment should be designed in a manner that is consistent with 
each sector's respective area of expertise.
                            II. Introduction
    Chairman DeFazio, Ranking Member Graves and distinguished members 
of the House Transportation and Infrastructure Committee--Thank you for 
the opportunity to testify at this important hearing examining the 
business case for climate solutions. On behalf of the National 
Association of Truckstop Operators (NATSO) and Pilot Flying J (Pilot) 
where I am Chief Executive Officer, we are eager to work with you--and 
with my fellow witnesses--to improve the environmental characteristics 
of transportation energy in the United States.\1\
---------------------------------------------------------------------------
    \1\ In addition to NATSO, Pilot is also an active member of the 
National Association of Convenience Stores (NACS) and the Society of 
Independent Gasoline Marketers of America (SIGMA). Pilot and NATSO both 
support NACS and SIGMA's joint submission to the Committee to be 
inserted into the hearing record.
---------------------------------------------------------------------------
    The most expeditious, efficient and economical way to achieve 
environmental advancements in transportation energy technology is 
through market-oriented, consumer-focused policies that encourage 
businesses such as Pilot to offer more alternatives and our customers 
to purchase those alternatives. Fuel retailers are in the business of 
providing competitively priced fuel and services to our customers. 
Unlike refiners, power generators, and biofuels producers, fuel 
retailers are agnostic to what the form of fuel is; our goal is to 
provide customers ``what they want, when they want it, and at a price 
they are willing to pay.'' Fuel retailers have demonstrated in recent 
years that we are prepared to invest in any transportation fueling 
technology that our customers desire.\2\ With the right alignment of 
policy incentives, fuel retailers are well equipped to facilitate a 
faster, more widespread and cost-effective transition to alternatives--
including electricity--in the coming years.
---------------------------------------------------------------------------
    \2\ The amount of biofuels that Pilot sells today in response to 
the Renewable Fuel Standard, and Pilot's and NATSO's aggressive support 
of enhanced biofuel incentives demonstrates this.
---------------------------------------------------------------------------
    Over the past decade, companies such as Pilot have invested 
significant amounts of money to bring alternative fuels to market. 
While we invested capital and took business risk, the transparent 
framework laid out by policymakers such as yourselves essentially gave 
us a framework and a line of sight on how we would generate a return on 
our investment. As a result, we responded to your policy signals and 
engaged in behavior that you have determined is beneficial for society 
at large. We are eager to continue playing this important role as we 
transition to the next generation of transportation energy.
    I encourage the Committee to learn from the successes of the last 
twenty years, and apply those lessons to any incentive programs that 
you create for the next twenty years. Once an incentive and regulatory 
regime is in place that enables travel center companies and other fuel 
retailers to gain customers and market share by investing in electric 
vehicle (EV) charging (or any other technology), the private sector 
will bring those fuels to market more effectively and efficiently than 
the government or any government-sponsored monopoly, because this is 
our core-competency.
    I discuss these issues in more detail below.
                            III. Background
A. NATSO and the Travel Center Industry
    I am testifying today on behalf of NATSO, which is the premier 
trade association representing travel centers, truckstops, and off-
highway fuel retailers. NATSO represents approximately 300 companies 
that operate nearly 7,000 travel centers, as well as tens of thousands 
of convenience stores. Our membership is comprised of both large, 
multi-billion dollar travel center and convenience store chains, as 
well as small, single-store operators. Given the breadth of its 
membership, NATSO represents a substantial majority of retail sales of 
diesel fuel in the United States.
    The travel center and truckstop industry is a diverse, 
sophisticated and evolving industry. These locations effectively 
function as ``hotels'' for the over-the-road transportation industry--
because the number of hours that a driver can drive is limited, drivers 
stop at our facilities to fuel, eat, shower, sleep, shop, cash checks, 
etc. Almost every travel center location is in close proximity to an 
Interstate highway and includes multiple profit centers, from motor 
fuel sales and auto-repair and supply shops, to hotels, sit-down 
restaurants, quick-service restaurants, food courts, and convenience 
stores. Although the industry was once tailored solely to truck 
drivers, it now caters to the entire interstate traveling public, as 
well as the local population that lives in close proximity to a travel 
center location. These travel centers are often located in relatively 
remote areas and can at times be one of the only sources of food, 
convenience and fueling for local residents.
    Fuel retailers' sole objective is to sell legal products, in a 
lawful way, to customers who want to buy them. As new fuels enter the 
market, retailers want to be able to sell those fuels lawfully and with 
minimal volatility, risk, and inconvenience for our customers. Our 
industry is agnostic as to which fuels we sell to satisfy consumer 
demand. Our bias is simply that we believe it is best for the American 
consumer--and America's industrial position in the world marketplace--
to have reasonably low- and stable-priced energy.
    All of NATSO's members, large and small, believe it is imperative 
that policies designed to encourage investment in alternative fuels 
must account for the fact that a majority of fuel retailers are small 
businesses. Any approach to setting policy that does not ensure these 
businesses are able to continue growing and creating jobs in the 21st 
Century will be less successful than policies that enable the entire 
retail fuels industry--large companies and small companies--to 
participate.
    In 2020, NATSO launched the National Highway Charging Collaborative 
with ChargePoint, the world's largest EV charging network. The 
collaborative has committed to leveraging $1 billion in capital to 
deploy charging at more than 4,000 travel plazas and fuel stops that 
serve highway travelers and rural communities. NATSO and ChargePoint 
continue to work together to identify public and private funding 
sources that may be available to support the expansion of EV charging 
at strategically determined locations.
B. Pilot Flying J
    Pilot started in 1958 with a single gas station in Gate City, 
Virginia. Our founder, James A. Haslam II, wanted to build a business 
to support his growing family and to provide people with the gas and 
conveniences they need while on the road. In 1981, with 100 convenience 
stores, Pilot opened its first full-size travel center in Corbin, 
Kentucky.
    Today, Pilot has more than 28,000 employees helping operate a vast, 
nationwide network of more than 900 retail and fueling locations 
providing travelers with convenient stops that offer an incredible 
variety of amenities and products to make road travel easier. The Pilot 
Flying J travel center network includes locations in 44 states and six 
Canadian provinces with more than 630 restaurants and 35 Truck Care 
service centers. Our One9 Fuel Network connects smaller fleets and 
professional drivers to the services they need at a variety of fueling 
locations.
    We supply more than 11 billion gallons of fuel per year, including 
approximately one billion gallons of biofuel (such as biodiesel, 
renewable diesel, and ethanol). The carbon reduction from our biofuel 
portfolio is equivalent to taking approximately one million cars ``off 
the road'' each year. Our sourcing infrastructure, strong market 
presence and expertise in energy and logistics optimizes the 
distribution of not only diesel fuel and gasoline, but also biofuels 
and diesel exhaust fluid (DEF). Over the last 10 years, Pilot has 
significantly increased the amount of biofuels that we supply to our 
customers based on the policy incentives of the Renewable Fuel Standard 
(RFS) and other state policies such as California's Low-Carbon Fuel 
Standard. Today, Pilot is one of the largest sellers of biofuels in the 
country.
                  IV. Fuel Retailers Are Fuel-Agnostic
A. Competition and Retail Fuel Prices
    The retail fuels market is the most transparent, competitive 
commodities market in the United States. As every American knows, 
customers can see gasoline retailers' price signs from blocks away, or 
compare prices on cell phone applications. These signs represent more 
than just pricing information; they are a value proposition to 
potential customers, not only with respect to fuel but also food and 
other convenience items and amenities that we offer at our facilities.
    While the gasoline market is extraordinarily competitive--consumers 
will often change where they buy gas to save just a few cents per 
gallon--the retail diesel market is even more competitive and 
transparent. Many travel centers' customers--truck drivers and trucking 
fleets--are more savvy and price-conscious than typical American 
motorists (fuel generally amounts to 20-30% of a motor carrier's 
overall costs). Truck drivers are often aware of retail fuel prices 
when they are 100 miles away from potential refueling sites, and fleet 
managers use this information to direct drivers to specific retail 
locations in order to purchase the lowest-priced fuel available. Every 
time a truck refuels, it is on average 100 gallons, so even a penny 
difference in the price of diesel per gallon amounts to a dollar. Given 
the number of trucks that visit our stores every day, pennies add up 
quickly. This imposes strong downward pressure on retail diesel prices.
    The competitive nature of retail fuel markets compels retailers to 
pass through cost savings to consumers in order to maintain and 
increase their market share. It is in retailers' interests to increase 
the amount of fuel that we sell to consumers. This is not only because 
those sales directly drive profit opportunity, but also because such 
sales drive in-store traffic, which is a source of profit for the 
retailer.
    Given the transparency and competitiveness of fuel pricing, 
retailers are generally ``price takers'' for fuel, where the market 
essentially sets the price. This means that we must compete on prices 
of other items we sell, speed, and quality of service to retain our 
customers and potentially gain market share. In addition, the 
transparency of fuel markets exerts a constant downward pressure on 
retail fuel prices, which benefits customers and forces successful 
retailers to run efficient and cost competitive business platforms.
    Notwithstanding these challenging dynamics, gas stations and travel 
centers are located in every community and at highway exits throughout 
the United States. One would be hard-pressed to identify any other 
industry where there are multiple retailers selling the same, fungible 
product on the same street corner. Yet, as we all know, that 
circumstance is not uncommon in the retail fuel industry.
    The American consumer is the ultimate beneficiary of this dynamic. 
Policymakers and proponents of enhanced EV charging infrastructure 
investment should be mindful of this, and harness the consumer-
oriented, efficient and innovative retail fuel industry to convert 
environmental aspirations into consumer-accepted realities.
B. Retailers Respond to Consumer Demand; We Do Not Create It
    Offering a product for sale does not guarantee consumers will 
purchase it. Retailers cannot force consumers to buy a particular 
product. Rather, retailers sell what consumers demand. In fact, the 
primary trait of any successful retailer is an ability to identify what 
his or her customers want to buy and then sell that product at a price 
that is both attractive to the consumer while enabling the retailer to 
earn a profit. In this respect, fuel retailers are quite effective 
surrogates for consumers.
    This is even more relevant when it comes to adoption of EVs or 
other alternative fuels vehicles. In the world of liquid fueling it 
takes a four-wheel customer two to three minutes to complete a fueling 
experience (average fueling for cars and light commercial vehicles is 
approximately 10 gallons at a time). In the world of EVs, however, this 
will expand to 20 to 40 minutes for a charge, depending on the vehicle 
and the type of charger available. This will place a lot of emphasis on 
the type of experience that the consumer has at the retail fueling 
station, because instead of a five minute ``stop,'' this will be a 30-
minute ``experience.''
    Consumer satisfaction with this experience is essential to 
widespread adoption of EVs. The retail fueling industry is focused on 
competing on speed, customer service, and amenities. We will have every 
incentive to make this customer experience the best it can be. The most 
successful travel centers today have already embraced a changing 
culture, shifting profit centers to food and beverage options, as well 
as offering Wi-Fi, convenience shopping, and security. We are prepared 
to continue to evolve with our customers. As new, faster charging 
technologies come to market, for example, retailers will be forced to 
invest in those technologies in order to compete.
    If Congress wants to incentivize increased investment in and 
consumption of more environmentally friendly alternative fuels, it must 
keep in mind this fundamental market reality: motorists and truck 
drivers do not purchase products because fuel retailers sell them; fuel 
retailers sell products and services because our customers purchase 
them.
C. Fuel Retailers are Eager to be Collaborative Partners in Bringing 
        Alternative Fuels to Market
    NATSO strongly supports policies that incentivize fuel retailers to 
invest in bringing alternative fuels that customers want to market, and 
reward businesses that make those investments.
    Because fuel retailers are fuel agnostic, we are invaluable 
partners for policymakers whose objectives include increasing 
consumption of alternative fuels. The market is extraordinarily capable 
of efficiently and expeditiously bringing the lowest-cost fuels to the 
end user. Fifteen years ago, Pilot blended and sold a nominal amount of 
biofuel. In response to a variety of federal and state programs, today 
we sell more than one billion gallons of biofuels each year (with ample 
room for growth). The impact of our biofuels program is equivalent to 
taking one million cars ``off the road'' every year from a carbon 
emissions perspective.
    Our experience at Pilot is similar to that of dozens of other 
retail fuel companies throughout the United States. As an industry, we 
have adapted in response to tax and other incentives to sell lower 
carbon intensity alternatives to gasoline and diesel. The companies 
that have done this successfully generally have been more profitable 
than the companies that have not done this successfully. Although the 
fuels of the future will be different than the fuels of the past, we 
have made transitions before and we can do it again. Congress has at 
its disposal a nimble, sophisticated industry that is able to adapt to 
clear policy signals and provide customers the fuels that they want.
      V. Utilities, Fuel Retailers, and EV Charging Infrastructure
    The Biden Administration has established a goal of adding 500,000 
EV charging stations over the next decade. This Committee has an 
important role to play in making this goal a reality. The most 
efficient, cost-effective path to achieving this is a partnership 
between utilities and fuel retailers, with support from federal 
policymakers. If designed and implemented properly, such a partnership 
would benefit both utilities and fuel retailers and ultimately achieve 
environmental policy goals while benefitting the American consumer.
A. Adoption of EVs
    In order for the American consumer to transition to EVs, three 
conditions need to be met:
    (1)  Vehicle Affordability--The vehicles need to be affordable (for 
consumers and businesses), including maintenance costs and other 
operating economics over the life of the vehicle.
    (2)  Vehicle Functionality and Reliability--The vehicles need to be 
functionally capable for the relevant use cases and as reliable at 
serving consumer needs as internal combustion engine vehicles.
    (3)  Refueling Network--There needs to be a robust network of 
fueling stations so that vehicles are not limited in their use and 
consumers feel comfortable and safe traveling throughout the nation 
(much as they feel with the existing liquid refueling marketplace), and 
eliminating the ``range anxiety'' concern associated with EVs.

    Light-duty passenger EVs are on their way to satisfying the first 
two criteria. The biggest impediment to more widespread adoption is the 
lack of a robust nationwide refueling network, and the services and 
amenities that consumers have come to expect alongside such a network 
(e.g., foodservice facilities, restrooms, security, etc.). The ultimate 
solution for heavy-duty vehicles (i.e., long-distance freight carriers) 
is less clear, with various technologies from hydrogen fuel cells to 
EVs competing to satisfy the conditions referred to above. A recent 
survey found that the primary concerns potential EV customers had (with 
over a 40% positive response) were vehicle costs, range and an 
inadequate charging network.\3\
---------------------------------------------------------------------------
    \3\ See Utilities: The Unintended Bottleneck to MASS EV 
Penetration, Stephen C. Byrd, Adam Jones et al, Morgan Stanley Research 
(Oct. 28, 2020).
---------------------------------------------------------------------------
    The current shortfall with respect to a nationwide refueling 
network on the light duty side can be overcome through a coordinated 
partnership between utilities and fuel retailers with support from the 
federal government.
B. Infrastructure Needs and Market Reforms Necessary for an EV 
        Refueling Network
    Before addressing what the partnership between utilities and fuel 
retailers should look like, one must understand the various changes 
that need to be made to existing electricity infrastructure and EV 
charging markets in order to provide a sufficient refueling network.
    1.  Power Grid Restructuring--An EV refueling network will place 
significant demands on the electric grid as well as the generation 
fleet. This will be in addition to pressures that the utility sector 
faces from:
      a.  The fact that significant portions of the electricity system 
are more than 50 years old and need replacement;
      b.  As the power sector transitions to zero carbon emissions for 
the existing demand, they will have to build significant amounts of 
renewable generation and work on grid reliability and storage issues;
      c.  Transitioning of activities currently fueled by fossil fuels 
(such as home heating and industrial processes (boilers, etc.)) to 
green power.

    In addition to these demands on the utilities, achieving greater EV 
adoption requires fundamental restructuring of and enhancements to the 
nation's power grid and generation fleets. We will have to build more 
renewable generation and storage assets. As charging stations are 
installed throughout the country, generation, transmission and 
distribution networks will need to be expanded in order to serve the 
new network of charging stations.
    2.  Customer Fueling Experience--As customers utilize EV charging 
stations, they will expect a seamless and predictable experience not 
unlike their current refueling experience; one that is grounded in 
safe, accessible amenities and affordable, competitive pricing. In 
essence, the current market dynamics that govern the liquid fuel retail 
sector should be replicated to facilitate a future where most consumers 
drive vehicles that run on electricity. Although we anticipate constant 
innovation and improvements, recharging an EV simply takes a lot longer 
than refueling a car with gasoline (20-40 minutes versus a two to three 
minute gasoline fill). This underscores the need for safety, services, 
and other amenities at EV fueling locations. Failing to fulfill 
consumers' expectations with respect to their refueling experience will 
inevitably hinder their desire to shift to EVs.
C. Necessary Partnership Between Utilities and Fuel Retailers
    A nationwide network of EV charging stations is well within our 
grasp. All it takes is coherent framework of national policies that 
harness the core competencies of the utility and retail fuel sectors. 
Neither sector can create a sustainable, nationwide EV charging network 
without the other; however, both sectors require substantial federal 
incentives and unambiguous policy signals in order to justify the 
necessary investments. The structure and implementation of these 
policies is the key to creating a nationwide EV charging network.
            i. Utility Sector
    The utility sector is best suited to perform the requisite 
generation development and power grid restructuring work given its 
expertise in the infrastructure and its regulated monopoly structure. 
Utilities that function under a ratebased framework can generally 
afford to expand existing infrastructure to accommodate EV charging 
stations. Utilities are well equipped to partner with charging station 
owners and site hosts to (i) effectuate necessary generation and 
transmission capacity upgrades and (ii) develop pricing structures to 
accommodate the nascent market for retail sales of electricity as a 
motor fuel. This plays to their core strengths of deploying long-term 
capital and developing, operating and maintaining critical 
infrastructure.
            ii. Retail Fuel Sector
    Fuel retailers are best positioned to own and operate EV charging 
stations and provide transportation energy--including electricity--to 
consumers.
    Retailers are strategically located throughout the country where 
refueling demand is greatest, operating in the most transparent, 
competitive markets in the world and competing with one another on 
price. It is not uncommon to see multiple fuel retailers at the same 
intersection or exit on a highway competing on price, leading to price 
transparency and lower prices for customers.
    Due to the price transparency and fungibility of the commodities 
they sell, fuel retailers are forced to compete on other non-price 
attributes such as quality of service, cleanliness, security, 
amenities, food, loyalty programs, and speed. As a result, they have a 
keen understanding of consumer preferences and tendencies and have to 
use this knowledge to make the customer fueling experience positive in 
order to compete.
    The retail fuel industry has a history of being very nimble and has 
repeatedly responded to policy incentives for alternative fuels and 
shifting customer preferences. This is a service-based, fuel agnostic 
industry; we recognize that EV charging is the likely next step in the 
evolution of what our customers want. We are best positioned to provide 
EV charging services faster and cheaper than anyone else.
            iii. Policy and Regulatory Environment
    Until the number of EVs on the road reaches a critical mass, there 
is an important role for federal policy to ``bridge the gap'' and make 
private investments more viable while providing long-term consumer 
benefits.\4\ This would be comparable to the experience from the power 
generation sector, where numerous programs including investment tax 
credits, portfolio standards, cap and trade systems, and grants have 
fostered the development of renewable generation--especially wind and 
solar--to get those technologies to a point of scale and economic 
parity. The transportation sector needs to follow a similar path to 
foster the development and the adoption of EVs by the customer.
---------------------------------------------------------------------------
    \4\ The current utilization of publicly available DC Fast charging 
infrastructure remains low, at less than two hours per day per charger. 
At these levels, the investment economics in the infrastructure lead to 
negative returns. This is the classic ``chicken or egg'' problem, where 
EV infrastructure will get built if there is sufficient demand; but 
until then ``bridging'' is required, where government incentive 
programs can facilitate the development of infrastructure until stand-
alone economics allow for private investment.
---------------------------------------------------------------------------
    These policies should be developed keeping three key principles in 
mind:
    <bullet>  Capital Efficiency--Leveraging core-competencies of the 
constituencies in the value chain and incentivizing them to accelerate 
development of the necessary infrastructure.
    <bullet>  Speed to Market--Given the urgency of climate change, 
speed is more important than perfection in market structure, hence 
policy should incent those who can solve the problem most 
expeditiously.
    <bullet>  Alignment--Incentivizing existing fuel retailers to 
adapt, and co-investing with them, will lead to a better outcome. If 
companies are encouraged to put capital at risk, it will enable the 
sector to champion the adoption of EV charging stations (as has 
occurred with respect to biofuel incentives) as opposed to fighting it.

    The federal government should develop policies to ensure a level 
playing field, including incentives to incubate and foster development 
that will provide long-term consumer benefits. Policy mechanisms worth 
considering include:
    <bullet>  Direct Investment and Tax Credits--Targeted grant and 
rebate programs that improve the economics associated with power grid 
restructuring (for the utility sector) and the installation of EV 
charging stations and sale of electricity to EV users (for the retail 
fuel sector) can expedite investments in a space where sufficient 
consumer demand remains many years away. Similarly targeted tax credits 
can complement direct federal investment.
    <bullet>  Low Carbon Fuel Programs--Low carbon fuel programs can 
make electricity more cost-competitive with other transportation fuels. 
This has been very successful in the development of biodiesel and 
renewable diesel through the RFS program. Critical to the development 
of any such program will be science-based lifecycle analyses of 
greenhouse gas emissions associated with different fuel technologies.
    <bullet>  Reselling Electricity--Governments should permit all EV 
charging station owners to generate a profit by selling electricity to 
EV owners without being subject to regulation as a utility. This 
allowance is essential if fuel retailers are to have any incentive to 
invest in EV charging technology.
    <bullet>  Uniform Pricing--There should be uniform pricing 
measurements (e.g., dollars per kilowatt-hour) and requirements for 
consumer-friendly price disclosures.

    Conversely, policies that at first blush appear to be quick and 
easy solutions may have the unintended consequence of undermining 
either utilities' incentives to restructure the power grid or 
retailers' incentive to invest in EV charging infrastructure. Examples 
of these counterproductive policies include:
    <bullet>  Forcing ratepayers to underwrite utilities' investment in 
EV charging stations or to subsidize the retail cost of electricity 
that charges electric vehicles--Where this occurs, the utilities are 
operating in a guaranteed rate of return environment without putting 
capital at risk. Retailers cannot compete with electric utilities in 
this environment. While there is good reason for ratepayers to help 
underwrite the cost of restructuring the power grid to accommodate EV 
charging, there is no public policy rationale why utilities should be 
given a leg up over private actors who wish to enter the market for 
chargers that consumers use to power their vehicles. Utilities' pursuit 
of this uncompetitive arrangement is the single greatest deterrent 
today to fuel retailers' investing in EV charging infrastructure. It 
also results in an extraordinarily regressive transfer of wealth from 
all ratepayers (regardless of income) to utilities and EV drivers.\5\
---------------------------------------------------------------------------
    \5\ By way of background, investor owned utilities are granted a 
monopoly by state regulatory commissions to provide utility service. 
They are granted a monopoly over the provision of electricity, for 
example, because it is economically inefficient for multiple companies 
to build overlapping infrastructure in order to serve the same end-
users. In exchange for this loss of market freedom, the ``monopoly 
compact'' provides the utility a guaranteed rate of return on 
commission-approved investments. It further provides for the collection 
of revenue to cover the utility's costs through approved rates.
    As a general matter, utilities try to keep the cost of recovery of 
capital investments within the ``rate class,'' meaning they attempt to 
assign the cost to those that will benefit from the investment. From 
time to time, utilities seek to go beyond this practice to accomplish 
goals outside of the utility's basic mission. Most economists frown 
upon such ``cost-shifting.'' When utilities utilize their monopoly 
powers to insert themselves into the consumer-facing refueling space, 
it is an example of ``cost-shifting.''
    Rate based investments made by utilities are not subject to market 
risk. Once approved by the state public utility commissions, these 
investments provide a guaranteed rate of return for utility 
shareholders. The return is independent of how the investment performs, 
whether it becomes obsolete or not, or even if it is ever used. The 
rate of return is guaranteed. Private companies competing for the same 
customer have very little chance of effectively competing for business 
against a utility that has no risk on capital deployed, and no 
incentive to ensure superior performance.
    Utilities deploy their capital investments for customers through 
approved ``tariffs,'' which outline the terms and conditions to the 
customer. By design, utility tariffs are ``one size fits all.'' This 
keeps it simple when managing many customers, but it is also very 
restrictive: once you're in, you're in. There is no getting out, and 
they are very difficult to change after the fact.
    By contrast, private market solutions are flexible and responsive 
to customer needs. They have to be or a business will lose a customer. 
Utilities do not have this concern. There is no competition, and there 
is nowhere else for a customer to go. What's more, because tariffs do 
not allow for changes to the base investment, they are effectively 
static. In a rapidly developing and evolving marketplace, such as that 
for EV charging infrastructure, using regulated tariffs to deploy 
solutions virtually ensures the investment will be obsolete shortly 
after it is deployed. There is no mechanism to upgrade the investment 
to keep pace with the technology. It is comparable to buying a brand 
new iPhone for every American in 2010, and then not enabling them to 
buy a new one for at least a decade.
---------------------------------------------------------------------------
    <bullet>  Allowing EV charging infrastructure at Interstate rest 
areas--Not only would this discourage off-highway fuel retailers from 
investing in charging infrastructure, but it will signal to prospective 
EV drivers that if they purchase an EV they will need to refuel at 
often remote, poorly maintained state-run rest areas rather than the 
off-highway travel centers and fuel retailers with all of the 
amenities, security and services that drivers have come to expect. 
Carving out an exception for EV charging to the longstanding ban on 
commercial activities at rest areas is a simplistic, shortsighted and 
counter-productive attempt to overcome a complex but eminently solvable 
problem.
    <bullet>  Permitting utilities that own EV charging stations to 
charge other EV station owners higher rates for power than the internal 
transfer price they charge their own operations--A prohibition on such 
practices is the only way to provide a level playing field and ensure 
competitive pricing for individual consumers.

    The framework discussed above significantly enhances the 
disciplined, expeditious and economic adoption of EVs with the utility 
sector and retail fuel sector focusing on their core competencies to 
deliver the solution. For maximum impact, grant programs or other 
federal investment designed to encourage investment in EV charging 
infrastructure and supply equipment should be dispersed in a manner 
that is consistent with the principles and guardrails outlined above.
                             VI. Conclusion
    As discussed in the foregoing testimony, it is clear to us that 
there is an elegant and effective solution available to accelerate the 
transition to electric vehicles and materially impact the level of 
greenhouse gas emissions through a partnership between fuel retailers 
and the utility sector (with assistance from the government) where:
    <bullet>  Retailers focus on servicing customers, are aligned with 
the adoption of EVs (as they will displace liquid fuels for many four-
wheel customers) and provide the incremental amenities required in 
light of the 10- to 20-fold increase in fueling times. Retailer 
participation is necessary for a seamless transition to EVs.
    <bullet>  Utilities focus on the development of low carbon 
generation and the development of transmission and distribution 
infrastructure that makes clean electricity reliably available to the 
retailers and other charging station owners to sell fuel to the end-use 
customers.
    <bullet>  Government should provide a ``bridge'' through incentive 
mechanisms in the early states when the stand-alone economics do not 
warrant investment; government should also provide a policy framework 
that supports the provision of electricity and a level playing field 
for the retailers to compete with one another for consumers.

    Thank you for the opportunity to present testimony before you 
today. On behalf of NATSO, I look forward to continuing to work with 
Congress on these issues, and am happy to answer any questions you may 
have.

    Mr. DeFazio. Thank you, Mr. Konar.
    Mr. Troy Rudd.
    Mr. Rudd. Good morning, Chairman DeFazio, Ranking Member 
Graves, and distinguished members of the committee.
    Thank you for the opportunity to testify today.
    My name is Troy Rudd. I am the chief executive officer of 
AECOM. Our 47,000 professionals, including 19,000 U.S. 
employees, deliver vital infrastructure projects worldwide that 
are designed to uplift our communities, advance economic 
growth, and improve health, safety, and overall quality of 
life.
    We are ranked number one globally for transportation 
engineering and design and environmental services. By drawing 
on our experience working on all continents and as proud 
partner with the Federal Government, State and local government 
agencies, and the private sector in the U.S., we hope to be a 
resource to the committee on these topics, and we thank you for 
the important work that you are doing.
    The business case for climate solutions in transportation 
is predicated on delivering the following outcomes, we believe, 
for all Americans:
    Creating jobs and, more importantly, lasting careers;
    Accelerating innovation and mobility to meet the needs of 
the future;
    Enhancing the quality of life and the environment by 
reducing emissions;
    Ensuring infrastructure resiliency;
    And stimulating economic growth that drives continued 
prosperity.
    In my testimony, I would like to focus on three areas where 
Government leadership can help achieve the outcomes I have 
described.
    First is advancing electrification. AECOM has guided more 
than 20 public agencies and many private-sector clients with 
early adoption of electrification. In Los Angeles for their 
Department of Transportation, we are delivering infrastructure 
to support full fleet conversion to battery-electric buses.
    In other cities, we have studied the impacts of 
electrification on the grid, how transit agencies can best 
convert to electric, and how they can leverage battery storage 
of EVs even during grid outages.
    These projects have demonstrated numerous benefits in terms 
of emission reductions, especially in areas of vulnerable 
populations; job creation, and resiliency.
    We believe the Federal Government can play an important 
leadership role in accelerating electrification efforts by 
supporting the deployment of a reliable, accessible national 
electric charging network in four ways:
    Working with the private sector in setting design standards 
to encourage interoperability of charging infrastructure;
    Prioritizing pilot projects to convert large State, 
municipal, and private-sector fleets;
    Investing in other charging innovations, including dynamic 
charging imbedded in roads and freeways;
    And advancing the use of electric vehicles by electrifying 
the U.S. Postal Service fleet and deploying regional and rural 
charging infrastructure.
    Second is building resilient infrastructure. Assuring more 
resilient infrastructure is an important area of concern for 
our clients and where Government can make a significant impact.
    In 2020 alone, the U.S. faced 22 natural disaster events 
with losses exceeding $1 billion each, the highest number ever 
in a single year and the 6th consecutive with 10 or more 
billion-dollar events.
    We have conducted transportation climate risk analysis for 
clients like BNSF Railway, the San Francisco Bay area 
Metropolitan Transportation Commission, the New York City 
Economic Development Corporation, and many more, all looking at 
risk reduction strategies for climate events.
    These analyses find that potential losses due to natural 
disaster disruption can be offset by smaller adaptation 
investments today.
    AECOM supports reauthorization reforms that incentivize 
project investments that take into account environmental, 
social, and safety benefits beyond traditional life-cycle 
costs, and criteria that prioritizes new investment decisions 
with long-term preservation and performance of the assets in 
mind.
    Third is unlocking innovation. We also need Government to 
act boldly in support of new modes of mobility. In our recent 
fiscal year, AECOM worked on more than 29,000 projects for 
transportation clients in the United States.
    We found that projects which include more innovation are 
often delayed by rigid commercial models, dated standards, and 
jurisdictional conflicts. Visionary ideas in mobility, such as 
high-speed rail, hyperloop, and more recently electric vertical 
takeoff and landing vehicles or flying taxis, can all play a 
role in improved mobility, congestion management, emissions 
reduction, and new economic output.
    For us, the bottom line is this: To promote innovative 
modes of transportation, we need to remove some of the 
obstacles that prevent investment in thinking beyond the status 
quo.
    In summary, pursuing climate solutions that advance 
electrification, build a resilient infrastructure, and unlock 
innovation can yield significant benefits. And what is more, it 
plays to American ingenuity and a bipartisan spirit in 
supporting transportation infrastructure; it keeps our country 
moving forward.
    I thank you again for the opportunity to speak to you today 
and look forward to your questions.
    [Mr. Rudd's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Troy Rudd, Chief Executive Officer, AECOM
                           AECOM Introduction
    Good morning Chairman DeFazio, Ranking Member Graves and 
distinguished members of the committee.
    Thank you for the opportunity to testify today on this important 
issue. My name is Troy Rudd and I am the Chief Executive Officer of 
AECOM.
    Our 47,000 professionals--including 19,000 US-based employees--are 
engineers, architects, scientists, software programmers, urban and 
transportation planners, program and construction managers, and 
economists who plan, design and deliver infrastructure.
    Globally, we are consistently ranked No. 1 in transportation 
engineering and design, and we are the No. 1 provider of environmental 
services.\1\
---------------------------------------------------------------------------
    \1\ ``Engineering News--Record Top Lists.'' Engineering News Record 
RSS, 2020, www.enr.com/toplists.
---------------------------------------------------------------------------
    AECOM has earned a reputation as an industry leader through the 
critical and essential support we provide our clients, and because the 
work and infrastructure solutions we deliver uplift communities, 
advance economic growth and improve health, safety and overall quality 
of life.
    Today, our clients are focused on emerging challenges. At the 
center of this is ESG, or environmental, social and governance 
concerns. Our clients are acutely aware of the need to address and 
prepare for change, whether it is electrification of transit systems, 
creating access to mass transit for all, or preparing for natural 
disasters that disrupt commerce and our way of living.
    At AECOM, we are leading by example through our own practices, 
including setting approved science-based targets in alignment with the 
Paris Agreement. We are already exceeding our 2025 targets in reducing 
Scope 1 and 2 emissions and are committed to being net-zero for Scopes 
1, 2 and 3 by 2030.
    We are a proud partner to the federal government, state and 
municipal agencies, and the private sector, working together in both 
urban centers and rural communities across America.
    Drawing from our global experience working on every continent, we 
hope to be a resource for this Committee as it seeks to consider 
climate responsive and resilient solutions for new and rehabilitated 
infrastructure and to unlock the full economic, environmental and 
mobility benefits of a modern transportation system.
    The work of this Committee is essential to keeping our nation 
moving forward, and I thank all of the members of the Committee for 
your efforts.
                           Focus of Testimony
    Transportation is crucial in ensuring prosperity and well-being 
today, tomorrow and long into the future.
    As the Committee considers the right approach to create lasting 
benefits, the business case for climate solutions in transportation is 
predicated on delivering the following outcomes for all Americans:
    <bullet>  Creating jobs and more importantly, lasting careers.
    <bullet>  Accelerating innovation and giving rise to fresh thinking 
in transportation so that our systems of mobility meet the needs of the 
future.
    <bullet>  Enhancing quality of life through the health benefits of 
reduced emissions and social benefits through equitable access, 
improved mobility and public safety.
    <bullet>  Ensuring infrastructure resiliency, continuity and 
extended lifecycles against both natural and human-made impacts.
    <bullet>  Stimulating economic growth that drives prosperity.

    Additionally, we believe we all share the goal of ensuring that the 
benefits of a modern US transportation system elevate all communities, 
especially disadvantaged and vulnerable populations and areas that have 
been underserved in the past.
    In my testimony today, I want to focus on three areas where 
government leadership can help achieve the outcomes I have described.
    <bullet>  Advancing Electrification
    <bullet>  Building Resilient Infrastructure
    <bullet>  Unlocking Innovation
                       Advancing Electrification
    AECOM has guided more than 20 public-sector agencies and many 
private-sector clients with early adoption of transportation 
electrification.
    In Los Angeles, AECOM is helping the city's Department of 
Transportation convert their existing bus facilities to support a full 
fleet conversion to battery electric buses. This fleet is anticipated 
to be one of the earliest fully converted electric bus fleets in the 
nation.
    In Fresno, a primarily rural county in California, AECOM recently 
completed a study on the impacts of electrification on the grid and how 
the rural transit agencies can best convert to and leverage electric 
vehicles to support resilience during events like grid outages.
    For the Washington Metropolitan Area Transit Authority (WMATA) in 
Washington, D.C., AECOM developed the strategy for an initial bus pilot 
with a path forward to electrify the full fleet over two decades.
    In partnership with our clients, we have identified numerous 
potential benefits of advancing electrification, including emissions 
reductions in disadvantaged communities, creation of new high-quality 
jobs and careers, innovation and resiliency.
    Based on real world examples, AECOM believes that significant 
opportunities exist to revisit and strengthen existing federal 
Department of Transportation (USDOT) programs that advance strategic 
national deployment of a reliable and accessible national electric 
charging network.
    We also believe that such a charging network could provide a 
potential future revenue stream to replace or supplement current user 
fees that fund the maintenance and operation of roads and transit, 
while fostering continuing investment in community priorities.
    With nearly 30% of emissions in the US arising from the 
transportation sector \2\, the connection between infrastructure and 
public health, equity and justice are more urgent today than they have 
ever been. The transportation sector is the greatest contributor to 
these air pollutants and therefore presents the greatest opportunity to 
deliver impactful solutions.
---------------------------------------------------------------------------
    \2\ ``Fast Facts on Transportation Greenhouse Gas Emissions.'' EPA, 
Environmental Protection Agency, 29 July 2020, www.epa.gov/
greenvehicles/fast-facts-transportation-greenhouse-gas-emissions.
---------------------------------------------------------------------------
    AECOM is taking an active role in changing our transportation 
infrastructure and how we use it to reduce emissions that have an 
adverse impact on human health. Low-income communities are 
disproportionately impacted given their increased exposure to 
environmental hazards, particularly related to our highways and other 
transportation facilities that reduce local air quality in those 
communities.
    A widespread transition to zero-emissions transportation 
technologies could produce emissions reductions that by 2050, could 
total up to $72 billion in avoided health harms including 6,300 
premature deaths, 93,000 asthma attacks, and 416,000 lost workdays 
annually. In addition, the benefits to our environment in the form of 
avoided climate change impacts could surpass $113 billion in 2050 as 
the transportation systems combust far less fuel and our power system 
comes to rely on cleaner, non-combustion renewable energy.\3\
---------------------------------------------------------------------------
    \3\ ``Road to Clean Air--Electric Vehicle Report.'' Road to Clean 
Air--Electric Vehicle Report / American Lung Association, American Lung 
Association, www.lung.org/clean-air/electric-vehicle-report.
---------------------------------------------------------------------------
    Shifting to zero emissions vehicles can also create jobs--and even 
new careers. In California, a 2020 study showed that transportation 
electrification has created more than 275,000 direct EV industry jobs, 
and that number is expected to rise. These jobs are typically higher 
paying, with a salary average of over $91,000, which is well above the 
state average of $68,500.\4\
---------------------------------------------------------------------------
    \4\ ``LAEDC Report: California and SoCal EV Industry Is Growing, 
Giving Region Global Competitive Advantage.'' Los Angeles County 
Economic Development Corporation, 8 Mar. 2020, laedc.org/2020/03/01/
laedc-ev-industry-report/.
---------------------------------------------------------------------------
    This Committee's work on the FAST Act, which created corridors with 
alternative fueling and charging infrastructure, has directly 
contributed to significant reduction in harmful mobile source emission 
pollutants. It has also created an exciting new landscape in which our 
public agency clients routinely engage our expertise in designing 
systemwide EV charging infrastructure for new projects.
Recommendations:
    To foster a more integrated and resilient approach to 
transportation electrification, we encourage the Committee to consider 
the following:
    1.  Working with the private sector in setting design standards to 
encourage interoperability of charging infrastructure and advancing the 
use of electric vehicles.
    2.  Prioritizing pilot projects to convert large state/municipal 
and private sector fleets (as a precursor to broader community 
transition).
    3.  Investing in charging innovations, including dynamic charging 
embedded in roads and freeways.
    4.  Positioning the federal government as a leader in advancing the 
use of electric vehicles by electrifying the US Postal Service fleet 
and deploying regional and rural charging infrastructure.

    Additionally, we suggest that deployment of new electrification 
corridors could be enhanced by exploring new rules that facilitate the 
use, transfer and disposition of under-optimized transportation rights-
of-way for EV charging transmission, broadband and telematics.
                   Building Resilient Infrastructure
    Pursuing infrastructure improvements to minimize disruption risks, 
and to extend the performance, safety and longevity of their transport 
infrastructure are prevailing--and immediate--concerns of our public- 
and private-sector clients.
    This leads to the second area where government can accelerate the 
benefits of climate solutions in transportation: building resilient 
infrastructure.
    Presently, AECOM is developing a flood mitigation study for BNSF 
Railway to understand the potential of flood impacts with more 
specificity, as well as a cost-benefit analysis of risk reduction 
strategies. The intent of the project with BNSF Railway is to minimize 
annual damage repairs and losses from out-of-service delays by 
developing a flood risk prioritization tool and impact assessment.
    In the San Francisco Bay area, AECOM carried out a resilience study 
for the region's Metropolitan Transportation Commission to address 
future flood impacts on the Bay Bridge touch down area and adjacent 
disadvantaged communities.
    As lead consultant for the Lower Manhattan Coastal Resiliency 
Study, AECOM's comprehensive climate risk analysis of Lower Manhattan 
included an economic analysis that accounted for potential 
transportation disruption. Similar analyses, including a regional 
economic assessment for Southeast Florida investment in resilience, all 
share the same conclusions: that billions of dollars in potential 
losses due to disruption posed by natural or man-made events can be 
offset by smaller investments today.
    In the case of Southeast Florida, daily tidal inundation under 2070 
conditions could affect over 100 miles of major roadways, expose $53.6 
billion worth of property value, affect 17,800 jobs, and cause $384 
million in fiscal losses in a single year (2019 dollars).
    Investing in regional adaptation solutions would have positive 
returns on investment and provide job opportunities. The analysis 
showed that every $1 invested in community-level adaptation would drive 
$2 in economic benefits. Overall, community-level adaptation investment 
could support 85,000 job-years (a job year is one year of work for one 
person).\5\
---------------------------------------------------------------------------
    \5\ ``The Business Case for Resilience in Southeast Florida.'' ULI 
Knowledge Platform, knowledge.uli.org/reports/research-reports/2020/
the-business-case-for-resilience-in-southeast-florida.
---------------------------------------------------------------------------
    In 2020, the United States experienced 22 natural disaster events 
with losses exceeding $1 billion each--the most ever. It was also the 
sixth consecutive year in which 10 or more billion-dollar disaster 
events occurred in the US.\6\ Factoring in the human toll as well, we 
believe the business case for investing in prioritizing and mitigating 
the impacts on transportation is profound.
---------------------------------------------------------------------------
    \6\ Hurricane Costs, coast.noaa.gov/states/fast-facts/hurricane-
costs.html.
---------------------------------------------------------------------------
Recommendations:
    1.  AECOM is supportive of reauthorization reforms that incorporate 
methodologies that better incentivize investments in projects by taking 
into account economic, environmental, social and safety benefits, in 
addition to traditional life-cycle cost assessments.
    2.  A grant pilot program that offsets the additional cost of new 
resilient infrastructure in a market that prioritizes low bids, would 
incentivize and capitalize on the opportunity to build truly resilient 
and long-lasting infrastructure, and realize a range of associated 
benefits.
                          Unlocking Innovation
    In our most recent fiscal year, AECOM worked on more than 29,000 
projects for transportation clients in the United States.
    Many innovative solutions do ultimately advance to project delivery 
and operation. However, in some instances, the ability to advance 
innovation is stymied as a result of commercial models, dated 
standards, jurisdictional conflicts and more.
    Advances in new modes of mobility can play a critical role in 
congestion management, emissions reduction, economic output and 
innovation.
    AECOM has been supporting clients to explore visionary, new forms 
of mobility ranging from High Speed Rail to Hyperloop, and more 
recently Electric Vertical Take-Off and Landing (eVTOL).
    AECOM led the environmental process to support federal decision 
making for the high-speed rail project between Dallas and Houston.
    The project would create direct employment and earnings of $14.5 
billion during construction; direct and indirect annual employment and 
earnings of $232 million for the State of Texas during operations; and 
at full operations, reduce vehicles miles traveled by 1.35 billion.
    AECOM has also conducted preliminary studies of hyperloop systems 
to understand the economic and social benefits for both industry and 
citizens. We have found opportunity to increase intermodal 
connectivity, reduce vehicles miles traveled and provide environmental 
benefits.
    In addition to new modes of mobility, AECOM sees merit in 
encouraging greater use of innovative mobility options to address first 
mile and last mile needs and expand access to existing systems.
    This is aligned with the growing equitable interest in supporting 
populations across the country that cannot drive. These vulnerable 
populations may be elderly, disabled or low-income workers that can 
benefit significantly from intermodal solutions that may encompass ride 
sharing for the last section of their trip.
    Bronzeville, a neighborhood on the southside of Chicago, is a 
perfect example of integrated planning and innovation.
    AECOM is working with Commonwealth Edison and the Chicago Housing 
Authority to address transportation, electrification and broader 
community benefits such as jobs and education. AECOM is developing the 
first renewable powered microgrid for the utility in this underserved 
community. At the same time, energy saving programs are helping 
residents and businesses reduce their utility bills. Additional 
initiatives focus on job creation, technical training in support of 
clean energy jobs leading to expertise that is transferable to projects 
around the country and preparing low-income high school students for 
STEM careers. My hope is this would change the beliefs and 
opportunities for the future families of these students for 
generations.
    A first- and last-mile EV shuttle service is being provided to 
three senior centers providing connection to Chicago Transit Authority 
train and bus stops with the intent of adding similar shuttles to the 
local academic community in partnership with the Illinois Institute of 
Technology. Additionally, shared electric vehicles are being piloted in 
the community.
    Among other innovations, there are advances in construction 
strategies and materials that can deliver real benefits to 
sustainability, costs and resilience. Examples include low noise 
asphalt (resulting in reduction of noise abatement structures), low 
carbon concrete (emissions), cost effective use of artificial 
intelligence to detect wildlife hazards rural areas and innovative use 
of energy storage and stormwater management. A more adaptive regulatory 
environment would help firms like AECOM to specify these solutions in 
the design and accelerate their deployment.
Recommendations:
    1.  We believe opportunities exist to address these challenges 
through changes to USDOT programs, revisions to contracting rules and 
greater flexibility in standards to accelerate the adoption of 
innovation in transportation.
    2.  We believe the fundamental goal should be to encourage agencies 
at the state and local level to adopt alternative investment 
methodologies that foster innovation and engagement of the private 
sector.
                           Summary and Close
    AECOM stands ready to assist this Committee and our public and 
private clients throughout the US to adopt and operationalize a 
paradigm shift in infrastructure.
    To build projects that will last for generations, this Committee 
has an excellent opportunity to alter the project investment paradigm, 
one that that will foster incubation at all levels of government, 
champion new design and performance methodologies that harness cutting-
edge technologies, and inspire and incentivize our clients to build 
next generation, long-lasting infrastructure.
    Historically, the infrastructure industry has been a powerful jobs 
creator. It has also helped soften the impact of the coronavirus 
pandemic by engineering solutions to social distancing and virus 
detection, aid policymakers in planning for the future, and designing 
for a more equitable and resilient tomorrow.
    The incorporation of climate solutions that help (i) Advance 
Electrification, (ii) Build Resilient Infrastructure and (iii) Unlock 
Innovation will yield significant benefits across America.
    As I noted in my introduction, the business case for these climate 
solutions is strong in terms of (1) creating jobs and lasting careers, 
(2) accelerating innovation, (3) enhancing quality of life, (4) 
ensuring resiliency in our infrastructure for future generations, and 
(5) stimulating economic growth that drives prosperity.
    Thank you again for the opportunity to testify.
    I look forward to your questions and to working with the Committee 
to craft solutions to these pressing challenges.

    Mr. DeFazio. Thank you, Mr. Rudd.
    Mr. Rafael Santana.
    Mr. Santana. Chairman DeFazio, Ranking Member Graves, and 
committee members, I appreciate the opportunity to testify on 
the business case for climate solutions. This is an important 
topic for the future of the rail industry and the future of our 
Nation.
    My name is Rafael Santana. I am the president and CEO of 
Wabtec Corporation, a global leader in rail technologies for 
over 150 years.
    We are based in Pittsburgh. Wabtec has over 27,000 
employees in more than 50 countries. We are the largest freight 
locomotive manufacturer.
    We move more than 20 percent of the world's freight, and we 
are a proud American company at the forefront of freight rail 
innovation.
    Wabtec embraces Congress' commitment to clean energy and 
the creation of jobs. We believe the freight rail sector is in 
a unique position to accelerate these efforts, and Wabtec is 
prepared to contribute its resources to help meet the clean 
energy challenge.
    In that regard, I want to introduce you to a bold vision 
for transforming the future of freight rail known as Freight 
2030. This is a public-private partnership that will accelerate 
our Nation towards a better and a cleaner tomorrow.
    Joining Wabtec in this vision, we have Carnegie Mellon 
University, the Nation's leading university in artificial 
intelligence and robotics, and we have Genesee & Wyoming, the 
Nation's largest short line and regional freight railroad.
    Rail is, without question, the most sustainable, the 
safest, and the most efficient way to move both people and 
goods over land. But we cannot stop there.
    At Wabtec, we innovate. We help our customers leverage rail 
to increase efficiency, to reduce costs, and to reduce their 
carbon footprint.
    A great example is Trip Optimizer. This is a cruise control 
technology for trains that has saved over 400 million gallons 
of fuel and has reduced CO2 by half a million tons per year.
    Wabtec is also leading the way toward clean freight with 
the world's first heavy-haul, 100 percent battery-electric 
locomotive. This is called FLXdrive. This locomotive is being 
tested in California with BNSF and with the California Air 
Resources Board.
    We are also leading the way in rail utilization and safety, 
having implemented Positive Train Control systems with both 
Class I railroads and also with short lines. This is a safety 
overlay that covers all mainline tracks in the U.S.
    Wabtec strongly believes that by increasing capacity and 
better utilizing our world-class freight rail network, coupled 
with developing zero-emission locomotives, we can reduce 
greenhouse gas emissions by up to 120 million tons per year.
    We can also create up to 250,000 jobs.
    For context, 120 million tons of greenhouse gases is the 
equivalent of 26 million passenger cars.
    The time for rail is now, and Freight 2030 is the critical 
path to our Nation's continued success. At the heart of Freight 
2030, we have three core principles.
    The first one is decarbonization, and we are going to get 
there through zero-emission battery and hydrogen hybrid 
locomotives.
    The second piece is technology. We are going to use 
technology that will increase freight rail utilization and will 
improve safety.
    Third is the creation of direct, indirect, and induced 
jobs, roughly 80 percent of which will be blue-collar jobs.
    This vision would also enable better data sharing and 
increased visibility to the movement of goods from ports to 
rail to yards.
    We propose to create the Freight Rail Innovation Institute 
at Carnegie Mellon, the first of its kind, to drive action 
towards significantly increasing freight rail utilization and 
decarbonization, while spurring jobs and economic growth.
    This institute will allow the U.S. to lead ahead of others, 
including China, including Europe, in zero-emission solutions 
for rail, as well as become an exporter for the world.
    Wabtec and our partners, we are prepared to invest in the 
Freight Rail Innovation Institute alongside the U.S. 
Government, and ask for your support in creating a clean energy 
future.
    Thank you for the opportunity to testify, and I welcome any 
questions you may have.
    [Mr. Santana's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Rafael Santana, President and Chief Executive 
                      Officer, Wabtec Corporation
                              Introduction
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, I appreciate the opportunity to testify on the critical 
topic of transportation and climate change. My name is Rafael Santana, 
and I am the President and CEO of Wabtec Corporation--a global leader 
in rail technologies for over 150 years.
    President Biden and Congress have pledged to build a clean energy 
economy. The ``Build Back Better'' plan is committed to address climate 
change, significantly reduce carbon emissions and spur job growth. The 
transportation sector is a critical piece of building back better. 
Across the globe, transportation accounts for nearly one quarter of all 
greenhouse gas (GHG) emissions.\1\ Current trends indicate that freight 
and passenger rail activity will more than double by 2050.\2\ 
Therefore, the United States will require even cleaner and more energy-
efficient transportation solutions if it is to continue being a leader 
in addressing climate change.
---------------------------------------------------------------------------
    \1\ The World Resources Institute
    \2\ IEA (2019), The Future of Rail: Opportunities for energy and 
the environment, IEA, Paris, https://doi.org/10.1787/9789264312821-en.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The freight rail sector, in addition to being the most sustainable 
way to move people and goods over land, is in a unique position to 
contribute to this endeavor. By increasing utilization of our world-
class freight rail network and developing zero-emission locomotives; 
together, we can reduce emissions by up to 120 million tons of GHG per 
year.\3\ This is the equivalent of removing 26 million cars from the 
road or planting nearly 2 billion trees.\4\ By pursuing increased rail 
utilization and zero-emission locomotives, we can create up to 250,000 
jobs, all while increasing safety.
---------------------------------------------------------------------------
    \3\ Wabtec Internal Documents
    \4\ https://www.epa.gov/energy/greenhouse-gas-equivalencies-
calculator
---------------------------------------------------------------------------
    With this mind, I'm delighted to have the opportunity to introduce 
you to the ``Freight 2030'' vision for transforming the rail industry. 
Within the next nine years, we are committed to developing the 
technology to enable the expansion of freight rail utilization, 
accelerating the reduction of GHG emissions with battery and hydrogen-
powered locomotives, and enabling safer trains through a public-private 
partnership between industry, academia, and the federal government.
    Partnering on the ``Freight 2030'' vision for the future are 
Carnegie Mellon University (CMU), the nation's leading university in 
artificial intelligence and robotics, Genesee & Wyoming (G&W), the 
nation's largest short line and regional freight railroad, and Wabtec. 
By working together, we can establish a research institute committed to 
developing and deploying advanced rail propulsion, logistics, and 
safety technologies.
                           Wabtec Corporation
    Wabtec was founded in 1869 by George Westinghouse and, today, is a 
leader in freight rail, manufacturing advanced locomotives, freight 
rail parts and components, as well as advanced network logistics and 
digital solutions. In addition to our freight rail division, we also 
develop transit products and have components or parts on virtually 
every transit train globally.
    Based in Pittsburgh, Wabtec is a proud American company at the 
forefront of freight rail innovation with over 27,000 employees in more 
than 50 countries. The company is the largest freight locomotive 
manufacturer, moving more than 20% of the world's freight.
    At Wabtec, we innovate and help our customers leverage rail to 
increase efficiency, reduce costs, and their carbon footprint. We are 
currently leading the way in developing battery-electric locomotives 
and other low-to-zero emissions technologies. BSNF Railway and 
California Air Resources Board are testing our newly developed FLXdrive 
locomotive in revenue service today on track between Barstow and 
Stockton, California. The FLXdrive is the world's first heavy-haul, 
100-percent battery-electric locomotive (BEL).\5\ The locomotive 
features an overall train energy management system powering 
approximately 20,000 battery cells and delivering 2.4 MWhrs of energy. 
To date, FLXdrive has run over 10,000 miles and delivered an average of 
10% reduction in fuel consumption across the train. This is the 
equivalent of 5,000 gallons of diesel fuel saved and approximately 50 
tons of CO2 emissions reduced. At 6 MWhrs, we have an opportunity to 
further reduce fuel consumption and emissions by up to 30%.\6\
---------------------------------------------------------------------------
    \5\ https://www.wabteccorp.com/sustainability-report
    \6\ https://www.wabteccorp.com/sustainability-report
---------------------------------------------------------------------------
    Wabtec also leads the way in rail utilization, safety and logistics 
optimization technology. In 2008, Congress passed the Rail Safety 
Improvement Act, which mandated the implementation of Positive Train 
Control (PTC) systems on most of America's railroads.\7\ PTC systems 
are designed to prevent train-to-train collisions, over-speed 
derailments, unauthorized movements into established work zones, and 
accidents that occur if trains are routed down an incorrect track. 
Since 2008, Wabtec has supplied over 24,000 locomotives with PTC 
computers and software.\8\ Over the past decade, PTC technology has 
revolutionized rail safety in the US and helped make the rail sector 
more efficient and effective. Wabtec is currently developing advanced 
PTC systems that will enable virtual and moving block signaling instead 
of the traditional fixed block signaling used today.
---------------------------------------------------------------------------
    \7\ https://railroads.dot.gov/train-control/ptc/positive-train-
control-ptc
    \8\ https://www.wabteccorp.com/about-wabtec
---------------------------------------------------------------------------
    These new, advanced PTC systems will significantly increase the 
efficiency of our railways by reducing headways between trains while 
maintaining stringent safety standards. Similarly, our Trip Optimizer 
and Movement Planner solutions optimize both locomotive fuel efficiency 
and real-time network planning, respectively. This enables freight to 
move more efficiently using existing rail networks, thereby reducing 
energy use, emissions, and waste. As a reference, our Trip Optimizer 
solution is already installed on over 11,000 locomotives globally, 
saving 400 million gallons of fuel.\9\ It also reduced carbon emissions 
by over 500,000 tons per year--the equivalent of removing 100,000 cars 
from the road.
---------------------------------------------------------------------------
    \9\ https://www.wabteccorp.com/sustainability-report
---------------------------------------------------------------------------
    Following the great American tradition of leadership in innovation 
and industry, Wabtec is on the cutting edge of freight rail technology. 
We have the experience and know-how to lead rail's charge into a 
cleaner and more sustainable future.
            Freight Rail's Role in the Clean Energy Economy
    The United States has the most extensive freight rail 
infrastructure network in the world. Our 140,000 miles of track are 
unparalleled--long enough to stretch around the globe over five 
times.\10\ This allows quick and efficient shipment of goods across our 
nation.
---------------------------------------------------------------------------
    \10\ https://www.aar.org/wp-content/uploads/2020/08/AAR-Railroad-
101-Freight-Railroads-Fact-Sheet.pdf
---------------------------------------------------------------------------
    Freight rail is a critical component of today's clean energy 
economy. Rail can more efficiently and cleanly deliver goods than any 
other mode of transportation.
    While freight rail leads the transportation sector in reducing 
emissions today, there are many more opportunities before us. For 
example, current trends indicate that freight activity in America will 
more than double in the next thirty years, with freight tonnage 
increasing significantly.\11\ The U.S. will require cleaner, more 
energy-efficient transportation solutions. Technology adoption across 
rail will be an indispensable driver for the modernization of the 
entire transportation system, making it cleaner, safer, and more 
efficient, and reliable.
---------------------------------------------------------------------------
    \11\ https://data.bts.gov/stories/s/Moving-Goods-in-the-United-
States/bcyt-rqmu
---------------------------------------------------------------------------
    Trucking is an essential component of the freight shipping network, 
and rail must work hand-in-hand with our nation's truckers to reduce 
emissions, increase efficiency and safety, and more economically move 
goods from coast-to-coast. The U.S. will always rely on trucking to 
move goods, especially in first-and-last mile situations where goods 
are moved to warehouses, businesses, or homes. However, when moving 
goods longer distances, trucking is less efficient than freight rail. 
Compared to trucking, rail produces five times less carbon emissions 
per ton-mile.\12\
---------------------------------------------------------------------------
    \12\ Average from AAR Climate Change Report and EDF Green Freight 
Handbook
---------------------------------------------------------------------------

               Weight of Shipments by Transportation Mode

                            Tons (millions)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    With climate change as one of our nation's greatest challenges, the 
time to shift to rail is now. For example, if we increased utilization 
of rail by 50% for the movement of freight over 500 miles, we can 
reduce 60 million tons of GHG emissions per year.\13\ That is like 
taking 13 million cars off the road.\14\ If the U.S. wants to lead the 
world in decarbonizing the transportation sector, it should look no 
further than freight rail technologies and innovation.
---------------------------------------------------------------------------
    \13\ Estimated based on AAR Report: The Positive Environmental 
Effects of Increased Freight by Rail Movements in America, at https://
www.aar.org/data/the-positive-environmental-effects-of-increased-
freight-by-rail-movements-in-america/aar-positive-environmental-
effects-of-freight-rail-white-paper-62020/
    \14\ https://www.epa.gov/energy/greenhouse-gas-equivalencies-
calculator
---------------------------------------------------------------------------
                              Freight 2030
    Our plan to accelerate the future of freight rail, the ``Freight 
2030'' vision, is to expand freight rail utilization, accelerate the 
reduction of GHG emissions, reduce road congestion and traffic, and 
make transportation in the U.S. safer for everyone. The ``Freight 
2030'' vision seeks to reinvent U.S. freight rail by developing the 
technology to accelerate:
    <bullet>  Decarbonization through the creation of zero-emission 
locomotives.
    <bullet>  Technology that enables a 50% increase in freight rail 
utilization and up to 50% reduction in safety incidents, while at the 
same time making rail faster and more efficient.
    <bullet>  Job creation that enables 250,000 direct, indirect and 
induced jobs spurred by the transportation and manufacturing sectors.

    Wabtec's goal is to develop the next generation of zero-emission 
locomotives. Wabtec has a clear path to power new locomotives--and 
repower existing locomotives--with batteries, hydrogen internal 
combustion engines, and hydrogen fuel cells. As discussed earlier, we 
are testing and deploying our battery-electric locomotive and plan to 
commercialize it in the near future. We are currently researching 
applicability of battery-hybrid and hydrogen combustion engines and 
hope to begin development and testing of those technologies quickly. 
These new technologies need to be retrofittable to the current fleet of 
locomotives. Each diesel-powered locomotive converted to alternative 
energy sources can save up to 3,000 tons of CO2 per year.\15\
---------------------------------------------------------------------------
    \15\ Based on 300k gallons of fuel consumed per locomotive per year
---------------------------------------------------------------------------
    Increasing rail utilization will reduce emissions across the board. 
Studies have highlighted that while improvement to infrastructure is 
important, there is significant opportunity to extract more useful 
capacity from the existing network.\16\ Advancements to current 
signaling systems and other utilization technologies can increase 
network capacity by 50%. Through next-gen technology such as dynamic 
network and on-demand logistics planning, we can optimize heavy haul 
operations, increase yard capacity and cargo visibility, and grow 
``first & last'' mile operations.
---------------------------------------------------------------------------
    \16\ ``National Rail Freight Infrastructure Capacity and Investment 
Study. Presented to Railroad Energy Transportation Advisory Committee'' 
by Cambridge Systematics; Sept 2008; U.S. Freight System Modernization 
Necessary to Reduce Bottlenecks, Improve Security; RAND Corporation. 
Jun 2009.
---------------------------------------------------------------------------
    As a key partner to the railroad industry, safety is at the core of 
all that we do at Wabtec and will be the number one focus of our 
``Freight 2030'' vision. Already, rail is safer than other modes of 
transport. For instance, there are 22 times fewer deaths and injuries 
per year in rail than trucking.\17\ We estimate an increase in freight 
rail utilization will result in 14,000 fewer injuries or deaths per 
year.\18\
---------------------------------------------------------------------------
    \17\ Wabtec calculation based on: Bts.gov, injuryfacts.nsc.org, 
nhtsa.dot.gov
    \18\ Wabtec calculation based on: Federal Motor Carrier Safety 
Administration--Large Truck and Bus Crash Facts 2018 and Bureau of 
Transportation Statistics
---------------------------------------------------------------------------
    Finally, ``Freight 2030'' is a bold vision for job creation. Within 
the next three years, we estimate this initiative will create over 
30,000 new jobs. In the longer term, the initiative will create 250,000 
new jobs. By increasing the amount of freight trains on the railroad, 
we increase the need for yard, maintenance and manufacturing workers. 
Therefore, we believe 80% of the jobs created through our program will 
be blue collar jobs. This is alongside the jobs created to construct a 
research institute, as well as build and maintain hydrogen fueling 
pipelines and stations around the country.
                 The Freight Rail Innovation Institute
    To accelerate the future of rail within the next decade and at 
scale, we ask Congress to collaborate with Wabtec, CMU and G&W to 
create, coordinate, and co-fund the Freight Rail Innovation Institute 
(FRII). This will send a message to the entire transportation industry 
that together, the private and public sectors can help achieve the 
nation's vision of a competitive and sustainable American freight 
transportation network.
    Moreover, this collaboration will create and fund technology 
research, demonstration, and commercialization initiatives that drive 
measurable action toward significantly increasing freight rail 
utilization and decarbonization of the rail network, while spurring 
hundreds of thousands of jobs. To that end, Wabtec proposes 
establishing centers of excellence in Green Power, Advanced Network 
Logistics, and Capacity at the FRII to bring rail into a new age of 
optimization and lead the world in freight rail innovation.
    A public-private partnership will create new manufacturing 
capabilities to supply ``Made in America'' technologies, such as zero 
emission locomotives powered by battery and hydrogen fuel cells, as 
well as on-site hydrogen generation solutions. In addition, it will 
further develop research priorities, conduct research, development, and 
testing, and foster collaboration and action between stakeholders to 
ensure the U.S. maintains its competitive edge and global leadership in 
creating the freight rail network of the future.
                               Conclusion
    Maximizing the freight rail network and shifting to clean power 
requires upfront intellectual firepower and capital investment. Wabtec 
and our partners are prepared to invest in the Freight Rail Innovation 
Institute alongside the U.S. government and ask for your support in 
creating a clean energy future together. Let's start building America's 
freight rail of tomorrow today.
    I greatly appreciate the Committee's attention on this matter. 
Thank you again for the opportunity to testify, and I look forward to 
answering any questions members may have.

    Mr. DeFazio. Thank you, Mr. Santana.
    I now recognize Representative Cohen, who would like to 
briefly introduce our next witness.
    Mr. Cohen. Thank you, Mr. Chairman.
    Memphis is kind of a one-name town. There is Elvis, there 
is Cybill, and there is Fred. He has been responsible for so 
much in Memphis, and it would not be the great 21st-century 
city without him.
    And his employees have done a great job in delivering the 
vaccine to America and making it safer from this pandemic.
    FedEx has been the number one carrier, along with UPS--I 
guess it may be a tie there--for helping get that vaccine to 
people around the country.
    There is not a cultural institution or athletic group that 
does not have a FedEx employee involved in a major way. 
Employees of FedEx contribute to our communities in a 
phenomenal fashion.
    And FedEx is ahead of the game in every single area. Just 
as it was ahead of the game in bringing aircargo business as it 
has to the world, it has been ahead in climate and innovative 
activities with electric vehicles and forward thinking.
    Just this past week, FedEx became one of 50 countries to 
sign the climate challenge to reduce and have zero net carbon 
emissions by 2040, 10 years ahead of the Paris Accords.
    It is my honor to represent the city, and FedEx has made a 
great city in America.
    Mr. Fred Smith.
    Mr. Smith. Chairman DeFazio, Ranking Member Graves, and 
members of the committee, thank you for inviting me to testify 
today on the business case for climate solutions.
    I would like to also thank Congressman Cohen for that kind 
introduction. He represents Tennessee's Ninth Congressional 
District, home of FedEx's headquarters where we have over 
30,000 team members employed.
    Addressing climate change is bigger than one business, and 
this committee recognizes for the United States to remain a 
global economic leader, we must work together on sound policy 
and innovative solutions for our planet. The health of our 
planet is at stake.
    FedEx has a long history of keeping sustainability at the 
center of our business, and we know the future of our 
operations is tied to the future of our environment.
    Building on that longstanding commitment, earlier this 
month, as Congressman Cohen mentioned, FedEx announced an 
enterprisewide ambitious new goal to achieve carbon-neutral 
operations by 2040.
    As part of this mission, we will accelerate progress 
already underway in the following areas:
    Electrification of our global parcel pickup and delivery 
vehicle fleet;
    Sustainable customer solutions;
    Sustainable fuels;
    Modernization of our aircraft;
    And continuing fuel conservation endeavors.
    Alongside the many key steps outlined in my written 
testimony, by 2040 the entire FedEx parcel pickup and delivery 
fleet will be zero-emissions electric vehicles.
    FedEx has also announced substantial support to help 
establish the Yale Center for Natural Carbon Capture, to 
accelerate research into methods of carbon sequestration and 
scale.
    The center's first focus will be helping to develop 
strategies that offset greenhouse gas emissions equivalent to 
current emissions produced by aircraft. From there, the Yale 
Center will address additional global sources of emissions, 
publishing its findings so other businesses, industries, and 
governments can benefit.
    In addition to our work with Yale, FedEx has a number of 
other future-focused sustainability strategies underway. Roxo, 
the all-electric same-day bot, and our drone delivery pilot 
program operated by Wing Aviation, are just two of the 
innovative, environmentally friendly, same-day, last-mile 
delivery solutions we are working on.
    As seen during the pandemic, the U.S. trucking industry is 
a critical link in maintaining supply chains, yet remains stuck 
with aging infrastructure and dated Federal equipment standards 
for twin 28-foot trailers, unchanged since 1982.
    One step with immediate environmental benefits would be a 
modest 5-foot increase to twin 28-foot trailers, which would 
reduce annual fuel use by 225 million gallons per year at no 
cost to road safety or to the taxpayers.
    Last year, this committee and this Chamber drafted an 
infrastructure package that incorporated important climate 
solutions. This included incentivizing commercial electric 
vehicles and zero-emission vehicle charging infrastructure, as 
well as advancing research into low emissions and alternative 
aviation fuel.
    There was also significant work done to modernize the 
electric grid for more renewable energy and prepare it for the 
large-scale deployment of electric vehicles.
    This is a good start, indeed, but more needs to be done, 
including modernizing our air traffic control system and 
updating air traffic management policies and guidance.
    Our ambitious agenda at FedEx shows that businesses can and 
will lead in creating a sustainable future for us all. Our 
company has been at this for a very long time, however, and we 
cannot do it alone.
    Government, industry stakeholders, and academia must 
continue to work together on policies and regulations to help 
ensure the U.S. maintains its status as a global leader in 
climate change policy, while also stimulating economic growth 
and job development.
    These are just a few of the priorities we must focus on to 
address our global climate challenges. I look forward to 
discussing those shared goals with you today.
    Thank you for inviting me.
    [Mr. Smith's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Frederick W. Smith, Chairman and Chief Executive 
                       Officer, FedEx Corporation
    Chairman DeFazio, Ranking Member Graves and members of the 
committee, thank you for inviting me to testify before the committee 
today on ``The Business Case for Climate Solutions.'' Addressing 
climate change is bigger than one business, and this committee 
recognizes for the United States to remain a global economic leader we 
must work together on responsible policy and innovative solutions for 
the health of our planet.
    For FedEx, sustainability is a relatively simple concept: to 
connect the world responsibly and resourcefully. FedEx has a long 
history of keeping sustainability at the center of our business, and we 
know the future of our operations is tied to the future of our 
environment. Building on that longstanding commitment, earlier this 
month FedEx announced an enterprise-wide ambitious new goal to achieve 
carbon-neutral operations globally by 2040, which I look forward to 
discussing in detail today.
                           FedEx Corporation
    FedEx has grown tremendously since its first night of operations in 
April of 1973. FedEx Corporation now consists of six independent 
operating companies that work collaboratively to provide our customers 
and communities we serve with innovative business solutions to meet 
their emerging needs. We have a fleet of over 680 aircraft including 
the new Boeing 777 freighter model, one of the most efficient freighter 
aircraft in the world. We serve over 650 airports in the U.S. and 
abroad. On the ground, we operate 200,000 motorized vehicles. Across 
all FedEx operating companies, we cover over 2.5 billion highway miles 
per year. Our fleet also includes the latest in all-electric and hybrid 
trucks, some of which traverse the streets of Washington, D.C., each 
day. Together, our 600,000 team members operate one of the largest 
logistics and transportation companies in the world, serving more than 
220 countries and territories.
    <bullet>  Our global FedEx Express integrated air-ground network 
offers time-definite air express shipping for parcels and freight 
shipping and links the American economy to more than 99 percent of the 
world's GDP. As one illustration of the power of this network, since 
January 2020, FedEx Express has transported nearly 80 kilotons of 
personal protective equipment--including more than 2 billion masks--
around the world as part of our response to the COVID-19 pandemic. We 
are now shipping approved COVID-19 vaccines, related ingredients, and 
supplies throughout the U.S., Canada, and to more than 20 other 
countries around the world. We are prepared to ship vaccines to more 
than 220 countries and territories for as long as necessary to help 
eradicate COVID-19.
    <bullet>  Our FedEx Ground and FedEx Freight networks use both road 
and rail to transport products from business-to-business as well as 
business-to-consumer services, which have proven to be essential 
services as communities work to combat the spread of COVID-19.
    <bullet>  Our FedEx Logistics business provides a suite of supply 
chain solutions, including heavy air and ocean cargo services, customs 
brokerage, and trade management tools and data.

    Connecting people with goods, services, ideas, and technologies 
creates opportunities that fuel innovation, energize businesses and 
lift communities to higher standards of living. At FedEx, we believe 
that a connected world is a better world, and that belief guides 
everything we do. And we recognize that with the privilege of 
connecting the world also comes the responsibility of being good 
stewards of the planet.
                     Reduce, Replace, Revolutionize
    The topic of today's hearing, climate solutions, has been a central 
focus at FedEx for a very long time. For example, nearly 20 years ago, 
FedEx was the first delivery company to use hybrid vehicles for pickup 
and delivery. In 2006, I joined with General P.X. Kelley (Ret.), 28th 
Commandant of the U.S. Marine Corps, and a group of business and former 
military leaders to form the Energy Security Leadership Council. Later 
that year, we released a plan to improve U.S. energy security as well 
as crucial follow-up reports and policy briefs. The council continues 
to support mitigating oil dependence through fuel efficiency standards, 
increased domestic oil production, and deployment of alternatives in 
transportation through technologies such as electric vehicles. That 
plan was instrumental in advancing the FedEx sustainability strategy: 
Reduce, Replace, Revolutionize.
    This three-pronged approach has the following goals:
    <bullet>  Specific to Reduce, this includes minimizing or 
eliminating the effects of our activities and operations.
    <bullet>  For Replace, we apply the right solutions in the right 
applications across our business.
    <bullet>  And within Revolutionize, we are continuously discovering 
and adopting cutting-edge technologies and solutions to drive impact.

    Since 2012, this strategy has helped us save 1.43 billion gallons 
of jet fuel and avoid over 13.5 million metric tons of CO2. In fiscal 
year 2019, we avoided more than 3 million metric tons of CO2 emissions 
as a result of our enterprise-wide fuel and energy saving initiatives. 
That's equivalent to the carbon sequestered by more than 4 million 
acres of U.S. forests in one year. Over a 10-year period from 2009 to 
2019 these efforts contributed to an approximately 40% reduction in CO2 
emissions intensity on a revenue basis across the enterprise while 
package volume increased 99%.
    Building on this longstanding commitment to sustainability, as I 
mentioned, earlier this month, we set a goal to achieve carbon 
neutrality for our global operations by 2040. To get there, we will 
invest in solutions and make necessary changes across our enterprise--
from our packaging to our fleet and more--to deliver lasting benefits 
for our industry and our planet.
                         Carbon Neutral by 2040
    To help us achieve this goal, FedEx is designating more than $2 
billion of initial investment in three key areas: vehicle 
electrification, sustainable energy, and carbon sequestration, as 
outlined below.
    <bullet>  Vehicle Electrification: By 2040, the entire FedEx parcel 
pickup and delivery (PUD) fleet will be zero-emission electric 
vehicles. This will be accomplished through phased programs to replace 
existing vehicles. For example, by 2025, 50% of FedEx Express global 
PUD vehicle purchases will be electric, rising to 100% of all purchases 
by 2030. Our work with General Motors will be key in helping us achieve 
this objective. As the first customer of their new commercial electric 
vehicle brand, BrightDrop, we look forward to taking delivery of 500 
vehicles this year alone.
    <bullet>  Sustainable Customer Solutions: FedEx will work with 
customers to offer end-to-end sustainability options for their supply 
chains through carbon-neutral shipping offerings and sustainable 
packaging solutions.
    <bullet>  Sustainable Fuels (SAFs): FedEx will continue to work 
with industry, government agencies, academia, and alternative fuel 
suppliers to seek development and invest in cost-effective alternative 
fuels to reduce aircraft and vehicle emissions. These investments build 
on our work in 2018 with Boeing, when FedEx supplied a B777 to Boeing 
for the 2018 ecoDemonstrator program, testing 35 separate technologies, 
some of which focused on achieving greater fuel savings. In addition, 
the aircraft flew on 100 percent biofuel. More investment and 
development are needed if we are to see the benefits of SAFs. Given the 
consumption rate of conventional aviation fuel as demonstrated in the 
attached chart, more investment and development are needed if we are to 
see the true benefits of SAFs.
    <bullet>  Fuel Conservation and Aircraft Modernization: FedEx will 
build on its successful FedEx Fuel Sense initiatives designed to reduce 
fuel consumption in its aircraft and continue to invest in new 
aircraft. For example, by the end of 2022, we plan to retire our fleet 
of MD-10s while continuing to acquire cleaner and more fuel efficient 
aircraft. We also will continue working with the U.S. Federal Aviation 
Administration to advance and modernize the National Airspace System.
    <bullet>  Facilities: FedEx will continue efforts to make its more 
than 5,000 facilities worldwide more sustainable through continued 
investments in efficient facilities, renewable energy, and other energy 
management programs. Across our FedEx Ground network, we have solar 
installations in service at 16 facilities and a number of projects in 
progress or in the planning phase at additional U.S. locations. 
Significant efforts are already underway as well to modernize major 
Express hubs in Memphis, Tenn., and Indianapolis, Ind.
    <bullet>  Natural Carbon Sequestration: FedEx will commit $100M 
over five years to help establish the Yale Center for Natural Carbon 
Capture to support applied research into natural carbon sequestration 
solutions.

    The path toward sustainability requires new strategies for removing 
and storing Earth's excess carbon. The Yale Center for Natural Carbon 
Capture will catalyze interdisciplinary research across the natural 
sciences and engineering to accelerate this work.
    Center researchers will develop methods that build on natural 
carbon storage systems, including biological ecosystems and the 
geological carbon cycle, improving, where possible, how quickly carbon 
can be absorbed, how much can be contained, and how long it can be 
stored. The center's first focus will be helping to develop strategies 
that offset greenhouse gas emissions equivalent to current emissions 
produced by aircraft. This effort is critical as we look forward and 
plan for the growth of this dynamic industry.
    The growth of aviation is essential to our collective future. 
Airplanes enable humanity's innate historical desire to travel and 
trade and have uniquely helped create a more connected, prosperous 
world. It was only 118 years ago that the Wright brothers took flight 
in their homemade machine. Today, global air services now comprise an 
industry with nearly 88 million jobs \1\. In 2019, airplanes 
transported over 4.5 billion passengers around the world \2\ and were 
responsible for over 30% of the value of all international trade \3\. 
And while COVID-19 has temporarily disrupted passenger travel, 
international air cargo services have proven essential to helping the 
world combat this crisis, by keeping critical supply chains open to 
ensure the timely delivery of much needed supplies and goods.
---------------------------------------------------------------------------
    \1\ International Air Transport Association
    \2\ International Civil Aviation Organization
    \3\ Bernstein research
---------------------------------------------------------------------------
    Unlike other transport activities that can be powered by batteries 
or other low-carbon fuels, achieving true sustainability in aviation 
has proven to be an intractable problem as there are few viable 
alternatives on the horizon to replace carbon-based jet fuels. Along 
with investing in the modernization of aircraft, the aviation industry 
will continue research and development of sustainable plant and waste-
based biofuels, synthetic carbon-based fuels, ``electrofuels,'' and 
``green hydrogen.'' However, the massive costs of new sustainable 
aircraft fuels, suitable new aircraft designs to use them, and 
associated infrastructure make the prospects for carbon-neutral 
aviation challenging. As Bill Gates documents in his new book ``How to 
Avoid a Climate Disaster,'' absent scientific breakthroughs in 
chemistry, flying would necessarily revert to a ``premium'' mode of 
transport--significantly decelerating future global prosperity and 
improvements in health.
    Developing a portfolio of natural solutions for carbon 
sequestration is an ambitious but realistic approach to this problem. 
Building upon initial successes in the aviation sector, the Yale center 
will broaden its scope to address additional global sources of 
emissions--publishing and sharing its findings so that other 
businesses, industries, and governments can benefit from work that will 
accelerate the adoption and implementation of natural carbon capture 
strategies around the world.
                       Future-focused strategies
    This partnership with Yale University is only one of many future-
focused sustainability strategies underway at FedEx. As we maintain a 
market-leading portfolio for e-commerce--the fastest growing segment of 
our business--we do so with a sharp focus on customer needs and the 
environment as we explore and develop emerging technologies that will 
help create a safer, efficient, and sustainable operation for the 
future. Roxo<SUP>TM</SUP>, the FedEx SameDay Bot holds promise for 
deliveries in congested or difficult delivery locations and is all 
electric--using only batteries that produce zero localized emissions. 
In 2019, FedEx launched its participation in a small package, small 
drone delivery pilot program operated by Wing Aviation LLC, a 
subsidiary of Alphabet Inc. The pilot program is being conducted in 
Christiansburg, Va., as part of the U.S. Department of Transportation's 
Unmanned Aircraft Systems Integration Pilot Program. Working to meet 
customer needs in an ever-changing marketplace, the collaboration was 
designed to evaluate enhancing last-mile delivery for same-day delivery 
of urgent shipments and other exceptional delivery needs.
    Regarding surface transportation, we must focus on creating sound 
and efficient trucking policies while also investing in infrastructure. 
As seen during the COVID-19 pandemic, the U.S. trucking industry is a 
critical link in maintaining supply chains, accommodating rapid growth 
in e-commerce and meeting fast changing consumer demands. Yet the 
industry remains stuck with aging infrastructure and dated federal 
equipment standards for twin 28-foot trailers that have not been 
changed since 1982. We must continue to advocate for common sense, 
environmentally friendly solutions to maximize trucking efficiency and 
increase environmental gains. One such common sense approach with 
immediate environmental benefits would be a modest 5-foot increase to 
twin 28, trailers--not an increase to the weight limits. This increased 
capacity in our nation's transportation system could reduce annual fuel 
use by 225 million gallons per year and reduce carbon emissions by 3 
million tons per year, all at no cost to road safety or taxpayers.
    Last year, this committee and this chamber did important work in 
drafting an infrastructure package that incorporated climate solutions. 
This included incentivizing commercial electric vehicles, promoting the 
building of zero emission vehicle charging infrastructure, and 
advancing research into low-emission and alternative aviation fuels. 
There was also significant work done to modernize the electric grid to 
accommodate more renewable energy and prepare the grid for the 
largescale deployment of electric vehicles. This is a good start, but 
there is more that needs to be done. As noted earlier, if we want to 
see the full benefit of SAFs, we need to invest in a manner that will 
facilitate development and create a sufficient supply of SAFs that can 
meet and adjust to operator demand. We also need to prioritize 
modernizing our air traffic control system. Beyond technology updates 
and staffing, we need to focus on updating air traffic management 
policies and guidance in a way that balances sustainability and 
efficiency objectives, with community impact.
    Our ambitious agenda at FedEx shows that businesses can and will 
lead in the effort to create a sustainable future for us all. However, 
we cannot do this alone. Government, industry stakeholders, and 
academia must continue to work together to adopt policies and 
regulations that help create a performance-based path that will foster 
and promote innovation in this field, ensuring that the U.S. maintains 
its status as a global leader in climate change policy, while also 
stimulating economic growth and job development.
    These are just a few of the priorities we must focus on as we work 
together to drive innovation and develop solutions to address our 
climate crisis. I look forward to discussing those shared goals with 
you today.
                               attachment
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. DeFazio. Thank you, Mr. Smith.
    We now move to Ms. Laurie Giammona.
    Ms. Giammona. Good morning, and thank you, Chairman DeFazio 
and Ranking Member Graves, for the opportunity to testify.
    I am Laurie Giammona, senior vice president of customer 
care for Pacific Gas and Electric Company in California. I 
appreciate the committee's interest in how business plays a 
role in addressing climate change and commend the committee for 
examining ways that Federal policy can complement this 
activity.
    PG&E's commitment to mitigating and adapting to climate 
change in a way that leaves no one behind is as strong as ever 
and fundamental to delivering on the triple bottom line: 
people, planet, and prosperity, underscored by strong 
operational performance.
    California has some of the Nation's most ambitious climate 
and clean energy goals, including reaching carbon neutrality by 
2045. PG&E is proud to be a committed partner in implementation 
of the State's vision.
    We provide some of the cleanest energy in the Nation with 
88 percent of electricity delivered from carbon-free sources. 
We are focused on meeting our customers' desires to adopt clean 
energy solutions, including energy efficiency, rooftop solar, 
battery storage, and electric vehicles or EVs.
    At the same time, California is experiencing the impact of 
climate change, from record wildfires to yearslong drought and 
unprecedented heat waves. As infrastructure operators and 
planners, PG&E is doing everything we can to adapt to this 
reality and increase the resilience of our energy system.
    Our industry is at a remarkable crossroads. For PG&E, we 
see electric transportation as a vital opportunity to make more 
efficient use and resilient use of our electric grid, keep 
costs affordable for all customers, and enable emissions 
reductions in the transportation sector, which in California 
accounts for 40 percent of emissions and is a major contributor 
to poor air quality.
    It is hard to understate the benefits of electric vehicles. 
EVs powered by PG&E's low-emission electricity will lower 
transportation emissions.
    Since EVs produce no tailpipe pollutants, air quality will 
also improve, ideally, for those disproportionally impacted 
living near highways, ports, and rail yards.
    EVs provide direct benefits to consumers in terms of lower, 
more predictable fuel and maintenance costs. For a PG&E 
residential customer, an equivalent gallon of gasoline costs 
just $1.60. Annually, an electric vehicle driver in PG&E 
service territory can save $1,200 in fuel and maintenance 
costs.
    Declining costs and increased variety of vehicle models has 
accelerated EV adoption in California, and already one in five 
EVs in the Nation plugs into PG&E's grid.
    It is not just EV adopters benefitting from lower costs. As 
EVs add more demand to the grid, the fixed cost of maintaining 
and operating the grid are spread amongst more kilowatthours, 
leading to lower electricity costs for all.
    Our grid will see other benefits and greater EV adoption 
since this load is flexible and geographically distributed. 
Utilities can optimize their grid benefits in using EVs to soak 
up excess solar power and exploring ways to use EVs as 
resilient assets.
    Of note, PG&E has more than $400 million in approved EV 
infrastructure programs to support fleet electrification for 
medium- and heavy-duty vehicles, public fast charging, and 
light-duty charging at workplaces and residential complexes. 
These programs include incentives for and deployment targets in 
disadvantaged communities, helping to ensure everyone can 
equitably access the benefits of EVs.
    PG&E also offers low and simplified EV charging rates and 
rebates to help lower the cost of ownership.
    Finally, through research and pilot programs, we are 
optimizing charging infrastructure siting and usage to maximize 
grid benefits and support customer affordability.
    We believe Federal policies can complement actions at the 
State level and help provide benefits to all customers. 
Specifically, we support Federal investment in policies to 
accelerate deployment of charging infrastructure, particularly 
in ways that will address range anxiety and deployment in 
disadvantaged communities.
    We further support Federal investment to encourage fleet 
electrification by transit agencies; Federal, State, and local 
governments; Tribes, and school districts.
    For other customers, incentives such as expanded tax 
credits can help accelerate adoption and drive down overall 
costs.
    Finally, increased Federal research and development in 
technology innovations can help reduce costs of EVs and ensure 
their successful integration to the grid.
    We appreciate the opportunity to testify, and we look 
forward to continuing to partner with the Federal Government to 
realize the benefit of EVs.
    Thank you.
    [Ms. Giammona's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Laurie M. Giammona, Senior Vice President for 
            Customer Care, Pacific Gas and Electric Company
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for inviting me to testify today. My name is 
Laurie Giammona, and I am the Senior Vice President for Customer Care 
at Pacific Gas and Electric Company (PG&E). PG&E is California's 
largest energy provider, with more than 23,000 employees providing gas 
and electric service to an area that is home to 16 million people.
                         PG&E's Climate Vision
    PG&E's commitment to mitigating and adapting to climate change, in 
a way that leaves no one behind, is as strong as ever, and it is what 
our customers expect and deserve. California's climate and clean energy 
goals are some of the most ambitious in the nation, with a goal to 
reach economy-wide carbon neutrality in the state by 2045. Clean 
electricity plays a foundational role in decarbonizing our economy, 
which is consistent with science-based reduction targets to avoid the 
worst effects of climate change. As such, PG&E's mission and vision are 
aligned with California's commitment to climate policy leadership, and 
we remain a committed partner in implementing the state's climate 
policies.
    In California, the electricity sector accounts for just 15 percent 
of greenhouse gas (GHG) emissions and state legislation requires us to 
have 100 percent of retail electricity sales from renewable and zero-
carbon resources by 2045.\1\ Part of California's comprehensive program 
to reduce carbon emissions is its Renewables Portfolio Standard (RPS), 
one of the most progressive clean energy mandates in the country, 
requiring 60% of energy delivered to retail customers to be from 
qualifying renewable resources by 2030. As a result, PG&E has one of 
the cleanest electricity portfolios in the nation, with 35% of our 
delivered energy from qualified renewable resources in 2020, and 88% of 
electricity we deliver is carbon-free.\2\ Given the low emissions 
profile of electricity in the state, electrification of other sectors, 
particularly transportation, will be key to decarbonizing California's 
economy. PG&E is well positioned to enable this transition.
---------------------------------------------------------------------------
    \1\ California Air Resources Board, ``Current California GHG 
Emission Inventory Data,'' https://ww2.arb.ca.gov/ghg-inventory-data.
    \2\ Pacific Gas and Electric Company, ``PG&E Surpasses California's 
2020 Renewable Energy Goal; Electricity Among Cleanest in Nation'' 
(March 2021), https://www.pgecurrents.com/2021/
03/09/pg-electricity-delivered-to-customers-is-more-than-88-greenhouse-
gas-free-and-
among-the-cleanest-in-the-nation/.
---------------------------------------------------------------------------
    PG&E customers are also embracing clean energy solutions. We are 
working closely with our customers to provide options that allow them 
to have more control over the energy that powers their lives. Of note, 
PG&E has more than 535,000 interconnected rooftop solar system 
customers--more than any other utility in the U.S.; we provide 
incentives to customers adopting battery storage systems; we offer a 
wide range of programs to help customers reduce their energy use and 
save money; and we provide some of the nation's leading programs to 
encourage electric vehicle (EV) adoption for both residential and 
commercial customers. Today, approximately one in five EVs in the 
United States plugs into PG&E's grid.\3\
---------------------------------------------------------------------------
    \3\ Pacific Gas and Electric Company, ``2020 Annual Corporate 
Responsibility and Sustainability Report'' (August 2020), https://
www.pgecorp.com/corp/responsibility-sustainability/corporate-
responsibility-sustainability.page
---------------------------------------------------------------------------
    At the same time, California is already experiencing the impacts of 
climate change, and we are doing everything we can to adapt to that 
reality. Through our Community Wildfire Safety Program, we are 
bolstering wildfire prevention and emergency response efforts, putting 
in place new and enhanced safety measures, and doing more over the long 
term to harden our electric system to help reduce wildfire risks and 
keep our customers safe.
    We're also integrating climate science into key company functions 
and creating tools to support planning and decision-making that 
considers the physical risks that extreme weather and climate change 
pose for our infrastructure. And, because resilience requires a 
community-wide approach, we're supporting climate resilience efforts at 
the state and local levels including through PG&E's Better Together 
Resilient Communities grants program.
    For PG&E, corporate sustainability and addressing climate change 
isn't just a nice-to-have; it's a core part of our business strategy to 
meet the triple bottom line of people, planet and prosperity of 
California, underscored by strong operational performance. Our 
customers and communities rely on PG&E to deliver safe, reliable, 
affordable and clean energy, and we must meet their needs today in a 
way that creates a better tomorrow. It's what our customers, investors, 
regulators, community leaders and employees want and deserve.
               Benefits of Transportation Electrification
    Electrification of the transportation sector will provide 
tremendous benefits for our environment, our economy and our energy 
system. In California, transportation is the largest single contributor 
of GHG emissions, accounting for 41% of GHG emissions--higher than the 
national average of 28% for the sector, while electricity accounts for 
just 15% of statewide GHG emissions.\4\ Nationally, emissions from the 
power sector are at their lowest level since 1987,\5\ while 
transportation is now the leading source of GHG emissions.\6\ As the 
electricity sector continues to reduce its GHG footprint in California 
and across the nation, electrifying transportation presents one of the 
greatest opportunities to address climate change.
---------------------------------------------------------------------------
    \4\ California Air Resources Board, ``Current California GHG 
Emission Inventory Data,'' https://ww2.arb.ca.gov/ghg-inventory-data.
    \5\ U.S. Energy Information Administration, ``Carbon dioxide 
emission from the U.S. power sector have declined 28% since 2005'' 
(October 2018), https://www.eia.gov/todayinenergy/detail.php?
id=37392#::text=EIA%20has%20calculated%20that%20CO2,the%20lowest%20leve
l%20since
%201987.
    \6\ U.S. Environmental Protection Agency, ``Sources of Greenhouse 
Gas Emissions,'' https://www.epa.gov/ghgemissions/sources-greenhouse-
gas-emissions.
---------------------------------------------------------------------------
    Transportation electrification will also improve air quality and 
public health as EVs do not produce any tailpipe emissions. In 
California, motorists drive more than a billion miles each day, 
producing 1,000 tons of smog-forming pollutants.\7\ High levels of air 
pollution can lead to asthma and other respiratory illnesses that 
especially affect children and seniors, and those living in communities 
adjacent to highways, ports and rail yards can suffer disproportionate 
effects. In California's San Joaquin Valley, for instance, communities 
suffer from some of the nation's worst air quality, due to the area's 
topography, local industries and heavy traffic. Communities in the 
region are promoting clean vehicles to help reduce pollution and 
improve public health. In fact, a recent study showed that a shift to 
electric trucks and buses in urban areas could prevent more than 57,000 
premature deaths by 2050.\8\
---------------------------------------------------------------------------
    \7\ California Air Resources Board, ``Drive Clean CA.Gov,'' https:/
/driveclean.ca.gov/why-drive-clean.
    \8\ Environmental Defense Fund, ``Clean Trucks, Clean Air, American 
Jobs'' (March 2021), https://www.edf.org/sites/default/files/2021-03/
HD_ZEV_White_Paper.pdf.
---------------------------------------------------------------------------
    The transition to electric vehicles isn't just an environmental 
priority, it's also a generational and transformational opportunity for 
the United States to generate new jobs and drive economic output. As 
our nation seeks to recover from the COVID-19 pandemic and economic 
downturn, EV manufacturing and charging infrastructure buildout could 
create thousands of domestic jobs, adding to the more than 266,000 
American jobs already supported by the alternative fuel vehicle 
industry.\9\ For PG&E, installing charging infrastructure and preparing 
the grid for greater electrification creates new job opportunities for 
our workers. For instance, PG&E has partnered with IBEW Local 1245, 
which represents about 12,000 PG&E employees, to build out charging 
ports, and we look forward to continuing to partner with IBEW 1245 as 
we seek opportunities to upgrade the grid and expand charging 
infrastructure.
---------------------------------------------------------------------------
    \9\ National Association of State Energy Officials and Energy 
Futures Initiative, ``2020 U.S. Energy & Employment Report,'' https://
www.usenergyjobs.org/.
---------------------------------------------------------------------------
    Overall affordability is also driving greater EV adoption in our 
service area. Increased variety and number of vehicle models, improved 
battery capacity and declining costs have made EVs more attractive to 
consumers. EVs are less expensive to operate than gasoline-powered 
vehicles, primarily due to fuel cost savings because electricity is 
less expensive than gasoline on an equivalent cost basis. Customers 
using one of PG&E's residential EV rate plans pay as low as $1.60 per 
gasoline gallon equivalent--nearly 60% less than today's average price 
of $3.84 per gallon of gasoline in California.\10\ These are fuel 
prices Californians haven't seen since in decades. For the typical 
Californian who drives about 14,000 miles a year in a car that averages 
35 miles per gallon, this represents a savings of about $900 
annually.\11\ EV owners also benefit from lower annual maintenance 
costs, averaging $330 less per year than gas-powered cars.\12\
---------------------------------------------------------------------------
    \10\ AAA, ``California Average Gas Prices: March 11, 2021,'' 
https://gasprices.aaa.com/?state=CA.
    \11\ Car and Driver, ``What is the Average Mileage Per Year,'' 
https://www.caranddriver.com/
research/a32880477/average-mileage-per-year/
#::text=The%20residents%20of%20both%20states,
Florida%3A%2011%2C836%20miles.
    \12\ AAA, ``Owning an Electric Vehicle is the Cure for Most 
Consumer Concerns'' (January 2020), https://newsroom.aaa.com/2020/01/
aaa-owning-an-electric-vehicle-is-the-cure-for-most-
consumer-concerns/.
---------------------------------------------------------------------------
    EVs will even provide economic benefit to our customers who do not 
choose to adopt them--namely through more affordable electric rates. As 
additional demand is added to our grid, the fixed costs of upgrading 
and maintaining the grid will be spread over more kilowatt hours, which 
will help lower costs for all customers. This is particularly true when 
EV users are incentivized to charge during off-peak periods. Even with 
the modest load that EVs have added to PG&E's grid to date, we're 
seeing benefits for all customers. A recent study by Synapse Energy 
examined the contribution of EV charging to PG&E revenues from 2012-
2018 in comparison to the investments PG&E made in distribution 
upgrades and PG&E programs. The study found that EVs contributed around 
$350 million more than the cost of upgrades and incentives--a number 
likely to grow as adoption increases in future years.\13\
---------------------------------------------------------------------------
    \13\ Synapse Energy Economics, Inc, ``EV Rate Impacts in 
California'' (June 2019), https://www.synapse-energy.com/sites/default/
files/EV-Impacts-June-2019-18-122.pdf.
---------------------------------------------------------------------------
    Greater EV adoption will provide us more flexibility to manage the 
grid in a way that promotes better resilience and reliability. In our 
service area, there is an increasing penetration of solar resources 
available in the morning hours--when demand is lower--and an increase 
in electricity demand in the afternoon and evening hours when the sun 
is down. Smart charging and incentives to EV owners to recharge during 
those peak solar hours will allow us to utilize more renewable energy 
and shift demand in a way that benefits all grid users. For example, 
electric companies can send price signals to encourage customers to 
charge their EVs at certain times of day. PG&E's electric rates for EV 
owners send price signals encouraging residential and commercial EV 
customers to charge their vehicles overnight or during the sunny 
morning hours. And PG&E has proposed a dynamic electric rate for 
commercial customers that would encourage customers to charge at the 
lowest cost times of day by providing a day-ahead, hourly price signal. 
Beyond rates, PG&E has piloted various incentives to encourage 
customers to flexibly charge. Notably, we are completing a pilot with 
Pittsburg Unified School District that tested the ability of school 
buses to charge during the middle of the day, when there is excess 
solar generation on the grid.
           Supporting Customer Adoption of Electric Vehicles
    For all these reasons, PG&E supports California's efforts to build 
a low-carbon and clean energy future through the adoption of zero-
emission vehicles, and we believe the utility sector can play an 
important role in advancing clean transportation options for our 
customers.
    The role played by electric utilities is only one of many in the 
broader transportation electrification ecosystem. This ecosystem 
includes entities such as policy makers, automakers, EV charging 
companies, battery and component manufacturers, technology providers, 
and utilities. None of these entities can work in isolation and they 
all rely upon one another. But primarily, they all rely upon customers 
to purchase electric vehicles and install charging infrastructure. As 
part of this ecosystem, PG&E focuses on four areas in which we leverage 
our core competencies to thoughtfully expand transportation 
electrification, generate economically beneficial load growth and 
support hard-to-serve segments: 1) expand access to charging 
infrastructure; 2) reduce the total cost of ownership; 3) engage and 
educate our customers about the benefits of electric vehicles; and 4) 
optimize use of the electric grid.
    On charging infrastructure, PG&E is actively collaborating with 
automakers, charging equipment providers and state agencies to support 
the large-scale electric infrastructure needed to incorporate EV 
charging systems into the energy grid. These investments total more 
than $400 million in approved infrastructure investments through 2025--
one of the largest utility-EV investments in the nation--which includes 
these programs:
    <bullet>  EV Charge Network: $130 million to install 4,500+ level-2 
charging ports to support light-duty vehicle charging at workplaces and 
multi-unit dwellings;
    <bullet>  EV Fleet: $236 million to help 700+ organizations 
including school districts, transit agencies and small businesses 
electrify their fleet operations by supporting infrastructure for 6,500 
medium- and heavy-duty EVs;
    <bullet>  EV Fast Charge: $22 million to install infrastructure to 
support public Direct Current Fast Charging (DCFC); and
    <bullet>  EV Schools and Parks: $12 million in charging 
infrastructure at schools and state parks.

    Charging programs include incentives for and deployment targets in 
disadvantaged communities, helping to ensure customers can equitably 
access the benefits of EVs, and PG&E seeks to install up to 2,000 
level-1 and level-2 home chargers for low-income customers by 2023. For 
example, Madera Unified School District, located in a disadvantaged 
community in California's Central Valley, received support from PG&E's 
EV Fleet Program in the form of rebates, infrastructure, and technical 
assistance which enabled them to install 10 EV charging stations, 
electrify five electric busses in 2020, and support their plans for 
additional electric busses in the coming years. School districts across 
the state have begun to embrace electrification to reduce vehicle 
emissions that are especially harmful to children and are often more 
pronounced in disadvantaged communities. In addition, fleet 
electrification can reduce major expenses such as maintenance and 
fueling costs, especially for fleets with fixed routes and charging 
locations. For its EV Charge Network and EV Fast Charge programs, PG&E 
has received applications that far exceed resources available, 
demonstrating the strong demand from our customers for EV charging and 
the continued need for utility support. PG&E is working now on the next 
generation of programs, including a 10-year strategic plan on electric 
transportation investments that we will file with the California Public 
Utilities Commission (CPUC) in 2022.
    For our customers, PG&E is also working to reduce the total cost of 
EV ownership through rebates and specialized electric rates that ensure 
owning and operating an EV can be cheaper than a gasoline-fueled 
alternative. In addition to federal tax credits, Californians are 
eligible for a point-of-sale price reduction of up to $1,500 for the 
purchase or lease of a new EV through the California Clean Fuel Reward 
program. PG&E also offers residential and commercial EV charging rates, 
that provide predictable, simplified and affordable rates for 
customers. To help customers estimate the full costs of EV ownership, 
PG&E offers an online EV Savings Calculator for both residential and 
fleet customers where customers can browse EV models, discover 
incentives, compare rate plans, and locate charging stations.
    Finally, through research and pilot programs, PG&E is optimizing 
charging infrastructure siting and usage to maximize grid benefits and 
support customer affordability. For example, PG&E is testing how smart 
charging and battery storage can lower operating costs and maximize 
efficiencies for San Joaquin Regional Transit District. PG&E is 
testing, analyzing, and comparing the economics for charging at various 
times of the day using different models with and without battery 
storage. As part of the pilot, PG&E funded five new electric bus 
chargers and a battery energy storage system and funded and built the 
infrastructure from the electric grid to the chargers and storage 
system.
         Federal Policy Can Complement and Accelerate Progress
    Like the current pandemic, climate change is a global challenge 
that requires urgent and decisive action, including leadership by the 
federal government to provide businesses clear, durable policies and 
market-based incentives to act. PG&E believes federal policies can 
complement actions at the state level and help provide benefits to all 
customers who wish to electrify their transportation.
    As we have witnessed through our own experience, customers are 
eager to adopt EVs and enjoy their benefits, but much more is needed to 
build out charging infrastructure, drive down the upfront costs of 
electric vehicles, particularly for disadvantaged communities, 
encourage fleet conversion, and promote the research and innovation 
needed to make further progress. While PG&E has made significant 
investments to accelerate EV adoption, our customers cannot alone 
shoulder all costs needed to advance transportation electrification. 
Given the economy-wide benefits of EVs, we believe there are key roles 
the federal government should play to support this transition, 
including:
Infrastructure Deployment:
    <bullet>  Provide grant funding for public EV and other clean fuel 
infrastructure, including for deployment along the national highway 
system and in disadvantaged communities, and ensure electric utilities 
are eligible to partner with grant recipients given their critical role 
in infrastructure deployment.
    <bullet>  Provide rebates for EV charging infrastructure in 
workplaces and multi-unit dwellings, and ensure electric utilities are 
eligible to partner with grant recipients given their critical role in 
infrastructure deployment.
    <bullet>  Update and extend the federal tax credit for alternative 
fuel infrastructure to encourage commercial and consumer investments in 
charging infrastructure.
Customer Adoption:
    <bullet>  Modernize existing federal transportation programs to 
encourage investments in electric transportation and charging 
infrastructure.
    <bullet>  Expand funding for zero- and low-emission school buses.
    <bullet>  Provide grants and other incentives for electrification 
at ports, airports and rail yards and for public transit agencies and 
state, local and tribal governments to electrify their fleets.
    <bullet>  Provide incentives for adoption of light-duty EVs through 
extension of the EV tax credit and examine opportunities to provide 
point-of-sale rebates and used EV incentives to promote greater equity 
and lower the upfront cost for all customers including those with 
limited tax liability.
    <bullet>  Accelerate electrification of medium- and heavy-duty 
vehicles by providing tax incentives for manufacturing and adoption of 
these vehicle classes.
    <bullet>  Expand federal procurement of electric vehicles.
Research, Development & Demonstration:
    <bullet>  Expand federal funding for research, development, and 
demonstration efforts to accelerate innovations necessary to continue 
reducing costs of light-, medium- and heavy-duty EVs and ensure 
successful integration with the electric grid.
         Essential Partners in America's Transportation Future
    The nation's energy sector is in the midst of a profound 
transformation. PG&E is continuing to make investments in smarter, more 
resilient energy infrastructure, providing even cleaner energy, and 
expanding the choices and energy solutions available to meet the 
changing needs of our customers. Electrifying the transportation sector 
is the gateway to a sustainable, clean energy future and an opportunity 
to collectively make progress to achieve extraordinary benefits for all 
Americans in the decades ahead.
    PG&E is fully committed to working together with policymakers, 
customers and all stakeholders to make this opportunity a reality. 
Thank you again for having me here today. I look forward to your 
questions.

    Mr. DeFazio. Thank you, Ms. Giammona.
    Mr. Tom Lewis.
    Mr. Lewis. Mr. Chairman and committee members, thank you 
for your time today.
    My name is Tom Lewis, and I am a licensed civil engineer, a 
founding board member of the International Coalition for 
Sustainable Infrastructure, and the executive leader of the 
climate, resilience, and sustainability business at WSP USA.
    WSP USA is one of the largest engineering consultancies in 
the Nation. We have more than 11,000 employees in roughly 140 
offices across the United States. We deliver infrastructure 
solutions for hundreds of communities, including many in your 
own congressional districts.
    At WSP USA, we understand that our country and our planet 
are at a critical moment that demands focused and effective 
climate solutions. Based on our work across all types of 
infrastructure and all phases of its life cycle, we embrace our 
role as a force multiplier for positive change and believe that 
the business case for climate-oriented infrastructure solutions 
is very clear.
    The business case is reinforced every day as we provide 
services to reduce the depletion of natural resources, limit 
life-cycle greenhouse gas emissions, and make infrastructure 
more resilient to disaster.
    This work includes the increased use of nature-based 
solutions, renewable energy, transportation system 
electrification, and equitable community engagement.
    Climate solutions for infrastructure need to be rooted in 
the quantification and consideration of future risk on a 
project-by-project basis. Unfortunately, proactive investment 
in risk mitigation has been absent from the vast majority of 
infrastructure programs and project selections across the 
country.
    As my fellow witness Troy Rudd mentioned, and according to 
the National Oceanic and Atmospheric Administration, 2020 saw 
an all-time record of 22 weather-related disasters that yielded 
economic losses in excess of $1 billion, in addition to the 
tragic loss of 262 human lives.
    This effectively highlights the extremely disruptive, 
expensive, and dangerous consequences of not funding and 
building smartly so that we are protecting against the risk of 
infrastructure failures, casualties, and loss of community 
lifelines and other essential services.
    Experience has taught us that increasing project capital 
costs by just a few percentage points to better future-proof 
our Nation's infrastructure is a very wise investment. In fact, 
FEMA statistics show that each dollar spent on pre-disaster 
mitigation measures saved an average of $4 over an 
infrastructure element's lifespan.
    This noteworthy return on investment is especially 
compelling when you consider that capital construction and 
long-term budget planning almost always underestimates the cost 
and national resource impacts of long-term operation, 
maintenance, and repeated post-disaster repairs.
    Smart investment in life-cycle resilience and 
sustainability must be prioritized to build better 
infrastructure going forward that, in turn, lowers life-cycle 
greenhouse gas emissions.
    The good news is that WSP USA has recently supported 
emerging project success stories in multiple States where 
sustainability, resilience, and risk considerations were 
central to infrastructure planning, engineering, and investment 
decisions on a project-by-project basis.
    These include projects in Massachusetts, using a 
resilience-centric approach; in Florida and New York, using 
nature-based solutions for coastal protection; and in 
California, using a sustainability-centric approach for urban 
transit and for high-speed rail.
    Projects like these use a risk-based framework for 
assessing and protecting assets, natural resources, vulnerable 
communities, and the climate. This is the essence of applying a 
sustainability approach toward infrastructure and makes real 
the goal of achieving a favorable economic, environmental, and 
social equity triple bottom line.
    More frequent extreme weather events continue to endanger 
and impact vulnerable and underresourced communities more than 
any others in both rural and urban areas.
    Therefore, in addition to creating physical resilience, 
climate solutions for infrastructure must establish increased 
economic opportunity and stakeholder buy-in through strategic 
engagement and meeting vulnerable communities where they are.
    To achieve equitable outcomes and maximize stakeholder buy-
in, Federal policies and funding decisions around 
infrastructure need to place the perspectives of all impacted 
communities at the center of the process.
    In closing, we believe that case-by-case, climate-based 
infrastructure solutions can and will meet this critical moment 
for our Nation and our planet if the following business case 
performance objectives are promoted through good legislation, 
funding decisions, and policymaking.
    First, incentivize the selection, design, and construction 
of infrastructure projects that draw from and impact fewer 
natural resources, including the increased use of nature-based 
solutions, renewable energy, and transportation system 
electrification.
    Second, reduce life-cycle greenhouse gas emissions and 
adverse climate and biodiversity impacts.
    Third, require that infrastructure be more resilient to 
future extreme weather events and climate.
    And fourth, prioritize the protection of the most 
vulnerable and disadvantaged communities.
    Thank you for the opportunity to give this testimony.
    [Mr. Lewis' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Tom Lewis, P.E., J.D., National Business Line 
     Executive for Climate, Resilience, and Sustainability, WSP USA
 Introduction: Meeting the Moment and Being a Positive Force Multiplier
    Mr. Chairman and Committee Members, my name is Tom Lewis and I am a 
licensed civil engineer and the Climate, Resilience and Sustainability 
(CRS) Executive Leader for WSP USA. My position at WSP USA was recently 
created to meet this critical moment in history by coalescing our many 
like-minded, multidisciplinary climate, resilience and sustainability 
professionals.
    The primary objective of the new business line is to enable WSP USA 
to be a force multiplier for positive organizational and infrastructure 
systems change. Our team recognizes that our country and planet are at 
a critical inflection point that demands focused and effective climate 
impact mitigation and adaptation. I enthusiastically accepted the 
opportunity to transition out of my role as WSP USA Federal Programs 
sector president to lead our CRS team, because the role builds on my 
personal passions, and benefits from my career-long advocacy for 
infrastructure sustainability, resilience and environmental 
stewardship, and my leadership on multiple industry boards. The vision 
and mission of CRS directly aligns with the goals of this hearing.
    WSP USA is the U.S. operating company of WSP Global, one of the 
world's leading engineering and professional services firms with more 
50,000 employees worldwide. Dedicated to serving communities, 
governments and the commercial sector, the firm comprises engineers, 
planners, environmental specialists, strategic advisors, project and 
program managers, and construction and operations management 
professionals. With more 10,000 employees across the country, WSP USA 
provides solutions in the transportation, buildings, energy, water and 
environment markets. The CRS business line is the ideal platform to 
support climate action and resilient infrastructure in communities 
nationwide.
                          The Question at Hand
    The foundational question being discussed in the hearing today is 
the appropriateness of incorporating considerations of climate change 
into investment decisions, or the business case for such action. Do 
investments in sustainability, emissions reductions and resilience make 
sense, and how should they be considered by this body? Stated simply, 
the business case from my perspective is:
    <bullet>  Designing, operating and maintaining infrastructure that 
draws fewer natural resources is an efficiency measure, and more 
reliance on sustainable energy sources extends the natural resources of 
the U.S. to future generations.
    <bullet>  Requiring construction of infrastructure that is 
resilient to current and future events ensures:
      <bullet>  the federal government won't have to go back into 
communities to provide duplicative repair on impacted assets after an 
event; and
      <bullet>  the long-term maintenance and repair of the system once 
turned over to state and local agencies won't place a heavier burden on 
them, as state budgets are stretched to the extreme.
    <bullet>  Communities and businesses can more quickly be brought 
back online after a disaster event with energy, water and 
transportation systems operating to facilitate recovery.
   A Value-Added Holistic Perspective: Infrastructure for the Future
    At WSP USA, we assess, plan, design and manage Future Ready<SUP>TM</SUP> 
infrastructure for our U.S. clients and partners that more effectively 
anticipates forthcoming needs and conditions, and therefore provides a 
high level of sustainable and environmentally sound service for many 
generations.\1\
---------------------------------------------------------------------------
    \1\ https://www.wsp.com/en-CA/who-we-are/future-ready
---------------------------------------------------------------------------
    During the lifespan of infrastructure, technologies and societal 
needs will radically change. Likewise, the climate will continue to 
change, bringing more extreme weather and the inevitable phase-down of 
fossil fuels. We recognize that design codes and standards are often 
slow to change, and in many cases do not consider current and future 
conditions, which are materially different than the existing conditions 
at the time of the asset's development. For example, in many cases we 
have found the design of infrastructure still reflects design 
parameters based on outdated relationships between asset performance, 
user demands, climatological trends, environmental influences, and 
other conditions that could affect the useful life and the level of 
performance of that asset.
    As a firm that works across all types of infrastructure and all 
phases of its lifecycle for government and non-government clients, WSP 
USA has a clear view on the state of infrastructure and a unique multi-
dimensional perspective on the business case for climate solutions in 
infrastructure development. We provide services that support both 
climate mitigation through greenhouse gas (GHG) reduction and climate 
adaptation through infrastructure resilience and nature-based 
solutions. From that educated perspective, it seems clear that we as a 
society need to make the case for justifying funding and investment 
decisions on the technical and benefit-cost merits that result in our 
infrastructure being more adaptive, sustainable and resilient to future 
climatological, environmental, technological and societal trends.
    WSP USA has worked on many of our country's largest and most 
important government and public-private-partnership (P3) infrastructure 
projects supporting road, bridge and tunnel improvements, rail and 
transit expansion, airport upgrades, renewal of ports, and water and 
power network modernization in a way that makes a positive impact on 
communities and the environment. These projects often include 
considering multiple aspects of potential climate disruptions, 
including preparing for resilience, improving efficiency and 
sustainability, and ensuring social justice in new designs and 
development.
    At the same time, WSP USA also works for some of the most 
innovative and climate-focused private companies in the U.S. and 
worldwide. These companies include investors funding highly progressive 
projects and technologies, airlines looking to fly using biofuels today 
and hydrogen tomorrow, information technology providers finding new 
ways to store data in ways that reduce demands for water and cooling, 
and financial institutions looking to make their portfolios more 
reflective of the ``green transition'' and with due consideration of 
the social cost of carbon. Often, the solutions developed for and 
employed by these innovative private clients can be, and are, adapted 
for use by our government clients.
               Credibility: Walking the Talk as a Company
    As an example of how a more adaptive and flexible approach to 
future climate conditions can be formalized as part of engineering 
decision-making, WSP USA trains all its hires in its Future Ready 
program to inspire and empower our employees to design for future 
resilience, adaptability and sustainability. By considering current, 
emerging and anticipated trends in future climatological and 
environmental conditions, the Future Ready approach helps our employees 
develop infrastructure solutions and organizational improvements for 
the benefit of the communities in which they live, work and serve.
    To show how this can be done for greenhouse gas emissions 
reductions, WSP USA became carbon neutral across our operations in 
2019. As a result of this and other progressive improvements within our 
organization, we were recognized by World Finance Magazine as the most 
sustainable company in the engineering industry for both 2019 and 2020. 
Further, in February 2020 WSP became the first professional services 
firm to sign onto a recently created sustainability-linked credit 
facility in the Americas. The agreement applies to a $1.2 billion 
credit facility and includes three key performance metrics to document 
our ongoing commitment to be a sustainable leader in the infrastructure 
industry and society more broadly, including:
    <bullet>  Reduction in operational greenhouse emissions between 
2018 and 2021;
    <bullet>  The percentage of our services having a positive effect 
on the environment; and
    <bullet>  The percentage of women in management positions.

    As further described in the following section, in 2020 WSP USA--in 
collaboration with the American Society of Civil Engineers (ASCE) and 
others--launched the International Coalition for Sustainable 
Infrastructure (ICSI). The company is also a founding organizer of 
www.pledgetonetzero.org, a program designed to galvanize our consulting 
industry to take on climate action even more directly, while we guide 
our clients on their own net zero carbon progress. Pledge to net zero 
is now one of the United Nation's (UN) Race To Zero partners ahead of 
the pivotal 26th UN Climate Change Conference of the Parties (COP26), 
scheduled for November 1-12, 2021 in Glasgow Scotland. Pledge to net 
zero requires three commitments:
    1.  Commit to at least a `well below 2+ Celsius' science-based 
target under the SBTi (Science Based Targets initiative--a non-profit 
facilitated collaboration involving the UN Global Compact, World 
Resources Institute (WRI) and the World-Wide Fund for Nature (WWF),
    2.  Publicly report emissions; and
    3.  Publish at least one piece of thought leadership each year.
   A Coalition of Engineering Organizations: Bridging the Gaps With 
                            Practical Action
    For thousands of years, civil engineers have been imagining, 
designing and building infrastructure that has allowed humans to 
congregate and interact, explore and thrive. Their ingenuity propelled 
the growth of human civilization and paved the way to the present. Yet 
advancement has come at a high cost, economically and environmentally.
    In order to fuel our modern lifestyles, we are unsustainably 
expending the resources of our natural environment. The rate of non-
renewable natural resource extraction such as minerals, precious metals 
and fossil fuels, as well as post-extraction manufacturing and 
combustion, have led to unprecedented impacts on the world's climate 
and ecosystems. Based on the latest global scientific consensus from 
the Intergovernmental Panel on Climate Change (IPCC), the world's 
global average temperature has risen 1.1o Celsius since the industrial 
revolution. This trend will have major ramifications for our nation's 
and the world's infrastructure under any scenario, but if left 
unchecked it could be catastrophic to civilization and natural habitats 
as we know them.
    Transportation is the lifeblood of our economies and is also the 
leading contributor to greenhouse gas emissions in the U.S., accounting 
for approximately 30 percent of the nation's total emissions including 
cars, trucks, airplanes and other transit modes. Our national approach 
to repairing and maintaining roads, bridges and other transportation 
infrastructure must urgently consider new assumptions to accelerate how 
we design, measure, manage and invest in infrastructure to achieve both 
resilient and adapted standards and the transition to a low or net zero 
carbon economy that fully considers the physical and social impacts of 
carbon and other GHG emissions.
    Given this urgency, I along with Seth Schultz (currently the 
Executive Director of The Resilience Shift), envisaged a ``Future World 
Vision Leadership Summit'' hosted in late 2019 by the ASCE and its non-
profit ASCE Foundation. The idea was realized in November 2019 as a 
highly successful summit attended by leadership from WSP USA, the 
Resilience Shift, ASCE and more than 35 other infrastructure 
stakeholders from around the U.S. and the world--five other major 
engineering firms and two major infrastructure construction firms, two 
major transportation/transit agencies, six major municipal/county 
infrastructure agencies, the U.S. Army Corps of Engineers, three top 
universities and three leading non-governmental organizations (NGOs).
    As a direct outcome of the leadership summit, more than 100 
individuals from dozens of organizations signed an open letter of 
commitment to action that in turn led to the 2020 launching of ICSI, 
with the letter of commitment stating:

          ``The global population will face unprecedented challenges 
        over the next 50 years, from rising seas to more frequent 
        extreme weather events, all of which will happen against a 
        backdrop of significant demographic changes and technology 
        advances. These global trends are already posing well-
        documented challenges,
          Practical solutions are needed in order to adapt our 
        infrastructure, close the resilience gap and breakdown barriers 
        to action. While there has been some progress in developing 
        favorable environmental, economic and social policy to lessen 
        the impacts of the changing climate, we need a larger scale 
        commitment among all stakeholders, especially engineers, to:
          <bullet>  Identify, prioritize and better understand the gaps 
        and barriers for the planning, designing, building, maintaining 
        and operating sustainable and resilient infrastructure now and 
        in the future;
          <bullet>  Cultivate and unlock the full potential of untapped 
        partnerships and funding investments designed to reduce the 
        impacts of extreme weather events, create sustainable and 
        resilient infrastructure, and effect social change; and
          <bullet>  Understand and identify practical plans of action 
        and resources for implementing strategies that influence 
        realistic short-term goals and have measured, long-term 
        effects.
          We the undersigned commit to unite forces and bring our 
        relevant expertise and resources to a Coalition for Sustainable 
        Infrastructure.''

    I am extremely proud to be one of the five founding board members 
for ICSI as WSP USA's representative, along with representatives from 
the ASCE and its Foundation (Chair), the Resilience Shift (Host), the 
Global Covenant of Mayors for Climate and Energy (GCoM), and the 
Institute for Civil Engineers (ICE). ICSI's vision (``Engineering a 
more sustainable, just and resilient future'') and mission 
(``Mobilizing an engineering-led coalition to make resilience and 
sustainability a cornerstone of every decision in the infrastructure 
lifecycle in every community around the globe'') and is perfectly on 
topic for this hearing, and so I am happy to add the ICSI perspective 
into my further testimony below.
 Making the Business Case for Climate-Focused Infrastructure Solutions
    If we are serious as a society about future proofing our essential 
structures and infrastructure systems, we must employ a risk-based and 
community-engaged framework, while considering both the public and 
private sectors as partners providing integrated and complementary 
solutions. Much of the risk that private entities face from climate-
related events is the result of dependencies on public infrastructure 
that support community functions, such as transportation systems, parks 
and water supply. Likewise, many governmental functions depend on the 
reliable and consistent provision of primarily privately provided 
networks such as the electrical grid, fuel supply, mobile 
communications networks and internet fiber.
    Meanwhile, the evidence in the U.S. from FEMA, and globally from 
the UN, is very clear and compelling that a dollar spent proactively on 
infrastructure risk mitigation and better climate adaptation pays 
itself back four or more times over in the form of greatly reduced, or 
even wholly avoided, response and recovery costs retroactively spent in 
the wake of future extreme weather disasters and chronic sea level 
rise.
    We are all interconnected and are likewise at risk of interrupted 
service. In resilience parlance, there are potential cascading effects 
of weather-related disruptions to service. Disruptions of the power 
grid, for example, cause disruptions to electrified systems (e.g., 
traffic signals) that in turn negatively impact the orderly movement of 
people and vehicles on the road network that then negatively impacts 
public health, safety, and well-being. This interdependency was 
recently illustrated with the extreme cold weather event in Texas that 
caused the gas supply networks and electrical grid to largely fail, 
resulting in serious water shortages and other negative public service 
impacts (including the shut-down of COVID-19 testing and vaccine sites) 
throughout the State.
    I consider ``making the case'' for climate solutions as the most 
important and pressing challenge of our time for infrastructure-related 
industries. Considering future uncertainty and risks have been part of 
investment decision-making for decades, but now it needs to be taken 
even further.
    Engineers, for example, have developed methodologies and technical 
approaches that reflect uncertain futures with respect to the physical 
forces that assets might face in the future. The concept of future year 
conditions, e.g., the 100-year flood, have been an important input for 
infrastructure design for generations. However, never has there been 
such high levels of risk to uncertain environmental futures. Over the 
past 15 years, we have seen unprecedented and evermore frequent extreme 
weather events that have significantly affected our nation's 
infrastructure and the use of this infrastructure, and credible 
projections of future climate and weather conditions suggest that such 
events will be more and more common.
    The ability for the economy in general and our infrastructure 
budgets in particular to recover from major disasters (including the 
ongoing pandemic) is increasingly strained. According to the National 
Oceanic and Atmospheric Administration (NOAA), 2020 saw 22 weather/
climate disasters that yielded economic losses in excess of $1 billion. 
This is the highest number of such events recorded over the last 41 
years and resulted in total costs in excess of $100 billion and the 
tragic deaths of some 262 people. The National Flood Insurance Program 
and other private insurance products have been further strained and are 
ill-equipped to handle all these disruptions.
    In fact, the world's largest reinsurance company (Swiss Re) 
believes that economic and insured losses resulting from severe weather 
events pose a major threat to global resilience. They state that the 
insurability of weather risks could ultimately be jeopardized, 
particularly in the most vulnerable, high-exposure accumulation areas. 
The resultant cost of near-term disaster response and long-term 
recovery to taxpayers continues to rise as we repeatedly repair damages 
and often rebuild to past design standards that are shown to be 
inadequate.
    The engineering community has learned many lessons from the 
aftermath of these weather events, and how one can better ``climate 
proof'' future designs through lower carbon ``gray infrastructure'' 
(e.g., roads, bridges, tunnels, ports, airports) and with more use of 
``green infrastructure'' (nature-based solutions and other cost-
effective, resilient approaches to provide functional, climatological 
and community benefits). However, as is common in infrastructure 
decision-making, many trade-offs are considered within funding 
decisions tied to design options. In the context of future-proofing 
built assets, we have often found that the additional costs are traded 
off against focusing investment on today's needs. One of the important 
messages from my testimony is that this trade-off does not have to be 
and should not be mutually exclusive.
    Our experience is that in many cases an added increment to a 
project budget for future proofing will provide protection against 
possible disruptions due to extreme weather events. There are many 
examples of where this has been done for a variety of reasons in 
infrastructure engineering. For example, the Oregon Department of 
Transportation (ODOT) in the early years of seismic retrofits for 
bridges (before Federal funds were available to support such projects) 
allocated additional funds for bridge rehabilitation projects in order 
to make incremental design changes that would provide better protection 
against an earthquake. A State-funded study had shown that a major 
earthquake in Oregon would likely damage many State highway bridges to 
such an extent that supply and recovery efforts via highways would be 
severely constrained, resulting potentially in additional lives lost 
and substantial costs to the State's economy. For an average of about 
five percent of the original project cost, incremental design changes 
were made to add more protection against such a possibility. In other 
words, ODOT officials had successfully made the business case through 
tangible benefits for this type of incremental investment.
    Other public agencies and programs are adopting a similar approach 
to create infrastructure with the vision that it will provide a greater 
public good now and for future generations and in order to preserve 
existing assets against changing future conditions. The Massachusetts 
Department of Transportation is creating inland and coastal flood 
modeling that incorporates future climate change and changing 
precipitation patterns into a predictive physical risk model that will 
enable better planning and design for decades to come. Miami-Dade 
County is planning a major capital program to address changing 
conditions, including installing pumps to deal with street flooding, 
and working to remove septic tanks which are being made ineffective by 
rising groundwater. North Carolina DOT has developed a rainfall warning 
system that predicts areas of flooding and washouts so that they can 
have advanced coordination with state police on road closures due to 
safety concerns. Communities in coastal Louisiana and Alaska have 
started planning for inland migration away from flooding that is 
occurring more and more regularly and damaging communities. These 
agencies and others are expanding their planning and decision-making to 
consider future changes in order to provide long-term and 
transformative benefits for their residents.
    I recognize that the title of this hearing is ``The Business Case 
for Climate Solutions.'' We have shown in our work that such a business 
case can be made where the financial benefits over the long run of 
protecting assets exceeds the near-term costs of adaptive designs. 
However, in the public sector, other non-monetary benefits or societal 
costs are often part of the decision. For example, technical studies of 
the potential disruptions to the road network assign dollar estimates 
to the replacement costs of the disrupted asset, the cost of additional 
travel time and vehicle operations for detours around the blockage, and 
the cost of associated fatalities and injuries. A broader perspective 
has sometimes been used to more fully understand the economic costs to 
surrounding communities of loss of connectivity or to the delays in 
supply chains dependent on the road that cannot in the short term after 
a disaster event handle trucks delivering goods. An even broader 
perspective would include non-monetary considerations relating to loss 
in quality of life, public health and social impacts, and concerns 
relating to providing equitable governmental response to the 
disruption.
    This broader perspective is at its core a key sustainability 
concept, which fundamentally views today's decisions in the context of 
how they affect the quality of life of future generations. 
Sustainability does not rely on a cost-centered, design for capital 
projects and budgets process. Instead, it views such decisions from the 
holistic, life-cycle perspective in consideration of both monetary and 
non-monetary factors. Sustainability is not only applicable to public 
decisions; many corporations that WSP USA advises have adopted it as a 
central principle in their business model and our government 
institutions and agencies can learn from and leverage the positive 
experiences and approaches from such corporations.
    More Future Focused Codes, Standards, Tools and Decision-Making
    The future will continue to bring stark new realities when it comes 
to climate change and impacts on our Nation's infrastructure. The 
engineering community that WSP USA is a part of is critical for 
developing practical solutions as part of a path forward that 
recognizes future uncertainty. Engineers are critical for creating and 
employing more fitting and forward-looking codes, standards and tools, 
which in turn will help establish more modern and effective frameworks 
for achieving better funding and project selection decisions that 
ensure projects are not just ``shovel ready'' but are also ``shovel 
worthy.'' Specifically, these codes, standards and tools relate to the 
capacities, locations, design, construction and operation of roads, 
bridges, tunnels, water treatment plants, power plants, ports, 
airports, railways, transit and other community infrastructure systems. 
In the U.S., an excellent example of this is the evolution and ever-
expanding use of a tool like Envision from the Institute for 
Sustainable Infrastructure (ISI) that WSP USA employs. ISI is an 
educational nonprofit that was established in 2010 by ASCE, the 
American Public Works Association (APWA), and the American Council of 
Engineering Companies (ACEC), who collaborated with the Zofnass Program 
for Sustainable Infrastructure at the Harvard University Graduate 
School of Design (ZPH) to develop Envision (also noting that I am an 
active, long-time Advisory Board member for ZPH). Envision provides a 
consistent, consensus-based framework for assessing sustainability and 
resilience in infrastructure. Envision:
    <bullet>  Sets the standard for what constitutes sustainable 
infrastructure;
    <bullet>  Incentivizes higher performance goals beyond minimum 
requirements;
    <bullet>  Gives recognition to projects that make significant 
contributions to sustainability; and
    <bullet>  Provides a common language for collaboration and clear 
communication both internally and externally.

    Fundamentally, Envision is about supporting higher performance 
through more sustainable and resilient project choices and designs so 
that we ``build the right projects'' in addition to ``building projects 
right.''
    An excellent example of a project that fully incorporates the 
policies and perspectives of sustainability/resilience nationally is 
the California High Speed Rail project, a project that WSP USA is 
supporting and just received a Platinum rating through Envision. This 
project can serve as a national example to other agencies working to 
make better decisions around infrastructure investing. Specifically, 
this project:
    <bullet>  Creates a rail/transportation system powered by 
electricity, generated primarily by renewable energy.
    <bullet>  Weaves consideration of effective use of natural 
resources into all policies--planning, design, construction, 
maintained, etc.--and has developed practices which analyze energy 
expenditures for the lifecycle of construction--from the extraction of 
base material (aggregate, etc.), to transport, to use in construction 
efforts.
    <bullet>  Considers future weather risks (wildfires, flooding and 
temperature) in design to ensure that the facility is built to 
withstand those events in the future and can be returned to service 
more efficiently.
    <bullet>  Better links the state's rural areas more effectively and 
efficiently to the state's economic engines through a faster and more 
efficient travel option, a capability that does not exist today.

    Envision is just one such tool that we and others in the 
engineering and consulting business utilize. Regardless of which one is 
used, these types of sustainability and resilience tools allow our 
decisions to be more informed by future-focused science, demographics, 
socioeconomics, and best management practices--specifically including 
the risk-based frameworks that we have developed to not only plan and 
execute infrastructure projects better, but also to pick the better 
projects to pursue. This ``better'' project selection should be based 
on a holistic, life-cycle, long-term impact perspective versus a short-
term capital cost assessment. The first perspective specifically takes 
into account the negative impacts of emitted and embodied carbon as 
well as the positive physical and social benefits of climate adaptation 
and infrastructure resilience. Most of these decisions are currently 
driven by upfront costs, operational expediency, and worrying about the 
next quarterly report, election, or budgeting cycle. This in turn leads 
to a false narrative where infrastructure capital improvement budget-
making is based on what money is available after ``locked-in'' 
operations and maintenance budget items are accounted for.
           Incorporating Equity and Social Justice Realities
    Equity and social justice, which have been increasingly highlighted 
over the past year, are critically important considerations from the 
sustainability perspective. In the context of a changing climate, 
studies have indicated that disasters and critical events 
disproportionally impact underserved and frontline populations--a 
notable ongoing example being the COVID-19 pandemic, which is 
underscored by our past experiences with extreme natural disasters such 
as major hurricanes, droughts and earthquakes. Frontline round-the-
clock workers (including in essential transportation and infrastructure 
services) are disproportionately women, representing two-thirds of the 
frontline worker population, and minority populations, including Black, 
Hispanic, and Asian-American/Pacific Islanders.\2\ Over the long term, 
climate change will thus affect some groups more than others. 
Transportation infrastructure, including how transportation is powered 
and where transportation and transit systems are accessible, underscore 
these challenges. Equity and improved economic opportunity need to be 
central tenants of Federal climate action, especially as it relates to 
transportation and infrastructure.
---------------------------------------------------------------------------
    \2\ A Basic Demographic Profile of Workers in Frontline Industries. 
April 2020. Center for Economic and Policy Research. https://cepr.net/
wp-content/uploads/2020/04/2020-04-Frontline-Workers.pdf
---------------------------------------------------------------------------
    The current and future impacts of climate change, including sea 
level rise and other flood risk hazards, higher temperature, and 
wildfires have time-and-time-again placed an uneven burden on our less 
protected frontline communities--whether they be urban or rural. 
Further, each event comes with long-term economic and social costs. 
There are immediate effects to livelihood following events, such as 
disrupted and suspended transit service following Hurricane Sandy, 
limiting mobility for transit-dependent populations. There are also 
long-term effects due to these events, including social and financial 
insecurity for populations that were already socially vulnerable. 
Resilient infrastructure is at the heart of limiting the effects of 
these events and enabling agencies and communities to rebound more 
quickly to continue to provide needed services to their communities.
    Amidst this social backdrop, climate change poses both an 
opportunity to expand upon the role of infrastructure to provide social 
benefits and opportunities for our communities and simultaneously poses 
a challenge to ensure that infrastructure is resilient to future 
conditions. In order to ensure that our communities are prosperous and 
equitable now and into the future, we need to expeditiously address 
both of these challenges. To inform Federal policies, frontline 
communities will need to be engaged where they are and truly listened 
to in order to gain their buy-in and achieve equitable outcomes. WSP 
works hand-in-hand with these communities and populations, working to 
hear and address their challenges at the local scale by providing the 
analytics and data needed to inform equitable decisions and the 
engineering solutions needed to holistically address climate change.
    Especially as it relates to infrastructure and the built 
environment as it supports communities, we have an opportunity to make 
positive changes through an equity lens in helping people imagine and 
realize their own futures. In our business, we strive to create more 
dialogue, inclusion, and empowerment to increase trust in our work. 
WSP's own ``walk the talk'' performance measures provide an 
illustration of how this can be incorporated into the business ethic of 
a major company, which in many cases can also apply to governmental 
institutions and agencies. WSP USA's equity lens for our three key 
performance metrics specifically looks at:
    1.  Reduction in operational GHG emissions between 2018 and 2021
      a.  Acknowledge the documented frequency and impacts of racism in 
America along with the disparate impacts of air quality and climate 
change issues.
      b.  Engage and listen to communities and their accounts and 
experiences of inequity and harm caused by environmental and racial 
injustices and group outcomes.
      c.  Provide feedback to stakeholders and focus on programmatic 
reform ideas.
      d.  Take action to address climate change with regard to equity, 
social justice, and economic outcomes.
    2.  The percentage of our services having a positive effect on the 
environment
      a.  Develop a process to measure Green Revenue.
      b.  Focus on how this impacts our shareholders, employees, 
partners, environments, and the communities we serve.
      c.  Educate communities on implementing solutions to reduce 
energy use, water consumption, GHG emissions, supply chain disruptions, 
enhance Green Revenue, and to minimize impacts to underserved 
communities.
    3.  The percentage of women in management positions
      a.  Ask all leaders to be role-models for our commitment to 
inclusion, diversity, equity, and social justice.
      b.  Actively sponsor rising women.
      c.  Ensure the infrastructure is in place to support a more 
inclusive and flexible workplace.

    With this type of mindset, investment in transportation and 
infrastructure today has the potential to use our abundance of 
available data, best practices from across the globe, and American 
ingenuity to tailor technical solutions to the needs and priorities 
from constituents on the ground-level to ensure our most vulnerable 
realize benefits of infrastructure upgrades while society at large 
continues to benefit from the additional positive externalities from 
design excellence in infrastructure.
            Better Strategies for Both Urban and Rural Areas
    Sustainability and resilience considerations make sense everywhere 
in the country--in urban and rural areas. Specific to rural 
communities, these practices make sense for all investments--
particularly regarding resilience, where periods of loss of service can 
be devastating in these communities. There are plenty of examples over 
the past years where impacts were very impactful in rural areas, 
including recent power loss in Texas and the Gulf Coast from both 
winter and coastal storm events, loss of water treatment facilities 
requiring residents to boil water throughout the southeast, and in road 
washouts and landslides in Vermont, North Carolina, Colorado, Michigan 
and Puerto Rico which severed access to communities for extended 
periods, or required lengthy and costly detours to reach services. 
Often recovery times in rural areas can be extended as the systems span 
larger geographies and resources may be limited. These past examples 
underscore the need to build more resilient systems to minimize 
potential weather-related impacts in rural as well as urban areas.
             Leading the Way Through Example as an Industry
    The engineering community needs to lead, and has in many cases 
taken the lead, in changing the way we think about infrastructure 
investments and decisions. Of course, in the consulting industry, 
companies such as mine work with and on behalf of government and 
private sector clients. Many of these clients have made extraordinary 
commitments to address the cause of and respond to climate change. The 
field has been transforming itself over the past few years in ways that 
I personally have not seen before. Specifically, we have recently seen:
    <bullet>  Major companies take on the role of continually refining 
business operations so as to reduce the emissions impact of their 
operations, supply chains, and product life cycles while enhancing the 
resilience and equity of their business.
    <bullet>  Communities adopting policies that enable traditionally 
underrepresented communities to understand and develop strategies for 
targeted investments aimed at reducing climate change-related impacts 
on their citizens.
    <bullet>  Agencies overseeing major construction projects analyzing 
all of the processes and procedures from point of source origin to the 
point of construction and end of useful life to reduce to the extent 
possible GHG emissions.
    <bullet>  Government leaders (for example, in Hawaii, California, 
Colorado, Minnesota, New York, Michigan and Massachusetts) among others 
requiring the consideration of future environmental conditions (not 
past conditions) as an element of major capital expenditures (in some 
cases, including such a consideration in State environmental laws).
    <bullet>  Ongoing dialogue among risk professionals who are 
starting to recognize that the unquantifiable factors of equity, 
environment quality, and community resilience need to carry a new, and 
heavier, weight in decision-making.
    <bullet>  Public bonding firms requiring a risk assessment on 
potential bond-funded actions as it relates to climate change.
                            Recommendations
    Moving forward we have an opportunity to make further progress and 
take steps to ensure that the Nation's built environment and critical 
infrastructure is more resilient and secure as conditions continue to 
change. There are many recommendations for action that would help to 
secure a more adaptive future. Some of the more important ones include:
    <bullet>  Elevate climate change and extreme weather impacts on 
resilient infrastructure as a National concern. Federally-supported 
infrastructure programs such as that for transportation often include 
as an enabling statement that certain factors or issues are of National 
concern. For example, transportation legislation requires the 
consideration of numerous planning factors in the development of 
transportation plans, including transportation system resilience. All 
Federally-funded infrastructure programs should be reviewed from the 
perspective of how extreme weather and climate change considerations 
factor into planning and decision-making.
    <bullet>  Encourage and enable communities and agencies to define 
and quantify the risks they face with respect to climate change. It is 
critical that the technical approaches be available for making the case 
on the rationale for reducing GHG emissions and enhancing 
infrastructure resilience. This can only be done through methods which 
include quantitative consideration of risks. One of the major 
advancements in engineering decision-making occurred decades ago when 
the U.S. Army Corps of Engineers developed a benefit/cost methodology 
in response to Federal water resources legislation. The benefit/cost 
methodology has been a mainstay of engineering analysis since. A 
similar introduction of risk-based assessment approaches is now 
warranted. This assessment needs to compare real dollar costs to 
associated weighted risks of future damages and loss of service from 
climate change and extreme weather.
    <bullet>  Include in this assessment approach the use of a life 
cycle perspective that considers all possible points of future failure. 
Unfortunately, this is very seldom considered in today's life cycle 
assessments. The assessment should recognize that some of the data and 
tools used today as part of engineering decision-making are very 
limited (such as 100-year flood plain maps).
    <bullet>  Support the consideration of equity and social justice in 
climate change and adaptation decisions. This should result in a shift 
from traditional measures of disproportionate impacts like those 
outlined in the National Environmental Policy Act (NEPA) to ones that 
instead seek to overcome inequities in the distribution of 
infrastructure benefits and negative environmental impacts (e.g., 
degraded air and water quality).
    <bullet>  Provide incentives (for example, grants or tax 
incentives) for incorporating future proofing actions and social equity 
into project designs. Such incentives could motivate innovation and 
creativity in the development of adaptation strategies. This would 
include the provision of funding as part of Federally-mandated planning 
processes to consider climate change as part of the planning process 
(for example, U.S. Code Title 23 for transportation planning).
    <bullet>  Encourage a multi-jurisdictional, multi-sectoral, and 
multi-disciplinary structure for assessing climate change-related risks 
among States and communities. Such a structure would facilitate efforts 
to combine the interests of communities, businesses, infrastructure and 
environmental stakeholder agencies who all recognize the concern, but 
have no guide for how to address policies that assume conditions will 
not change. This would also include the dissemination and sharing of 
information on the institutional structures and program components that 
permit such collaboration.
    <bullet>  Adopt policies that encourage the rebuilding of extreme 
weather- or climate change-related failed or disrupted infrastructure 
that ensures the causes of such failures are understood and future 
protections are incorporated into new designs. Similar policies should 
continue to be adopted that reduce GHG emissions as our understanding 
of the contribution of such emissions to climate change and degraded 
air quality.
    <bullet>  Develop performance metrics that allow agencies to 
monitor changes in underlying conditions or contributing factors to 
climate change. The Federal government has encouraged the use of 
performance-based planning and programming for Federally-funded 
investments. Our experience is that traditional measures such as impact 
on road congestion or emissions have been the most-used metrics. 
Measures relating to the outcomes of public policies, for example, 
those relating to public health and system resilience, have in contrast 
been sparse. Illustrative measures for such types of outcomes should be 
developed and disseminated among the agencies responsible for 
infrastructure. This could include metrics relating to the social cost 
of carbon and the risks to infrastructure and communities resulting 
from a continuing growth in GHG emissions.
    <bullet>  Support research on the continuing and evolving science 
and technology phenomena that exacerbate climate change impacts or that 
conversely can help mitigate and/or adapt to such changes. Climate 
science has made major strides over the past decade as improved data 
and analysis techniques have provided the tools for advancing our 
understanding of climate/Earth relationships. By the very nature of the 
uncertainty associated with future environmental conditions, continuing 
to collect data and revise our understandings based on the new evidence 
will be fundamental to an effective National resilience and adaptation 
strategy.
                                Closing
    As a company, WSP is committed to its responsibilities for helping 
to lead the way by reducing its own emissions footprint and 
facilitating more resilient and sustainable infrastructure in a way 
that also advances equity. The clients we advise and serve have 
challenged us to develop and implement more future focused, sustainable 
and resilient strategies for them as well. This makes sense from a 
business perspective; from a good governance perspective; and from a 
sustainability perspective. I have no doubt that this is the future of 
infrastructure development in our Nation. National policies that 
encourage the development of this approach to infrastructure 
development would provide a catalyst for reaching this future sooner.
    Thank you for the opportunity to provide you this testimony.

    Mr. DeFazio. Thank you, Mr. Lewis.
    And the final witness, Mr. Charles Hernick.
    Mr. Hernick. Thank you, Chairman DeFazio, Ranking Member 
Graves, and members of the committee.
    My name is Charles Hernick. I am the vice president for 
policy and advocacy with an organization called Citizens for 
Responsible Energy Solutions.
    We are a 501(c)(4) nonprofit that engages policy makers and 
the public about responsible, conservative solutions to address 
our Nation's energy, economic, and environmental security, 
while also increasing America's competitive edge.
    My hope is that you will take away three things from my 
testimony today:
    First, that Federal policy must harness the power of free 
markets;
    Second, to make strategic investments in research and 
development and infrastructure;
    And third, and perhaps most importantly, reduce or 
eliminate barriers to infrastructure deployment.
    We live in unprecedented times, and 2020 was remarkable for 
a lot of different reasons, but specifically in terms of 
business and climate, 2020 was a record-breaking year for the 
number of companies that made voluntary pledges to reduce their 
greenhouse gas emissions and get to carbon neutrality by mid-
century; a record year for the number of power purchase 
agreements that were made by companies to reduce their 
emissions through the power that they are purchasing; a record 
year for the deployment of solar and wind.
    During 2020, under the most extreme economic headwinds that 
I have ever seen in my lifetime, that we have seen in many 
generations, solar and wind grew at 11 percent--11 percent 
growth during an economic recession, and that is because demand 
for clean energy is at unprecedented heights.
    The free market can deliver the solutions that we are 
looking for and are needed.
    The types of companies that are making these voluntary 
commitments and pledges are in finance. They are some of the 
biggest banks that we can recognize. They are in 
transportation.
    I appreciate the comments and the goals set by FedEx. It is 
important to see that kind of leadership.
    But also in retail, from the folks that are selling us 
products, whether that be Amazon, Walmart, Target, other 
companies that are looking to reduce the environmental 
footprint of their products and their supply chains.
    The Federal Government can do more to help normalize this 
race to the top in terms of environmental performance. 
Mechanisms for transparency and accountability for these 
voluntary actions would be popular.
    A recent poll, and my organization does a lot of different 
types of polling, but a recent poll in January showed that 70 
percent of voters of all political stripes would support these 
types of mechanisms to help assure that the voluntary 
commitments that companies are making are followed through 
upon, and I think that that is a reasonable course of action.
    When it comes to making strategic investments in research 
and development and infrastructure, it is paramount that 
Congress pursues an all-of-the-above approach. That includes 
efficiency, new fuels, and electric vehicles.
    For a long time, fuel efficiency has focused on how we 
squeeze more miles per gallon out of a car, but a new era of 
carbon capture utilization and storage technologies and 
deployment make it possible and make the proclamations that oil 
and gas companies have been making to achieve net zero 
emissions and their Scope 1, Scope 2, and Scope 3 categories a 
reality. It is important to look at that.
    It is also important to look at the new fuels that are 
coming onto the horizon. Looking at the hydrogen economies is 
important, as has been mentioned already, but also electric 
vehicles.
    Electric vehicles are a small but rapidly growing part of 
the American fleet, and it is something that Congress should 
include in its all-of-the-above portfolio.
    Finally, in terms of reducing or eliminating barriers to 
infrastructure deployment, too many of the big types of 
projects that we need to reduce greenhouse gas emissions and 
improve our environment take up to 7 years or over a decade to 
permit. Congress should act immediately to codify One Federal 
Decision and reduce the timeline to 2 years so that we can put 
online all of the types of infrastructure in transportation, in 
clean energy writ large, to reduce greenhouse gas emissions at 
the pace that we need to achieve the voluntary goals that 
companies have set and the goals that we know we need to 
achieve globally.
    Finally, that type of action would be popular, too. 
Seventy-three percent of voters, again, of all political 
stripes, want to see reductions in redtape and limits to 
regulation that slow down unnecessary project delays.
    With that I will thank you, and I look forward to 
questions.
    [Mr. Hernick's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Charles Hernick, Vice President of Policy and 
          Advocacy, Citizens for Responsible Energy Solutions
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, thank you for the opportunity to testify today on ``The 
Business Case for Climate Solutions.''
    My name is Charles Hernick, and I am the Vice President of Policy 
and Advocacy for Citizens for Responsible Energy Solution (CRES). We 
are a 501(c)(4) non-profit that engages policymakers and the public 
about responsible, conservative solutions to address our nation's 
energy, economic, and environmental security while increasing America's 
competitive edge.
    I hope you will remember three approaches for how to reduce 
emissions from my testimony:
    1.  So there is no confusion, it is worth stating that the time for 
additional climate action is now. I say additional because the federal 
government is not the only entity interested or capable of tackling the 
climate challenge. Indeed, many companies, states, and municipalities 
have been hard at work for decades. And Congress must remember that we 
live in an era where even in the depths of a pandemic, companies large 
and small have voluntarily committed to carbon neutrality by definitive 
dates. Therefore, the federal policy playbook should first and foremost 
harness the power of free markets--by encouraging transparency and 
accountability--and empower companies to achieve their self-set goals, 
not pursue heavy-handed, top-down mandates that drive up costs or 
reduce options.
    2.  There is a meaningful role for the federal government in 
reducing greenhouse gas emissions from the transportation sector. But 
rather than picking winners and losers, federal policy is better 
positioned to make strategic investments in research and development 
(R&D) and infrastructure that serves an all-of-the-above approach 
including fuel efficiency, new clean fuels like hydrogen, and 
electrification (i.e., electric vehicles). The federal government 
should focus on backbone infrastructure for the economy and leave room 
for states to innovate on policies that are locally appropriate.
    3.  Finally, and perhaps most importantly, if we are to tackle the 
climate challenge quickly, Congress will need to reduce or eliminate 
barriers to infrastructure development. It should take two years, not 
ten years, to permit infrastructure projects. Red tape is not the price 
of good government; it is the enemy of good government. America could 
modernize its infrastructure, reduce costs, while dramatically 
enhancing environmental benefits, with a two-year approval process for 
large construction projects. Among other regulatory reforms, a single 
permitting timetable and timely environmental reviews and authorization 
decisions must be a first-order priority, specifically codifying One 
Federal Decision. The public agrees. Our polling shows that a 
significant percent of voters (73 percent) support streamlining and 
reforming government regulations that hamper the transition to clean 
energy.\1\
---------------------------------------------------------------------------
    \1\ Citizens for Responsible Energy Solutions (CRES). Poll: 
Republican, Democratic Voters Support Commonsense, ``All-of-the-Above'' 
Climate Solutions. https://citizensfor.com/pressreleases/
poll-republican-democratic-voters-support-commonsense-all-of-the-above-
climate-solutions/.

    The Surface Transportation Advanced through Reform, Technology & 
Efficient Review Act, or STARTER Act, introduced in the 116th Congress, 
was an important effort towards reducing barriers and making targeted 
investments. Thank you, Ranking Member Graves, for your leadership to 
ensure state flexibility by preserving state decision-making and 
rejecting new federal mandates that would dictate funding priorities 
regardless of actual local needs. My hope is that Congress can build on 
your effort and pass bipartisan infrastructure legislation to put 
transportation sector emissions on the right trajectory.
Framing: Big Government Is Not a Pre-Requisite for Successful Climate 
        Policy
    Before we can develop an actionable business case for climate 
solutions, we must first determine how success will be defined.
    Another multi-trillion dollar bill out of Congress will not be a 
sign of success. Capital markets--driven by large investors and common 
stockholders alike--are trained on delivering a low-carbon future. 
Investors like Wells Fargo, Goldman Sachs, Bank of America, HSBC, 
Morgan Stanley, and Barclays have all committed to net-zero portfolios 
by mid-century.\2\ More investors are factoring climate change into 
their portfolios, and it is easier than ever for Americans to align 
their 401(k) plans with a carbon-free future. There is no shortage of 
finance for mature clean energy technologies. Trillions in scattershot 
federal spending could crowd-out private sector investment. First and 
foremost, we should measure the success of our climate policy based on 
how well it encourages, not competes, with investment from America's 
financial industry.
---------------------------------------------------------------------------
    \2\ American University. Carbon Removal Corporate Action Tracker. 
https://docs.google.com/
spreadsheets/d/1vf--uXsf6fo7MuNpPya2Kz82Dxte0hHgtOXimgpRA3c/edit#gid=0.
---------------------------------------------------------------------------
    Second, we know that low-cost, low-emissions technologies and goods 
will be critical to successful climate policy.\3\ Anything short of 
widespread adoption will fail to address this global issue, and 
American innovation will be the key driver. Inexpensive climate 
solutions are needed for global uptake in developing countries in 
Africa, Latin America, and Asia, where too many people still lack basic 
services. Our geopolitical adversaries are willing to undercut American 
interests no matter what the implications are for climate change. That 
is why the bipartisan Energy Act of 2020 was such an important down 
payment on energy innovation. Affordability also matters here at home. 
The impacts of the pandemic-induced recession have not been evenly 
distributed across America, nor are historic environmental burdens or 
the likely economic and health impacts of effects of climate change. 
Price increases make life even harder for these Americans. We can 
measure the success of our climate policy based on the availability of 
new energy innovations and whether they are priced for easy and 
widespread adoption.
---------------------------------------------------------------------------
    \3\ See more about CRES Forum's Climate Policy Directives at: 
https://cresforum.org/climate-policy-directives/.
---------------------------------------------------------------------------
    Third, effective climate policy will rely on the power of free 
markets. Big government mandates favor incumbent technologies and large 
companies and are blind to what the free market can do. Additional 
bureaucracy is disproportionately threatening to small businesses and 
start-ups. Appetite for clean energy--by people and companies--has been 
growing steadily for decades and as a result, the private sector and 
effective state-level policies have achieved the goals of President 
Obama's Clean Power Plan carbon reductions 10 years ahead of time.\4\ 
Indeed, it is a favorable American business environment that gives 
space for a record number of companies to put themselves on a path to 
net zero and differentiate themselves on ``clean.'' Congress should 
encourage more of that race to the top, and successful climate policy 
can be measured based on whether the free market is incentivizing 
behavior and activities that support our climate goals.
---------------------------------------------------------------------------
    \4\ Bloomberg NEF and Business Council for Sustainable Energy 
(BCSE). Sustainable Energy in America 2021 Factbook. https://bcse.org/
factbook/.
---------------------------------------------------------------------------
    And finally, America's interests and American jobs should be our 
number one priority when developing a clean transportation 
infrastructure for the next century. The U.S. is more energy 
independent than we have been in decades and we should not lose that in 
the race to reduce emissions. This means that we need to address the 
entire supply chain of materials and technologies. Domestically sourced 
critical minerals and metals utilized by domestic manufacturing 
facilities could supply the development of a clean transportation 
sector at home and abroad. It is encouraging that new battery plants 
are being built in the U.S. to align vehicle supply chains with the 
domestic market. After a generation of hemorrhaging industrial jobs 
overseas, this realignment will take some time. We can directly measure 
the effectiveness of our climate policy in our job numbers, 
manufacturing metrics, the security of our supply chain, and our Gross 
Domestic Product.
                  1. Harness the Power of Free Markets
    When history books are written about how we solved the climate 
problem, these years of the global COVID-19 pandemic will be a 
surprising turning point.
    At the close of 2020, the COVID relief and year-end omnibus also 
included a broad modernization of our nation's energy policies. The 
Energy Act of 2020 was the culmination of many years of significant 
bipartisan effort and marks the first comprehensive energy legislation 
passed in over a decade. It combined bipartisan provisions from the 
Senate (S. 2657 American Energy Innovation Act) and House (H.R. 4447 
Clean Energy Jobs and Innovation Act) bills and reflects the priorities 
of many members of Congress to accelerate the development of 
technologies needed to meet our environmental and economic challenges. 
The Act provides a timely and critical investment in the advancements 
in energy efficiency, energy storage, advanced nuclear, carbon capture, 
carbon removal, renewable energy, and other approaches needed to 
decarbonize our economy. Importantly, it brought bipartisan compromise 
on the phaseout of hydrofluorocarbons, which are greenhouse gases with 
extremely high warming potential.
    The $900-billion package could inject at least $34 billion in low-
carbon spending into the country's economy over the next decade.\5\ It 
contains more than $19 billion in the form of new authorizations on 
clean energy research, development, and demonstration by the Department 
of Energy, including $6.8 billion for nuclear, $5.3 billion for carbon 
capture, use and storage, and $1 billion for energy storage. Congress 
should fully appropriate these funds. The package also added an 
estimated $15 billion over 10 years in new federal tax credit 
enhancements on top of existing credits.
---------------------------------------------------------------------------
    \5\ Bloomberg NEF and Business Council for Sustainable Energy 
(BCSE). Sustainable Energy in America 2021 Factbook. https://bcse.org/
factbook/.
---------------------------------------------------------------------------
    As COVID-19 is brought more under control over the course of 2021, 
the economy will further rebound. The case for additional stimulus is 
limited, and overspending risks overheating the economy.
Leading businesses are making important commitments and strides to 
        reduce emissions: there is a new, encouraging baseline.
    There are three basic ways to reduce emissions from the 
transportation sector: increase (fuel) efficiency, better utilize low- 
or zero-emissions fuels, and pursue electric vehicles. Companies across 
the U.S. economy voluntarily committed to renewable energy, as 
evidenced by more than 10.6 GW of corporate renewable energy purchases 
occurring in 2020, according to the Renewable Energy Buyers 
Alliance.\6\ Companies across retail, big tech, and hospitality, among 
other sectors, have stepped up and made voluntary commitments to 
decarbonize their operations, and that is also translating to a 
transportation or fleet electrification strategy.
---------------------------------------------------------------------------
    \6\ Ben German. ``Ranking 2020's corporate clean energy deals.'' 
Axios, February 11, 2020. https://www.axios.com/renewable-energy-
companies-amazon-google-18db639c-e1e5-416f-8887-
848e601131c6.html.
---------------------------------------------------------------------------
    Traditionally, fuel economy has focused on increasing the miles per 
gallon (mpg) of the internal combustion engine. Internal combustion 
engines will always emit carbon emissions as a product of the 
combustion process. But with current technologies, it is possible to 
reduce, and perhaps someday fully decarbonize, the sector. Oil and gas 
companies are focused on reducing upstream emissions, as well as 
sequestering and offsetting carbon. Despite incredible economic 
challenges this past year, oil and gas majors Total and Royal Dutch 
Shell announced ambitious plans to reach net zero greenhouse gas 
emissions by 2050, echoing similar announcements made by BP and Repsol 
in 2019. Total, for example, aims to achieve net-zero Scope 1 and 2 
emissions by 2050 and it is targeting carbon neutrality for all its 
Scope 3 production and energy products sold in Europe by 2050.\7\ Oxy 
Low Carbon Ventures, a subsidiary of Houston based Occidental 
Petroleum, delivered its first batch of ``carbon-neutral oil'' this 
past January.\8\ Fueling up with carbon-neutral gasoline can only be 
part of the future through an all-of-the-above approach that is open to 
innovation in all sectors.
---------------------------------------------------------------------------
    \7\ Francois De Beaupuy. ``Oil Giant Total Targets Carbon 
Neutrality in 2050.'' Bloomberg Green, May 5, 2020. https://
www.bloomberg.com/news/articles/2020-05-05/total-targets-
carbon-neutrality-in-2050-as-profit-plunges-
35?cmpid=BBD051220_GREENDAILY&utm_
medium=email&utm_source=newsletter&utm_term=200512&utm_campaign=greendai
ly
    \8\ Eklavya Gupte and Paula VanLaningham. ``US' Occidental supplies 
first cargo of `carbon-neutral crude' to India's Reliance.'' S&P 
Global, January 29, 2021. https://www.spglobal.com/
platts/en/market-insights/latest-news/oil/012921-us-occidental-
supplies-first-cargo-of-carbon-
neutral-crude-to-indias-reliance.
---------------------------------------------------------------------------
    Government does not need to mandate this behavior; companies are 
adopting it themselves to meet consumer demand. Zero-emission fossil 
fuels can be an important tool for climate policy as we transition to 
cleaner energy sources, but only if we make it possible for oil and gas 
companies to deliver on those promises. Government can do that by 
removing barriers that currently inhibit transparency, certainty, and 
trust in carbon offset markets--no mandate is required.
    Another cost-efficient way to significantly reduce emissions in 
vehicle fleets is by switching to low-emissions fuels such as natural 
gas or propane. Propane is a promising alternative fuel in the 
transportation sector for a number of reasons:
    <bullet>  Cost savings. While the energy content of propane is 
lower than that of gasoline or diesel,\9\ propane has a lower fuel cost 
per mile, given its lower cost of the fuel itself and the lower 
maintenance costs for propane-fueled vehicles.\10\ The Propane Research 
and Education Council estimates that propane vehicle fleets can 
represent between 30 and 50 percent in cost savings, compared with 
their gasoline and diesel counterparts.\11\ For example, when the Oak 
Harbor Public School District in Washington state replaced its diesel 
and gasoline school buses in 2010 with a propane fleet, it achieved an 
estimated annual savings of $35,000 in fuel costs and an additional 
$700 in reduced vehicle maintenance and service time.\12\
---------------------------------------------------------------------------
    \9\ 84,250 Btu/gal for propane, versus 112,114-116,090 Btu/gal for 
gasoline and 128,488 Btu/gal for diesel. Alternative Fuels Data Center. 
``Fuel Properties Comparison.'' Department of Energy, January 2021. 
https://afdc.energy.gov/files/u/publication/fuel_comparison_chart.pdf.
    \10\ Propane Research and Education Council. ``Driving down 
costs.'' 2020. https://propane.com/
wp-content/uploads/2020/08/Superior-Plus-Propane-Case-Study.pdf. See 
also National Propane Gas Association. ``Today's Propane.'' 2020. 
https://www.npga.org/wp-content/uploads/2020/12/NPGA-Todays-Propane-
2019.pdf.
    \11\ Propane Research and Education Council. ``Top 10 Facts About 
Propane Autogas for Fleet Managers.'' September 16, 2018. https://
propane.com/2018/09/16/top-10-facts-about-propane-
autogas-for-fleet-managers/.
    \12\ Alternative Fuels Data Center. ``Washington School District 
Cuts Costs and Improves Air Quality with Propane Buses.'' April 09, 
2019. https://afdc.energy.gov/case/3075.
---------------------------------------------------------------------------
    <bullet>  Emissions reductions. In 2019, a study from West Virginia 
University found that propane school buses reduce emissions of nitrogen 
oxide by 96 percent, and of carbon dioxide by 13 percent, compared to 
diesel-fueled buses.\13\
---------------------------------------------------------------------------
    \13\ Propane Research and Education Council. ``West Virginia 
University study finds propane school buses dramatically decrease 
harmful emissions.'' August 5, 2019. https://propane.com/
environment/stories/west-virginia-university-study-finds-propane-
school-buses-dramatically-
decrease-harmful-emissions/.
---------------------------------------------------------------------------
    <bullet>  Energy security. Around 90 percent of the propane and 
natural gas used in the United States is produced domestically,\14\ so 
it is a fuel source that does not imply dependence on foreign nations.
---------------------------------------------------------------------------
    \14\ Propane Research and Education Council. ``Top 10 Facts About 
Propane Autogas for Fleet Managers.'' September 16, 2018. https://
propane.com/2018/09/16/top-10-facts-about-propane-
autogas-for-fleet-managers/. See also U.S. Energy Information 
Administration. ``In 2018, 90% of the natural gas used in the United 
States was produced domestically.'' July 09, 2019. https://www.eia.gov/
todayinenergy/detail.php?id=40052.

    Outside of fossil fuels, electric vehicles make more sense than 
ever before and continue to be key to a cost-effective, consumer-driven 
approach to reducing emissions from transportation. Even though they 
are still a small percentage of cars on U.S. roads, widespread adoption 
may not be far off thanks to heightened innovation and more favorable 
federal and state policies. Costs for electric vehicles are coming down 
each year, charging at home is less expensive, recharging options and 
locations are growing, and limited lifetime maintenance costs are 
appealing. Many drivers are already saving money in the long run, with 
approximately $800-$1,000 in savings per year on fuel alone.\15\ The 
best role for government is to simply allow the market to match 
transportation options with consumer needs. Steady federal policy, 
innovative state programs and more choices for consumers will keep 
pressure on lowering prices while also lowering emissions.
---------------------------------------------------------------------------
    \15\ Benjamin Preston. ``EVs Offer Big Savings Over Traditional 
Gas-Powered Cars.'' Consumer Reports, October 08, 2020. https://
www.consumerreports.org/hybrids-evs/evs-offer-big-savings-
over-traditional-gas-powered-cars/
#::text=Fuel%20savings%3A%20The%20study%20shows,an
%20equivalent%20gasoline%2Dpowered%20car.
---------------------------------------------------------------------------
There are lessons to learn from the electric power sector for 
        transportation: the clean energy business is unstoppable.
    For over a decade, electric power sector emissions have steadily 
decreased. This is not the case for the transportation sector, which 
has been the largest source of U.S. greenhouse gas emissions since 
2016. Except for 2020, due to the pandemic, transportation emissions 
have been steadily rising. So as attention focuses on decarbonizing 
transportation, we should consider lessons learned from the power 
sector.
    In 2020, the U.S. renewable energy sector grew 11 percent and added 
27.8 gigawatts of capacity to meet this surging demand for clean 
energy.\16\ Solar and wind power had record years, respectively, and 
now Americans receive 20 percent of their electricity from renewable 
sources, including hydropower. These remarkable trends are due to 
abundant options for low-cost, low- or zero-emissions power generation 
available to the private sector. And they are the result of decades-
long federal support for innovation and early-stage deployment, tax 
incentives for nascent industries, and complementary state policy.
---------------------------------------------------------------------------
    \16\ Bloomberg NEF and Business Council for Sustainable Energy 
(BCSE). Sustainable Energy in America 2021 Factbook. https://bcse.org/
factbook/.
---------------------------------------------------------------------------
    As targeted federal investments continue to pay off in 
transportation, we should expect free-market forces to continue to 
drive transformation in the sector. Americans are interested in low-
carbon solutions and empowering them to make those decisions would be 
popular. A recent CRES poll found that over 60 percent of Americans--
including nearly half of Republicans--support a federal consumer-
oriented system that would help make transparent which companies have 
followed through on their commitments to report and reduce 
emissions.\17\
---------------------------------------------------------------------------
    \17\ Citizens for Responsible Energy Solutions (CRES). Poll: 
Republican, Democratic Voters Support Commonsense, ``All-of-the-Above'' 
Climate Solutions. https://citizensfor.com/pressreleases/
poll-republican-democratic-voters-support-commonsense-all-of-the-above-
climate-solutions/.
---------------------------------------------------------------------------
Normalizing transparency and reporting for sustainability markets such 
        as voluntary carbon trading will help drive competition and 
        investment.
    America's private and public sectors have made great strides in 
deploying clean energy and reducing emissions, but there is currently 
no way for these accomplishments to be documented and organized so that 
their collective impact can be better understood by investors and 
consumers.
    Normalizing systems for carbon reporting will increase transparency 
and accountability, increase investment in clean energy and offsets, 
and further decrease U.S. greenhouse gas emissions without imposing 
unnecessary mandates, costs, or bureaucracy.
    This type of limited federal effort could help protect investors 
and maintain fair and orderly functioning of voluntary carbon markets. 
State compliance markets would still need their own enforcement 
mechanisms. But for private actors in the voluntary carbon space, 
following federal transparency and reporting guidance could crowd-in 
investment the way that Energy Star mainstreamed energy efficiency in 
the early 1990s through a voluntary program. Perhaps most importantly, 
government can facilitate certainty and trust in voluntary, industry-
established greenhouse gas emissions registries and bring greater 
definition to tradable carbon offsets without inventing a new federal 
system that attempts to supersede state progress.
    In addition to helping industry meet climate change goals, this 
framework for carbon transparency would help U.S. companies outcompete 
foreign rivals, particularly Chinese companies that depend on high-
carbon sources of energy for industry. Indeed, our polling shows that 
72 percent of all voters, and 61 percent of Republicans, support 
requiring both foreign and domestic companies to label their products 
based on the type of energy used in production, and equal numbers 
support requiring government contractors to disclose carbon emissions 
in the production of their goods and materials.\18\ Consumers want to 
know that their hard-earned dollars support companies that do not harm 
the planet. Providing easy access to that information will drive 
business back to American industry, boosting American jobs, our 
economy, and our national security.
---------------------------------------------------------------------------
    \18\ Citizens for Responsible Energy Solutions (CRES). Poll: 
Republican, Democratic Voters Support Commonsense, ``All-of-the-Above'' 
Climate Solutions. https://citizensfor.com/pressreleases/
poll-republican-democratic-voters-support-commonsense-all-of-the-above-
climate-solutions/.
---------------------------------------------------------------------------
                     2. Make Strategic Investments
    Transportation infrastructure is central to our economy, our way of 
life, and our standard of living. However, much of our nation's 
infrastructure is in disrepair and in need of massive re-investment. 
Modernizing America's infrastructure should include investments in more 
efficient technologies, smart and reliable ``clean energy-ready'' power 
grids, and cleaner, more efficient transportation systems. When 
planning infrastructure investments, the federal government should help 
accelerate emissions reductions by prioritizing clean energy projects, 
including those that reduce highway-related emissions, and promoting 
public-private partnerships to build out alternative fuel 
infrastructure. Notable legislation that accomplishes these goals 
includes but is not limited to:
    <bullet>  Provisions on cost-effective deployment of resilient 
infrastructure and mitigation strategies (Title VII) and accelerated 
project delivery (Title I--Subtitle B), included in the Surface 
Transportation Advanced through Reform, Technology & Efficient Review 
Act, or STARTER Act (H.R. 7248).
    <bullet>  Promoting Resilient Operations for Transformative, 
Efficient, and Cost-saving Transportation (PROTECT) Grant Program (Sec. 
7001 of H.R. 7248 STARTER Act; Sec. 1407 of S. 2302 ATIA) that would 
allow states to make resiliency improvements and help protect roads and 
bridges from natural disasters such as wildfires, hurricanes, floods, 
and mudslides.
    <bullet>  Electric Vehicle Mobility Area Planning Act (EV MAP Act). 
The EV MAP Act would create a grant program to map optimal locations 
for electric vehicle charging stations, giving private developers and 
consumers the information necessary to strategically invest in new 
charging infrastructure.
    <bullet>  Other Emissions Reduction Provisions (S. 2302 ATIA 
Subtitle D--Climate Change, Sec. 1404, 1402, 1406 & 1408). Supports the 
development of a suite of options to reduce emissions across the 
transportation sector. These multifaceted solutions can include the 
authorization of a new program to help states reduce truck idling at 
ports (ATIA Sec. 1402; H.R. 2 Sec. 33191), the creation of a grant to 
support innovative, multimodal solutions to congestion relief (ATIA 
Sec. 1404), and the reauthorization of the Diesel Emissions Reduction 
Program (ATIA Sec. 1408; H.R. 2 Sec. 33301).
    <bullet>  Competitive Grants for Alternative Fuel Infrastructure 
(Sec. 1303 of H.R. 2; Sec. 1401 of S. 2302 ATIA) would help states and 
localities to build hydrogen, natural gas, and electric vehicle fueling 
infrastructure along designated highway corridors, which lack such 
infrastructure.
    <bullet>  Carbon Reduction Incentive Programs (Sec. 1213 of H.R. 2; 
Sec. 1403 of S. 2302 ATIA) would distribute funds to states for 
projects that will yield significant reductions in greenhouse gas 
emissions from surface transportation and will help states meet 
emissions reductions goals.
          3. Streamline Regulation and the Permitting Process
    Minimizing administrative burdens and duplicative regulations 
promotes better environmental decision-making in a much more cost- and 
time-efficient manner. The complexity of current U.S. permitting 
processes leaves substantial opportunities for improvement that would 
increase predictability, shorten the time to project delivery, and 
reduce costs while still providing for robust consideration of public 
and environmental concerns. Historically, there has been strong 
bipartisan support for incremental and common-sense improvements to the 
environmental review and permitting process, and we encourage the 
following initiatives to promote better environmental policy decision-
making. The permitting process must be reformed to ensure effective 
stewardship of taxpayer resources--to scale clean energy rapidly and to 
create good-paying American jobs.
    As introduced by Representative Davis, codifying the ``One Federal 
Decision'' (Executive Order 13807) through the One Federal Decision Act 
would consolidate permitting decisions for major infrastructure 
projects into a single environmental document, completed within two 
years, with a review schedule set by the federal lead agency. The 
National Environmental Policy Act (NEPA) could be further modernized 
through proposals such as the Building U.S. Infrastructure through 
Limited Delays & Efficient Reviews (BUILDER) Act (H.R. 8333) (Rep. 
Graves (R-LA)). This legislation's overriding goal is to provide better 
environmental decisions in a cost- and time-efficient manner. Codifying 
this careful NEPA modernization will bring a higher level of certainty 
to critical infrastructure projects, enabling planned clean energy 
construction to move forward while continuing to adhere to important 
environmental standards.
    Additionally, legislative proposals such as Rep. Kelly Armstrong 
and Sen. Portman's Federal Permitting Reform and Jobs Act should be 
included in any infrastructure proposal.
Fast 41 is a model of how permitting should be done, scheduled to 
        expire in December 2022.
    As an example of how a voluntary mechanism for streamlining the 
federal permitting process can yield promising results, I will briefly 
mention Title 41 of the Fixing America's Surface Transportation Act 
(FAST-41) of 2015, or FAST-41. It created the Federal Permitting 
Improvement Steering Council (FPISC), to provide a one-stop shop in the 
federal government and coordinate a single schedule for projects across 
permitting agencies. As stated in the Permitting Council's FY2020 
Report to Congress: \19\
---------------------------------------------------------------------------
    \19\ Federal Permitting Improvement Steering Council. Annual Report 
to Congress. Fiscal Year 2020. https://www.permits.performance.gov/
sites/permits.dot.gov/files/2021-01/FY%2020
20%20FPISC%20Annual%20Report%20to%20Congress.pdf.
---------------------------------------------------------------------------
    <bullet>  The four voluntary, large-scale projects \20\ that 
completed the federal permitting process in FY 2020 and that 
voluntarily applied for FAST-41 coverage represent an average of more 
than 10 years in time savings, 20,000 permanent and temporary jobs in 
construction, and more than $45 billion in economic investment.
---------------------------------------------------------------------------
    \20\ The four projects are the Alaska LNG pipeline, Borderlands 
Wind, Cardinal-Hickory Creek Transmission Line, and Gemini Solar. 
Gemini Solar and Alaska LNG are some of the largest of their kind in 
the country.
---------------------------------------------------------------------------
    <bullet>  For one of these projects, Gemini Solar, the cost of the 
Environmental Impact Statement (EIS) alone ($6.2 million), represented 
an estimated cost savings of $12.6 million from these time savings.
    <bullet>  The average completion time of an EIS between 2010 and 
2018 was 4.5 years. Projects that voluntarily applied for FAST-41 and 
that completed the NEPA process during FY 2020 finalized an EIS in only 
2.5 years--a 45 percent time reduction.
    <bullet>  For the Cardinal-Hickory Creek 345 kV Transmission Line 
Project, 50 percent of the federal reviews and authorizations were 
completed ahead of schedule and the NEPA process was completed in 3.3 
years, or 27 percent faster than the Council on Environmental Quality 
(CEQ) average timeline for projects.
                               Conclusion
    Over the past decade, America has reduced its carbon emissions more 
than any other country. This was achieved through an all-of-the-above 
energy policy combined with public and private sector investments in 
American innovation. There is no need to reinvent this wheel.
    Fortunately, the business case for climate solutions also 
illustrates the best business practices for climate solutions. Future 
climate policy, including modernizing the transportation sector to 
further reduce U.S. emissions, can build upon our past success by 
harnessing instead of hampering the power of free markets; maintaining 
American leadership through strategic R&D and infrastructure 
investments, and prioritizing reforms to reduce or eliminate regulatory 
barriers--particularly those that inhibit infrastructure development, 
domestic manufacturing, and American jobs.

    Mr. DeFazio. I thank the gentleman.
    That concludes the testimony. We will now proceed to 
questions.
    Mr. Konar, in your testimony you said that in order to 
achieve the Biden administration's goal of adding 500,000 new 
EV charging stations over the next 10 years--and I don't even 
know if that is enough--that the Federal Government should be 
the bridge.
    And then, Mr. Rudd, you also mentioned the importance of 
interoperability of charging infrastructure. As we all know, 
Tesla is proprietary, and has a great network, but no one else 
can charge there. And I think it is essential that we have an 
interoperable charging network.
    So could the two of you address the appropriate role for 
the Government in these areas, quickly?
    Mr. Konar. Sure. Go ahead, Mr. Rudd.
    Mr. Rudd. Yes, as I said in my prepared comments, we 
believe that, ultimately, charging infrastructure needs to be 
universally available throughout the country, and especially in 
rural areas.
    At the same time, we also believe that there needs to be an 
investment in innovation, in terms of defining those standards 
and allowing for various forms of charging. So not necessarily 
charging stations, but perhaps things like dynamic charging. So 
as you are driving over large freeways or highways that are 
frequently used, you have the ability to charge your vehicles 
as you move.
    Those standards will lead to the opportunity for innovation 
and, at the same time, will create the opportunity for forward 
thinking, like smaller batteries in vehicles, if you have 
things like dynamic charging. So we think, before we embark on 
this journey and significant investment is made, that we spend 
some time to think about defining those standards so that we 
can all work together to achieve a common outcome, whether it 
is private, or whether it is public agencies.
    Mr. DeFazio. OK. Mr. Konar?
    Mr. Konar. Congressman DeFazio, the two points I would like 
to make is, first, that we have done this before, right? So I 
feel very comfortable that the retail sector in this industry 
can actually respond to bring chargers in.
    When you look at renewable fuels and biofuels, which 10 
years ago nobody wanted to use, with the right Government 
policy, which was some tax credits and incentive structures for 
people like us to adopt this, we have been able to bring 
biofuels in a big way into the transportation infrastructure 
and significantly reduce the carbon footprint. Just the amount 
of biofuels Pilot sells, we have taken the equivalent of 1 
million cars off the road. So I think this is possible with 
good Government policy.
    But we need to be bridged. At this point in time, the 
economics of standalone chargers and investing in chargers is 
very challenging, just because there is so much range anxiety, 
and not enough people are using electric vehicles. So what 
would be very helpful, from a policy perspective, is if the 
Government allows us to bridge, through help either from tax 
credits like we have done on wind and solar energy, or through 
grants in developing chargers, so that companies like us can go 
out and provide a ubiquitous network throughout the country so 
that there is adoption of EVs.
    Mr. DeFazio. OK.
    Mr. Konar. And if you do that over some period of time, we 
will get to a good solution. Thank you.
    Mr. DeFazio. Great, thank you.
    Mr. Smith, it is a very ambitious goal to be carbon neutral 
by 2040. Is this purely a business decision, or is your 
objective also centered around concern about and a need to 
reduce carbon pollution?
    Mr. Smith. Well, it is some of both, Mr. Chairman. Our 
customers are increasingly focused on this issue. They want to 
do business with transportation providers who are 
environmentally responsible.
    But we also, as a commercial enterprise, have to produce 
for our shareholders. And we are convinced--in the vehicle 
sector we have about 200,000 vehicles in operation. Three-
quarters of them are pickup and delivery vehicles. A little 
less than one-quarter of them are over-the-road tractors, which 
drive, in this country, 2.5 billion miles per day.
    So battery-powered vehicles for pickup and delivery, which 
we began to pioneer over 10 years ago--and I strongly advocated 
the Government support for the acquisition of electric 
vehicles--have now reached the point where the positive profit 
accretion from about 24 or 25, you will get both the 
environmental benefits, and you will get better economics.
    The operating cost of an electric pickup and delivery 
vehicle, like the new BrightDrop, electric pickup and delivery 
vehicles that General Motors just introduced, will have an 
operating cost that is about 44 percent of what an internal 
combustion-powered equivalent vehicle would be. So it is really 
just the acquisition cost, and that is coming down because of 
battery production efficiencies, and then the charging 
infrastructure. So we think there will be a positive return on 
that.
    Over-the-road vehicles, that is harder, but electric 
vehicles are on the way. We have some on order.
    In aviation, that is the most intractable problem because 
of the difficulty and scaling up sustainable aircraft fuels. 
And that is why we made this big push to come up with scalable 
carbon sequestration methodologies led by the premier 
environmental university establishment in the world, the Yale 
School of the Environment.
    Mr. DeFazio. OK, thank you, Mr. Smith. My time has expired.
    Mr. Graves? No, sorry. I had a list.
    Mr. Crawford?
    Mr. Crawford. Thank you, Mr. Chairman.
    Mr. DeFazio. You are recognized for 5 minutes.
    Mr. Crawford. I appreciate that. Thank you to the witnesses 
for being here. I just got a couple of quick questions. I will 
start with Mr. Hernick.
    America's greenhouse gas emissions are now below 1990 
levels. How do we ensure that our good work here isn't 
sabotaged by China's increased use of polluting materials and 
activities?
    Mr. Hernick. Congressman Crawford, I appreciate the 
question, and it is a very important one for us to think about.
    China is the number-one greenhouse gas emitter in the 
world, and we have no reason to believe that they will be 
honest or transparent about their carbon emissions and what 
they are doing to reduce their emissions, if they do anything. 
Transparency is their enemy. And we know that China will do 
anything to undercut us, from an economic standpoint.
    So I think that what we need to be able to do is to pursue 
an all-of-the-above approach that focuses on cost reduction, so 
that American solutions that are clean are among the least 
expensive in the world. The climate challenge is a global one, 
and we need folks to be able to uptake American-made solutions 
in parts of the developing world, including Africa and Latin 
America, where folks are still looking to turn on the light 
switch, or get their first car.
    And so that is why focus on cost reduction for customers, 
instead of heavy-handed Government approaches is going to be 
the way to go.
    Mr. Crawford. Thank you, Mr. Hernick. I have a question for 
Mr. Allen.
    China heavily subsidizes its national industry. Sometimes 
they even own the companies that are building their 
infrastructure. How do cheaper prices abroad affect your 
business model?
    Mr. Allen. Thank you, Congressman. That is a great 
question. And clearly, there are numerous published reports now 
about foreign state-owned enterprises and foreign governments, 
and the way they provide subsidies to lower prices. That is 
absolutely happening every day in America right now on the 
battery system front.
    I agree with Charles' comment. The way around this is to 
produce these products in the United States. We could use 
Federal help on the investment side for Buy America.
    But today most of the actual battery cells are not produced 
in the United States. They are produced in China, Korea, Japan. 
Now, this is something that I hope the committee addresses 
quickly, by providing incentives to bring that technology to 
the United States that would bring intellectual property here, 
and create numerous wonderful manufacturing jobs if we could 
produce the actual cells here, in the United States.
    Mr. Crawford. Thank you for the response.
    Mr. Chairman, I will yield back the balance of my time.
    Mr. DeFazio. Thank you, Mr. Crawford.
    Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman, and I really 
appreciate this hearing. I regard climate change as the most 
important issue facing our country and, for that matter, the 
entire world. My questions first are for Mr. Allen and Mr. 
Rudd.
    The Washington Metropolitan Area Transit Authority, if it 
closes down, the concourse closes down. They are prepared to 
move, apparently, on electric buses, but they're finding issues 
with the manufacturing industry's ability to meet demand for 
battery-electric buses. And I am concerned and wonder what you 
believe could be done to support the scaling up of 
manufacturing to meet what is now a growing demand.
    And at the same time I want to ask Mr. Rudd--because you 
also mentioned the Washington Metropolitan Area Transit 
Authority, and that you were beginning on a strategy for an 
initial bus pilot.
    So I would ask you, as well, what are the biggest 
challenges to electrification, and how do you think the process 
could be sped up to meet the urgency of climate change?
    So first, Mr. Allen of Proterra?
    Mr. Allen. Yes, we do have Proterra buses running in 
Washington, DC, right now. We are very grateful for that.
    I think the way to continue the acceleration of this is 
really on two fronts. One is for the Government to continue the 
funding for zero-emission buses and for charging. This is done 
today through the FAST Act Low or No Emission Vehicle program. 
That program was funded last year at $130 million, this year 
$180 million. We would love to see this program enhanced, and 
further investment in here. This allows agencies to really 
kickstart their adoption of electrification in their transit 
business.
    The second is really around incentivizing the domestic 
supply chain. A little bit about my comments earlier about the 
battery cells, but if the--as the Federal Government makes a 
commitment that they are behind electrification, and it is not 
going away, and this is the trend of the future, this will 
provide comfort to the supply base to be able to make the 
investments necessary to ramp up production in a much faster 
manner.
    Ms. Norton. Thank you.
    Mr. Rudd?
    Mr. Rudd. Yes.
    Ms. Norton. Go ahead.
    Mr. Rudd. Yes, thank you, Congresswoman. With respect to 
the pilot program, I think what a lot of agencies are running 
into is recognizing how much capital is actually required for 
the transition, because it is not necessarily the acquisition 
of the vehicles or the electric buses, it really is delivering 
the power and the infrastructure to support those buses that is 
capital intensive.
    So, in terms of the pilot, part of this is understanding 
how we can most effectively deliver power, whether it is using 
a portfolio of opportunities through natural gas, the normal 
power grid, or through green sources of electricity. And in 
facing the challenges of bringing capital to those projects, we 
see that there is an opportunity for a private-public 
partnership.
    Certainly, there is private capital in the world that would 
be willing to invest in the future of America and in the future 
of electrification. And as you have heard, is that there is an 
economic efficiency through electrification compared to 
combustion. So I believe that there is an opportunity for 
private capital to get involved, to fund some of the 
significant expenditures that it takes to get these 
electrification projects off the ground and running in these 
larger communities.
    Ms. Norton. One last question for Mr. Santana.
    Mr. Santana, in your testimony you focused on zero-emission 
freight trains. Now, in my district, here in the Nation's 
Capital, we have one of the biggest rail hubs in the country, 
leading to the Northeast and the Southeast. Is your company 
looking to apply that technology to passenger railroads, as 
well?
    That is Mr. Santana.
    Mr. Santana. If you could----
    Mr. DeFazio. Respond briefly, the gentlelady has run out of 
time. Just respond briefly.
    Mr. Santana. This technology is very much applicable to 
passenger trains, as well. The reason we have really focused on 
freight is just the impact and the amount of, really, emissions 
that we could eliminate by doing so.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. DeFazio. Mr. Gibbs?
    Mr. Gibbs. Thank you----
    Mr. DeFazio. You are----
    Mr. Gibbs. Pardon? Oh, yes, OK, thank you. I just want to 
reiterate the progress we are making in this country. The U.S. 
has already reduced emissions from 2005 by 17 percent, and we 
are on track to reduce our emissions from the 2005 levels by 25 
percent in the next 4 years, so that is good to know. And also 
I hear from companies that are working to do their part.
    One of my biggest concerns I have is that, Government, we 
don't pick winners or losers by our policy [inaudible] the 
market function. And with technology changing as fast as it is 
changing, and new technology coming on, you never know what is 
going to be next. And that is why I think the role of 
policymakers is maybe to have incentives, tax incentives, and 
let the private sector make the determination what technology 
to adopt and use.
    And to go on, we talked about in this hearing the business 
case for climate solutions. I would hope that this committee 
would push policymakers to adopt those kind of----
    [Audio malfunction.]
    Mr. Gibbs [continuing]. To make sure that we don't have 
regulatory hurdles and redtape and bureaucracy that stifles the 
innovation and technology, because we are in an area here where 
it is so important to have the R&D and adopt technologies, as--
economically at work.
    And with that thought in mind, there has been a little bit 
of mention about hydrogen----
    [Audio malfunction.]
    Mr. Gibbs [continuing]. And fuel cells. And I would like to 
have someone--whoever wants to, chip in on that.
    We all know--or should know--that fuel cell technology, I 
think, is improving pretty fast, and that it creates two 
products. One is electricity to run those electric motors in 
our vehicles, and the other is actual H2O, or water, that is 
actually drinkable water. And so if anybody wants to comment on 
where they see what is happening in the hydrogen fuel cell 
technology.
    I would also say that anything we do, policywise, we should 
include everything that is on the table, and not prioritize a 
certain sector of energy.
    So if anybody wants to chip in, like Mr. Allen on the 
buses, what is going on there with their fuel cells----
    Mr. Allen. Certainly. Certainly, thank you, Congressman.
    So Proterra today is exclusively focused on battery-
electric vehicles. We have studied hydrogen, but today we make 
a transit bus that provides over 300 miles of range within 1 
day. And we find that that matches up with over 95 percent of 
all the routes in North America today. So we believe that, as 
energy costs come down and as the range goes up, we believe 
that, at least in the transit bus world, the need for a 
hydrogen infrastructure won't be necessary. The battery-
electric vehicles could handle that.
    I don't think the same is true, as Mr. Smith said, for 
over-the-road class A vehicles. I think today that is probably 
the best application for hydrogen. But I think time will tell, 
as batteries themselves get lighter and have greater range, 
whether they will be able to satisfy the needs of the over-the-
road truck, along with dynamic charging for the infrastructure.
    Mr. Gibbs. Let me ask you a question on the current 
lifespan of batteries, what is that?
    And then, do we have an issue with disposing used 
batteries? How big of an issue is that?
    Mr. Allen. Yes, that is a great question. So today the 
Federal Transportation Authority requires our buses to last 12 
years. So our battery system that we put on there will last 12 
years, and will have a state of health acceptable at the end of 
that, as required to be able to sell. So at the end of that 
period of time, or during that period of time, we will swap out 
batteries into those vehicles.
    Then the batteries still have 70 percent of their life 
left, state of health. So we will put them into secondary 
storage. This is a fleet battery system that can provide backup 
energy to the fleets and to the grid.
    And then, ultimately, the batteries that we use are able to 
be taken apart. The components are able to be recycled.
    Mr. Gibbs. Thank you. I just got 40 seconds. I don't know 
if anyone else wants to chip in on my hydrogen question. 
Comments?
    Mr. Konar. Congressman Gibbs, if I may, this is Shameek 
Konar from Pilot.
    We have been looking at hydrogen quite a bit. And there 
have been a number of OEMs that are focused on hydrogen. The 
real question becomes for our over-the-road customers that are 
coming from, you know, L.A. to Jacksonville, the EV--the range 
associated with batteries and the energy density doesn't seem 
to do it.
    So there definitely seems to be a lot of traction on the 
hydrogen side, especially for over-the-road vehicles, where 
your weight you carry has to do with how much you get paid. And 
we do see a lot of interest on that. And we have been exploring 
alternatives to provide hydrogen at our sites, if this does 
move forward.
    Mr. Gibbs. OK, thank you. I am out of time. I yield back.
    Mr. DeFazio. I thank the gentleman. I will just comment. I 
have looked into hydrogen. We have got a number of very 
difficult problems.
    You can't put hydrogen in existing pipelines. It causes 
brittlization and failure. So you would have to have a totally 
new distribution network for hydrogen.
    And secondly, of course, the question is green hydrogen. 
And at the moment, producing non-fossil-fuel hydrogen is not 
particularly cost effective, given the cost of the electrolysis 
and the hydrolyzers. But they are working on that technology.
    With that I would recognize Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. My first question is 
for Mr. Smith, and it is with regards to airframe or airplane 
modernization.
    You have got two OEMs available to you. How do you consider 
the life cycle of an airframe, versus getting the fuel 
efficiency from a new airframe when you make a calculation 
about purchases?
    And do you get caught up at some point during the life 
cycle of that airframe, where you are not getting the savings 
out of it any longer?
    Mr. Smith. Well, we have been in the midst of a major 
aircraft fleet modernization program for over a decade, and we 
have bought--I believe I am correct--187 Boeing 767s and Boeing 
777s. And they were justified on the basis of substantially 
improved economics and operational capability. And we are 
confident in the aviation sector we will be able to continue to 
do that, where we justify new airplanes based on their life-
cycle cost or their improved operating capabilities for our 
customers.
    What we can't do, though, is to make those airplanes zero-
emissions the way we can with our pickup and delivery fleet, 
with electrification or some of the other technologies we have 
been discussing for over-the-road, including electrification. 
So that is why we have focused a lot on both sustainable 
aviation fuels and natural carbon sequestration.
    Mr. Larsen. Yes, can you talk--as well, have you done any 
estimated fuel savings looking at the last-mile drone delivery, 
and is that scalable?
    Mr. Smith. The drone delivery, both vehicular and aviation, 
really only makes sense for same-day deliveries. The vast 
majority of parcels delivered in the United States--and that 
market, by 2023, we estimate will be about 130 million per 
day--the vast majority of them are moved overnight, and then 
delivered in a loop route during the day. So drones really only 
make sense for same-day delivery.
    And we have an extensive effort, as I mentioned in my 
testimony, on a same-day surface delivery bot, which we call 
Roxo. You can look it up on the internet.
    Mr. Larsen. Yes, I will do that.
    Mr. Rudd from AECOM, can you tell me a little bit more 
about the role you play in eVTOL and, specifically with regards 
to the subject matter today, about how eVTOL could play in 
congestion reduction or fuel emission reduction?
    Mr. Rudd. Certainly, thank you for the question. So the 
work that we are doing today is working on piloting some of the 
programs around electric aviation. But again, these are for 
short haul, or what you might describe as last-mile. And the 
work that we are doing at the moment is looking at the 
infrastructure that would be necessary to build out and support 
a system, and then looking at the implications on the 
environment, the social networks, and our communities around 
that.
    So it is really a broader study and a pilot to see how that 
infrastructure could be built to serve a smaller community in 
southern Florida.
    Mr. Larsen. All right, yes, thank you. I may follow up with 
you a little bit more on that.
    For the gentleman from Proterra, are you making the case 
that, at least for bus--for transit and for schoolbuses, to 
leapfrog to electric and sort of skip propane and natural gas 
as a fuel?
    Mr. Allen. Yes, we are. We believe that propane and natural 
gas are really just a bridge to electrification. Certainly, 
both of those technologies provide environmental improvements 
over diesel. But the Holy Grail is zero-emission vehicles that 
we get with electrification. And we believe that the technology 
is there today for transit agencies and school districts to 
move to 100 percent electrification.
    Mr. Larsen. Yes, yes. Thank you, Mr. Chair, I yield back.
    Mr. DeFazio. I thank the gentleman. Mr. Perry is scheduled 
to be next. He is not back yet, so we will go to Mr. Babin.
    Dr. Babin. Thank you, Mr. Chairman, I appreciate it, and 
Ranking Member Graves. I want to say thank you to our witnesses 
for giving us your time today.
    When we debate about carbon emissions of greenhouse gases, 
we must consider the issue from a global perspective. In order 
to actually decrease worldwide pollution, countries like China 
and India have got to be held accountable for their emissions, 
especially when regulations become so burdensome here in the 
United States that our companies are forced to outsource 
production to these major offenders because they have very 
little regulatory oversight.
    So I would like to address my question to Mr. Hernick. How 
do we make sure that overly burdensome regulations are not 
forcing our domestic businesses abroad to other countries that 
are not playing by the same rules as we are?
    And if you would answer that, I have a couple more for you.
    Mr. Hernick. Sure thing, Congressman Babin, I appreciate 
the question. And I think that the most important takeaway is 
that it is a robust and positive business environment that is 
attractive for American companies, and robust competition that 
makes possible the types of emissions reductions that we have 
seen, and that we need to see in the near future to be able to 
achieve our goals, but also maintain a competitive economy 
against other global interests that don't have our same 
interests in mind.
    Very specifically, Congressman Graves, at the onset of this 
hearing, mentioned how the free market was able to reduce 
carbon emissions in the electric power sector faster than the 
Obama Clean Power Plan. We should remember that for the 
transportation sector, and assure that we are not drowning in 
redtape. And that is why, in the written testimony focusing on 
One Federal Decision, to allow businesses to get a firm up or 
down on whether or not their project is able to proceed, and 
not get caught up in years of reviews.
    I spent almost 6 years doing environmental and social 
impact assessments. There are a lot of good people in the 
field. And these are experts that, given a timeline, can meet 
it. And we should expect that, American businesses should 
expect that, and the U.S. Government should be able to deliver.
    Dr. Babin. Well, we just want to ensure--and how would we--
that our reduced emissions here do not just simply transfer to 
increased emissions around the globe to other countries that 
don't live by these same rules.
    And do you think countries like China would implement or 
retrofit their industries with newer, more costly technology?
    Mr. Hernick. I can't speak for what China will or won't do. 
I know that the example that we had at the last Olympic Games 
that were in China was that they needed to turn off industry to 
meet the standards that athletes required, and that they were 
willing to lie to the globe about what their emissions were 
until the U.S. Embassy put air monitors on the Embassy.
    So we should remember that when dealing with China. That is 
why we do need to focus on low-cost and a competitive 
environment, and we need to not foreclose on any of the 
options. Natural gas is a vital one.
    Russia is the number-four emitter of greenhouse gases. And 
to the extent that we walk away from an international oil and 
natural gas market, that is a direct transfer of power to our 
geopolitical adversaries in Russia. And we should not--that 
shouldn't be part--we should focus on that as a part of the 
strategy to figure out how to deal with these foreign threats.
    Dr. Babin. Absolutely. I think in my remaining time--time 
and again we see the ingenuity and technological innovations 
that come from our private sector. I have the privilege of 
representing southeast Texas, which includes the Johnson Space 
Center in Houston. It is here that we have seen so much success 
in leading the global pursuit of space by teaming up with the 
private sector. It is critical that we continue to pursue 
public-private partnerships, and let our competitive market 
work to identify and solve solutions to our challenges.
    Are there any suggestions you have on how we can modernize 
our infrastructure so that we could be spending our taxpayer 
dollars more wisely?
    Mr. Hernick. Well, sure. I think that the STARTER Act that 
was proposed by Republicans in this committee last year is a 
fantastic foundation for that discussion, focusing on strategic 
investments, where the Federal Government works in partnership 
with States so that decisions aren't being made out of 
Washington, DC, but are being made at the most local level 
possible on how folks actually get around.
    This is a big country, and the transportation differences 
between where I am in Annapolis to your home district and how 
folks get around in DC varies a lot. And that is something that 
is important for Congress to understand. And so pursuing an 
approach where Federal dollars move to States, or where Federal 
public-private partnerships are possible is absolutely a 
necessary part of the equation.
    Dr. Babin. OK, thank you for that answer. My time has 
expired, and I will yield back, Mr. Chairman.
    Mr. DeFazio. Thank you, Mr. Babin.
    Just in response to Mr. Babin's--these are good questions 
about China. And the best way that I know of to respond to that 
would be through trade policy, where we establish standards, we 
meet the standards; they don't meet the standards, they pay a 
penalty on any goods they want to import that don't meet those 
standards. That is the best solution I have heard.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman, for holding this 
very important hearing to discuss innovative policies that 
address the climate change.
    And I was particularly appreciative of the quote you made 
following your meeting on infrastructure with President Biden. 
You said, and I quote, ``We are still living off the legacy of 
President Eisenhower to the detriment of our safety, our 
economy, our communities, and our environment. It is time to 
get out of the 1950s and move forward on a transformational 
infrastructure bill that puts millions of people to work 
building the infrastructure of the 21st century and beyond, all 
while putting our country on a path toward zero pollution.''
    Thank you for working with me last Congress on a provision 
that I have been fighting for since the last FAST Act that 
would allow electric vehicle charging stations at park-and-ride 
rest areas.
    My district is home to the largest transit station on the 
west coast, called the El Monte Transit Center. Because FHWA 
has determined the transit center is on the highway, the 2,000 
parking spaces are not allowed to have electric vehicle 
charging stations. This is a problem throughout the country, 
including the Greenbelt Metro park-and-ride station 3 miles 
north of the Capital.
    The question is for Ms. Giammona. The State of California 
has major plans to work with PG&E and other utilities to 
implement electric vehicle charging stations. But the 
prohibition on EV charging at many park-and-rides and rest 
areas has been a major challenge. Should Congress allow EV 
charging at park-and-ride and rest areas?
    And would this help expand EV charging deployment and 
reduce range anxiety?
    Ms. Giammona. Congresswoman, thank you for your question. 
We have been working with the State of California to implement 
charging at State parks, at community centers, at schools, and 
within Tribes. We believe that Federal policy and enablement of 
charging infrastructure where consumers and customers actually 
want it will be beneficial for all of the Nation's consumers 
that will help to eliminate range anxiety.
    But we believe it----
    Mrs. Napolitano. What have you----
    Ms. Giammona. We believe it is in partnership.
    Mrs. Napolitano. OK, thank you very much.
    Mr. Allen of Proterra, I have visited the factory in the 
City of Industry. You are in my area.
    Mr. Allen. Yes.
    Mrs. Napolitano. Thank you for testifying. I was very proud 
to have you and the company in my district. And some of your 
fast-charging buses are already in Foothill Transit, which is 
in my area.
    What have been the challenges to EV bus deployment?
    Are there additional challenges working with local bus 
operators on this new technology, and how do you address those 
challenges?
    Mr. Allen. Great, thank you for the question, 
Congresswoman. And we are very proud of our relationship with 
Foothill Transit. They were the very first deployment of 
electric buses in this country with Proterra, back in 2010. So 
they are certainly on the absolute leading edge of this 
technology.
    The challenges, I would say, are no more different than the 
challenges of any new technology. It just takes patience, and 
it takes time, and it takes a collaboration between the 
manufacturing and the supply base, the infrastructure people, 
and the agency. But we continue to progress with Foothill 
Transit and with other transit agencies around the country.
    Mrs. Napolitano. But what are you going to do about the 
challenges of working with the local bus operators on the new 
technology?
    Mr. Allen. Well, training is certainly paramount. We have a 
relationship today within our facilities with the United 
Steelworkers, where we provide training in partnership with the 
Government. We focus on people of color, women, and formerly 
incarcerated people, to become employees within our facility. 
And we are very proud of that program in a public-private 
partnership.
    Mrs. Napolitano. That is wonderful. There are many things 
that I would like to see changed, and that would take a long 
time to try to get to them. But I think that training of 
employees, getting people to buy more electric cars--but if 
they don't have a place to charge them, they are not going to 
buy them.
    Mr. Allen. Right.
    Mrs. Napolitano. So we have to work in tandem with that 
policy, plus all the other aspects of it.
    Mr. Allen. We agree 100 percent, and we are happy to follow 
up afterwards with you and your staff on more things we can do 
together.
    Mrs. Napolitano. Thank you very much.
    Thank you, Mr. Chair, I yield back.
    Mr. Konar. Mr. Chairman, if I----
    Mr. DeFazio. I thank the----
    Mr. Konar. If I could just add a comment to the 
Congresswoman's question?
    Mr. DeFazio. Very briefly.
    Mr. Konar. Yes, sir.
    Mr. DeFazio. Very brief.
    Mr. Konar. I think charging at park-and-rides makes a lot 
of sense.
    I think one thing I would request the committee to consider 
is, as we go into EVs, the whole charging experience changes. 
You have gone from 2 minutes to fuel a car to 40 minutes or 30 
minutes to charge your car. And when we look at public rest 
areas, those 40 minutes, if you can keep people more engaged, 
give them more things they can do like you get at our travel 
centers, or that you get at the retail stops, where you can 
eat, you can shower, you can do other things, I think it will 
only help adoption of EVs. And I think we have got to keep that 
in mind, because if you are stuck for 40 minutes in some place, 
and it is not very well trafficked, it doesn't have----
    Mr. DeFazio. OK----
    Mr. Konar [continuing]. Amenities, it will be a challenge.
    Mr. DeFazio. Yes, OK. I thank the----
    Mr. Konar. Thank you.
    Mr. DeFazio. I thank the gentleman. Yes, I was just 
commenting with Mr. Larsen. Our rest areas in Oregon are pretty 
ratty, and people aren't going to want to hang around there. 
They are going to want to go someplace where there is a 
restaurant or something else for 25 or 30 minutes to recharge. 
California is pushing that hard. We will see how we deal with 
it in the bill.
    So now we are back--Mr. Perry is still not here, so Mr. 
Graves from Louisiana.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. Mr. 
Chairman, the first question I would like to ask is for Mr. 
Lewis and Mr. Rudd.
    In 2018 we made extraordinary progress on a bipartisan 
basis to advance resiliency measures to make investments in the 
resiliency of our communities, by ensuring that disasters are 
rebuilt in a way that builds in a standard looking toward the 
future and more resilient infrastructure, more resilient 
communities.
    You both have advocated for more resilient infrastructure, 
but can you talk about some of the regulatory challenges or 
obstacles that prevent us from doing that, or perhaps even 
tailoring a regulatory structure such as NEPA to the type of 
investments we are making, like green infrastructure 
investments that actually benefit the environment?
    Mr. Lewis. Yes, I can certainly start.
    The first one, on the issue of the resilience measures and 
mitigation, we basically have to be able to look at future 
conditions that are going to be very different than the 
conditions that were around when we wrote the current 
regulations, the current standards, building codes, and even 
some of the tools that we use, technically. They have all 
changed. So we need to be able to project ourselves into the 
future, understand not just the physical conditions, but even 
the users of the future, how they might change.
    We see things changing, for example, in the vehicle usage 
in the sense of automated vehicles that will change even the 
use of parking garages and things like that. So first we need 
more flexibility in our regulations and in our codes and 
standards that allows for that kind of future look, and for 
more agility and adaptability.
    I think, in terms of regulations like NEPA, the problem is 
the open-ended timeframes. The private sector, in particular, 
and especially the innovators, tend to be most frustrated, and 
sometimes even put out of business by the open-endedness of 
some of the timeframes that occur.
    So if the legislation and rulemaking and policies can all 
build some more hard deadlines and timeframes into the process, 
or give incentives, find ways to make it more predictable, 
because that is what is really holding back a lot of the 
deployment of new and innovative ideas and technologies, 
because----
    Mr. Graves of Louisiana. Thank you, thank you. I want to 
make sure we have time for Mr. Rudd to answer the question, as 
well, please.
    Mr. Rudd. Yes. So building on what my colleague said, one 
of the things that we look at when we look at the construction 
of infrastructure is we look at cost. So usually, the elements 
of a bid for infrastructure are pre-defined, and our bid models 
that we use look at cost.
    What they don't look at is they don't look at sort of the 
probability-weighted cost. Even though a climate event may be a 
low probability, the impact of it is very significant. So we 
need to think more holistically about the cost model, and how 
we actually rate or include resiliency, and the--some low-
probability outcomes in that.
    My suggestion would be to allow for nonconforming bids, 
moving forward for infrastructure, so that people can include 
innovation, and they can include resiliency and build a 
business case for it that may go beyond the current standards 
that we have for bidding projects and infrastructure.
    Mr. Graves of Louisiana. Thank you, Mr. Rudd.
    Mr. Smith, I would like to ask you a quick question. You 
talked about how your company is voluntarily setting a standard 
for 2040. I just want to be clear. Is there any Government 
mandate or anything that you are being coerced to do this, or 
is this just a decision by the company?
    Mr. Smith. The latter.
    Mr. Graves of Louisiana. OK, thank you. And the next 
question is, if we are operating, obviously, in a global 
environment--as Mr. Crawford mentioned earlier, for every 1 ton 
of emissions we produce in the United States, China has 
increased by four. They have increased by four, resulting in a 
net increase in global emissions. And including under the Paris 
Accords, this is allowed.
    How do we, from an economic perspective, move forward on 
this?
    How do we establish a social cost of carbon whenever other 
countries' actions we have no control over, and they are being 
irresponsible?
    So how do we value that, as we look to a free market 
solution, moving forward?
    Mr. Smith. Well, I think one of the most promising areas is 
what Chairman DeFazio mentioned that you might consider, a 
border adjustment taxation, where, if goods come into the 
United States that have not improved their carbon footprint, 
there is a tariff on them.
    And on the other side of the coin, we should have some sort 
of adjustment on our exports out from the United States when we 
have improved. The border adjustment tax is something that was 
carefully considered a few years ago. But if you combine it 
with carbon emissions, you could probably achieve the goal that 
you want, which is to incentivize foreign folks to do the same 
thing that we are doing.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I do want 
to make a note, with a border adjustment tax you are 
disincentivizing or making the U.S. economy less competitive. 
It would need to be globally adopted. And I don't support 
that----
    Mr. Smith. Mr. Graves, I don't agree with that, and I 
supported the TIACJ, and I think the biggest impediment we have 
to being export competitive is that we compete with people who 
have a value-added tax. And because of the historical trade 
agreements, we can't deduct our corporate income tax, and they 
can deduct their VAT. The VAT, adjusted on the outbound, would 
help our exports.
    I would be glad to sit and talk to you about this, but I 
think it is a positive for U.S. exports.
    Mr. DeFazio. I thank the gentleman for his question, and I 
thank Mr. Smith. I have raised that issue about the fact we 
can't give an adjustment for our income tax, and they have the 
VAT. And we agreed to that in the 1950s, when we made 
everything in the world. We don't care what they do. Who cares? 
They are going to buy it from us, anyway.
    This is a different era. And I have talked to every trade 
representative about that. And they go, ``Oh, yes, I hadn't 
thought about that.''
    I said, ``well, you have got to change that, or we are 
going to continue to lose market share.''
    With that, Mr. Cohen.
    Mr. Cohen. Thank you, Chairman DeFazio.
    Mr. Smith, you were talking in your introduction about the 
length of trucks, and how maybe that could help with safety and 
with fuel economy. Would you go into more detail on that?
    Mr. Smith. Well, there are about 3\1/4\ million trailers in 
the United States. The vast majority of them are 53-foot 
trailers. They are the type that are operated by the truckload 
carriers, where you pay by the mile: Swift, Schneider, J.B. 
Hunt, and so forth. There are about 300,000-odd so-called twin 
trailers, where they are 2 trailers together, articulated. They 
are used by parcel and LTL, or less than truckload carriers. 
There are only about 300,000 of them in the country.
    So if you extended the length to 33 feet, we would save 
about 225 million gallons of fuel, reducing emissions, take 
lots of vehicles off the road. They are safer. We operate them 
every day in many parts of the country. We have been operating 
them for years. For instance, in Florida they are more stable, 
and so we would advocate for that, and have been for years.
    Mr. Cohen. The issue that people bring up when they talk 
against it is safety. Florida is pretty flat. You can go 
straight down from Tallahassee to Miami, and there is no 
mountain, there is no turn. Do you all have experience with 
these around mountainous areas, like east Tennessee, or some 
other places?
    Mr. Smith. Well, I don't think that the inherent safety of 
the 33-footers versus the 28-footers changes, based on the 
topology that we deal with. I would just say, Congressman, 
every meeting at FedEx begins with safety, above all. It is the 
centerpiece of our corporate strategy and our corporate 
philosophy. So we would not be advocating these if we did not 
believe that they were safer--not as safe--but safer. They are 
more stable, and they take thousands and thousands of trucks 
off the road, which improves safety by reducing the absolute 
number of accidents.
    Mr. Cohen. Now I am going to ask you about two other 
futuristic things FedEx is looking at. One of them is the 
drones, and you all have worked with the FAA and the Memphis 
International Airport on some drone research.
    How do you see drones, and then Roxo, which is the little 
robots, and--you know, I would have probably given you a 
failing grade on [inaudible] on FedEx, because I don't see the 
future as well as you do. How do you see Roxo and drones really 
integrating into the daily lives of people?
    I mean, are you going to put a Roxo out at Oak Hall, and 
let them take delivery at East Memphis? Or how is that going to 
work?
    Mr. Smith. Well, as I mentioned a moment ago, the biggest 
parcel market is the parcel market where people order something 
off the internet and get delivery overnight. And in 2 days 
those items are transported overnight, and then they are put on 
route delivery networks during the day. That is what we do with 
150,000 vehicles around the world.
    There is no way that an aerial drone or a drone like Roxo 
can compete with a truck and an efficient driver doing that. 
But for same-day, let's just say a pizza, which we all get from 
time to time, when you order a pizza you have a driver that is 
driving a 2,500- to 3,000-pound car, delivering a 2-pound 
pizza. That is something that Roxo can do at a fraction of the 
emissions, and a fraction of the cost. So it is the same-day 
market for aviation drones and surface drones that have huge 
environmental and safety implications.
    Mr. Cohen. Well, my question is--and I am just missing 
this--how does Roxo get to Pete & Sam's? Does FedEx have to 
take Roxo out there and drop it off, and then it goes around 
Park Avenue and the----
    Mr. Smith. No, Roxo is so cheap. Think about it like the 
parking lot at Target, where you walk outside with your 
shopping basket. So Target would have the Roxos there. And when 
you order something from Target, a prescription, the Target 
people simply put it in Roxo, it goes to your house, you take 
it out, it goes back, and then is reused again over and over 
during the day.
    Mr. Cohen. So Roxos are all going to be out there in the 
field. They are not going to be out there at a central FedEx 
location. They are going to be more where the retail is.
    Mr. Smith. Exactly. They will be located at the origin of 
the demand. And then, when you order something, within a few 
minutes, Roxo, with virtually no fuel expended--certainly no 
traffic in your neighborhood of a 3,000-pound car delivering a 
prescription or a pizza--will come, and you will take it out of 
the device, and it will go back to its point of origin. Its 
average delivery radius will be probably about 3 miles.
    Mr. Cohen. In 2006, you joined a group of----
    Mr. DeFazio. Steve?
    Mr. Cohen. Is my time up?
    Mr. DeFazio. Yes, sorry.
    Mr. Cohen. With that, I would yield, and go Falcons.
    Mr. DeFazio. Mr. Bost?
    Mr. Bost. Thank you, Mr. Chairman.
    Mr. Konar, in your testimony, you talked about the fuel 
retailer's perspective on offering EV charging. It has been the 
private sector who has led the way in the electric vehicle 
innovation.
    You mentioned that the fuel retailers are agnostic about 
the type of fuel they offer. Can you please expand on how 
companies like Pilot and smaller independent fuel retailers can 
help with providing the EV with making it economically viable?
    Mr. Konar. Thank you, Congressman Bost. So let me start by 
first saying the fuel retailers' goal was really to serve what 
our customer wants. Right? So we are highly focused on 
providing the service that our customer is looking for. And I 
will give you a great example, and then I will talk about how 
it could work in this case.
    About 10 years ago, biodiesel and biofuels were definitely 
not something that were economic and were available in the 
market. And, you know, our customers didn't want it. Through 
the correct market incentives and public policy, what the 
Federal Government enabled us to do was actually provide 
cheaper biofuels to our customers, which has led to significant 
adoption of biofuels.
    So, for example, Pilot next year or this year should 
probably sell about 11 billion gallons of fuel. And we are 
going to sell 1 billion gallons of biofuels, which is a 
combination of ethanol and biodiesel and renewable diesel and 
so on, which has a significantly smaller carbon footprint, and 
does something about it now at scale, right, which is 
equivalent to taking 1 million cars off the road.
    So the way we think about it is we have to get our customer 
comfortable with going into the EV market. And there are three 
legs to that.
    One is the cars should be cost competitive, and we are 
getting there. We are getting there very rapidly with the 
amount of focus there has been on batteries and the EVs.
    The second is the functional experience should work. As Mr. 
Smith talked about the longer trailers, the functional 
experience from the car should work, and I think they do.
    So the third part we need to solve expediently is basically 
how to deal with range anxiety, and provide a fueling 
experience that is safe and has additional attractions for our 
customers, and does not force them to change habits. And we are 
able to do that, and we are fully willing to do that. But today 
the economics, just like in the adoption of biodiesel in the 
beginning, or in the adoption of solar power or wind 
generation, are very challenging for us to invest and be able 
to do that effectively.
    So I think the way we can really enable this is get some 
support from the Government, not just for us, but also for the 
utility sector, who has to provide the green power. Because if 
you are burning coal to sell to charge EVs, we are kind of 
destroying the whole objective of this.
    But, really, support the utility sector and support us, so 
that we can provide the right customer experience, and they can 
provide us the power. And then we can kind of eliminate that 
third issue we are dealing with, which is range anxiety. 
Hopefully I answered your question.
    Mr. Bost. Yes, you did. Thank you.
    Ms. Giammona, are there any technologies or R&D that is 
needed to reduce the cost of EVs, or to ensure that the grid 
can manage the new load?
    [Pause.]
    Mr. Bost. That is for Ms. Giammona.
    Voice. PG&E.
    Ms. Giammona. Thank you. Congressman, thank you for the 
question.
    Yes, we do believe and support R&D to really help support 
the grid, nationwide. We are now having to operate the grid in 
a bidirectional fashion. So we think there are opportunities, 
both from an R&D perspective to support the grid, as well as 
support and enhance vehicle adoption and support for what 
consumers need.
    We think there is an opportunity for the vehicle, as my 
colleague from Proterra mentioned, to become a battery storage. 
And we have been in trials with BMW and others to look at the 
second-generation batteries and what they might do to help grid 
stability and operate as a battery.
    We also think there is an opportunity for electric vehicles 
to play a role in household resiliency in times of natural 
disasters, and that is vehicles with inverters. And we think 
that R&D at a Federal level could really help to accelerate the 
development in these areas.
    Mr. Bost. Thank you----
    Ms. Giammona. Thank you for the question.
    Mr. Bost. And just one real quick question for Mr. Smith, 
now that I am down to a few seconds. Is that the Eagle, Globe, 
and Anchor on your tie?
    Mr. Smith. It is, indeed. I served in the Marine Corps in 
1966 to 1970.
    Mr. Bost. Semper Fi.
    Mr. Smith. Semper Fi.
    Mr. Bost. Thank you, and I yield back, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    Mr. Sires?
    Perhaps he had to step out.
    Voice. He is on.
    Mr. DeFazio. Oh, is he?
    Mr. Sires. I am.
    Mr. DeFazio. All right, go for it.
    Mr. Sires. Can you hear me?
    Mr. DeFazio. Yes. Speak up.
    Mr. Sires. Mr. Lewis--well, first of all, Chairman, thank 
you for this hearing. It is very interesting, very informative. 
And all the witnesses, thank you very much for taking the time 
to be with us and informing us.
    Mr. Lewis, in your testimony you note data showing that 
each dollar spent on infrastructure risk mitigation and climate 
adoptions makes itself back at least four times over. Can you 
speak to the impact----
    [Audio malfunction.]
    Mr. Sires [continuing]. Current and future?
    And here is what I am talking about. I see all these 
tornadoes in the Midwest destroying everything, and they seem 
to rebuild them the same way that they were built before, not 
as resilient as it could be for the future weather. I know the 
Obama administration tried to do something about it. But, you 
know, I just don't get it.
    The other issue I will tell you is in New Jersey, we had 
this Sandy storm which caused about $30 billion in economic 
losses and damages. Basically, all along the beach, all along 
the shore. Yet people still want to build right next to it, and 
build the same way. So can you talk about how we change that 
attitude?
    Mr. Lewis. Yes, thank you for the question.
    On your first question, the problem really stems from the 
Stafford Act, which has been around for decades. When FEMA 
responds to a Presidentially declared disaster, it is written 
in that the Public Assistance funding cannot be used to change 
what was there before. It basically incentivizes building the 
same thing back again, despite the fact that it is now proven 
that that element of infrastructure is susceptible to failure 
and damage when a disaster occurs.
    So legislation needs to be created, either by just 
modifying the Stafford Act, or by overriding it in new 
legislation that allows for the evolution of the building back 
after a disaster to include these ideas that will make 
something better. By just an incremental 2-percent increase in 
the cost, you can then make it so that the next time the same 
disaster comes, it won't have the same disastrous impact.
    As far as your question on building back in places that are 
proven to be susceptible, like the Jersey Shore, which, by the 
way, I lived at the Jersey Shore for over 10 years----
    Mr. Sires. People want to live on the water. They want to 
live----
    Mr. Lewis. Yes, exactly, exactly. And I think there are 
only two answers to that. Either you need to incentivize people 
to go elsewhere, which is very difficult, in this country in 
particular, but there are some programs that do that by paying 
a fair price to properties that are in vulnerable areas where 
people may be sick of having to rebuild after multiple floods. 
Or you need to build resilience.
    And there are nature-based solutions, putting natural reefs 
or other breakwaters, using smart biodiversity-type solutions, 
like we are doing off of Staten Island, for example, which was 
a Sandy-funded mitigation. And these are good ways to protect 
from the storm surge that occurs. So there are solutions that 
make places safer if you can't, in fact, relocate people.
    Mr. Sires. Thank you.
    I was just wondering about electric locomotives and 
hydrogen fuel cells, locomotives. Can somebody talk to me about 
that?
    I know some of the railroad companies are looking into a 
lot of these electric locomotives. Can anybody talk a little 
bit about that?
    [No response.]
    Mr. Sires. Anyone, take a shot.
    [No response.]
    Mr. Sires. No takers? Is it good, or is it bad?
    Mr. Konar?
    Mr. Konar. Sir, I live in the world of trucks, but I will 
attempt to answer your question.
    Mr. Sires. Oh, OK, well, somebody----
    Mr. Konar. I do think, subject to what the chairman said, 
provision of hydrogen through non-fossil-fuel-based hydrogen 
becomes a challenge. But I think in locomotives you actually 
have the ability of doing that, because you are more 
centralized in where you fuel, as opposed to trucks, where you 
are fueling all over the country.
    So I think it is a problem that is solvable, but I will be 
honest, I have not looked at the economics on the locomotive 
side, and the power--and the hauling side, as I have looked on 
the trucking side of it.
    Mr. Sires. All right. Well, I don't have any more----
    Mr. Santana. Can you repeat your question, please? It is 
breaking up.
    Mr. Sires. Yes, I was just wondering about hydrogen fuel 
locomotives----
    Mr. Santana. Representative, can you please repeat your 
question?
    Mr. Sires. Yes, I am--you can't hear me?
    Mr. Santana. Representative, can you please repeat your 
question?
    Mr. DeFazio. Albio, you are out of time, I am sorry. OK.
    Mr. Sires. OK.
    Mr. DeFazio. Mrs. Steel?
    Mrs. Steel. Thank you very much, Mr. Chairman, and thank 
you for all the witnesses coming out today. We have----
    Mr. Santana. Representative, can you please repeat your 
question?
    Mr. DeFazio. Your microphone is on. Please shut off your 
microphone.
    Mrs. Steel?
    Mrs. Steel. We have heard from many experts today that 
market-based innovation is working successfully.
    In Orange County I have many local, small, mid-sized, and 
large companies voluntarily achieve carbon-neutral status. 
California companies are proactively investing in plans to cut 
carbon emissions without additional regulations being enforced 
by Government by any level.
    We must be careful when we talk about creating new taxes or 
shifting our tax code. We have said many times that heavy-
handed mandates only cause more confusion and burdens. The 
Government is not good at picking winners and losers. The 
Federal Government must allow for flexibility, and we must 
eliminate barriers to major infrastructure projects by 
streamlining permit and modernizing the environmental review 
process.
    Voice. Hopefully you can hear me, Mr. Representative.
    Mr. DeFazio. Hold on. She is making a statement. I don't 
know who is talking. It is her time.
    Mrs. Steel. I want to ask Mr. Lewis the question, what 
hurdles have you encountered as project manager for the 
California high-speed rail project?
    Have California's environmental regulations been easy to 
abide by, since California has much harder regulations than any 
other State?
    Mr. Lewis. Yes, we have been able to work with the 
California High-Speed Rail Authority in a case-by-case basis to 
evaluate the different opportunities for sustainability and 
resilience elements within the program. And each one can have 
its different challenges, especially with regard to anything 
that has air emissions associated with it, because of the very 
stringent rules on air emissions in the State of California. So 
that is where you see the biggest challenges.
    But luckily, a lot of the sustainability and resilience 
elements that we are building into the program don't involve 
the emissions. And so the regulatory hurdles are easier to deal 
with. But it really is a case-by-case basis. And you have to be 
willing to think outside the box, and really address each of 
the challenges with their own set of requirements and 
timeframes.
    Mrs. Steel. As you may know, the California high-speed rail 
project had its Federal funding terminated in 2019 for failure 
to comply with the grant terms, and failure to meet deadlines. 
Do you believe it is right for taxpayers to continue to fund 
the California high-speed rail project?
    If so, what is the WSP's plan to fix this project, going 
forward?
    What has changed about the project in 2 years to warrant 
more Federal funding?
    Mr. Lewis?
    Mr. Lewis. I apologize. For some reason I couldn't hear you 
until the last 5 seconds there. Can you repeat the question?
    Mrs. Steel. Do you believe it is right for taxpayers to 
continue to fund the California high-speed rail project?
    If so, what is the WSP's plan to fix this project, going 
forward?
    What has changed about the project in 2 years to warrant 
more Federal funding?
    Mr. Lewis. Well, we are working through all of the 
different elements of the program, which is broken into 
different sections, of course. And each one has its own issues 
and challenges. So we are taking them in partnership with the 
California High-Speed Rail Authority, piece by piece, issue by 
issue. And we are coming up with solutions that absolutely 
justify the project going forward, in our opinion.
    Mrs. Steel. But it has been already failed for all the 
deadlines and all the agreements. So you think that moving 
forward you are going to meet other deadlines, and will you 
need another Federal funding?
    Mr. Lewis. Well, yes, again, each issue has its own path to 
solution and timeframe. There have been some challenges that 
have been taken on, and have been evaluated, and coming up with 
the solutions in partnership with the High-Speed Rail 
Authority. So, yes, we feel like we can move forward in a very 
effective way.
    Mrs. Steel. Mr. Chairman, I yield back.
    Ms. Davids [presiding]. Thank you. The gentlelady yields. 
We will go to Mr. Johnson next.
    [Pause.]
    Ms. Davids. OK, it looks like Mr. Johnson might be voting. 
We will go to Ms. Titus.
    Ms. Titus. Thank you very much. Yes, I represent the Las 
Vegas Valley, and we're thought of as lots of neon signs and 
glitz and glamour. You don't think of us necessarily as being 
out front when it comes to climate change, but that is really 
not accurate. We have a lot of LEED standard gold buildings. 
MGM Resorts has said they want to slash their carbon emissions 
in half by 2030. Big developments of solar power throughout the 
Las Vegas Valley. Steve Sisolak, our Governor, is trying to 
have the State meet the Paris Agreement standards.
    And also, we have a State senator, Chris Brooks, who has 
introduced a bill that would require a $100 million investment 
in EV charging infrastructure. And an interesting part of it is 
that 40 percent of that infrastructure has to be built in 
historically underserved communities. So I would like to go 
back to that EV infrastructure issue a little bit, and ask Mr. 
Konar to talk about this.
    I support President Biden's efforts to invest in this, and 
his goal of a half a million new charging stations. We need 
this infrastructure available along I-15 that connects us to 
California. You have a couple of service stations and 
facilities along that road. If I-11 is built between Las Vegas 
and Phoenix, that would be another perfect place for this. I 
wonder if you could talk some more about the public-private 
relationship for establishing these stations, and also what we 
can do to be sure that they are built in some underserved 
communities, not just in more affluent neighborhoods.
    Mr. Konar. Thank you. Thank you very much for the question, 
Congresswoman Titus.
    So I would like to kind of answer this in two parts. One is 
your point about building infrastructure on highways. From my 
perspective--and that is what I am way more qualified to speak 
on, because that is what we do--our focus there is reducing 
range anxiety. At Pilot right now, we have 58 charging 
stations, some of them actually in Arizona and in west Texas 
and up in Washington.
    And as we looked at the data from these charging stations, 
what we have been seeing is that our utilization rates at these 
charging stations are way less than 1 percent. So, if you build 
a piece of infrastructure and it is being used less than 1 
percent, as a fiduciary to your shareholders, it is very 
challenging to make that case.
    So I think the Federal Government coming in and assisting 
us, especially during these early days, where I don't doubt if 
you were talking 10 years from now, that utilization number 
would be very different. But we need to incent the customer to 
drive and to charge. So we want to put that out there, because 
it is the chicken and the egg problem that we are suffering 
from. If there are no charging stations, people don't buy EVs 
and people don't go ahead and travel.
    So we really--both us and the utility sector, I think, 
could benefit from getting help from the Federal Government in 
these early days, so that we get adoption and we get to 
critical mass.
    To your second question, as it relates to inside the 
cities, that is a little bit of a different kind of issue. And 
maybe the lady from Pacific Gas and Electric could give you a 
better view on that. But in terms of highways, I think we can 
definitely make this work, and we definitely need some help 
from the Federal Government, as do the utilities, to get the 
infrastructure to us.
    Ms. Titus. Well, thank you. And I will ask her, but I would 
think there would be a demand for it along those--I-15 is just 
such a busy corridor. And then all our hotels welcome so many 
driving travelers from California, you would think there would 
be some incentive to put them there.
    Mr. Konar. We are exploring everywhere. We are exploring 
partnerships with people. And I have been just as surprised by 
the data as you are right now. In fact, in preparation for the 
hearing, I pulled data from our stations, as well as one of our 
partners out in Utah, and we are both at less than 1 percent. 
And it makes the economics very challenging right now.
    But I do think range anxiety--I will just cite a study done 
by Morgan Stanley. They polled a lot of EV owners, and range 
anxiety--almost 50 percent of the people who would potentially 
buy an EV said they wouldn't buy them because of range anxiety. 
So we do need to solve that.
    Ms. Titus. Thank you. Anybody else want to comment?
    Ms. Giammona. Congresswoman, I really appreciate the 
question. I would offer that, in California, what has really 
helped the California utilities, in partnership with our 
commission and State regulators, we have focused goals on 
disadvantaged communities. So our programs and incentives are 
focused on meeting specific targets to ensure we have charging 
infrastructure built in----
    Ms. Davids. Ms. Giammona? Ms. Giammona?
    Ms. Giammona. Yes?
    Ms. Davids. Do you mind if we maybe come back to the 
remainder of the question? The gentlelady's time has expired.
    Ms. Titus. Well, thank you. Maybe we can be in touch, and I 
can learn more about it.
    Ms. Giammona. That is great. I am happy to follow up with 
you.
    Ms. Titus. Thank you.
    Ms. Davids. Mr. Stauber is recognized for 5 minutes.
    [Pause.]
    Mr. Stauber. There you go. Now it is on. Thank you, Madam 
Chair, and I appreciate the witnesses. A few questions.
    Mr. Allen, for your electric vehicles, what country are the 
minerals like copper, nickel, and cobalt used in your batteries 
and computer systems sourced from?
    Mr. Allen. The battery cells that we get today are from 
Korea. Nickel, cobalt, and magnesium are the main ingredients. 
But I am afraid I don't have the information with me about 
where our supplier sources them.
    I do know that all of the suppliers that we deal with are 
in compliance with the OECD due diligence requirement around 
conflict minerals. So we--you know, we do have----
    Mr. Stauber. Yes, Mr. Allen, I would like to inform you 
that most of the minerals come from the Congo and China. And 
does the Congo, Mr. Allen, does the Congo and China have better 
or worse labor and environmental standards than the United 
States?
    Mr. Allen. I think an obvious answer to that question is 
that they don't, sir. But, as I was saying, we do work with the 
suppliers that we have to ensure that they pass the due 
diligence guidelines, that they are not buying products that 
violate human rights in our supply chain.
    Mr. Stauber. And again, the Congo and China do not have the 
environmental and labor standards the United States does.
    My next question, Mr. Hernick, what are some of the global 
environmental benefits to mining and sourcing critical minerals 
in the United States, as opposed to foreign countries with 
little to no environmental standards?
    Mr. Hernick. Well, Congressman, this is a values question. 
This is what do we stand for, as Americans, and for Americans, 
we stand for pride in our work, and human rights, freedom of 
speech, freedom of expression, freedom of assembly. And these 
are rights that we have that a lot of the countries that you 
are talking about--China and DRC, in particular--they don't 
have.
    So when we are doing business with these countries and 
sourcing materials from them, we are supporting regimes that 
undermine American interests, very specifically. And----
    Mr. Stauber. Mr. Hernick, would you agree that, if we 
purchase critical minerals mined in the Congo and China, 
especially in the Congo, there is child labor, forced child 
labor, to mine, for instance, the cobalt?
    Mr. Hernick. We know that. And, as the father of four 
daughters, that makes me very uncomfortable, and it is one 
where we need to be open to all-of-the-above approaches to 
solving the climate problem, and sourcing minerals, and looking 
in our own backyard, and not being afraid of fulfilling our 
high environmental and labor safeguards, and utilizing the 
resources that we have in our own country here.
    Mr. Stauber. And I think that all the witnesses and members 
of the T&I Committee know that, in northeastern Minnesota, we 
have the largest copper nickel find in North America. At least 
one company is in its 19th year of permitting and fighting 
court battles. We have the best environmental and the best 
labor standards in the world. The northeast Minnesota corridor, 
the Iron Range hosts the Duluth complex of this copper nickel 
find. We do it best. And I would suggest that we put a lot of 
effort into mining manufacturing be brought back to the United 
States.
    Mr. Chair, it is clear that the committee has heard today 
that we have found the climate solution that also has a great 
business case. We can mine our critical minerals in the United 
States, we can refine these minerals in the United States, we 
can extract and transport our fuels in the United States, and 
bring back building and manufacturing items of importance into 
the United States using the best labor standards and the best 
environmental standards.
    Nobody does it better than the United States. And the best 
part of all this is that we are following our labor and 
environmental standards. We emit the least amount of carbon 
when we environmentally source it right here, in our country. 
And northern Minnesota and the Iron Range stand ready to source 
these materials in an economically pristine and friendly way.
    Ms. Davids. The gentleman's time has expired.
    Mr. Stauber. I yield back.
    Ms. Davids. Mr. Huffman is recognized for 5 minutes.
    Mr. Huffman. Thank you. I want to thank the chair for a 
great hearing.
    It has been suggested by some, though, that just because we 
have begun to reduce emissions over the past decade, that we 
are doing just fine, and we should just pat ourselves on the 
back and continue business as usual. I wish that were so. But 
the truth is we are not doing great. We are on track to lose 
this climate fight if we don't dramatically change course.
    And just because we are finally starting to reduce 
emissions doesn't mean that we didn't put most of those 
greenhouse gases up there over the past century. And we are 
still one of the world's biggest greenhouse gas polluters.
    So the truth is we are playing catch-up here. We are 
running out of time. And we can't indulge fantasies or 
invitations to slow down, or rest on our laurels, or otherwise 
continue fossil fuel business as usual.
    Let's also not pretend that we have to be in some race to 
the bottom competition with Russia for sales of fossil fuels. 
Nothing threatens Russia's geopolitical influence like changing 
the paradigm to clean energy, where they can't compete with us 
or anyone else.
    So with that, I want to ask a question to Mr. Smith from 
FedEx.
    I very much appreciate your commitment to a zero-emission 
fleet by 2040. And you are doing this without waiting for 
Congress to pay for your infrastructure or your fleet 
transition. As a businessman, you have looked at total cost of 
ownership and efficiency, and you have concluded, from a 
business perspective, that a rapid transition to electric 
vehicles is the smartest move.
    So fast forward----
    [Audio malfunction.]
    Ms. Davids. The gentleman shall suspend. It seems as though 
we might be having some technical difficulties, Mr. Huffman. We 
are having a hard time hearing you.
    And Mr. Smith has left the hearing, and won't be returning.
    [Pause.]
    Mr. Huffman. Madam Chair, if I could get a little credit on 
time, and maybe come back to Mr. Smith, I will move on to my 
other question.
    Mr. DeFazio [presiding]. Jared, unfortunately, I announced 
at the beginning he would have to leave in 2 hours, and he 
stayed longer than that, so he is no longer available.
    Mr. Huffman. Well, darn. I thought I had a pretty good 
question for him. Let's go to PG&E, Ms. Giammona, and I hope I 
will get a little break on time, since I missed out on Mr. 
Smith.
    But California is, obviously, on its way to a 100-percent 
clean electricity portfolio. That is exciting. We are leading 
the way on vehicle electrification. And so the move to EVs 
won't just reduce tailpipe emissions. It is going to be clean, 
all the way around.
    But we are also struggling to have a grid that avoids 
rolling blackouts, that doesn't spark wildfires. We are not 
alone. Clearly, Texas has huge problems. It will need to make a 
bunch of investments in its grid. Obviously, today, in many 
parts of the country, our grid is not ready for millions of new 
EVs adding all of that load. But we are planning for the 
future.
    And I want to ask you, will the grid be ready?
    What gives you confidence that our grid will be able to 
handle all these EVs in the next decade or two?
    And what Federal policies would maximize your confidence 
that we can get there?
    Ms. Giammona. Congressman, thank you for the question. As 
you know, we are making significant investments in California 
in PG&E's grid with our system hardening, our undergrounding 
projects, and, really, in an attempt to modernize the grid to 
withstand the climate changes that we are experiencing in 
California, but, more importantly, be ready to adapt for new 
and cleaner technology that customers want and need for the 
future.
    So I feel very confident in California. We are working very 
closely with our regulators, our policy makers, and I really 
see this as a concerted effort. It is not one utility, it is 
the utilities in partnership with good policy and strong 
regulators in the State.
    As we think about it more nationally, we are working in 
partnership with all of the utilities through Electric Edison 
Institute and EPRI to really ensure that we are taking 
advantage of the best technology R&D resources out there to 
modernize the grids.
    But we are an infrastructure company. We planned that 
infrastructure. And I think working with third-party markets, 
working with customers, and really understanding what the 
future of energy is going to look like, coupled with strong 
policy, strong R&D, and strong support from the Federal 
Government, we are going to be ready for this.
    Mr. Huffman. Thank you, I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Burchett?
    Mr. Burchett. Thank you, Mr. Chairman, and I appreciate you 
bringing these folks to us.
    Mr. Konar, many folks think of Pilot Flying J as just a gas 
station company. Can you talk a little bit about some of the 
other parts of Pilot's business, particularly the biofuels 
program and the low-carbon fuels?
    Mr. Konar. Yes, sir. Thank you. Thank you very much for the 
question.
    What I would say is, I would say Pilot Flying J is a 
customer service company. Our goal is to provide the on-highway 
drivers who have just been amazing heroes through the pandemic, 
as they continue delivering goods and services, and today 
vaccines, as Mr. Smith talked about FedEx. Our goal is to 
support them in whatever way we can.
    And in addition to that now, Pilot Flying J has also become 
a center for the four-wheel customer, the gas customer that is 
driving on the road.
    So our goal, as Pilot, is to be a customer service-oriented 
company and deliver to the customer what they want to buy, 
where they want to buy it, and at a price that they are willing 
to pay.
    So, when we talk about renewable fuels, and when we talk 
about reducing carbon footprint, I think the public-private 
partnerships that we have talked about during this hearing, as 
well as partnerships between Pilot Flying J and the utilities, 
would be a great solution to go ahead and reduce carbon 
footprint for the transportation sector. Because the utilities 
need money today in order to help their infrastructure.
    As we discussed, it is not just the EV pressure that is 
going to hit the utilities infrastructure. Remember, we are 
trying to green the whole country. And the utilities are the 
ones that provide power. We change industrial processes, we 
change boilers, we change everything. The utilities have to get 
the green generation and deliver the power to us. So they need 
help. We need help in order to get us going, because at Pilot 
Flying J, we are in 44 States, we have got 1,000 locations 
around the country.
    So we can actually step in there and say--and our retail 
dealers work with us--``You can drive an EV from L.A. to 
Jacksonville and not have to worry because every 100 miles I 
can get you food, I can get you Wi-Fi, I can get you fuel, I 
can get you a shower, I can get you an ATM machine, whatever 
you need.''
    And I think this kind of gets lost in the mix when we talk 
about things like rest areas, and when we talk about trying to 
develop new infrastructure. Our goal, as a country and as a 
community, should be to leverage what is already in place, make 
it attractive for the customers so that they step in and start 
demonstrating the behaviors we want them to, and then use all 
our public funds to basically bridge us to the point where this 
is economic and it has taken up enough scale that we can do it 
with private investment.
    To me, that would be the perfect solution. I know it was a 
mix of what does Pilot Flying J do, but really, I mean, my goal 
here is to try to reduce the carbon footprint and use all the 
efforts from this committee as effectively as possible so that 
the right people get the right amount of support, and we can 
move forward.
    Mr. Burchett. Yes, sir. And I know you all started as a 
single gas station, but what prompted the company to change its 
business model and grow over time?
    Was it because of Government mandates or private market 
decisions?
    Mr. Konar. It was completely because of private market 
decisions, because we saw a need for truckstops. Because, as 
you know, trucks can't fuel at gas stations because of their 
size and because a truck needs to fuel at 14, 15 gallons a 
minute. Otherwise, the driver is going to be sitting there 
forever, which is a problem we have to solve on the EV side. So 
completely on market incentives.
    Mr. Burchett. I figured that, knowing Mr. Haslam.
    I would guess that Pilot is the largest employer and 
taxpayer in many of the communities where your truckstops are 
located. How many employees do you generally have at your 
locations?
    And what do these travel centers mean for those 
communities?
    Mr. Konar. Well, it is a great question, because a lot of 
our travel centers are in very remote communities around the 
country, where there aren't jobs. And we often end up being the 
only source of fuel or food or amenities for a lot of the local 
communities.
    A travel center, on average, has, depending on the size, 
between 60 to 80 people that we hire in local communities. 
Pilot employs about 28,000 people around the country. And a lot 
of them live in very rural environments. But, the interstate 
business and keeping America moving is a way for them to get a 
livelihood. So we are very appreciative of that.
    Mr. Burchett. Thank you so much.
    Mr. Chairman, I yield back the remainder of my time. And I 
wish, Mr. Chairman, if you could, express to leadership that we 
need to schedule better. This is a very important committee, 
and the Members are not--I don't think we are being served when 
we have to rush out and vote. Dadgummit, if we need to vote, we 
ought to vote until midnight or later. We are here to work, and 
this is very aggravating, and I don't think it is fair to the 
committee----
    Mr. DeFazio. Well----
    Mr. Burchett [continuing]. For us to continue our important 
work.
    Mr. DeFazio. Well, I share the gentleman's frustration. But 
in part, we are having this many votes because some Members on 
his side of the aisle are insisting on votes on 
noncontroversial legislation.
    Mr. Burchett. I understand that, Mr. Chairman, but this 
problem preceded all of that. So thank you.
    Mr. DeFazio. Ms. Brownley?
    Ms. Brownley. Yes, thank you, Mr. Chairman. And thanks for 
holding this meeting. And I am going to have to be brief, 
because I do have to go and vote. But I wanted to ask a 
question of Mr. Allen.
    And Mr. Allen, I thank you for your testimony. And I think, 
in your written testimony, you mentioned my bill, the Green Bus 
Act. And this is a bill, as you know, that would set a national 
goal for zero-emission buses, and it would require that, 
beginning in 2029, all new buses that are purchased using 
Federal funds be zero-emission buses.
    I know you are helping California meet its goal, because 
this bill is modeled after what California is doing. So my 
question is, how can you and, I presume, other bus 
manufacturers, help transit agencies across the United States 
to meet this goal?
    Mr. Allen. Yes. Thank you very much for the question. In my 
mind, there are a number of areas that the committee and the 
Federal Government could help that.
    The first is to increase the funding for zero-emission 
buses through the Low or No Emission Vehicle program, and 
reauthorize that program, and step up the funding.
    The second would be to incentivize domestic supply chain. 
There is an existing program called ATVM. And that program, 
unfortunately, is only allowed to be used for automotive and 
light-duty vehicles. We would love to see that program enhanced 
for heavy-duty vehicle suppliers and heavy-duty original 
equipment manufacturers. And this would allow companies to 
invest in state-of-the-art manufacturing and build the domestic 
supply chain that many of the discussions today have been 
about, that will allow us to compete against aggressive foreign 
competition. And this will also entice foreign battery cell 
manufacturers to come to the U.S. with their intellectual 
property and create jobs here, in America.
    And then the last area, I would say, is around supporting 
programs for fleet electrification beyond the Low-No program. 
And that, specifically, is around schoolbuses and municipal 
fleets. Today, schoolbuses are not funded at all by the Federal 
Government. They are funded State and locally. And I believe a 
program to--the Federal Government help electrify schoolbuses 
would go a long way towards our challenges on climate.
    Ms. Brownley. Thank you so much for that, and, actually, 
thanks for mentioning the ATVM program, because Congresswoman 
Dingell and I have a bill to do exactly what you have 
suggested, to expand that program to medium and heavy-duty 
vehicles. So thank you for the plug.
    The last question, quickly, is I think a green economy is 
going to create lots of good jobs. And again, Mr. Allen, can 
you talk a little bit about the wages and benefits that your 
company offers, because I think we are looking for good-paying 
jobs. And I think, in your company, there are good-paying jobs 
to be had.
    Mr. Allen. Yes, there are. This is not what I would 
describe as just everyday manual labor. This is advanced 
manufacturing. We train our employees to be able to do very 
technical positions. They don't require anything more than a 
high school education to do that. We do the training for them, 
in conjunction with some of the programs we have with the local 
community colleges. And these people come to work, and they 
make a really decent wage in both South Carolina, Los Angeles, 
and in northern California.
    We provide our employees 401(k) matching, and we also 
provide every single employee at Proterra stock options for 
when we ultimately go public. Every single employee will 
benefit from that.
    Ms. Brownley. Thank you so much, and I yield back, Mr. 
Chairman.
    Mr. Stanton [presiding]. Thank you very much. Next up is 
Congress Member Mast.
    [Pause.]
    Mr. Stanton. Congress Member Mast, is he still on? We can 
come back to him, certainly.
    OK, then how about Congress Member Johnson?
    Mr. Johnson of South Dakota. Thank you, Mr. Chairman. My 
first line of questioning will be for Ms. Giammona with Pacific 
Gas and Electric.
    And, ma'am, I spent 6 years as a utility regulator in South 
Dakota, a member of the South Dakota Public Utilities 
Commission. And I like that you called out in your testimony, 
ma'am, the importance of balancing safety, reliability, 
affordability, and sustainability. I don't think many 
ratepayers understand the importance of balancing those 
sometimes competing interests for an investor-owned utility.
    Of course, we have been talking today about Government 
intervention, and how it can expedite some of this progress 
that my colleagues are looking for. So I guess my question 
would be, from your perspective, ma'am, to what extent have 
regulations, requirements, mandates from the California PUC or 
from the State legislature hindered your ability, your 
company's ability to properly balance those four critical 
stakeholder interests?
    And maybe rate that from 1 to 10, 1 being no intervention 
or constraint, and 10 being the regulators have made all the 
decisions for you.
    Ms. Giammona. Congressman, thank you for the question. My 
opinion is it is a partnership. And our regulators in 
California are very focused on and have the same interests that 
we do, and that is providing safe, reliable, affordable, and 
clean energy to the consumers in California.
    And as such, we have not only aggressive policy and 
aggressive goals, but we have been really far ahead on program 
design in the areas of energy efficiency, our solar incentives, 
demand response, community choice aggregation. We have run the 
gamut of energy programs, and that has really been in 
partnership with our regulators.
    Mr. Johnson of South Dakota. Ms. Giammona, yes, thank you. 
And I do understand the suite of offerings that you all have 
offered and deployed, some of them in South Dakota in my time 
as a regulator. I mean, it sounds as though you do view this as 
a partnership, and that you largely or maybe completely endorse 
the regulations and requirements within California. I mean, 
giving that a rating on a scale from 1 to 10, I mean, how do 
you feel like PG&E has been able to balance safety, 
reliability, affordability, and sustainability?
    Ms. Giammona. I would love to rate us as a 10.
    I think the challenges that we have faced are our climate 
changes. So what we have experienced is the climate is changing 
and our conditions are changing rapidly. As you know, utilities 
have major infrastructure, with large cycles of depreciation, 
and we are finding ourselves having to be much more nimble to 
respond to what is now a new climate in California.
    So we are really working closely with our regulators to 
ensure that policy moves quickly so that we can act upon that 
policy and really act to support the climate in California.
    Mr. Johnson of South Dakota. Well, and I would just say 
this. I mean, clearly, I think it should be important to all of 
us on either side of the dais here. This issue we are talking 
about, I mean, clearly, we need to build systems that are 
increasingly environmentally friendly, that provide some 
sustainability.
    I would push back on your characterization that PG&E in 
California should get a 10 on balancing these interests. And I 
would just perhaps call out my State of South Dakota again. I 
have got some pride, having been a regulator there. But you 
bragged--and I think understandably so--about how green your 
fleet of generation is. I think South Dakota has a lot to brag 
about, as well. Seventy percent of our electrical generation in 
the State comes from renewable sources.
    But I am concerned there has not been a proper balancing of 
ratepayer interests--the affordability issue--when you all have 
made decisions. And when you look at the residential price per 
kilowatthour--in South Dakota it is $.12, and in California it 
is $.22. Now, that is an overly simplistic way to look at it, I 
admit. But that is 86 percent higher. And we are 70 percent 
renewable; you say you all are 88 percent, and that is a great 
number.
    But if we are going to hold up--if we are going to say, 
ma'am, that California is a 10, that PG&E gets a 10 on 
balancing affordability and sustainability, then I think we 
just need to acknowledge that you are willing to pay an 86-
percent premium at the rate level to be able to secure that 10. 
And I just don't know that that is the proper way to balance.
    And with that, Mr. Chairman, I would yield back. Thank you.
    Mr. Stanton. Thank you very much. Next up will be Congress 
Member Payne.
    [Pause.]
    Mr. Stanton. All right.
    OK, please unmute, Congress Member.
    Mr. Payne. Good afternoon. Can you hear me?
    Mr. Stanton. Yes.
    Mr. Payne. OK, thank you.
    Let's see, Mr. Santana, as chairman of the Subcommittee on 
Railroads, Pipelines, and Hazardous Materials, I care a great 
deal about the effects of rail transportation on the 
environment.
    New technologies have the potential to significantly reduce 
the railroad sector's carbon footprint. Other countries have 
recently put trains into service that are powered by hydrogen 
fuel cells. The United States should take advantage of 
opportunities that integrate innovative technologies that could 
provide efficient rail service, while reducing carbon 
emissions.
    Can you explain the potential benefits of hydrogen-powered 
trains, and how quickly the United States could get to a 
position to take advantage of this technology?
    Mr. Santana. Representative, hydrogen will play a role in 
terms of decarbonizing rail.
    To your point with seeing other countries taking steps in 
that direction, like China, for instance, like Europe, and we 
should take the lead here. When we think about the roadmap to 
decarbonize, we could very much, as you think about batteries, 
where we are applying it now in effective ways into rail, you 
will get to that same point on hydrogen. And what you are going 
to be seeing is a number of these technologies permeating 
different industries, getting to economies of scale that will 
allow this to be efficient, to be competitive. So we need to 
take the lead there.
    Mr. Payne. Thank you. Mr. Rudd, 9 years ago, Hurricane 
Sandy provided a stark reminder of how climate change can 
result in more extreme weather and greater harm to our 
infrastructure. Along the Northeast Corridor this means that 
any infrastructure project needs to consider the increasing 
number of hurricanes and other significant weather events.
    Can you explain the cost of failing to make substantial 
investments in the resilient infrastructure now?
    Mr. Rudd. Yes, and building off something one of our 
colleagues said a little earlier was, when we look at the 
economic cost, it really has a four-to-one relationship. So 
underinvesting in resiliency today, although it is a 
generalization, it comes with a very heavy cost, without making 
those initial investments.
    And with respect to some of the things you are talking 
about, it gets back to the point about thinking about our 
procurement model, and building into the procurement models for 
future infrastructure the opportunity to build in innovation, 
and to build in the cost of resiliency, and evaluating that in 
the low-cost models that are currently used to make those 
infrastructure decisions.
    Mr. Payne. Thank you.
    Mr. Rudd. Thank you.
    Mr. Payne. Also, Mr. Rudd, it goes without question that 
the public and private sector must work together to 
meaningfully address the pressing issues around climate change. 
How do you envision the roles for the public and private 
sectors in creating a climate-forward model of infrastructure 
investment and construction?
    Mr. Rudd. Well, again, when we look at the infrastructure 
investments required, one of the largest challenges is going to 
be the funding itself, and the capital improvements.
    And so, as we look forward, there are economic 
opportunities to improve that infrastructure that the private 
sector would be willing to participate in, and willing to fund. 
And my suggestion would be that, as part of the infrastructure 
bill, you look for opportunities to de-risk those private-
sector investments, and to lower the cost of capital for those 
fundings, effectively creating an opportunity for a higher 
return, or an appropriate market return for that private 
investment.
    There is so much capital that is required for this. I think 
the only way that we can move forward successfully at the right 
pace is to provide an incentive so that there is public capital 
and private capital coming into these infrastructure 
investments.
    Mr. Payne. Thank you, Mr. Rudd. I appreciate that outlook.
    And with that, Mr. Chairman, I yield back.
    Mr. Stanton. Thank you very much. Next up is Congress 
Member Nehls.
    Mr. Nehls. Thank you, Chair. The U.S. has led the world in 
reducing emissions for 2 years now, and this largely has been 
due to the wider adoption of natural gas. Refrigerated methane, 
more commonly known as liquid natural gas, has the potential to 
continue the American energy revolution, reduce dependence on 
foreign energy sources, and continue to help our environment.
    I have two questions, and my first is for Ms. Giammona from 
PG&E. In February, in my home State of Texas, we saw the tragic 
consequences of becoming overly reliant on certain energy 
sources. What role does fuel diversity play in ensuring that we 
have a reliable and resilient grid?
    Ms. Giammona. Congressman, thank you for the question. It 
was really difficult to watch what was happening in your State 
during the crisis in February, and know that our hearts are 
with the families and customers that were impacted by those 
extreme weather conditions.
    We have been really focused on diversification of our fleet 
for a number of years, leveraging renewable power sources, but 
also leveraging our natural grid infrastructure. And I think, 
going forward, each State is going to look a bit different on 
how they plan to diversify their fleet in order to support that 
customer demand of new technologies, but, in addition, provide 
reliable power sources for customers as we are managing through 
a changing climate.
    Mr. Nehls. Thank you. My second question is for the rest of 
the panel.
    We have seen a number of Northeastern States either limit 
or outright ban pipelines carrying American natural gas through 
their States. This has led to other States in the region having 
to look outside the U.S. for their natural gas supply, 
including to places like Russia. This not only harms our energy 
independence, but is also more harmful to the environment, 
given that our environmental standards far exceeds Russia.
    How can we better spur American infrastructure development 
and enhance U.S. geopolitical strength?
    Thank you, and then I will yield back.
    Mr. Hernick. Congressman, this is Charles Hernick with 
Citizens for Responsible Energy Solutions. I would like to jump 
in on that. I think that your point underscores the highlight--
the need for an all-of-the-above approach to energy. That 
includes oil and natural gas. And it includes some of the other 
technologies that we have talked about here.
    Very specifically, as it relates to--we need to create 
opportunities for fuel switching. One of the easiest ways to do 
that that has not been mentioned--we have spent a lot of time 
talking about switching to electric vehicles--but emissions can 
be reduced quickly, and at a cost savings to school districts, 
municipalities by switching from diesel to propane, just for 
example.
    So there are very important areas where we can reduce 
emissions now, create cost savings now. It doesn't need to be 
always a tradeoff between reducing emissions and a high 
economic cost. There are ways to do this in a way that create 
options for customers, create options for States and 
municipalities, and reduce emissions quickly, and really 
improve livelihoods for people, instead of waiting for that 
more expensive option that may still be a little further down 
the road.
    Mr. Konar. Congressman Nehls--this is Shameek Konar--if I 
may just add to that this is a great point.
    The renewable fuel standard, which has been in place, which 
has been enhancing the use of biodiesel and all the biofuels, 
is something that works today. And, as we think about policy 
for reducing our carbon footprint, we should look at everything 
that we have at our disposal, which is a great point Mr. 
Hernick makes, which is that we can still bridge our way to EVs 
being adopted, hydrogen coming in, going from 1 percent 
utilization to 30 percent utilization by continuing to push the 
things that work today.
    To your point about natural gas, we can be doing that 
today, while we wait for our future, because just waiting for 
the big bang costs us time. And all of these things will take a 
substantial amount of investment, and that takes time.
    Mr. Allen. If I may just offer a contrarian view that, 
today, schoolbuses don't require a truckstop in order to be 
refueled. They go back home every day to their own spot. The 
total cost of ownership for schoolbuses to be all electric is 
there today. There is really, in my mind, no need to make an 
interim stop at propane. The economics for electric schoolbuses 
is viable today.
    Mr. Konar. No, that is a--it is a fair point.
    Mr. Stanton. Thank you very much. We are out of time for 
that 5-minute period, so we will move on to the next Member to 
ask questions.
    Mr. Konar. Thank you.
    Mr. Nehls. Thank you, gentlemen. I yield back.
    Mr. Stanton. The next questioner will be Congress Member 
Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman, and thank all our 
panelists. I found this discussion fascinating, both in terms 
of what can be done in the short term, and also, really, maybe 
looking at more long-term solutions. But I want to focus on a 
specific challenge that we have.
    It has been mentioned, but I really want to dig a little 
deeper, and that is heavy-duty vehicle electrification, which 
is a critical priority for reducing freight emissions. I 
represent the Port of Long Beach. And within the port complex, 
Long Beach and the Port of L.A. together, there is a huge 
number of truck traffic in and out of those ports. We are 
talking about 30,000 to 40,000 trips a day, at least. And we 
are talking about having--and I have seen over the years the 
ports have done a great deal, in terms of reducing the impacts 
upon those communities around the ports, which tend to be lower 
income communities, which suffer greatly from asthma and other 
types--not all due to trucks, obviously. We have ships and 
trains, too.
    But I want to talk about now--and what is interesting is 
during this pandemic, while there was a drop in volumes through 
the ports, there has been a tremendous explosion, in terms of 
growth in ports, which we were already doing. So we have other 
issues going on now of congestion, and problems of moving goods 
out, because there is so much demand out there in the Nation 
for goods that are coming from outside of the country, which is 
another issue. But I am not going to deal with that.
    So the issue is dealing with how we move forward in 
changing this fleet. How do we improve the public health, 
address environmental justice issues by reducing diesel 
emissions from this tremendously important, as a thing--we are 
talking about, as I say, a major part of the U.S. economy. We 
are not going to stop this. We need to enhance it.
    And so I want to ask first Mr. Allen, then anyone else on 
the panel, how do we move forward with heavy-duty vehicle 
electrification more quickly? I know we are moving.
    What is the research and investment that may be needed, if 
that is so?
    What are the kinds of Federal support you see as possibly--
to be a partner in this venture?
    Because I am just focused on those heavy-duty trucks 
carrying 40-foot containers. We are talking about--and I am not 
downgrading the role of diesel. It has helped this Nation. We 
wouldn't be where we are today without it. So I want to know, 
how do we move forward?
    Mr. Allen. Sure, Congressman. I think help is on the way 
for you. I believe that, with the right Government funding here 
in just the next couple of years, there will be vehicles that 
can go 250 miles--granted, they are not over-the-road, but they 
can go 250 miles, which will take a vehicle----
    Mr. Lowenthal. But these vehicles frequently are going a 
lot more than 250 miles, as we know----
    Mr. Allen. Right, the----
    Mr. Lowenthal [continuing]. Where they--after 350 miles or 
so, they say good night.
    Mr. Allen. Right.
    Mr. Lowenthal. These are, you know----
    Mr. Allen. So that is the first one. But also, there is 
help coming to terminal tractors that are used at the port, as 
well as the heavy-duty forklifts. We are working with companies 
like them today to help.
    But I believe the best thing that the Federal Government 
can do would be to expand the funding. So today there is the 
Low or No Emission Vehicle program that is for transit 
vehicles. That should be expanded for areas of high-emissions 
focus, like the ports, to be able to incent both the 
manufacturers and the users to convert those vehicles quickly.
    Mr. Santana. Representative Lowenthal, if I may, Rafael 
Santana.
    I think that is one of the key roles that rail can play 
here, being the most sustainable way of moving freight over 
land. And what we see here is the opportunity to actually 
accelerate decarbonization at the same time you increase the 
utilization in rail.
    And one of the things that we seek through the Freight 2030 
vision is to also allow the creation standards of the 
information. So it allows you to understand how freight is 
coming to the ports and allowing a more, really, efficient way 
of moving tanks from point A to point B. And this has to solve, 
not just for speed, but it has to solve for efficiency, but 
also the [inaudible] carbon emission type of transportation.
    Mr. Lowenthal. Thank you, Mr. Santana. I agree with you, 
and I think the ports agree with you. In the Nation, the role 
of rail is vitally important, getting more and more important. 
The major investments now in our ports are in rail 
infrastructure.
    Mr. Stanton. Thank you, Congressman.
    Mr. Lowenthal. But it is not just--there has got to be kind 
of a multimodal approach. And I am just concerned we are not 
going to get rid of trucks.
    Mr. Stanton. Thank you very much, Congress Member 
Lowenthal, we have got to move on.
    Mr. Lowenthal. I yield back. I yield back, thank you.
    Mr. Stanton. Thank you, sir. Next up is Congress Member 
LaMalfa.
    Is Congress Member LaMalfa still on?
    OK. How about Congress Member Carbajal?
    Mr. Carbajal. Thank you. My question is to Ms. Giammona. We 
know the transportation sector is a large emitter of harmful 
greenhouse gas emissions, and searching for fossil fuels has 
led to significant environmental damage to our communities.
    I happen to represent the central coast of California. And 
in Santa Barbara County, our community has seen firsthand the 
devastation oil drilling inflicts to our environment and local 
economy. Not only did the 2015 Plains All American oilspill 
harm wildlife in the region, it cost us over $90 million to 
clean up the area, not to mention the negative impact to our 
local economy.
    How does electrification of our transportation sector help 
protect our environment?
    And can you also walk us through the economic benefits and 
jobs associated with moving towards electric vehicles?
    Ms. Giammona. Congressman, thank you so much. Thank you for 
your question. As I stated in my opening statement, our 
domestic-produced clean energy is 88 percent GHG free. So, we 
have really focused on, as we are using more renewables, really 
moving to cleaner technology to really reduce greenhouse gas 
emissions.
    As it relates to the economics of EVs, this has an 
opportunity to create many jobs, and many jobs across the 
Nation, both from an infrastructure standpoint, from a 
technology standpoint, and certainly at the vehicle level.
    So in California, what we have seen is a tremendous 
opportunity for growth of employment to support this new 
technology. And in particular, at PG&E, we have partnered very 
closely with the IBEW, and ensured that we are using our great 
labor force that supports our current infrastructure to really 
support this new technology and growth within California.
    Mr. Carbajal. Thank you very much.
    Mr. Allen, expanding access to electric vehicles also 
requires an expansion of our charging stations and hydrogen 
fueling infrastructure. H.R. 2, the Moving Forward Act that I 
and my colleagues on this committee helped write, under the 
leadership of Chairman DeFazio, included several provisions to 
build infrastructure for the 21st century that includes 
electric charging stations and hydrogen fueling infrastructure.
    In building up this infrastructure, how are we ensuring all 
Americans are benefitting from this, especially communities 
that have been traditionally left behind?
    Mr. Allen. Thank you, Congressman. As we got into the 
electric vehicle and transit bus business over the past number 
of years, the biggest impediment for agencies to put more 
electric transit buses into service was the infrastructure. So 
we have focused our company on being able to provide charging 
and infrastructure solutions so that agencies can move forward 
faster.
    These charging stations are open source. So not just can 
they be used by a transit agency for their buses, but they 
could also be used for municipal fleet vehicles, and even, 
depending on how they are located, could be used for the 
general public. And we believe that that is a big enabler to be 
able to provide charging and infrastructure in all communities, 
but especially ones that are typically not served by 
infrastructure.
    Mr. Carbajal. Thank you.
    Mr. Konar, what is the importance of leveraging the private 
sector to achieve the electric vehicle charging goals that 
President Biden laid out?
    And how can companies like Pilot Flying J and other fuel 
retailers be part of the solution?
    Mr. Konar. Thank you for the question, Congressman. I would 
say the private sector has already invested a substantial 
amount of money. For example, if you look at Pilot, we have 
over $10 billion invested in creating an infrastructure where 
people currently fuel today. So leveraging that infrastructure 
gets you to the answer a lot faster than trying to replicate 
that infrastructure.
    So I think what the Federal Government should do, and I 
think will be helpful in reducing our carbon footprint, is 
allowing us to bridge our way from where the uptake of this 
technology is today--as I mentioned before, less than 1 percent 
usage on our interstate chargers--to a point where it is 
economically feasible to do it.
    But everything else works. We have the locations, we have 
the investment. We just have to offer them a different fuel. 
And we are fuel agnostic. We are a customer service company. So 
we need to make sure that our customers are getting the service 
they need so that they buy more of that fuel. And it is a self-
fulfilling prophecy.
    Mr. Stanton. Thank you so much.
    Mr. Carbajal. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Stanton. Thank you very much. Next up will be Congress 
Member Malinowski.
    Mr. Malinowski. Thank you so much, Mr. Chairman, and thanks 
to the witnesses for very, very interesting presentations.
    Let me just start by laying out the proposition that the 
transition from fossil fuels to clean energy is possibly the 
most significant, predictable economic transformation the world 
has ever seen. It is something that should happen, in my view. 
But, just as important, it is happening, and it will happen. 
And therefore, it is in our economic interest, as a country, 
from a competitiveness standpoint, to get ahead of it and to 
lead it.
    Let me maybe start with you, Mr. Allen. Is that general 
statement something you would agree with?
    Mr. Allen. I absolutely agree with that. I think that the 
policies of the Government here are an important factor in 
shaping the carbon emissions reductions in this country.
    Mr. Malinowski. Now you mentioned in your written testimony 
that there are just over 2,700 zero-emission transit buses on 
the road in the United States. But in China you noted there are 
150,000 EV buses. As I hope all of us know, China is, by far, 
the largest producer of solar and wind energy. It holds three-
fourths of the world's manufacturing capacity for lithium ion 
battery cells.
    In 2013, we, the United States, had five times as many 
electrical vehicles as China. Today China has twice as many as 
the United States. Why is this happening? Is it because the 
Politburo of the Chinese Communist Party had a meeting, and 
decided that they liked trees more than jobs? Are they, you 
know, all tree-hugger, Green New Deal? Is that what is going 
on? Or are they trying to win a race to the future?
    Mr. Allen. I believe that, in my opinion, they are trying 
to win a race. I believe they have incentivized, or they have 
driven this through a combination of incentives and mandates. 
And they want to be the world's largest producer of electric 
vehicle technology.
    And that is why we believe that we have the prime 
opportunity right now to incentivize the supply chain to be 
here in the United States through a combination of investments 
and domestic content requirements that can put the U.S. in the 
right place to lead, and be not just sufficient for ourselves, 
but be an exporter of this technology.
    Mr. Malinowski. Well, fantastic, and I am glad that your 
company is leading the way, in terms of manufacturing battery 
systems and other critical components of this in the United 
States. And thank you for encouraging us to do what we need to 
do to make sure the United States wins that race. That is my 
interest.
    Mr. Allen. It is mine, also. Thank you, sir.
    Mr. Malinowski. Thank you.
    In the same spirit, I will move to Mr. Smith, as well. I am 
very, very pleased to see that FedEx made this commitment to be 
carbon neutral by 2040. When I meet with corporate executives 
back home, increasingly I find there is a recognition that we 
need market-driven policies to encourage that sort of change, 
including a growing recognition that putting a price on carbon 
is an efficient, market-driven way to bring down global 
emissions.
    The U.S. Chamber of Commerce just updated its position on 
climate change to include support for what it calls a market-
based approach to accelerate reductions in emissions across the 
U.S. economy. The Business Roundtable has adopted a similar 
position. I just wanted to ask whether FedEx agrees, and 
whether you believe we need to move, nationally, to a carbon 
pricing system.
    Mr. Stanton. Congress Member, I believe the representative 
from FedEx, unfortunately, had to leave the meeting early.
    Mr. Malinowski. Oh, I am sorry. Would anyone else be 
interested in taking that question, then?
    Mr. Konar. I can take a quick shot at it--I am definitely 
not speaking for FedEx--but I believe a national carbon pricing 
system--it is a global problem, it is a national problem that 
we face--would actually be helpful.
    And, you know, kind of the provision of market-based 
incentives, which have worked in the renewable fuels standard, 
and I go back to that because that is a good blueprint on how 
this has worked before--is something that, you know, we should 
think about in this respect.
    Mr. Malinowski. Well, thank you. Well, I will say to you 
all, and I would certainly have said to FedEx if they were 
still here, it is very encouraging to hear corporate CEOs say 
that, and to take those positions, just as it is encouraging to 
hear them say we should rejoin the Paris Climate Accords.
    I am hopeful that our private-sector Chamber of Commerce, 
in particular, will really make this a priority, in terms of 
their advocacy on Capitol Hill, because sometimes they say 
these things, and they come to----
    Mr. Stanton. Thank you.
    Mr. Malinowski [continuing]. With us, and it is not 
necessarily one of their top three issues. And that has got to 
change to make progress.
    Thank you, I yield back.
    Mr. Stanton. Thank you very much. Next up will be the vice 
chair of the committee, Vice Chair Davids.
    Ms. Davids. Thank you, Chairman. And thank you to our panel 
of witnesses for taking time to join us today.
    I represent the Kansas Third Congressional District, which, 
thanks to its central location, is one of the busiest 
intermodal hubs in the country, where rail, trucking, aircargo, 
maritime, and others meet. But, because of our geographic 
location, we are right up against the confluence of the Kansas 
and Missouri Rivers. We also have the second largest Federal 
levees, only behind New Orleans.
    The Weather Channel Climate Disruption Index has ranked 
Kansas City as the 5th of 25 cities to be most impacted by the 
effects of climate change in the coming years. Thanks in large 
part to the urban heat index effect, we are going to see 20 
days per year above 90 degrees. That is as compared to our 
rural Kansas communities. And then we also have increased 
chances of drought in the coming years. And as storms and 
weather patterns become more severe, they are going to put a 
lot of stress on our transportation systems and public 
infrastructure.
    And I think that we have heard a lot about how we can 
address all of these things here today. And during the 2 years 
I served on this committee I have been fortunate to see the 
ways that the folks here today in your sectors are responding 
to this existential threat. And I think that we have seen that 
we are going to need a true partnership to tackle these. And I 
think I am going to start with Mr. Lewis.
    Your testimony recognizes the benefits of using a life-
cycle funding cost perspective in infrastructure investment, 
and that there are very--``limited tools'' is what you said. I 
was hoping you could expand on those tools, and whether or not 
Congress can help increase the access to those tools.
    Mr. Lewis. Yes, thank you for your question. Yes, there are 
tools, actually. Unfortunately, there is not a single set of 
consensus tools and standards to be applied. So, from a Federal 
standpoint, there could be at least guidelines that would 
commit to what an acceptable tool and an acceptable standard 
would need to include. And you wouldn't have this problem of 
multiple different sources and organizations putting out 
different performance metrics and approaches.
    The American Society of Civil Engineers is currently 
working on a standard for sustainable infrastructure that 
should come out at the end of this year, which will be an ANSI 
standard. That will help.
    There is a tool called Envision at the Institute of 
Sustainable Infrastructure that was developed, and basically 
takes a life-cycle approach that includes both sustainability 
and resilience. So it goes even beyond what LEED does for 
buildings. This does it for all types of infrastructure, and 
really looks at not just how to build something sustainably and 
in a resilient way, but also how you pick projects and how you 
prioritize which projects should get the funding, and even what 
locations are best for projects.
    So there are tools out there, but there needs to be 
incentives, or extra points, if you will, in Federal funding 
for projects that use these tools, and deploy them, and score 
higher on, for example, the Envision rating system that is in 
existence. Because right now it is really just the honor system 
in terms of organizations wanting to use these tools.
    Ms. Davids. Thank you. And I think that is a great segue to 
Mr. Rudd.
    I would like to hear a little bit about the--you mentioned 
probability weight of cost, and having cost models that rate 
probability cost as we start looking at projects. And I am 
curious if you could maybe expand on that, and, as we talk 
about what tools are available, how you envision that being 
used.
    Mr. Rudd. Certainly. And, really, this is building off what 
Mr. Lewis explained, which is, when you are looking at the 
models that are used to ultimately determine or choose the 
projects that will be invested in, in terms of infrastructure, 
we typically look at what is the lowest cost model to find 
around a certain set of parameters for that infrastructure.
    And as Mr. Lewis pointed out, what we want to do is we want 
to actually change that scoring system so in that procurement 
process we are not simply looking at cost, we are also looking 
at the measurable outcomes of resiliency, the measurable impact 
on the environment or the emissions, the measurable impact on 
the community itself, in terms of the health and safety of the 
community. So it is, effectively, expanding that scoring system 
to not just look at the lowest cost option.
    And included in that is also looking at innovation. A lot 
of times in these models innovation is ignored. I will give you 
an example. There was a large tollway project that was being 
evaluated. And in terms of noise reduction for the communities 
around it, they had to look at retaining walls to do that, a 
traditional way of insulating this noise. The alternative was 
to use low-noise asphalt. It would have reduced the cost by 30 
percent of the project. But ultimately, it was not within the 
bounds of the standards of that procurement. And so it was not 
part of any submission that was made.
    So it is really opening up the standards so that you can 
consider these other alternatives, other than cost.
    Ms. Davids. Thank you, Mr. Rudd.
    And Chairman, I yield back.
    Mr. DeFazio [presiding]. I thank the gentlelady.
    Mr. Mast? Brian?
    Mr. Mast. Thank you.
    Mr. DeFazio. Are you available?
    Mr. Mast. Yes, thank you--can you hear me, Mr. Chairman?
    Mr. DeFazio. Yes, yes, go ahead.
    Mr. Mast. All right. Look, I think there has been a lot of 
ambitious talking today about electrification, and I am not 
saying that in a negative way. Probably all of us, as parents, 
if we are parents, none of us would encourage our kids to 
strive for anything other than something ambitious. That is, 
hopefully, what defines us as Americans, is that we look to be 
ambitious about the things that we do.
    But I want to ask some specific numbers, because this 
relates to everybody, as we are looking at the source of 
electrification, which is having the power to--whether it be a 
UPS or a FedEx truck, or some other delivery vehicle, or 
somebody's home. And so the questions are going to be geared 
towards you, Ms. Giammona.
    As we look at some of those costs, obviously, we can see 
variations in when we look at fuel costs, based upon global 
geopolitics and what is going on. We can see fluctuations. But 
as we look around domestically, we also see various 
fluctuations in the cost for electricity, just domestically. 
And obviously, wind is better in some places, sun is better in 
other places. Different forms, you know, nuclear power in other 
places, and other things. But could you speak to how do we work 
to ambitiously get our average cost per kilowatthour down?
    What is the best form of electrification in some places 
that we are not looking at?
    Do we need to look at more nuclear, whereas you have seen 
the prices skyrocket in countries like Germany, because of 
their move away from nuclear? I don't have a bend on that, I am 
using that as an example.
    I look at some of the averages, and I would be lying if I 
said I knew all of the inputs that the Communist Party has put 
into subsidizing their electricity costs. But Russia, being an 
average of $.06 per kilowatthour, China listed as an average of 
$.08 per kilowatthour, the U.S. on the average of somewhere 
around $.13, $.14 per kilowatthour, California being up in the 
20s, Florida being down around $.10 or $.11 per kilowatthour. 
How do we ambitiously get to being at $.05, $.06 a 
kilowatthour?
    Ms. Giammona. Congressman, thank you for your question.
    [Audio malfunction.]
    Mr. DeFazio. Your internet is down.
    Ms. Giammona. I am sorry, can you hear me now?
    Mr. DeFazio. Yes, just start over again, Laurie. We 
couldn't hear your answer to his question.
    Ms. Giammona. OK.
    Mr. DeFazio. Perhaps you need to--your video----
    Ms. Giammona. OK, can you hear me now?
    Mr. DeFazio. Yes.
    Mr. Mast. Yes, ma'am.
    Ms. Giammona. Great. Congressman, thank----
    Voice. She is on mute.
    Mr. DeFazio. Well, is she--are you muted?
    We heard her for a second. I think it is the internet, 
isn't it?
    OK. Have we figured out what it is? Is it on her end, or is 
it the----
    [Pause.]
    Mr. DeFazio. OK, Brian, why don't you try a question on 
someone else who has better connectivity, and let's see if it 
is the overall system or her connectivity.
    Mr. Mast. Thank you, Mr. Chairman. Listen, I will yield 
back to you. Maybe if you could just agree to, when her 
internet gets back up, let her answer my question. It is really 
the crux of my question, since Mr. Smith has moved on, as well. 
So maybe, if you could just make that agreement, I would be 
happy to yield back.
    Mr. DeFazio. Sure. I would be happy to do that.
    Mr. Mast. Thank you, Mr. Chairman.
    Mr. DeFazio. Ms. Mace?
    Ms. Mace. Thank you, Mr. Chairman. And first of all, I want 
to thank everyone, all of our witnesses this afternoon, for 
being on this panel and sticking around and spending much of 
your day and answering our questions.
    Being a freshman on the Transportation and Infrastructure 
Committee, I have learned a lot today, and a lot leading up to 
the testimony.
    First, I want to thank Mr. Konar for his testimony. I am 
pleased to learn that, as an industry, that you all have 
adapted, and largely in response to tax incentives, and 
utilizing those to sell lower carbon-intensive alternatives to 
gasoline and diesel, and being innovative. And we have many 
innovators who are on our panel today.
    And this also echoes the comments we heard earlier today by 
Mr. Hernick, who said that the Federal policy playbook should, 
first and foremost, really harness the power of free markets. 
And you really were speaking my language.
    I want to turn to Mr. Allen, who is on here today, and I 
wanted to turn to you next. I am really excited to see the 
innovation of Proterra and what you are doing, not only in the 
State of South Carolina. My understanding is that your location 
in Greenville is expanding, you are looking to hire employees, 
particularly during a really challenging time for many 
businesses and industries.
    In my hometown of Charleston, South Carolina, we have 6 
electric buses, and our goal is to have 32 by the year 2022. 
And I learned today that it is not just Tesla that is creating 
batteries for electric vehicles and battery technology, but 
Proterra also is being very innovative. And I appreciate and 
commend your leadership and your company's leadership on that 
technology.
    Oftentimes the Government, when we are looking to be 
innovative, can inhibit innovation through heavy-handed 
regulation, and picking winners and losers through different 
types of programs or funding mechanisms. Are there some areas 
that you could talk to where the Government could potentially 
get out of the way, or where we might be holding up growth and 
development for the industry, going forward, so that we can 
create better next-gen technologies, and a need for batteries, 
for vehicles, buses, and the like?
    Mr. Allen. Thank you very much, Congresswoman. We have been 
in South Carolina--Greenville, specifically--since 2010. We 
love being there. We love our workforce. They are just 
incredibly dedicated, hard-working people. And I enjoy spending 
my time there as much as I can, also.
    And in addition, those are our buses, with our battery 
technology that you are experiencing in Charleston right now, 
so we are very proud of that also.
    In terms of how we can work with the Government, I would 
say from a manufacturing and development standpoint, the 
Government doesn't get in the way of what we are trying to do. 
We have a number of training programs in concert with 
Government agencies and local community colleges to get our 
people trained. And we are very proud of where that is.
    I think the biggest thing that could help to accelerate 
this industry, really, is on the demand side, as I have stated 
earlier, and have the Government help agencies begin the 
transformation. There are about 400 transit agencies in North 
America today, and I believe less than 200 of those have their 
first electric vehicle.
    So I think it would be great for the Government to continue 
to help agencies move towards electrification; and then again, 
to incentivize the domestic supply chain, and provide 
incentives through the ATVM program that would apply to our 
industry would be great; and then the third would be support 
fleet electrification. And primarily, this is on municipal 
fleets and schoolbus transformation to electrification. I think 
those three areas the Government supports today, and I think a 
continued focus there and an acceleration would be wonderful 
for our country. Thank you.
    Ms. Mace. Thank you. And my last questions--I only have 
about 1 minute left--really would go to anybody on the panel 
today.
    And learning more about electric vehicles across the board, 
obviously, there is the cart before the horse. To develop 
electric vehicles you have got to then have charging stations 
all around. And there seems to be some disparity in terms of 
what it costs, maybe, to put an electric charging station in a 
residence, like at somebody's home, in your driveway, or in 
your garage, versus maybe get a C store or a gas station or a 
restaurant, or some other commercial location. I don't know if 
there is anyone, with the few moments we have left, that could 
kind of talk to that a little bit for those who might be 
watching.
    Mr. Konar. Congresswoman Mace, if I may answer that, at 
least a little bit, there is a substantial difference between 
charging inside communities, as opposed to charging on the 
highway. When you have time, the cost of the charging stations, 
which are level 2 chargers, is not very much. But when you are 
looking to charge things in 20, 30, 40 minutes, then the cost 
and the infrastructure needs to expand substantially. It could 
be as much as 10-plus times when you are putting in these fast 
chargers.
    So that is just to give you a little bit of perspective. 
But we are happy to follow up with that later, if you wish.
    Ms. Mace. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    We believe that Ms. Giammona is back online, and could now 
answer Representative Mast's question.
    Ms. Giammona?
    Mr. Mast. I'm listening.
    Mr. DeFazio. Yes, I know. We are waiting, we were told when 
she was back online.
    Ms. Giammona. Thank you, can you hear me now?
    Mr. DeFazio. Yes.
    That is all we ever get, though. She says that, and then it 
goes down.
    OK, sorry. We will try again in a minute.
    Ms. Giammona. OK, can you hear me now?
    Mr. DeFazio. Yes, we hear you say that every time, and then 
it goes away. So keep talking.
    Ms. Giammona. OK, all right. Well, thank you very much for 
the question.
    We believe that rates determined by commissions are really 
what are going to help the issue of affordability.
    We are collaborating with our commission in California, 
focusing on addressing affordability, overall. And 
specifically, we believe that EVs, coupled with time-of-use 
rates, present opportunities to bring down rates overall, by 
getting more throughput during times where there is excess 
capacity on the grid.
    Mr. DeFazio. OK. Brian, you have a little more time.
    Mr. Mast. Thank you, Mr. Chairman.
    Ma'am, if you could just expand a little bit on rates 
determined by a commission, are you looking at both price 
floors and price ceilings?
    As we are all probably familiar with what we see on 
electric bills for high-usage surcharges, is there going to be 
an increase in seeing that, that you are not necessarily 
accounting for if you have to now account for putting however 
many kilowatthours into charging multiple vehicles of a home?
    Just maybe elaborate a little bit on that for us. I would 
appreciate it.
    Ms. Giammona. Sure, thanks for the question.
    California is moving to time-of-use rates for all 
residential customers. We have had high-use rate charges. We 
are starting to level those out. But the combination of time-
of-use rates, not just for your general residential customer, 
but also for businesses, as well as programmatically for EV 
charging, allow us to flatten out grid usage, allow us to 
flatten out consumption, and which, ultimately, will bring 
rates down overall in the State.
    Mr. Mast. And if I have 1 more second, let me just ask 
this, pointedly: Can we get to a U.S. average of $.08 per 
kilowatthour, $.06 per kilowatthour? Can you get us there?
    I know there are many out there that do electricity, but 
let's hear your opinion.
    Ms. Giammona. Well, you know, as you noted, in California 
we are much higher than that, but it would be our hope. Our 
focus, along with our State commissions and our regulators and 
our policymakers, is really focused on reducing rates overall 
in California.
    But, like we heard from the Congressman from South Dakota, 
rate structures are different, and fuel mix is different across 
the country. So I think it is really a State-by-State 
opportunity, if you will.
    Mr. Mast. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Mr. Lamb?
    Conor?
    Mr. Auchincloss?
    Ms. Bourdeaux?
    Mr. DeSaulnier?
    OK, Mr. Johnson?
    Mr. Johnson of Georgia. Thank you, Mr. Chairman, for 
holding this very important hearing, and I want to thank the 
witnesses for sticking it out with us. It has been a long 
hearing with some interruptions, but we appreciate you all very 
much for your testimony.
    Mr. Lewis, in your written testimony you highlight the 
importance of incorporating equity into our climate and transit 
solutions. A solution to climate change is inextricably linked 
to the idea of transit. It is hard to separate the two, as 
lower income communities and communities of color seek 
environmental justice and transit justice.
    Like the disparities laid bare by the effects of COVID-19 
on health, death, and economic outcomes on people of color, the 
climate crisis disproportionately impacts people of color. What 
is your opinion on the issue of climate solutions being race 
conscious?
    Mr. Lewis. Yes, I think, absolutely, there is a connection. 
It has been shown, whether it be COVID or it be other urban 
challenges, in particular, that there is a disparate impact on 
the more disadvantaged communities, which tend to be populated 
by people of color. These are also communities that tend to 
have more industrialization around them, happen to be usually 
more in the flood-prone areas, closer to the waterfronts and 
coastal.
    So there are several factors that all work against these 
highly vulnerable communities. And so that is why, when I 
talked in my testimony about meeting these communities where 
they are, you need to understand what they are dealing with, 
their physical issues, their environmental issues, their social 
issues. You need to reckon with the past that they have had to 
deal with, their realities, before you can get their buy-in on 
the solutions, whether they be transit solutions or they be 
other solutions, like distributed energy, solar in their 
neighborhoods, things like that, so that you can understand how 
they are viewing things, and then work their ideas and their 
perspectives into your solutions.
    But transit is a great example, especially in urban 
environments, of a way you can do that and get better mobility 
for these communities, which gives them more opportunity, gives 
them more access to jobs, and is a virtuous cycle.
    Mr. Johnson of Georgia. Thank you.
    Ms. Giammona, in your testimony you discuss the integration 
of climate science into your company's practices and functions. 
Please elaborate on how PG&E is responding to the climate 
crisis.
    Ms. Giammona?
    [Pause.]
    Mr. Johnson of Georgia. Well, I tell you, let me--OK, go 
ahead, Ms. Giammona.
    Well, let me move to Mr. Santana.
    Mr. Santana, last week the Railroads, Pipelines, and 
Hazardous Materials Subcommittee discussed the climate 
solutions that a robust freight rail network presents to us. 
What commitments are your companies making to ensure that 
worker protections are central to climate goals?
    Mr. Santana. Sir, we are very committed. We invest about 
$200 million every year to solutions that are very much focused 
along the lines of fuel efficiency and carbon reduction.
    In addition to that, we look at ways to drive more 
utilization of rail, as this is the most sustainable way of 
moving freight along the way. And when we think about the 
Freight 2030 vision, this will greatly enable growth in rail, 
and that would help with all the goals you just mentioned.
    Mr. Johnson of Georgia. Yes, there are many energy sector 
jobs that are not considered worker-friendly, and that is the 
reason why I asked you that question. Any particular thing that 
your companies are doing to create worker protections that are 
in keeping with other industries?
    Mr. Santana. Absolutely. And last year we issued our 
sustainability report, as a company, where we make a commitment 
directly to reduce emissions ourselves, reduce water usage, but 
at the same time a commitment to make sure that we are helping 
the communities that we operate in, and really offering jobs 
and opportunities here, whether it is for minorities, people of 
color, and female representation. This is very much part of the 
framework we have, and we have specific goals that we are 
committed to meet.
    Mr. Johnson of Georgia. Thank you, and my time is expired, 
and I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Westerman?
    Mr. Westerman. It is not coming on, Mr. Chair. Oh, I guess 
it is. The light is not working.
    Thank you, Mr. Chairman, and thank you to the witnesses for 
your testimonies today.
    Mr. Smith mentioned FedEx's investment in the Yale Center 
for Natural Carbon Capture, which partners with the Yale School 
of the Environment, where I attended long ago. From the front 
page of the center's website, it states that ``emissions 
reductions are crucial, but alone are not enough.''
    I couldn't agree more, and that is why I have proposed 
proactive natural solutions like the Trillion Trees Act that 
would restore our forest, promote reforestation, promote 
innovation, and promote market-based solutions for wood 
products.
    Mass timber construction is a relatively new innovation 
that has many environmental benefits, and benefits for rural 
economies. In my home State of Arkansas, the University of 
Arkansas has constructed the country's largest mass timber 
project, with two five-story dormitories. That project is soon 
to be dwarfed by Walmart's new 15,000-employee corporate 
headquarters that will also be constructed with mass timbers.
    Now, Yale School of the Environment researchers recently 
published a paper in the journal Nature Sustainability titled, 
``Buildings as a Global Carbon Sink,'' and I ask unanimous 
consent to submit that to the record, Mr. Chairman.
    [No audible verbal response.]
    [The information follows:]

                                 <F-dash>
   Article entitled, ``Buildings as a Global Carbon Sink,'' by Alan 
Organschi and Galina Churkina, Scientist, Potsdam Institute for Climate 
Impact Research, Springer Nature Sustainability Community, February 5, 
         2020, Submitted for the Record by Hon. Bruce Westerman
                   Buildings as a Global Carbon Sink
by Alan Organschi and Galina Churkina, scientist, Potsdam Institute for 
Climate Impact Research

Springer Nature Sustainability Community, February 5, 2020
https://sustainabilitycommunity.springernature.com/posts/59221-
buildings-as-a-global-carbon-sink

    For decades, as anthropogenic greenhouse gas emissions and 
corresponding atmospheric carbon concentrations have risen at an 
alarming rate, scientists have investigated the capacity of forests, 
soils, and oceans to act as carbon sinks, vast ecological systems that 
might absorb, store, and offset the enormous release of carbon dioxide 
associated with the combustion of fossil fuels. Some scientists have 
raised concerns about the future durability of such natural carbon 
sinks given that climate change itself has caused such significant 
disturbance to those ecosystems.
    The creation of human-made carbon sinks has only recently emerged 
as a potential supplement to natural carbon uptake and storage domains. 
Although there have been technological proposals and experiments in the 
field of carbon capture--giant machines designed to draw CO2 from the 
atmosphere--costs for both the hardware and the durable disposal of the 
solidified carbon that results from these processes remain 
prohibitively high relative to the current market value of carbon 
offsets.
    The growth and urbanization of global populations anticipated over 
the next several decades will create an enormous demand for buildings 
and infrastructure. As cities expand in size and density, the 
manufacturing of materials required for constructing mid and high-rise 
urban buildings will create a significant spike in greenhouse gas 
emissions, a discharge that takes place at the beginning of each 
building life cycle. This production stage carbon debt could take 
precious decades to offset through operational energy efficiencies 
alone.
    Steel and reinforced concrete, the conventional structural 
materials of the mid- and high-rise cityscape have high production 
stage emissions and little or no capacity to store carbon. Their 
inherent advantages of strength and stiffness come at a significant 
environmental cost. New and emerging material technologies and building 
assemblies in engineered timber combine significant structural 
performance with carbon storage capacity and have been adopted by 
various national building codes. These adaptations have enabled so-
called ``mass timber'' to challenge the dominance of mineral based 
structural materials in the construction of larger and taller urban 
buildings.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Construction of Brock Commons student residence using massive timber in 
  Vancouver, Canada. Foto credit: naturallywood.com. Photographer: KK 
                                  Law.

    A small international and interdisciplinary team of architects, 
forest and industrial ecologists, social scientists and climate change 
researchers gathered to consider the possibility of exploiting an 
anticipated global building boom as a means to mitigate rather than 
exacerbate climate change. Could the use of bio-based, carbon-storing 
materials such as timber, bamboo, and other forms of plant cellulose to 
construct dense urban building landscapes serve as a technique to 
offset most of the production stage emissions produced by the 
extraction and manufacture of building components? Could the very 
material that gives form and structure to those new cityscapes, which 
we will have to build for 2.3 billion people by 2050, also act as a 
storage bank for photosynthesized carbon? How much wood would the world 
need to harvest to meet that demand and what would be the impact to the 
health of forest ecosystems around the world?
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Construction of ARBORA complex with 435 residential units using massive 
      timber in Montreal, Canada. Foto credit: Nordic Structures.

    As a consensus among the authors grew, they focused on concerns 
about the feasibility of sustainable forest harvest at the global scale 
and weighed a variety of potential mechanisms for the transfer of woody 
plant material into urban building structures; no options were ignored. 
(One scientist suggested that building log houses with very low 
manufacturing CO2 emissions might serve to produce the fewest impacts 
and the greatest material efficiencies, a proposition quickly vetoed by 
the architects who argued that log-building would fail to meet both the 
performance requirements and the construction practicalities of 
contemporary mid-rise urban building, not to mention that it was 
unlikely to have cultural appeal for today's city dwellers.) Debates 
ebbed and flowed. After months of robust conversation and the exchange 
of dozens of drafts, the team arrived at the design of a study that 
would assess--succinctly but as comprehensively as possible within the 
limits of a single technical paper--the relative potential of major 
structural materials to either accelerate or mitigate climate change, 
an approach described in a newly published Nature Sustainability 
``Perspective''.
    The broad-based substitution of engineered timber for steel and 
concrete in mid-rise urban building offers the opportunity to transform 
cityscapes from their current status as net sources of greenhouse gas 
emissions into large scale, human-made carbon sinks. The sheer volume 
of urban buildings projected for the remainder of the first half of the 
21st century suggests that such a scenario could become a powerful tool 
to mitigate climate change. Construction of timber buildings for more 
than two billion new urban dwellers from 2020 to 2050 could store 0.01-
0.68 GtC per year depending on the scenario and the average floor area 
per capita. Over a period of thirty years, wood-based construction can 
accumulate 0.25-20 GtC and reduce cumulative emissions of carbon from 4 
(7-20) GtC to 2 (0.3-10) GtC.
    Such a transition to bio-based building materials, implemented 
through the adoption of engineered structural timber products and 
assemblies by the urban building sector, will succeed as a climate 
mitigation strategy only under two conditions. First, designated 
``working'' forests must be managed and harvested sustainably using 
techniques appropriate to each forest at the stand level in order to 
avoid scenarios of forest degradation and soil depletion. Second, the 
wood from existing and future buildings (the latter specifically 
designed for ease of disassembly) must be recovered and reused as a raw 
material resource for consumer product manufacture or the next 
generation of buildings. In this way, the city and the forest, 
historically antagonistic landscapes, may begin to work in synergy to 
help stabilize a climate in crisis.

                                 <F-dash>
    Article entitled, ``Buildings as a Global Carbon Sink,'' by G. 
 Churkina, A. Organschi, C.P.O. Reyer, et al., Nature Sustainability, 
  Vol. 3, April 2020, Submitted for the Record by Hon. Bruce Westerman
[An abstract of the article appears below. The article is retained in 
committee files.]

Churkina, G., Organschi, A., Reyer, C.P.O. et al. Buildings as a global 
carbon sink. Nat Sustain 3, 269-276 (2020). https://doi.org/10.1038/
s41893-019-0462-4

    Abstract--The anticipated growth and urbanization of the global 
population over the next several decades will create a vast demand for 
the construction of new housing, commercial buildings and accompanying 
infrastructure. The production of cement, steel and other building 
materials associated with this wave of construction will become a major 
source of greenhouse gas emissions. Might it be possible to transform 
this potential threat to the global climate system into a powerful 
means to mitigate climate change? To answer this provocative question, 
we explore the potential of mid-rise urban buildings designed with 
engineered timber to provide long-term storage of carbon and to avoid 
the carbon-intensive production of mineral-based construction 
materials.

    Mr. Westerman. Thank you.
    We know that forests are the largest scale, most efficient 
system to pull carbon out of the atmosphere, and wood products 
like we see here on this dais are 40 to 50 percent, by weight, 
stored carbon. Except for in some Western States, where we are 
burning up forests faster than we are growing them, U.S. 
forests are continuing to add carbon storage volume each year.
    From the Yale study, the authors stated that mass timber 
construction has the potential to create a vast bank vault that 
could store up to 68 million tons of carbon, annually. They 
added that a city using mass timber construction will become a 
carbon sink versus a carbon source. They also concluded the 
overwhelming climate benefit of mass timber is something that 
every city planner should consider.
    Mr. Rudd, I know your company is a large, global company. 
And I have seen on your website that you have done some work 
with mass timber. I have two questions.
    The first one is what are the barriers for more mass timber 
construction in buildings?
    Mr. Rudd. Thank you for the question.
    First of all, most of the projects that we are involved 
with obviously are driven by the desires and the economic 
benefits to our customers and to our clients.
    And so, first of all, today, when we look at the--again, I 
am repeating this--the models that are used to evaluate these 
types of projects is focused on cost. It is not focused on 
elements beyond simply the cost of the project. So, for 
example, like promoting the investment in timber construction, 
which effectively is creating a carbon sink, promoting 
decarbonization of our environments.
    So, again, my suggestion again is, when we look at these 
types of projects, some encouragement in terms of the 
legislation to promote thinking beyond just simply the lowest 
cost model of construction would allow us to move in the 
direction of promoting timber construction, large timber 
construction, and promoting the creation and investment in 
carbon sinks.
    Mr. Westerman. Are you facing any regulations or building 
codes that prohibit using mass timber construction?
    Mr. Rudd. I will have to have somebody research that, and 
get back to you with the answer. I don't know the answer to 
that question.
    Mr. Westerman. The U.S. Forest Service lab has also done 
studies that show that using mass timbers in bridge 
construction can produce structures that last up to 50 years. 
What do you think about engineering firms, architecture firms 
using mass timber in rural bridge construction?
    Mr. Rudd. Well, again, when we look at our projects around 
the world, we see a combination of mass timber construction, 
steel bridge construction, and concrete bridge construction. As 
far as I can tell, there is no regulation that is preventing 
the adoption of it. I think we have to change that direction, 
and look at not mandates, but look at ways of encouraging use 
towards mass timber construction.
    Mr. Westerman. And with what little time I have got, Mr. 
Chairman, I would just add a plug that we have got to produce 
more of our rare earth minerals here, in the United States, to 
fuel our green economy. And I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Stanton?
    Mr. Stanton. Thank you very much, Mr. Chair. Under your 
leadership, this committee will soon take up a transformative 
infrastructure investment bill. I can't wait. And it is so 
important that we make the case that this hearing is making, 
that when we make that investment, not only will it do right by 
the American economy, and job creation, and pay for itself many 
times over, but it is also going to help, when we do it right, 
reestablish American leadership on the issue of climate change. 
So thank you for hosting this important hearing.
    I know that, as a former mayor of one of the largest cities 
in America, that when we made smart investments in fighting 
climate change and climate adaptation, it helped the city's 
bottom line. It certainly helped when the various credit rating 
agencies, the bond agencies, would rate the city of Phoenix, 
which had the highest bond rating of any of the largest cities 
in America. The fact that we made smart investments to fight 
climate change at the municipal level was an advantage.
    Arizona, of course, is getting hit harder, as hard or even 
harder than almost any other State in the country, with extreme 
heat and the drought conditions that we are facing, as well as 
forest fires. So these investments are important, and they are 
very real to our community.
    On the private-sector side, by the way, corporations, 
publicly traded corporations, are being judged whether or not 
they are making the right investments in their future in 
fighting climate change. So at the global level, at the 
national level, at the State level, on the private level, this 
is really good for business.
    Mr. Allen, my question is for you. Your testimony states 
that the Federal surface transportation policy supporting the 
development of alternative fuel technologies and investments in 
zero-emission vehicles can help ensure the United States 
becomes the global leader that it should be in research, 
development, and manufacturing of electric vehicles. I want you 
to elaborate a little bit more on that. And what can this 
committee, this important committee, do to help ensure that the 
U.S. competitiveness stays in the global electric vehicle 
market?
    Mr. Allen. Thank you, sir, for the question. I think the 
biggest area that this committee can help with, and the biggest 
thing that we can do in the United States is support domestic 
supply chain.
    Today, the cells that all of us use come from a foreign 
country. Many of them are from China, Korea, Japan. There is no 
reason, with the increasing demand in the United States, that 
we can't have cell manufacturing here in the United States, and 
in partnership with the companies that are currently making 
them. This will help mining in North America. This will reduce 
supply chain costs, overall cost. It will create phenomenal 
manufacturing jobs in the United States. So I encourage this 
committee, through both incentives and Buy America 
requirements, to move forward and help the supply chain make 
these investments in North America.
    As the gentleman from Pilot Flying J has said, it is very 
difficult for companies to do this because of a little bit of 
the chicken and the egg. So to have Government get out ahead, 
and help these companies when volumes are low to be able to 
provide the opportunity to scale up, is really an important 
factor that I think can be a great public-private partnership, 
going forward.
    Mr. Stanton. Thank you so much for that answer.
    Mr. Chair, I have some additional questions. I will submit 
them for the record in the interest of time, and I will yield 
back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Lamb?
    Mr. Lamb. Thank you----
    Mr. DeFazio. Mr. Garcia?
    Mr. Lamb [continuing]. Mr. Chairman.
    Mr. DeFazio. What?
    Mr. Lamb. Thank you, Mr. Chairman. And I----
    Mr. DeFazio. Sorry, wait a minute, wait a minute. It was a 
Republican turn.
    Mr. Guest?
    Sorry.
    Mr. Guest. Thank you, Mr. Chairman. To all of our 
distinguished panel, I want to thank you for being with us 
today. I want to start off.
    Mr. Hernick, in reading your testimony that you provided to 
the committee, on page 2 you talk about ``Congress will need to 
reduce or eliminate barriers to infrastructure development. It 
should take 2 years, not 10 years, to permit infrastructure 
projects. Redtape is not the price of good Government; it is 
the enemy of good Government. America could modernize its 
infrastructure, reduce costs, while dramatically enhancing 
environmental benefits, with a 2-year approval process for 
large construction projects.''
    You go on to say that polling shows a significant 
percentage, roughly 73 percent, support streamlining and 
reforming Government regulations. I know that this is something 
that I hear about routinely when I am back home in the 
district, meeting with governmental officials. And I would just 
ask you if you could please just expand on that for just a few 
moments.
    Mr. Hernick. Yes, absolutely, Congressman, I appreciate the 
opportunity to go into a little more detail.
    The truth is that what Americans want from their Government 
is responsiveness. They are interested in seeing private-sector 
solutions to meet their needs on a daily basis. And there is a 
role for Government to safeguard the environment, safeguard the 
people working on projects, and to safeguard national monuments 
and the things that make this country great.
    But really, Americans are looking for a firm thumbs up or 
thumbs down on whether or not a project or a business can 
proceed at pace. And when we are talking about creating jobs, 
when we are talking about the economic transformation and 
benefits that we are going to see from moving to a cleaner and 
cleaner grid, and moving to a cleaner and cleaner national 
transportation infrastructure, we want to make sure that that 
can be done on a timely basis.
    And I think that the FAST-41--the FAST Act--demonstrated 
that these types of projects can be done upholding all of the 
social and environmental safeguards that we need, that if we 
hold Government bureaucrats accountable to a timeline, the same 
way that the private sector is, the same way that I am, as an 
employee, and that if we hold Government to those same 
standards, Government can perform on a timeline. And I think 
that is not too much to ask.
    Mr. Guest. And you go on on page 8, and you talk about the 
fact that there is another cost-efficient way to significantly 
reduce emissions in the vehicle fleet. And you talk about 
switching to low-emission fuel, such as natural gas or propane. 
And I have also had the opportunity, when I am home in the 
district visiting some of my propane suppliers, to talk about 
or to hear about the benefits of propane vehicles, whether it 
be automobiles, forklifts, riding lawn mowers--normally 
vehicles which would burn either gas or diesel--being converted 
to natural gas or propane.
    You talked about cost savings, emission reduction, and 
energy security. Again, could you just expand on that very 
briefly, about the benefits of vehicles which would use natural 
gas or propane, instead of gasoline or diesel?
    Mr. Hernick. Absolutely. The bottom line, Congressman, is 
that we need an all-of-the-above approach.
    Mr. Allen spoke about the price point for electric 
schoolbuses being there now. But there is still an upfront 
cost. And some school districts, some municipalities just don't 
have the cash on hand, especially in these tough economic 
times, to make those kinds of investments.
    It is going to be more appropriate to switch to propane in 
some cases. And, you know, for moms and kids and dads standing 
at the bus stop, those types of air quality emissions benefits 
that we can see within the next year or two, well, that matters 
a lot more than waiting for a complete transition to electric 
vehicles. And that is not to say that electric vehicles aren't 
a part of the future, they certainly are. But I think that what 
we want is, from Government, an all-of-the-above approach to be 
able to allow States and municipalities to utilize the most 
locally appropriate approach.
    Mr. Guest. And would you agree that we currently have the 
technology, the ability on many of our vehicles to go ahead and 
transition them over right now to propane or natural gas?
    Mr. Hernick. It is happening right now. I live in Maryland, 
and it is one where Governor Hogan has taken the issue very 
seriously. He wants to reduce emissions. And so it has been 
great to see his administration be able to make those switches, 
and make that investment. They are improving air quality and 
reducing emissions in a very cost-effective way, and I think 
that is something that the Federal Government can look at, too.
    Mr. Guest. Thank you, Mr. Chairman, I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Lamb?
    Mr. Lamb. Thank you, Mr. Chairman. I wanted to start out by 
just emphasizing the great local support that Wabtec's Freight 
2030 vision has already obtained in Pittsburgh.
    And if I could ask unanimous consent to insert two letters 
into the record from the Greater Pittsburgh Chamber of Commerce 
and the Allegheny County Executive regarding the Freight 2030 
vision.
    Mr. DeFazio. Without objection.
    [The information follows:]

                                 <F-dash>
     Letter of March 17, 2021, from Matt Smith, President, Greater 
Pittsburgh Chamber of Commerce, Submitted for the Record by Hon. Conor 
                                  Lamb
                                                    March 17, 2021.
Hon. Peter DeFazio,
Chairman,
Transportation and Infrastructure Committee, U.S. House of 
        Representatives, 2134 Rayburn Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Transportation and Infrastructure Committee, U.S. House of 
        Representatives, 1135 Longworth House Office Building, 
        Washington, DC.
    Dear Chair DeFazio and Congressman Graves:
    On behalf of the Greater Pittsburgh Chamber of Commerce, the 
advocacy affiliate of the Allegheny Conference on Community 
Development, I write to express our support for the public-private 
partnership proposed by Wabtec Corporation, Genesee & Wyoming, and 
Carnegie Mellon University to establish a Freight Rail Innovation 
Institute. This partnership presents a unique opportunity to positively 
impact our environment, improve the economic future of the Pittsburgh 
region while also increasing the competitiveness of the nation's 
infrastructure by providing the equipment and technology to move 
freight more efficiently, effectively, and cleanly.
    The Pittsburgh region is an established testbed and proving ground 
for world shaping technologies and innovations like the ones that this 
partnership is designed to yield. The region's world-class educational 
institutions, including two Tier 1 universities that anchor a robust 
innovation ecosystem, coupled with a long history of effective public-
private collaboration, make it exceptionally positioned to serve as 
home to this institute.
    Furthermore, this project is consistent with the sustainability 
principles adopted unanimously by the Allegheny Conference's Board of 
Directors in January 2019. These principles guide the Conference's work 
as it seeks to balance a healthy environment and a healthy economy. The 
proposed Freight Rail Innovation Institute aligns with these principles 
given its efforts to expand the use of rail freight, accelerate the 
reduction of national greenhouse gas emissions, extend the life of our 
roadway networks, and make transportation safer for the benefit of all 
our communities.
    We recognize and welcome investments in sustainable energy and the 
efforts to achieve a low carbon future. Achieving this objective will 
require unwavering commitment to and investment in research and 
development initiatives; the proposed Freight Rail Innovation Institute 
will catalyze these efforts.
    With freight volumes forecasted to grow approximately 30 percent 
from 2018 to 2040 according to the U.S. Department of Transportation, 
the proposed institute possesses a unique opportunity to drive a more 
sustainable future that also increases economic growth. With over 
140,000 miles of track across the U.S. freight network, investment in 
the future of rail benefits the entire country and invests in the 
network that moves our goods to market and makes modern life possible. 
Investment in this private-public partnership will accelerate the 
commercialization of technologies dedicated to sustainable energy, 
autonomous deployments, and advanced network logistics, and strengthen 
the ecosystem of rail supply companies and contractors that employ 
thousands of well-paying freight-related careers. Support of the vision 
championed by Wabtec Corporation, Genesee & Wyoming, and Carnegie 
Mellon University will take this vision to a reality from which we can 
all benefit.
    Pittsburgh is an innovative hub for tangible outcomes changing the 
world. As such, we feel there is no better place for this Institute to 
thrive. I urge your strong consideration and support of the Freight 
2030 vision and investment in our shared economic future. Please feel 
free to contact me with any questions or if you need further 
information.
        Sincerely,
                                                Matt Smith,
                 President, Greater Pittsburgh Chamber of Commerce.

                                 <F-dash>
   Letter of March 16, 2021, from Rich Fitzgerald, County Executive, 
   Allegheny County, PA, Submitted for the Record by Hon. Conor Lamb
                                                    March 16, 2021.
Hon. Peter DeFazio,
Chair,
Transportation and Infrastructure Committee, U.S. House of 
        Representatives, 2134 Rayburn Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Transportation and Infrastructure Committee, U.S. House of 
        Representatives, 1135 Longworth House Office Building, 
        Washington, DC.
    Chair DeFazio and Congressman Graves:
    I write today to convey my support for the public-private 
partnership being proposed by Wabtec Corporation, Genesee & Wyoming, 
and Carnegie Mellon University to create a Freight Rail Innovation 
Institute. This initiative will assist in Congressional goals of 
building a clean energy economy and creating jobs while also curbing 
the effects of climate change. Its location in the Pittsburgh region 
would also allow for all parties involved to take advantage of the 
education and research occurring here.
    Our region is not the Pittsburgh of 30 years ago, but it is a 
community that welcomes, embraces and invests in green energy and 
sustainability. We also recognize that there is a bridge that moves all 
of us from reliance on fossil fuels to sustainable energy. That shift 
in our energy requires investment and commitment, as well as a vision, 
that is clearly evident in the proposed Freight Rail Innovation 
Institute. Efforts to expand the use of freight rail, accelerate the 
reduction of national GHG emissions, reduce road congestion, and make 
transportation safer is a benefit for all of our communities.
    As you are likely aware, this region has a long relationship with 
rail and has continued to invest in its development and expansion. With 
over 140,000 miles of track across the U.S. freight network, investment 
in the future of rail benefits the entire country. A single freight 
train can move a ton of freight 472 miles on one gallon of fuel. Rail 
moves 40% of freight and accounts for less than 1% of total U.S. GHG 
emissions. Imagine the our domestic policy. With investment in this 
partnership, technology research moves forward more quickly with a 
vision and there are dedicated efforts to focus on best practices as it 
relates to green energy and advanced network logistics. Support of this 
effort takes this vision to a reality from which we can all benefit.
    I urge your strong consideration and support of the Freight 2030 
vision and investment in the future of freight. I stand ready to answer 
any questions you may have of me, or to provide additional information 
as needed.
        Sincerely,
                                           Rich Fitzgerald,
                            County Executive, Allegheny County, PA.

    Mr. Lamb. Thank you, Mr. Chairman. This vision really 
builds on what, in western Pennsylvania, has been a successful 
model of collaboration between our universities--in particular, 
Carnegie Mellon--and these great heritage companies that we 
have, like Wabtec, which is related to the original 
Westinghouse set of endeavors, that has given us things over 
the years like nuclear energy, and a number of defense 
technologies, and important technologies for freight rail. And 
this is really the next generation.
    And so, Mr. Santana, I'm hoping that you are still on here 
remotely, I was hoping that you could go into a little bit more 
detail for the committee about the sort of public-private 
balance of the project that you guys are proposing here. Our 
understanding is you already have a locomotive running on a 
battery, essentially, out in some very harsh terrain out in 
California. But there are further leaps that need to be made, 
further scientifically--in particular, bringing hydrogen into 
the equation, and all of the manufacturing and engineering that 
would go into actually making those fuel cells for the future.
    If you could, talk a little bit about how that demand for 
further research and knowledge would be met in a mix of 
investment by your company privately, a university like 
Carnegie Mellon, and the Federal Government, as well.
    Mr. Santana. Representative Lamb, we are seeking your 
approval for this public-private partnership, so we can really 
bring and start working with the Department of Energy, the 
Department of Transportation, and making sure that we 
ultimately are really executing on the vision we laid out, 
which starts with decarbonization.
    There is significant steps here that would evolve with the 
next generation of battery-electric locomotives. But getting to 
fuel cells and getting to hydrogen, it is a roadmap that 
provides, I think, critical milestones to continue to 
decarbonize solutions for rail at the same time it de-risks as 
we go there.
    On the other front, we have the opportunity here to 
increase rail utilization. This partnership with CMU, we bring 
the best of the country, and certainly the best of Pittsburgh, 
when it comes to both artificial intelligence and robotics. 
This is about, really, creating more efficiency as you move 
things from point A to point B, which ultimately translates to 
more competitive logistics for the country. And it comes down 
to creating standards. It comes down to really connecting a 
multitude of stakeholders to this process.
    And so----
    Mr. Lamb. Thank you and I think the competitiveness----
    Mr. Santana [continuing]. Down the----
    Mr. Lamb. If I could, yes, just get in before we run out of 
time, I think the competitiveness point is a key one, because 
we are not the only ones in the world who are interested in 
improving our freight and logistics.
    And we certainly are not the only ones in the world who are 
interested in hydrogen. Europe and China have both already 
openly published national hydrogen strategies. This is a new 
technology that they intend to dominate and not allow the 
United States to be the world leader in the way that we were 
world leaders in oil exploration, and natural gas exploration, 
and nuclear energy, and all the rest.
    And so, for those considering what is the role of public 
investment in public and private partnerships like this, one 
important role is simply to win the race, to speed up the pace 
of our development and advancements, because we are going 
against state-backed enterprises from China, and similar 
dynamics from the EU, as well.
    So I think your proposal is a great one. I hope that the 
committee can continue to work with Wabtec and CMU, and all of 
those interested in this, not just for the good of western 
Pennsylvania, which is very close to my heart, but I think it 
is part of our overall national transportation and 
competitiveness strategy.
    And with that, Mr. Chairman, I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Fitzpatrick?
    Mr. Fitzpatrick. Thank you very much, Mr. Chairman. I have 
two questions for Mr. Henrick.
    And I will ask both of them, and I will allow you to 
respond.
    The Federal Government just spent close to $7 trillion over 
the last year in response to the pandemic. My first question 
is, how do you think Congress should pay for the country's 
much-needed infrastructure, going forward, what revenue 
mechanism?
    And second, you had mentioned FAST-41 in your opening 
testimony. It is viewed as a tremendously successful model for 
ensuring infrastructure projects stay on track. So I was just 
wondering, secondarily, if you could outline some of the 
successes from this program, and explain why you think this 
bipartisan initiative should be extended.
    Mr. Hernick. Well, thank you for your questions, 
Congressman Fitzpatrick.
    There has been a lot of stimulus, and a lot of money that 
Congress has passed just recently. I do want to underscore that 
$34 billion of that was for clean energy, as a part of the 
Energy Act of 2020. And I do want to thank, again, the Members 
who voted in a bipartisan manner to support that Energy Act of 
2020. It included very important price signals for the market 
in terms of tax incentives, and also included important updates 
for the Department of Energy, in particular, to be able to get 
us to that next generation of clean energy.
    I think that is important to underline, that we have 
already done a lot, and I think it is important to see how that 
affects the economy. I mentioned earlier that I have four 
daughters. In terms of how to pay, I would rather that we 
figure out how the folks on this screen here can pay for any 
additional spending on transportation and infrastructure, and 
not those girls. I think it is important to be able to look at 
a balanced budget approach, and make sure that we are not 
overdoing it. There is a lot of stimulus in the pipeline.
    There is no shortage of private-sector capital that is 
aimed at clean energy. Very specifically, some of the biggest 
investors on Wall Street have climate considerations that they 
are putting in on a voluntary basis to help guide their funding 
towards clean energy. So if you have got a clean energy 
project, and it can pencil out, you have got an investor. There 
is no question about that.
    In terms of FAST-41, I think that it is also important to 
note that there are the types of projects that we need to make 
this transition to a clean transportation and a clean energy 
future in there: wind power on public land, and then a couple 
of different transmission lines that are going to be needed to 
assure that we have the reliability built into our grid to 
diversify, maintain an all-of-the-above approach to generating 
power, and then ensure that folks can keep the lights on, no 
matter what Mother Nature brings or has in store for us.
    So there is a major opportunity to reauthorize FAST-41. 
That is kind of a first step, in my mind. I think that looking 
to One Federal Decision and codifying that, as well, would be a 
second and also a beneficial step.
    Mr. Fitzpatrick. Thank you, Mr. Henrick, and thank you to 
your organization for being very objective, very policy 
focused, working in a bipartisan manner. There is a huge need 
out there. You guys do a really good job in working with 
Democrats and Republicans to advance responsible solutions. So 
I thank you for that, sir.
    I yield back, Mr. Chairman.
    Mr. Hernick. Thank you.
    Mr. DeFazio. Thank you.
    Mr. Garcia?
    [Pause.]
    Mr. DeFazio. What? All right.
    Well, I want to thank our witnesses for hanging in through 
a long hearing. I appreciate all your contributions to this 
topic, and you have proved to be a valuable resource.
    So, since there are no further questions from the 
committee, I ask unanimous consent that the record of today's 
hearing remain open until such a time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing.
    I also ask unanimous consent the record remain open for 15 
days for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    The committee stands adjourned.
    [Whereupon, at 3:02 p.m., the committee was adjourned.]

                      Submissions for the Record

                              ----------                              

 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Mr. Chairman, the work of the Full Committee on climate change and 
our ability to impact change is critical to the health and wellbeing of 
people in our country. Climate impacts everyone and everything. The 
transportation industry is one of the largest contributors to 
greenhouse gas emissions because of the number of trucks and cars on 
the road.
    This hearing, focusing on the business case for climate solutions, 
gives us the opportunity to understand how private sector innovation, 
along with meaningful government investments, will help the U.S. become 
a leader in the clean energy economy. We cannot allow this industry to 
be dominated by foreign companies. We must bring these jobs home.
    President Biden's goal of adding 500,000 EV charging stations over 
the next decade requires a strong partnership between the federal 
government and the private sector. I would like to see American 
companies building and maintaining the clean energy sector in the 
United States. We must be self-reliant and build resilient and 
affordable clean energy solutions. There is no doubt that expanding the 
electric vehicle industry will provide more well paid jobs here in the 
U.S. I understand that in California, electric vehicles provided over 
275,600 jobs with an average annual wage of $91,300 in 2018.
    According to the Dallas-Fort Worth Clean Cities, direct jobs are 
created through increased production by firms that make plug-in 
electric vehicles (PEVs), PEV components, and PEV infrastructure. 
Indirect jobs are those tied to firms that supply to these direct 
producers. Further, higher employment in direct and indirect jobs leads 
to more spending in the broader economy. These create induced jobs in 
industries like food, clothing, and entertainment.
    According to Plug in America, the increased use of domestic 
electricity in the transportation sector promotes national security by 
reducing our dependence on imported oil. These vehicles keep the U.S. 
competitive with China and the European Union, which are both moving 
aggressively towards full deployment of the vehicles and nationwide 
charging systems. There are currently over 19,281 PEVs on Texas roads 
today, with the market ready to expand as new vehicle makes and models 
become available in Texas. These vehicles are a win-win for Texas and 
consumers want more of them.
    In the public transportation sector, research shows that in 2019, 
over 9.9 billion trips were taken by Americans on public 
transportation. Over 71% of those public transit riders are employed. 
Public transit takes people to work and back home and it leads the way 
to a cleaner climate and thus healthier lives for everyone.
    It is my hope that the fuel operators and the electric vehicle 
charging network will be able to work together to establish a safe, 
affordable and reliable network to keep our country moving forward. I 
look forward to the testimony of each of the witnesses today. Thank 
you, Mr. Chairman.

                                 <F-dash>
 Letter of March 17, 2021, from Cathy Bennett, Sr. Vice President for 
    Public Policy, Greater Kansas City Chamber of Commerce et al., 
           Submitted for the Record by Hon. Peter A. DeFazio
                                                    March 17, 2021.
Hon. Peter DeFazio,
Chair,
Committee on Transportation and Infrastructure, 2134 Rayburn House 
        Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, 1135 Longworth House 
        Office Building, Washington, DC.
    Dear Chair DeFazio and Ranking Member Graves:
    Our business organizations urge your committee to update the 
federal transportation program to measure success by access to 
destinations--not vehicle speed--to support public transit, connected 
communities, businesses, and our climate.
    Communities with strong transit, walking, and bike access to jobs 
and services produce lower greenhouse gas emissions, while also serving 
as great environments for vibrant economic activity and more equitable 
opportunity. Yet the federal transportation program does not support 
the development of these communities.
    Instead, the federal transportation program increases vehicle miles 
traveled--and thus greenhouse gas emissions--by design, solidifying 
transportation as the largest source of greenhouse gas emissions in the 
United States. This is because for decades, the federal program has 
used vehicle speed as a flawed proxy to measure how well people can 
access jobs and services like healthcare, education, and grocery 
stores.
    As a result, our states and communities have built more roads and 
spread out destinations, often requiring longer car trips while making 
walking, bicycling, and accessing public transit stations unsafe, 
unpleasant, or impossible. This has put the United States on a path of 
endlessly-increasing vehicle miles traveled and greenhouse gas 
emissions. It has also made our communities less convenient and limited 
economic growth by increasing costs and travel times for 
transportation.
    Fortunately, technology exists to measure success by what actually 
matters to Americans and our businesses: the ease of arriving at your 
destination--not vehicle speed. Instead of prioritizing investments in 
road widenings and expansions that fail to improve access to jobs and 
services and increase our carbon emissions, we can invest in the most 
impactful and cost efficient infrastructure, which may be highways, 
public transit, passenger rail, or safe pedestrian and cyclist 
infrastructure. Providing more transportation choices and more 
connected communities creates more opportunities for business while 
also reducing emissions from transportation.
    To do this, the federal transportation program should require the 
U.S. Department of Transportation to determine how well the 
transportation system connects people to jobs and services, and 
prioritize projects that will improve those connections. USDOT must 
collect the data necessary to develop a national assessment of access 
to jobs and services and set national goals for improvement. With this 
data, state departments of transportation and planning organizations 
can ensure that federal investments effectively connect people to 
economic opportunity. Funding should go to projects that will improve 
these connections, regardless of mode. State departments of 
transportation (DOTs) and metropolitan planning organizations (MPOs) 
should be held accountable by evaluating how well their investments 
help connect people to destinations.
    We are tired of spending over $40 billion in federal tax dollars on 
transportation every year that fails to bring us the connected, 
transit, biking and walking friendly neighborhoods that businesses and 
customers desire. We urge your committee to align transportation 
funding with the outcomes our businesses need: getting people to jobs 
and services sustainably, equitably, affordably, and conveniently--by 
any mode. This approach will benefit the bottom line and the climate.
        Sincerely,
                                             Cathy Bennett,
       Sr. Vice President for Public Policy, Greater KC Chamber of 
                                                          Commerce,
                                                   Kansas City, MO.
                                               Mark Fisher,
              Chief Policy Officer, Indy Chamber, Indianapolis, IN.
                                           Nicholas Glover,
            Vice President, Advocacy, Tampa Bay Chamber, Tampa, FL.
                                              Chip Hallock,
 President & CEO, Newark Regional Business Partnership, Newark, NJ.
                                              Ashley Henry,
  Executive Director, Business for a Better Portland, Portland, OR.
                                                   Paul Oh,
  Manager, Public Policy, Gwinnett Chamber of Commerce, Duluth, GA.
                                          William Schroeer,
             Executive Director, East Metro Strong, Saint Paul, MN.
                                                Ann Silver,
 Chief Executive Officer, Reno + Sparks Chamber of Commerce, Reno, 
                                                                AZ.
                                        Jonathan Weinhagen,
        President & CEO, Minneapolis Regional Chamber of Commerce, 
                                                   Minneapolis, MN.

                                 <F-dash>
 Statement of the Carnegie Mellon University, Submitted for the Record 
                        by Hon. Peter A. DeFazio
                              Introduction
    Carnegie Mellon University commends Chairman DeFazio, Ranking 
Member Graves and the Members of the Committee for pursuing an 
aggressive hearing agenda at the start of the 117th Congress to examine 
the critical challenges facing the United States--from economic 
recovery to climate change, environmental equity, global 
competitiveness, and optimizing US supply chain and manufacturing, and 
how central investments in the transportation sector are to addressing 
them.
    In particular, we are pleased to submit the following statement for 
the record following the Committee's March 17, 2021 hearing on the 
Business Case for Climate Solutions, which examined the potential of US 
industry, including the rail industry, to mitigate climate change. This 
hearing highlighted the role that a bold agenda for the decarbonization 
of freight rail can play in achieving climate objectives, strengthening 
U.S. manufacturing and enabling a more robust and resilient 
manufacturing supply chain.
  Freight 2030--Ensuring U.S. Leadership in Clean Energy Rail Freight 
                 Technologies and Improving Rail Safety
    As Mr. Rafael Santana, President and CEO of Wabtec testified at the 
hearing, Freight 2030 is a bold plan to accelerate the development of 
near zero emissions freight rail. Developed in collaboration with 
Carnegie Mellon and Genesee and Wyoming Railroad, Freight 2030 offers a 
vision to ensure that the U.S. wins the race for global leadership in 
Zero Emission rail. It is an industry-driven strategy to rapidly 
combine breakthrough research with applied development, prototyping and 
scalable commercialization. It also requires a creative and 
comprehensive workforce strategy to support training and education for 
workers across the transportation and manufacturing industries.
    The goals of this initiative are ambitious and transformative: To 
transition the freight rail system to zero or near-zero-emission 
battery and hydrogen hybrid locomotives, with a target reduction of 120 
million metric tons of CO2 per year in the US; enable a 50% reduction 
in safety incidents through intelligent systems and sensing; enable a 
50% increase in freight rail utilization; and generate up to 250,000 
new jobs, of which half would be direct job creation in transportation 
and manufacturing.
    Freight 2030 envisions the creation of a new advanced clean energy 
rail technology and logistics ecosystem. Achieving H2 substitution in 
engine operations and railway grade fuel cells demands advances in new 
materials and advances in batteries and storage, combined with the 
intelligent systems engineering needed to deploy these capabilities. In 
turn, advances in artificial intelligence will be needed to support 
expanded rail capacity. AI will enable the enhanced signaling and 
network traffic systems to ensure increased safety and increased rail 
utilization and seamlessly connect the railroad system to intelligent 
ports. AI and autonomous systems technologies will be vital to break 
the last mile bottleneck that will enable realization of enhanced 
multi-modal innovation.
    Carnegie Mellon has a rich history of engagement in initiatives 
advancing innovation in energy and artificial intelligence to transform 
industries and foster innovation led job creation. The focus on 
integrating research deployment Freight 2030 has the potential to 
catalyze job growth across the nation and strengthen leadership in both 
clean energy and logistics industries.
    This is a global race. This initiative will match similar 
investments that global competitors are advancing. Support for Freight 
2030 will help ensure that the U.S. wins the race to global leadership 
in Zero Emission rail.
   Building the Tools to Support Workforce Development and Engaging 
                         Directly with Workers
    Freight 2030 is at its essence a jobs initiative. It seeks to 
create jobs throughout a new clean energy rail industry--from clean 
fuel locomotive production to systems operations to rail yard 
management across the nation.
    These jobs will require new skills, understanding of new data 
driven technology applications, and increased worker teaming with 
intelligent systems.
    Freight 2030 will include the development of workforce training 
initiatives from the start. This effort will include collaborations 
with training organizations supporting both manufacturing and rail 
operations workers.
                               Conclusion
    This Committee continues to demonstrate transformative leadership 
to accelerate innovation in American transportation industries. It was 
the work of this Committee that helped catalyze U.S. leadership in 
autonomous vehicle technologies, which has contributed to the creation 
of over three thousand jobs in just the Pittsburgh region alone. The 
Committee's unwavering commitment to innovation initiatives in the 
Department of Transportation has also helped shape collaborative 
university/industry initiatives in areas such as smart city 
technologies that are reshaping transportation, mobility and the 
sustainability of urban and rural communities.
    Freight 2030 can add yet another chapter to this record of 
innovation by advancing a new generation of U.S. leadership in freight 
rail manufacturing and technologies.

                                 <F-dash>
 Letter of February 7, 2021, from Joy Ditto, President & CEO, American 
    Public Power Association; Tom Kuhn, President, Edison Electric 
 Institute; and Jim Matheson, CEO, National Rural Electric Cooperative 
     Association, Submitted for the Record by Hon. Peter A. DeFazio
                                                  February 7, 2021.
Hon. Pete Buttigieg,
Secretary,
U.S. Department of Transportation, 1200 New Jersey Ave., SE, 
        Washington, DC.
Hon. Michael Regan,
Administrator-designate,
U.S. Environmental Protection Agency, 1200 Pennsylvania Ave., NW, 
        Washington, DC.
Hon. Jennifer Granholm,
Secretary-designate,
U.S. Department of Energy, 1000 Independence Ave., SW, Washington, DC.
Hon. Gina McCarthy,
National Climate Advisor,
Executive Office of the President, 1650 Pennsylvania Ave., NW, 
        Washington, DC.
    Dear Secretary Buttigieg, Secretary-designate Granholm, 
Administrator-designate Regan, and Climate Advisor McCarthy:
    The nation's investor-owned electric companies, public power 
utilities, and electric cooperatives--which our organizations proudly 
represent--look forward to working with you and to leveraging the 
investments our members are making to help meet your Administration's 
goal of deploying electric vehicle charging stations across the 
country.
    Our members provide safe, reliable, and affordable energy to more 
than 300 million Americans. The electric power industry supports more 
than 7 million American jobs and contributes $880 billion annually to 
U.S. gross domestic product, about 5 percent of the total. Each year, 
our industry invests more than $110 billion to make the energy grid 
stronger, smarter, cleaner, more dynamic, and more secure. These 
investments enable us to integrate more clean energy and new 
technologies into our electric systems, including electric vehicles 
(EVs), to benefit customers.
    Our members are proud of the progress that has been made in 
deploying clean energy resources. As the Administration turns to 
electrifying transportation, we are committed to working with you to 
leverage our industry's investments to deploy electric vehicle charging 
infrastructure and to accelerate electric transportation adoption that 
will grow the economy and benefit the environment.
    To get more EVs on U.S. roads, it is important that we invest in 
and deploy more charging infrastructure. Building this infrastructure 
will require public-private partnerships, and our members are critical 
to that effort, in part because they employ a highly skilled workforce 
that builds and maintains the energy grid. A collaboration between the 
federal government and our sector will help to create additional jobs 
and will help spur economic recovery.
    Charging stations are one piece of a vast system with implications 
for the grid. Our members are a crucial partner in building and 
maintaining the infrastructure to deploy EV charging stations at all 
the locations where EVs charge. These investments are structured to 
best serve communities and customers.
    Our members already own and operate EV charging stations in a 
variety of locations and for all types of customers. These arrangements 
are particularly beneficial to consumers who prefer not to procure and 
maintain charging infrastructure and seek a turnkey solution. Some of 
our members install the ``make-ready'' infrastructure that connects to 
the charging equipment, leaving it to the consumer to own and maintain 
the charging station. And other members offer rebate programs to offset 
the costs to install charging infrastructure.
    Regardless of the approach, each of these solutions is critical to 
building charging infrastructure that helps to spur the EV market and 
benefit communities. This is particularly true in regions where private 
investment in EV charging stations historically has been difficult.
    It is important that all communities have access to the benefits of 
EVs, and our members are investing in underserved communities, in 
electrifying car-sharing and public transportation systems that serve 
those who do not own vehicles, in electrifying commercial vehicles such 
as delivery trucks that operate within neighborhoods, and assuring that 
Americans can charge their vehicles coast-to-coast in urban, suburban, 
and rural communities. Each community may have a different model that 
works best. Providing flexibility will ensure that more communities can 
participate in charging programs, leading to more EV charging stations 
across the country.
    Local decision-making will help ensure charging stations meet the 
needs of each community. Our members continue to work with local 
stakeholders and are best-positioned to understand and to maximize the 
value of different technologies and systems that can help optimize the 
operation of the grid, integrate EVs, and recover more quickly from 
natural disasters.
    However, the federal government is a key partner in the research 
and development related to EVs and the associated charging 
infrastructure, and technical and financial assistance can help 
accelerate deployment. Existing programs across federal agencies have 
been effective in deploying alternative-fuel vehicles and 
infrastructure, while other programs should be updated to reflect 
current advancements in technology.
    Today, nearly 40 percent of the nation's electricity comes from 
carbon-free sources, and carbon emissions from the U.S. power sector 
are at their lowest level in more than 30 years--and continue to fall. 
The electric power sector's significant leadership in reducing carbon 
emissions can help drive carbon reductions in other sectors, especially 
transportation, through increased electrification.
    We look forward to working with you and to our continued 
partnership in advancing clean energy technologies and electric vehicle 
infrastructure.
        Sincerely,
                                                 Joy Ditto,
                President & CEO, American Public Power Association.
                                                  Tom Kuhn,
                              President, Edison Electric Institute.
                                              Jim Matheson,
              CEO, National Rural Electric Cooperative Association.

                                 <F-dash>
 Letter of March 15, 2021, from Joe Britton, Executive Director, Zero 
 Emission Transportation Association, Submitted for the Record by Hon. 
                            Peter A. DeFazio
                                                    March 15, 2021.
Hon. Peter DeFazio,
Chairman,
House Committee on Transportation and Infrastructure, United States 
        House of Representatives, 2134 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman DeFazio,
    Electrifying transportation is critical to helping the United 
States compete for investment, advance technological innovation, grow 
our economy and address climate change. We have the opportunity--if we 
make the right policy decisions today--to cultivate an advanced vehicle 
industry that drives decarbonization, creates jobs, and once again 
makes us the envy of the automotive world.
    Electric vehicles (EVs) support over 300,000 American jobs with new 
EV manufacturing and infrastructure poised to create hundreds of 
thousands of new jobs in the years to come. EV growth is projected to 
accelerate worldwide, whether manufactured in the U.S. or elsewhere. 
Other countries know this and are moving aggressively to seize the 
generational opportunity. We must lead this race or we'll cede this 
economic opportunity to foreign competitors.
    In particular, China and the EU have risen to dominance in the 
critical supply chain and EV sector over the past 15 years. China's 
moves to control critical material supply chains are not only a threat 
to EVs but also consumer electronics and national security 
infrastructure. While some raw materials are sourced in other parts of 
the world, China controls a full 70-90% of the processing and 
production. The U.S. has an opportunity to counter this threat, and 
secure our own economy, by responsibly expanding our ability to source 
these materials from within our own borders. Not only will domestic 
sourcing bolster job creation, but it will also ensure high standards 
for our environment and workforce.
    Despite the gains made by other nations, the United States is still 
strongly positioned to outcompete even the most advanced EV leaders 
around the globe. In fact, the most sought-after EV technologies are 
homegrown in the United States. Dozens of aspiring U.S. companies are 
producing EVs that will alter the landscape in the years ahead.
    As you know, transportation is the largest carbon-emitting sector 
in the economy, responsible for 28% of emissions. Electrification of 
the transportation sector will significantly reduce emissions and 
address both climate change and public health effects throughout the 
country. While any manufacturing process includes some carbon impacts, 
EVs are cleaner than gasoline-powered cars, and will only get cleaner 
as we decarbonize the grid.\1\ When we evaluate the entire process of 
manufacturing an EV and sourcing the electricity, EVs generate up to 
67% fewer emissions over their lifetime than their gas-powered 
counterparts.\2\
---------------------------------------------------------------------------
    \1\ bloomberg.com/news/articles/2019-01-15/electric-cars-seen-
getting-cleaner-even-where-grids-rely-on-coal
    \2\ woodmac.com/press-releases/evs-up-to-67-less-emissions-
intensive-than-ice-cars/
---------------------------------------------------------------------------
    EVs are not just good for reducing emissions--consumers also 
benefit from direct fuel and maintenance savings. EV owners can save 
over $700 a year in fuel and $330 in annual maintenance costs. 
Meanwhile, the retail price of EVs continues to decline as 
manufacturing scales up. And we are set to manufacture vehicles with 
400-500 miles of range and battery packs costing as little as $60/-per-
kwh, two developments that will allow EVs to outperform internal 
combustion engine vehicles on both range and price. Consumers can now 
drive zero-emission vehicles without sacrificing on cost or features 
they have become accustomed to, and federal, state, and local 
incentives have the ability to drive greater consumer benefits and EV 
adoption.
    For these and other reasons, we must grow and expand consumer 
incentives for light-, medium- and heavy-duty vehicles, invest in an 
extensive charging infrastructure network, and send a market signal 
that electrification is the future by setting strong fuel economy 
standards. The choices we make now will determine our course for 
decades to come. We can either embrace the economic and domestic 
manufacturing opportunities we now face, or risk relying on foreign 
imports for years to come.
    For this reason, the Zero Emission Transportation Association is 
urging policymakers to act now and invest wisely to help the United 
States realize the economic potential of an electrified domestic 
transportation sector. We look forward to working with you as you 
continue to tackle these difficult decisions and support local 
economies across the United States.
        Sincerely,
                                               Joe Britton,
      Executive Director, Zero Emission Transportation Association.

                                 <F-dash>
Amazon and Global Optimism Co-founded The Climate Pledge, Submitted for 
                  the Record by Hon. Peter A. DeFazio
[Editor's note: The following PDF has been modified from its original 
version. It has been formatted to fit this publication.]
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <F-dash>
  Statement of Nicholas Guida, Chairman and Chief Executive Officer, 
Tamarack Aerospace Group Corporation, Submitted for the Record by Hon. 
                         Sam Graves of Missouri
    Chairman DeFazio, Ranking Member Graves and Members of the 
Committee, thank you for accepting my testimony to the committee on 
``The Business Case for Climate Solutions.'' I am Nick Guida and I'm 
the founder and CEO of Tamarack Aerospace Group Corporation.
    Climate change is of course one of the most significant challenges 
currently facing human civilization. Despite aviation being a 
relatively small contributor of overall global carbon dioxide emissions 
at 2-3%, aviation's statistical position is often cited in the media 
and that trend will no doubt continue as aviation continues to grow. 
(Graver, Zhang, & Rutherford, 2019). As a result, the environmental 
impact of flying is consistently breaking into the consciousness of 
passengers and the public alike, influencing their perception of 
aviation.
    Aviation must leverage all legacy and especially new technologies 
to constantly strengthen a perception that the industry proactively 
supports sustainability and science that will mitigate the negative 
outcomes of climate change.
    America and the world need to aggressively use all available 
current technologies to reduce the metastasizing carbon footprint and 
not ignore any pending technologies--including pending solutions like 
bio-fuels, electric and hydrogen propulsion--as they become commonly 
available over time. America needs to open its eyes to all current 
possibilities, especially those that are not widely known but can be 
so-called game-changers, game-changers that also make good business 
sense.
    One such new, and game-changing technology available right now and 
gaining notice by the aviation industry and regulators, is Active 
Winglets<SUP>TM</SUP>, developed by Tamarack Aerospace Group. Tamarack 
is based in Sandpoint, Idaho--we are a growing American company built 
on invention.
    Active Winglets look very much like the curved-upward passive 
winglets you see on the ends of many commercial aircraft wings, except 
Active Winglets have an extension and an autonomous sensing system that 
in a fraction of a second mechanically adjusts the wing tips to any 
amount of turbulence and, in so doing, allows for the most efficient, 
fuel-saving and flight smoothing capabilities available today.
    Patented Active Winglet innovation delivers a CO2 and fuel burn 
reduction of up to 33% as compared to an approximate 4% fuel savings 
from different types of traditional winglets seen on many current 
commercial, business and military aircraft. Active Winglets increase 
the number of fuel efficient and safer non-stop flights, and reduce the 
amount of maintenance needed for all aircraft. Active Winglet 
technology stands out in many ways amongst other sustainability 
initiatives as a sustainability supporting immediate solution for 
reducing aviation's carbon footprint to meet industry goals (Forbes 
Magazine, Tamarack Aerospace Group, 2020 and former aeronautical 
professor and commercial pilot, NASA astronaut Byron Lichtenberg, 2021, 
to cite just a few of the multiple sources).
    There are several steps that aircraft operators can put in place to 
significantly reduce emissions. The science and market demands are 
dictating that we need to act now. Technology such as Sustainable 
Aviation Fuels are absolutely viable solutions but face significant 
scalability obstacles, carbon sequestration and offsetting would be 
required on a vast scale to have a significant impact and the 
introduction of newer, more fuel-efficient aircraft which emit less 
CO2, will not be sufficient on its own to offset the growth in the 
number of air transport movements.
    Active Winglets are a proven technology that has been installed on 
more than one-hundred-and-twenty Cessna Jets, has been certified by the 
Federal Aviation Administration (FAA) and European Union Aviation 
Safety Agency (EASA), and can be retrofitted onto several current 
aircraft variants, including larger single-aisle commercial, cargo and 
military aircraft . . . even drones. Active Winglets are cost-effective 
and can be rapidly retrofitted to the existing fleet as well as future 
designs to improve safety, mitigate turbulence, reduce noise and other 
pollution associated with aviation and reduce the downtime and need for 
aircraft maintenance.
    The Active Winglet technology is economically viable, paying the 
investment for the modification back to the aircraft operator in a 
short period and can have a significant benefit for the existing as 
well as future fleets of aircraft. Of course, if business and 
government can't make an economic argument for adopting specific 
actions, those actions will naturally fail. Conservative estimates on 
narrow bodied and specific military aircraft, demonstrate that 
Tamarack's Active Winglets can reduce fuel burn by 14-20%, while there 
is proven fuel savings for many business airframes of up to 33%, 
providing significant cost savings and having a meaningful impact now 
on aviation's carbon crisis.
    A case study conducted by Tamarack estimates, for instance, that if 
Active Winglets were to be fitted onto the commercial jet narrow-bodied 
fleet (Airbus A320 / Boeing 737 variants) alone, 1.6 billion tons of 
CO2 would be saved by 2040, reducing the emissions gap by approximately 
20%. Tamarack's technology offers a greater reduction in fuel burn and 
carbon emissions for existing aircraft than any other retrofittable 
solution available at present and certainly will make a demonstrable 
fuel savings and carbon footprint reduction as part of a new aircraft 
build.
    More context about winglet technology. Winglets are small aerofoils 
applied vertically to the wing tips and are a positive addition to 
aircraft as they reduce drag and increase efficiency. They work by 
reducing the aerodynamic drag associated with vortices. Vortices form 
due to the pressure differentiation between the low-pressure upper wing 
surface and the high-pressure lower wing surface. At the wing tip, air 
is free to move from the regions of high pressure to the regions of low 
pressure forming a circular movement of air which trails from the wing 
tip (Anderson, 2017). The creation of vortices causes a redistribution 
of the surface pressure over the wing termed induced drag (Anderson, 
Introduction to Flight, 2016). The advantages of Active Winglets are 
significant and address the vortices and fuel usage challenges more 
than other winglet technologies; they are retrofittable and therefore 
can improve today's aircraft, as well as those coming off the 
production line; they are largely cost effective to implement; and are 
a `win, win' as they pay back economically and environmentally.
    The Active Winglet uses the combination of a wing extension to 
significantly increase aspect ratio with the most optimal winglet to 
reduce induced drag. Traditionally, the most optimal winglet design is 
associated with more structural reinforcement, but the Active Winglet 
doesn't need the structural reinforcement that common passive winglets 
do.
    Active Winglets reap maximum fuel efficiency benefits without 
subtracting the inefficiencies that occur due to additional structural 
requirements. This is achieved using load alleviation at the wing tip.
    Additionally, Active Winglet modified aircraft need shorter runways 
for landing and takeoff and get higher faster than aircraft without the 
modification. For instance, it can take a Cessna Jet with Active 
Winglets to reach 41,000 feet in less than 30 minutes, while a similar 
unmodified business jet will have to reach higher altitudes after 
climbing in steps and may never reach 41,000 feet at all, depending on 
flight conditions and the time of the trip (AOPA reporting Active 
Winglet flight, 2021). As mentioned, once an aircraft gets to higher 
altitudes faster, the carbon footprint is greatly reduced.
    Tamarack commends the committee on its backing of current U.S. 
government programs to encourage innovation in aviation and we hope 
that kind of assistance increases. This committee, for instance, is 
well aware of government grants for emissions innovative companies. For 
example, the Federal Aviation Administration (FAA) Continuous Lower 
Energy, Emissions and Noise (CLEEN) program has already contributed 
$225 million through phases I and II of CLEEN, and the industry has 
contributed $388 million. The 2020 grants under CLEEN III are to be 
issued soon (FAA, 2020). Tamarack will be applying for the next tranche 
of grants in order to go through the certification process for 
additional airframes. Meanwhile, we hope the committee will continue to 
encourage all technologies and efforts to embrace business cases for 
climate solutions.
    Part of the reason that aviation is gaining so much attention 
relative to reducing the carbon footprint is an immediate need, like so 
many other industries, to reduce its dependence on fossil fuels in the 
face of expected continued rapid growth (UNFCCC, 2014). Active Winglets 
and other technologies available now or soon warrant additional focus 
by regulators and the entire aviation community.
    The coronavirus pandemic has shrunk the world fleet because of 
airlines going out of business and older, less efficient aircraft being 
retired early. From 2020 onwards, this will unquestionably deliver 
reduced CO2 emissions lower than previously projected. However, this is 
not the solution to aviation's carbon emission challenges. Although 
passenger numbers dropped by 2690 million (60%) in 2020 compared to 
2019, passenger numbers are predicted to recover to 2019 levels within 
the next 3-5 years (ICAO, 2021). Furthermore, in 2020 compared to 2019, 
approximately USD $370 billion of gross passenger operating revenues of 
airlines were lost (ICAO, 2021). This unprecedented event could present 
a major opportunity for operators to reset their thinking on emissions 
targets and implement sustainable practices in every aspect of their 
new, reshaped organizations.
    Aircraft are reliant on fossil fuels and with no clear path or 
timeframe to a zero-emission alternative, ICAO predicts a large gap in 
the emissions targets set for the period of 2020 to 2040. There are 
several steps that aircraft operators can put in place to significantly 
reduce emissions. The science and market demands are dictating that we 
need to act now. Technology such as Sustainable Aviation Fuels are 
absolutely viable solutions but face significant scalability obstacles, 
carbon sequestration and offsetting would be required on a vast scale 
to have a significant impact and the introduction of newer, more fuel-
efficient aircraft which emit less CO2, will not be sufficient on its 
own to offset the growth in the number of air transport movements.
    Active Winglet technology is economically viable, paying the 
investment back in a short period and can have a significant benefit 
for the existing as well as future fleets of aircraft. Of course, if 
business and government can't make an economic argument for adopting 
specific actions, those actions will naturally fail. Conservative 
estimates on narrow bodied aircraft, demonstrate that Tamarack's Active 
Winglets can reduce fuel burn by 14-20%, providing significant cost 
savings and having a meaningful impact on aviation's carbon crisis.
    As availability of Sustainable Aviation Fuels increases and 
technology advances, the aviation sector will see substantial 
reductions in carbon emissions until zero emissions aircraft can be 
developed. However, where a near-term solution is needed, fitting 
Active Winglets would be a significant step forward for operators 
looking to obtain carbon neutral operations, particularly when combined 
with a host of other sustainable initiatives. Tamarack hopes this 
committee considers all emission reducing options including Active 
Winglet technology that stands out as an exciting prospect which can 
reduce the emissions gap by over 1.6 billion tons (-20%), it is 
available now and is scalable.
    As mentioned, Tamarack is growing. We have additional primary 
service and installation centers in South Carolina and England and 
other support facilities in more than twenty other locations across the 
United States and world-wide. We have been growing our facilities, 
staff, and customer base, despite the pandemic because our current and 
prospective customers want the innovative capabilities only Tamarack 
Active Winglets can provide to business, commercial and military 
aviation.
    Tamarack is currently working with U.S. and international aviation 
regulators, along with aviation associations like NBAA and GAMA, noted 
academia representatives and getting constant feedback from existing 
and future customers, including the U.S. military. We are confident 
that U.S. innovation tempered by prudent government regulation will 
meet or possibly exceed carbon footprint reduction goals specifically 
outlined for the aviation industry. Those ambitious goals will only be 
achieved through cooperation and teamwork involving all stakeholders 
and by climbing the very steep education curve that recognizes and 
adopts the most pragmatic innovations addressing our climate crisis.
    Tamarack thinks of itself as a good corporate citizen for America 
and also the world and believes news about its sustainability-
supporting technology, and other avenues for aviation to reduce carbon 
emissions, will be recognized by this committee as a current way to 
quickly provide a solution to help the growing aviation industry reach 
its carbon footprint reducing goals.
    Tamarack looks forward to providing details and science-based 
information alluded to in these comments and will eagerly cooperate 
with this committee to embrace solutions that bolster the reputation of 
aviation as we achieve the climate-saving goals we all want.

                                 <F-dash>
  Letter of March 29, 2021, from Frederick W. Smith, Chairman of the 
Board and Chief Executive Officer, FedEx Corporation, Submitted for the 
                       Record by Hon. Steve Cohen
                                 FedEx Corporation,
                                942 South Shady Grove Road,
                                 Memphis, TN 38120, March 29, 2021.
Hon. Steve Cohen,
U.S. House of Representatives,
2104 Rayburn HOB, Washington, DC.
    Dear Congressman Cohen,
    Thank you for the kind introduction and the opportunity to testify 
on March 17, 2021 at the House Transportation and Infrastructure 
Committee hearing on ``The Business Case for Climate Solutions''. I 
wanted to follow up regarding your question about the safety of the 
twin 33, trailer configuration.
    At FedEx, ``Safety Above All'' is the centerpiece of our corporate 
strategy and our corporate philosophy, and public safety is the real 
story when it comes to the adoption of twin 33, trailers. Studies have 
shown twin 33, trailers are more dynamically stable at highway speeds 
and are more stable during abrupt evasive maneuvers and less likely to 
roll over than twin 28, trailers. FedEx Ground has been operating twin 
33, trailers on the Florida Turnpike since 2010 with no accidents and 
our drivers have told us repeatedly they find them more stable to 
operate.
    Additionally, the adoption of twin 33, trailers would take trucks 
off the road by reducing trips and miles driven through efficiency 
gains, resulting in 4,500 accidents avoided annually. The proposal we 
support also calls for twin 33s to operate with a suite of modern 
safety enhancing technologies: collision avoidance with automatic 
braking, electronic stability control, lane departure, speed limiters 
and other advanced safety features.
    Longer combination vehicles (LCVs) already safely operate in 22 
states, 20 of which allow operation of twin 33, trailers. These LCVs 
include even longer trailer combinations like the ``Turnpike Double'' 
configuration of twin 48, trailers, triple 28, trailers and the ``Rocky 
Mountain Double'' configuration of a 48, trailer and 28, trailer.
    There are also significant efficiency and environmental benefits 
from removing trucks from the road. The adoption of twin 33, trailers 
equates to 274 million fewer gallons of fuel, 3.12 million fewer tons 
of CO2 emissions and 3.36 billion fewer vehicle miles traveled with 
transportation efficiencies. Furthermore, studies have shown that twin 
33, trailers can move the same amount of freight with 18 percent fewer 
truck trips, reducing congestion by 57.2 million hours, decreasing wear 
and tear on roads and bridges, and allowing consumers and businesses to 
realize $2.8 billion annually in lower shipping costs with quicker 
delivery times. These safety, environmental and efficiency benefits 
come at no cost to taxpayers and without any change to the 80,000-pound 
federal gross vehicle weight (GVW) limit or the federal bridge formula.
    In 2016, the Department of Transportation projected that freight 
volumes would increase by 40% by 2045. The trucking industry has been a 
vital lifeline to the U.S. economy during the COVID-19 pandemic by 
supporting the rapid increase of ecommerce and movement of essential 
goods across the country. The adoption of twin 33, trailers would 
provide much needed capacity while benefiting our nation's consumers, 
businesses, environment and overall safety.
    I urge you and your colleagues to consider modernizing trucking 
regulations to include these trailers that have proven to be safe and 
efficient by corporate leaders in transportation and logistics.
    Thank you for your consideration of this important issue.
        Sincerely,
                                        Frederick W. Smith,
                 Chairman of the Board and Chief Executive Officer.

                                 <F-dash>
     Letter of March 22, 2021, from William Peduto, Mayor, City of 
      Pittsburgh, PA, Submitted for the Record by Hon. Conor Lamb
                                                    March 22, 2021.
Hon. Peter DeFazio,
Chair,
Transportation and Infrastructure Committee, United States House of 
        Representatives, 2134 Rayburn Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Transportation and Infrastructure Committee, United States House of 
        Representatives, 1135 Longworth House Office Building, 
        Washington, DC.
    Dear Chairman DeFazio and Ranking Member Graves,
    I am writing in full support of the Freight Rail Innovation 
Institute, a proposed public-private partnership led by Wabtec 
Corporation, Genesee and Wyoming, Inc., and Carnegie Mellon University. 
Collaborations across levels of government and economic sectors have 
helped Pittsburgh shed its industrial past and become a 21st century 
hub for sustainability and green energy. The Institute would represent 
yet another Pittsburgh-based initiative designed to harness the power 
of innovation, research, and technology, combat climate change, create 
family-sustaining jobs, and build a clean-energy future for our nation.
    Over 140,000 miles of railway play an integral role in moving 
people and products across the continental United States, and 
currently, trains transport 40% of our nation's freight. The proposed 
Freight Rail Innovation Institute presents a prime opportunity to 
invest in a cleaner future for freight rail that will benefit the 
entire country. The Institute will research and develop the 
groundbreaking technology needed to move toward carbon-free rail. By 
investing in this vision for the future of freight transportation, we 
can reduce our nation's Greenhouse Gas emissions, improve safety and 
limit congestion on our highways, and create the jobs of the future. By 
empowering Wabtec, Genesee and Wyoming, and Carnegie Mellon University 
to advance this technology, we can develop trains that can more 
efficiently and safely move goods across the country without polluting 
our air and our planet.
    As you are developing the plan to rebuild our nation's 
infrastructure, I respectfully urge you to consider investing in the 
Freight Rail Innovation Institute. Thank you in advance for your 
consideration. Should you need additional information, please do not 
hesitate to contact me.
        Sincerely,
                                            William Peduto,
                                               Mayor of Pittsburgh.

                                 <F-dash>
  Letter of March 22, 2021, from Sam Williamson, Board Chair and Greg 
     Flisram, Executive Director, Urban Redevelopment Authority of 
        Pittsburgh, Submitted for the Record by Hon. Conor Lamb
                                                    March 22, 2021.
Hon. Peter DeFazio,
Chair,
Transportation and Infrastructure Committee, U.S. House of 
        Representatives, 2134 Rayburn Office Building, Washington, DC.
Hon. Sam Graves,
Ranking Member,
Transportation and Infrastructure Committee, U.S. House of 
        Representatives, 1135 Longworth House Office Building, 
        Washington, DC.

RE:  Letter of Support--Freight Rail Innovation Institute

    Dear Chair DeFazio and Congressman Graves:
    We are writing in support of the public-private partnership being 
proposed by Wabtec Corporation, Genesee & Wyoming, and Carnegie Mellon 
University to create a Freight Rail Innovation Institute. This 
initiative will assist in the Congressional goals of building a clean 
energy economy and creating jobs as well as reducing the effects of 
climate change. Its location in the Pittsburgh region would allow for 
all parties involved to take advantage of the education and innovative 
research occurring here.
    Pittsburgh is a city that welcomes, embraces, and invests in green 
energy and sustainability. As the North American representative to the 
Global Covenant of Mayors for Climate and Energy, Pittsburgh's Mayor 
William Peduto has been a leading international voice on the power of 
local government to fight climate change. Our city serves as an example 
of best practices on dealing with the effects of climate change and the 
impact mayors are having on protecting the environment for future 
generations and was recently honored with first place in the U.S. 
Conference of Mayors (USCM) 14th Annual Climate Protection Awards. The 
Urban Redevelopment Authority of Pittsburgh (URA) is proud to partner 
with the Mayor and City of Pittsburgh on these critical sustainability 
efforts.
    We recognize that the shift from the reliance on fossil fuels to 
sustainable energy requires investment and commitment, and that is 
clearly evident in the proposed Freight Rail Innovation Institute. 
Efforts to expand the use of freight rail, accelerate the reduction of 
national GHG emissions, reduce road congestion, and make transportation 
safer is a benefit for all of our communities.
    This region has a long relationship with rail and has continued to 
invest in its development and expansion. With over 140,000 miles of 
track across the U.S. freight network, investment in the future of rail 
benefits the entire country. A single freight train can move a ton of 
freight 472 miles on one gallon of fuel. Rail moves 40% of freight and 
accounts for less than 1% of total U.S. GHG emissions. Imagine the 
possibilities of zero emission locomotives. With investment in the 
partnership, technology research moves forward more quickly with a 
vision and there are dedicated efforts to focus on best practices as it 
relates to green energy and advanced network logistics. Support of this 
effort takes this vision to a reality, benefiting all.
    For these reasons, we hope that you favorably consider and support 
the Freight Rail Innovation Institute, an important endeavor for the 
Pittsburgh region.
        Sincerely,
                                            Sam Williamson,
          Board Chair, Urban Redevelopment Authority of Pittsburgh.
                                              Greg Flisram,
   Executive Director, Urban Redevelopment Authority of Pittsburgh.

                               Appendix

                              ----------                              


  Questions from Hon. Peter A. DeFazio to Jack Allen, Chief Executive 
                  Officer and Chairman, Proterra, Inc.

    Question 1. Mr. Allen, you mentioned the difficulty of sourcing 
domestic minerals for electric batteries. Cobalt in particular is 
difficult to find domestically, even if we expand domestic mining.
    Are there any promising developments in domestic battery cell 
manufacturing capacity?
    Answer. Progress is being made but the U.S. is currently behind 
other markets in building capacity. This Committee and the Federal 
government can play an important role in accelerating US leadership in 
alternative fuel technologies for zero emission vehicles that are 
critical to our economic future as the world addresses global warming 
and the need to cut carbon emissions.
    Today, we lag other technology centers in developing domestic 
capacity for battery production. For example, today, there are no 
domestic manufacturers of small format cylindrical cells that are 
available to Proterra for use in battery packs for transit buses or 
other medium or heavy duty commercial vehicles.
    According to a recent Wall Street Journal report, ``China today has 
93 `gigafactories' that manufacture lithium-ion battery cells . . . If 
current trends continue, China is projected to have 140 gigafactories, 
by 2030, while Europe will have 17 and the United States, just 10.'' 
\1\
---------------------------------------------------------------------------
    \1\ https://www.washingtonpost.com/technology/2021/02/11/us-
battery-production-china-europe/
---------------------------------------------------------------------------
    China and Europe also lead the United States as the largest 
electric car markets internationally, according to the International 
Energy Association.\2\ ``China (at 4.9%) and Europe (at 3.5%) achieved 
new records in electric vehicle market share in 2019.'' The United 
States trails at 2.1% market share for electric vehicles in 2019.\3\
---------------------------------------------------------------------------
    \2\ https://www.iea.org/news/electric-car-sales-this-year-resist-
covid-19-s-blow-to-global-car-market
    \3\ https://www.iea.org/reports/global-ev-outlook-2020
---------------------------------------------------------------------------
    Increasing demand domestically for zero emission technology will 
spur growth of the supply chain and attract private investment in 
domestic cell production to meet the market demand for electric 
vehicles. Investments in US technology and manufacturing leadership 
will serve our domestic needs and allow the US to become a world leader 
in this important shift away from fossil fuel dependency in 
transportation.
    Legislation like H.R. 2 (Moving Forward Act) as well as President 
Biden's American Jobs Plan contain meaningful investments to accelerate 
growth in medium and heavy-duty electric vehicles, including battery 
electric transit buses, school buses and delivery vehicles.

    Question 2. What steps has Proterra taken to recycle batteries that 
are past their useful life for transit buses, and how can this 
committee help to support this work?
    Answer. Proterra has designed its battery systems with the full 
life cycle in mind. Our batteries are designed for easy extraction of 
rare minerals and for recycling and reuse of key components, including 
our heavy duty aluminum pack enclosures. Importantly, once a battery 
pack has reached its end of life, the minerals can be extracted and 
reused, reducing the need to mine for new sources.\4\
---------------------------------------------------------------------------
    \4\ https://www.nrel.gov/news/program/2021/pathways-to-achieve-new-
circular-vision-for-lithium
-ion-batteries.html
---------------------------------------------------------------------------
    The United States has an opportunity to build industry and good 
paying jobs from building batteries to recycling components. Proterra 
has partnered with Redwood Materials in Carson City, Nevada to recycle 
batteries at the end of their useful life. Proterra has already sent 
roughly 26,000 pounds of battery material to Redwood for recycling.
    In addition, Proterra batteries are designed with second-life 
applications in mind. When Proterra batteries have met their useful 
life in a vehicle, they still retain a significant amount of energy 
that can be used in applications such as stationary storage, to reduce 
electricity demand charges, and to charge electric vehicles with 
renewable solar energy stored throughout the day. Our charging systems 
are also capable of sending stored energy from the vehicles back to the 
power grid, becoming a strategic asset for grid stability and 
resilience.\5\ Other second life battery applications could include 
backup power, grid services such as frequency regulation, and utility 
scale storage.
---------------------------------------------------------------------------
    \5\ https://www.proterra.com/press-release/city-of-beverly-selects-
electric-school-bus-powered-
by-proterra/

    Question 3. What other steps can this committee and the Federal 
government take to help anchor the battery supply chain domestically?
    Answer. There are many steps that Congress and the Federal 
government can take to help anchor the battery supply chain 
domestically. The Department of Energy's Advanced Technology Vehicle 
Manufacturing (ATVM) program can be revived in support of its goals of 
strengthening US vehicle manufacturing and promoting US energy 
independence and competitiveness by: 1) expanding eligibility to US-
based medium- and heavy-duty vehicles manufacturers and component 
suppliers, specifically including battery cells manufacturers; and 2) 
revising the financial viability requirements for loan applicants to 
more closely align with the Department of Energy's Title XVII loan 
guarantee program. Congress could also consider making appropriations 
for the grant program that was authorized in the ATVM program but have 
not been funded. Proterra supports the Advanced Technology Vehicle 
Manufacturing (ATVM) Future Act introduced by Congresswomen Julia 
Brownley and Congresswoman Debbie Dingell as well as reforms to the 
program made by section 33342 of last year's HR 2, Moving Forward Act.
    Restoring the Section 48C tax credit or launching a new investment 
tax credit (ITC) would also support the development of the battery 
supply chain in the United States. Proterra supports the ``American 
Jobs in Energy Manufacturing Act of 2021,'' which was introduced by 
Senators Debbie Stabenow and Joe Manchin, to reauthorize Section 48C 
and explicitly allow the 30% ITC to be used for EV battery 
manufacturing, assembly lines, and facility buildout and retooling.
    The battery electric transit bus market also benefits from broader 
Federal incentives for the electrification of other medium and heavy 
duty vehicle types, including school buses and delivery vehicles for 
the United State Postal Service and the federal fleet, such as the 
Environmental Protection Agency's (EPA) Diesel Emissions Reduction Act 
(DERA) program.

   Questions from Hon. Julia Brownley to Jack Allen, Chief Executive 
                  Officer and Chairman, Proterra, Inc.

    Question 4. You mentioned in your testimony that in addition to 
Proterra's electric transit buses, you also provide the battery systems 
for electric school buses.
    Can you please elaborate on the technology readiness, are electric 
school buses able to handle the workload that is currently delivered by 
diesel school buses?
    Answer. An electric school bus is more than capable of handling the 
workload of a diesel school bus. According to a 2014 study by the 
National Renewable Energy Laboratory (NREL), the average school bus 
travels approximately 31 miles per cycle, with a maximum of 127 
miles.\6\
---------------------------------------------------------------------------
    \6\ https://www.nrel.gov/docs/fy14osti/60068.pdf
---------------------------------------------------------------------------
    In 2018, Thomas Built Buses (TTB) and Proterra unveiled the high-
performance Jouley electric school bus. The Saf-T-Liner C2 Jouley 
couples 226 kWh of total energy capacity from Proterra's battery 
technology with an electric drivetrain to offer up to 135 miles of 
drive range to meet the needs of school bus fleets.\7\
---------------------------------------------------------------------------
    \7\ https://thomasbuiltbuses.com/powertrains/
electric?gclid=Cj0KCQjwvr6EBhDOARIsAPpq
UPES35MxMphGMdxI383oAckhRf8PUQHaj_hKDj6D3C4aLU5eZX4rQrYaAiDaEALw_
,%20pwcB
---------------------------------------------------------------------------
    As of May 5, 2021, we, along with our partner Thomas Built Buses, 
have delivered 50 electric school buses that are in operation today to 
meet the school transportation needs of communities across the United 
States.
    <bullet>  In Virginia, TBB and Sonny Merryman Inc. were selected as 
the exclusive provider of 50 electric school buses to 15 public school 
districts for the first phase of Dominion Energy's electric school bus 
program. The first of these buses, which represent the first battery-
electric buses in Virginia, were delivered in November of 2020.\8\
---------------------------------------------------------------------------
    \8\ https://www.proterra.com/press-release/virginias-electric-
school-buses/
---------------------------------------------------------------------------
    <bullet>  In Michigan, Ann Arbor and Roseville Public Schools are 
operating six Jouley school buses in partnership with DTE Energy. DTE 
Energy will also initiate a Vehicle to Grid (V2G) study to obtain data 
regarding the energy efficiency and environmental benefits of electric 
vehicles and develop programs that benefit the schools based vehicle 
capabilities.\9\
---------------------------------------------------------------------------
    \9\ https://www.michigan.gov/mienvironment/0,9349,7-385-90161-
551135--,00.html
---------------------------------------------------------------------------
    <bullet>  In Massachusetts, the City of Beverly and Beverly Public 
Schools recently unveiled its first Jouley school bus in partnership 
with Highland Electric Transportation, a solutions provider for 
electric school buses based in Hamilton, Mass. The bus will further 
participate in a V2G strategy deployed by Highland Electric 
Transportation and utility provider, National Grid.\10\
---------------------------------------------------------------------------
    \10\ https://www.prnewswire.com/news-releases/city-of-beverly-and-
highland-electric-
transportation-select-electric-school-bus-from-thomas-built-buses-
powered-by-proterra-ev-
technology-301014159.html
---------------------------------------------------------------------------
    <bullet>  In Alaska, Tok Transportation is operating the first 
battery-electric school bus in the state, a Jouley school bus, in 
partnership with the Alaskan Energy Authority.\11\
---------------------------------------------------------------------------
    \11\ https://www.alaskasnewssource.com/2020/10/08/alaskas-first-
electric-school-bus-heading-
to-tok/
---------------------------------------------------------------------------
    <bullet>  In Indiana, Monroe County Community Schools and Delphi 
Community Schools both recently received their first Thomas Built 
electric school buses.

    Question 5. What are the total lifecycle cost benefits to cities 
and school districts of switching to electric school buses?
    Answer. Over 90 percent of the school bus fleet in the United 
States is fueled by diesel.\12\ Burning diesel for fuel is associated 
with emissions known to harm human health such as particulate matter 
and nitrogen oxide.\13\ Children may be particularly vulnerable to 
emissions exposure from diesel-fueled school buses.\14\
---------------------------------------------------------------------------
    \12\ https://uspirg.org/sites/pirg/files/reports/
US_EL%20buses%202021%20scrn.pdf
    \13\ https://www.lung.org/clean-air/outdoors/what-makes-air-
unhealthy/transportation
    \14\ https://www.ehhi.org/reports/diesel/dieselintro.pdf
---------------------------------------------------------------------------
    In addition to the clear environmental and health benefits of 
switching to zero-emission, electric school buses, electric school 
buses contain fewer parts than diesel buses, which can generate 
operational and maintenance savings for school districts.\15\ The 
Thomas Built Buses Saf-T-Liner C2 Jouley school bus, for instance, 
enables fuel economies of up to 24.6 MPGe, an improvement over the 
average 6.2 MPG fuel economy for school buses.\16\ \17\
---------------------------------------------------------------------------
    \15\ https://thomasbuiltbuses.com/bus-advisor/articles/top-6-
benefits-of-electric-school-buses/
    \16\ https://afdc.energy.gov/data/10310
    \17\ https://thomasbuiltbuses.com/content/uploads/2020/08/brochure-
C2-Jouley-and-Proterra-
summer-2020.pdf
---------------------------------------------------------------------------
    While electric school buses today cost more upfront than a diesel 
school bus, some studies have shown that the operational and 
maintenance savings afforded by switching to electric can save schools 
nearly $2,000 annually in fuel costs and $4,400 in maintenance costs. 
Further, electric school buses can save more than $31,000 in 
operational costs over its vehicle lifetime.\18\
---------------------------------------------------------------------------
    \18\ https://www.clintonfoundation.org/clinton-global-initiative/
commitments/launching-
market-electric-school-buses
---------------------------------------------------------------------------
    In addition, new financing models are reducing the upfront cost to 
school districts of acquiring electric school buses.\19\
---------------------------------------------------------------------------
    \19\ https://www.greentechmedia.com/articles/read/on-heels-of-253m-
raise-highland-electric-
lands-biggest-electric-school-bus-contract-in-the-u.s
---------------------------------------------------------------------------
    Potential vehicle-to-grid applications provide opportunities to 
lower cost barriers to school districts while increasing savings over 
time by leveraging the electric school bus as a grid resource.

    Question 6. What other opportunities do electric school buses 
provide to schools, such as V2G and emergency power backup?
    Answer. Electric school buses can strengthen the electricity grid 
and provide resilience to local communities. Cities and utilities are 
exploring different ways to unlock the full potential of electric buses 
and heavy-duty vehicles.
    According to WRI, `` . . . electrifying the entire school bus fleet 
can unlock 72 GW-hours of energy storage for utilities via vehicle-to-
grid technologies, enabling new opportunities to expand businesses and 
integrate clean energy.'' \20\
---------------------------------------------------------------------------
    \20\ https://www.wri.org/research/financing-electric-and-hybrid-
electric-buses
---------------------------------------------------------------------------
    In 2018, Thomas Built Buses and Proterra unveiled the high-
performance Jouley electric school bus, which is capable of supplying 
power back to the electric grid using vehicle-to-grid (``V2G'') 
technology. Proterra's bi-directional bus/truck charging infrastructure 
system means that customers can send stored power back to the 
electricity grid at times when its needed most or even to provide back-
up power to critical facilities like schools.
    Because school buses are on the road for only certain hours during 
the day and otherwise idle, especially during the weekends and summer 
months, battery-electric school buses present an optimal use case for 
V2G applications.
    In Virginia, Thomas Built Buses was selected as the provider of 50 
electric school buses for the first phase of Dominion Energy's electric 
school bus program. Under the program, participating school districts 
will pay about the price of a traditional diesel bus while Dominion 
Energy covers the difference.\21\ Virginia school districts could save 
$700 per month or $8,400 per year in operating costs, according to 
Dominion Energy.\22\ The initiative aims to add 1,000 electric school 
buses by 2025 and replace all diesel buses with zero-emission, electric 
school buses in the school districts serviced within Dominion's 
territory by 2030. Adding 1,000 electric school buses would store 
enough energy to power 10,000 homes.\23\
---------------------------------------------------------------------------
    \21\ https://www.eesi.org/articles/view/electrifying-virginias-
school-bus-fleet
    \22\ https://www.axios.com/electric-school-buses-vehicle-to-grid-
power-19f7b6b1-662b-4501-a96e-
dcf3fd57a886.html
    \23\ https://www.eesi.org/articles/view/electrifying-virginias-
school-bus-fleet
---------------------------------------------------------------------------
    In Massachusetts, Thomas Built Buses recently delivered the first 
Proterra Powered all-electric school bus in New England, supported by 
VW Settlement funding. Highland Electric Transportation and National 
Grid, the local utility, are also working together to deploy a vehicle-
to-grid strategy with these electric school buses.
    In Michigan, we recently deployed six Proterra Powered battery-
electric school buses to Ann Arbor and Roseville public schools for a 
five-year pilot program that also includes a vehicle-to-grid study. 
This includes the ability for the bus battery to provide energy to the 
school during a power outage.\24\
---------------------------------------------------------------------------
    \24\ https://www.michigan.gov/mienvironment/0,9349,7-385-90161-
551135--,00.html
---------------------------------------------------------------------------

   Questions from Hon. Michael Guest to Jack Allen, Chief Executive 
                  Officer and Chairman, Proterra, Inc.

    Question 7. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. As a commercial electric vehicle and battery manufacturer, 
Proterra does not have a position on approaches to user fees, such as a 
VMT tax, for surface transportation funding. Proterra transit vehicles 
are designed to serve rural and urban communities alike and our buses 
are currently serving rural communities.

    Question 8. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. Modernizing our transportation infrastructure is critical 
to addressing emissions reduction in rural America. Ensuring the 
nation's roads and bridges are in a state of good repair can reduce the 
amount of time vehicles are spent idling or traversing poor 
infrastructure, both of which can result in increased vehicle 
emissions.\25\ Our battery electric transit buses are designed to serve 
rural communities and our zero emission buses are serving rural 
communities across the United States today.
---------------------------------------------------------------------------
    \25\ https://deq.nc.gov/about/divisions/air-quality/motor-vehicles-
air-quality/idle-reduction/why-
idling-harmful
---------------------------------------------------------------------------

Questions from Hon. Scott Perry to Jack Allen, Chief Executive Officer 
                      and Chairman, Proterra, Inc.

    Question 9. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Question 10. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer to questions 9 & 10. Proterra has been serving our customers 
for over a decade with battery electric vehicles. Customers across the 
nation are adopting battery electric vehicles because of the low total 
cost of ownership in addition to the environmental benefits of cleaner 
air and less noise pollution. Our transit bus and fleet charging 
customers include transit agencies, airports, universities and 
commercial establishments. Our electric powertrain customers include 
school bus, coach bus, delivery truck and construction equipment 
manufacturers. Recent polling also shows that Americans support the 
transition to electric vehicles for the broader benefits of health of 
Americans, air pollution, and reducing asthma \26\. Overall, the poll 
found that 63% of Americans support U.S. automakers transitioning to 
zero-emission vehicles.
---------------------------------------------------------------------------
    \26\ https://www.edf.org/sites/default/files/u76/
210219_EDF_GMEV%20Memo_D3_EH.pdf
---------------------------------------------------------------------------
    A 2019 poll of prospective car buyers, conducted by Consumer 
Reports and the Union of Concerned Scientists found that 63 percent of 
prospective car buyers in the US have some interest in electric 
vehicles including 31% that would consider one for their next purchase, 
27% that would consider one at some point down the road, and 5% that 
say they are definitely planning on buying or leasing one for their 
next vehicle \27\.
---------------------------------------------------------------------------
    \27\ https://www.ucsusa.org/resources/surveying-consumers-electric-
vehicles
---------------------------------------------------------------------------
    The industries that will support the clean economy globally should 
be built in the United States and those jobs should be American 
manufacturing and American technology jobs. The federal government has 
provided important support and market signals to build the clean 
technology industry here. Proterra delivered our first battery electric 
transit bus to Foothill Transit in the San Gabriel Valley over ten 
years ago. Foothill Transit was the first public transit agency in the 
United States to operate a battery-electric transit bus in revenue 
service. This initial deployment was supported by federal grant funding 
from the Recovery Act in 2009.
    Building on these early deployments, the federal government has 
increased support for zero-emission, electric transportation through 
programs like the Federal Transit Administration's Low or No Emission 
Vehicle Program (``Low No''). It has been responsible for funding 
electric buses that are being deployed nationwide in urban and rural 
communities in over 40 states.
    Since our initial deployment to Foothill Transit, Proterra has 
grown into a leading manufacturer of electric transit buses in North 
America. We've sold more than 1,000 electric buses with 600 that are on 
the road today. Our battery technology has been proven over 18 million 
miles of revenue service driven by our fleet of transit buses. This 
success has resulted in over 600 direct good-paying American jobs 
nationwide at Proterra, as well as jobs at component vendor companies 
in over 40 other states.
    The federal government's role in spurring demand for 
electrification through programs like Low No has established a strong 
foundation that companies like Proterra have been able to build upon.
    Battery costs have also declined approximately 85% since 2010 \28\ 
and the value proposition that electric vehicles offer to private 
enterprise has grown. With lower operating costs, including maintenance 
and energy costs that are significantly lower than internal combustion 
engine vehicles, electric vehicles now offer a compelling economic 
proposition.
---------------------------------------------------------------------------
    \28\ BloombergNEF ``Battery Pack Prices Fall As Market Ramps Up 
With Market Average At $156/kWh In 2019'' (December 2019)
---------------------------------------------------------------------------
    As a result, companies that operate some of the world's largest 
vehicle fleets like FedEx, UPS, and Amazon are advancing aggressive 
electrification targets.\29\
---------------------------------------------------------------------------
    \29\ https://www.npr.org/2021/03/17/976152350/from-amazon-to-fedex-
the-delivery-truck-is-going-
electric
---------------------------------------------------------------------------
    It is in this backdrop of technological innovation that our company 
has transformed into a diversified provider of electric vehicle 
technology.
    Increasing federal support for electrification can help drive the 
next wave of innovation and job creation that will position the United 
States well against foreign competition in this emerging market.

Questions from Hon. Peter A. DeFazio to Shameek Konar, Chief Executive 
   Officer, Pilot Flying J, on behalf of the National Association of 
                          Truckstop Operators

    Question 1. Mr. Konar, during the hearing, you mentioned that Pilot 
Flying J has deployed 58 charging stations, and the Federal government 
has a critical role to play to help fill the gap and get to mass-
adoption of EV charging infrastructure in the retail fuel sector.
    How much money have NATSO members invested in EV charging 
infrastructure nationwide, and how many DC Fast charging stations are 
located at NATSO members' facilities?
    Answer. In February of 2020, NATSO launched the National Highway 
Charging Collaborative with ChargePoint, the world's largest EV 
charging network. The Collaborative aims to leverage $1 billion in 
capital to deploy charging at more than 4,000 travel plazas and fuel 
stops by 2030, enabling long distance electric travel along major 
routes and providing access to charging in rural communities. The 
Collaborative also advocates for public policies that are designed to 
create a business case for off-highway fuel retailers to invest in EV 
charging infrastructure.
    The Collaborative announced in March 2021 that it has successfully 
generated more than 150 DC fast charging stations. This is number is 
underinclusive of chargers available at NATSO members' facilities 
because it does not include: (1) members that have not informed NATSO 
of the investments they have made in EV charging stations at their 
facilities and (2) EV charging stations that are owned and operated by 
regulated utilities or other third-parties (eg, Tesla). Although those 
charging stations may be present now, they are not a long-term solution 
and therefore are not included in this data.

  Questions from Hon. Michael Guest to Shameek Konar, Chief Executive 
   Officer, Pilot Flying J, on behalf of the National Association of 
                          Truckstop Operators

    Question 2. The U.S. has been leading in emission reductions for 
decades. Energy and climate solutions have been driven by the U.S. 
These solutions have been adopted by our allies and we've outpaced the 
Clean Power Plan by ten years. I am thankful for industry leaders who 
have led this charge, including many of you who testified before us. 
These same industry leaders use roads, bridges, rails, airports, and 
ports that they support through various fees and taxes, which allow 
these industries to compete in the market. These industries pay for the 
very programs that some would like to pull to address goals we are well 
on the way to meeting through the market.
    Some are pushing expensive programs that would put small businesses 
and rural America out of pace with major corporations and major urban 
centers through costly mandates and disadvantaged retooling. Even if 
grant programs and tax incentives are there, the quick implementation 
turnarounds on many of these programs stifle growth for our smallest 
businesses if they have to change their business models without proper 
lead time.
    Mississippi is home to over 5,000 small trucking companies, many 
mom and pop operations or small agriculture operations hauling 
livestock across the country.
    How much of your business is servicing small trucking or delivery 
service companies or owner-operators?
    Answer. Approximately 27-30% of our volume comes from what we would 
define as small fleets, though this number ebbs and flows throughout 
the year.

    Question 3. As we've discussed, larger corporations and 
transportation system manufacturers are moving towards more efficient 
systems. In my opinion, this allows larger companies to sell more 
efficient used equipment to smaller operations or allow prices to be 
more affordable for small businesses while also not setting burdensome 
mandates or requirements for compliance by the federal government. We 
know this works because Americans moved to using more fuel-efficient 
cars when automakers worked to produce them. That's why our Highway 
Trust Fund is depleted.
    What do you see as the impact on small businesses in your 
industries if mandated emission standards were put in place vs. 
allowing the market to work through this process we just discussed?
    Answer. The most expeditious, efficient and economical way to 
achieve environmental advancements in transportation energy technology 
is through market-oriented, consumer-focused policies that encourage 
all businesses to offer more alternatives and our customers to purchase 
those alternatives. Fuel retailers are in the business of providing 
competitively priced fuel and services to our customers and have 
demonstrated in recent years that we are prepared to invest in any 
transportation fueling technology that our customers desire. With the 
right alignment of policy incentives, fuel retailers are well equipped 
to facilitate a faster, more widespread and cost-effective transition 
to alternatives--including electricity--in the coming years.

    Question 4. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. NATSO has adopted principles it believes lawmakers should 
follow when considering ways to fund highway programs. Funding 
mechanisms should be:
    <bullet>  Simple--It should be efficient and inexpensive to collect 
highway funds.
    <bullet>  Difficult to Evade--It should be difficult for taxpayers 
to evade paying the tax / fee for infrastructure investment.
    <bullet>  User-Based--The primary stream of funding for 
infrastructure projects should be user-based.
    <bullet>  Energy Source-Neutral--All energy sources must be subject 
to the same fee on a gallon / energy equivalent basis.
    <bullet>  Transparent--Users must be able to understand the amount 
they are being charged.
    <bullet>  Dedicated to Infrastructure--Funds raised in the name of 
improving surface transportation infrastructure should be dedicated to 
surface transportation infrastructure for the benefit of the payer. 
Reallocating such funds for other purposes should be prohibited.
    <bullet>  Long-Term--The revenue generated by the funding solution 
should not significantly diminish over time. As a means of guarding 
against future shortfalls, the funding solution should contain 
automatic adjustments to mitigate trends that decrease the revenue it 
generates, such as fuel efficiency.

    Question 5. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. NATSO has long supported robust investment in the nation's 
roads and bridges for a variety of reasons, including the improvements 
those investments would have on emissions.

   Questions from Hon. Scott Perry to Shameek Konar, Chief Executive 
   Officer, Pilot Flying J, on behalf of the National Association of 
                          Truckstop Operators

    Question 6. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Question 7. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer to questions 6 & 7. Until the number of EVs on the road 
reaches a critical mass, there is an important role for federal policy 
to ``bridge the gap'' and make private investments more viable while 
providing long-term consumer benefits. This would be comparable to the 
experience from the power generation sector, where numerous programs 
including investment tax credits, portfolio standards, cap and trade 
systems, and grants have fostered the development of renewable 
generation--especially wind and solar--to get those technologies to a 
point of scale and economic parity. The transportation sector needs to 
follow a similar path to foster the disciplined, expeditious and 
economic adoption of EVs, with the utility sector and retail fuel 
sector focusing on their core competencies to deliver the solution to 
consumers.
    For maximum impact, grant programs or other federal investment 
designed to encourage investment in EV charging infrastructure and 
supply equipment should be dispersed in a manner that includes certain 
guardrails to ensure a level playing field, including incentives to 
incubate and foster development that will provide long-term consumer 
benefits. Policy mechanisms worth considering include: (1) direct 
investment and tax credits; (2) low carbon fuel programs; (3) reselling 
electricity; and (4) uniform pricing.
    Conversely, policies that at first blush appear to be quick and 
easy solutions may have the unintended consequence of undermining 
either utilities' incentives to restructure the power grid or 
retailers' incentive to invest in EV charging infrastructure. Examples 
of these counterproductive policies include: (1) forcing ratepayers to 
underwrite utilities' investment in EV charging stations or to 
subsidize the retail cost of electricity that charges electric 
vehicles; (2) allowing EV charging infrastructure at interstate rest 
areas; and (3) permitting utilities that own EV charging stations to 
charge other EV station owners higher rates for power than the internal 
transfer price they charge their own operations.

  Questions from Hon. Peter A. DeFazio to Troy Rudd, Chief Executive 
                             Officer, AECOM

    Question 1. Mr. Rudd, one of the former Administration's proposed 
changes to the environmental review process is intended limit the 
consideration of cumulative effects, such as climate change, in the 
environmental review process.
    Given the cost of climate change to the government and the economy, 
do you believe it is appropriate that a NEPA analysis consider the 
impact of a proposed project on the climate?
    Answer. The short answer is, yes. As we work collectively to 
advance our national focus toward addressing climate change, we see an 
opportunity to further this effort under the National Environmental 
Policy Act (NEPA) process. NEPA can analyze, in a meaningful way, the 
potential effects of Federal proposed actions on climate change 
considerations.
    AECOM, in accordance with CEQ's current guidance to address 
greenhouse gases pursuant to EO 13990 (see: https://ceq.doe.gov/
guidance/ceq_guidance_nepa-ghg.html), has developed and is implementing 
an innovative process to assess climate change in NEPA documents 
addressing cumulative impacts through demonstration of the interplay of 
climate change with other environmental resources. Specifically, we 
couple: (1) a traditional evaluation of greenhouse gases as a component 
of the Air Quality analysis (i.e., effects of the project on climate 
change) with (2) a resource-specific climate change effects analysis 
for each resource area evaluated in the EIS (i.e., effects of climate 
change on the ROI, project, or program). The integration of climate 
change considerations into resource-specific effects analyses provides 
an opportunity to demonstrate the interplay of climate change 
considerations both across and within the context of specific resources 
analyzed, drawing on the expertise of all resource disciplines. With 
renewed interest in the climate change ``crisis'' under the Biden 
administration, we believe an efficient and streamlined process to 
assess climate impacts transversally across resources/disciplines is 
key to their meaningful inclusion in NEPA documents. We have found that 
this approach does not slow the process down (as demonstrated in recent 
Federal NEPA actions) but can actually speed up project implementation 
and reduce delays due to holistic and comprehensive planning, thereby 
maximizing return on investment (ROI).

    Question 2. Mr. Rudd, your testimony noted that you helped 
primarily rural Fresno County, CA assess how rural transit agencies can 
benefit from vehicle electrification to improve resilience. Too often, 
transit is thought of as an urban-only solution.
    What role can rural transit play in providing climate solutions?
    Answer. Often, exurban and rural communities depend on long-
distance bus services that rural transit operators provide for both 
commuter access to the nearest employment centers. These same 
communities may also rely on commuter rail, and even intercity 
passenger rail for access to jobs, healthcare or higher education. Both 
rail and bus options, in addition to providing mobility access, 
contribute to climate and air-quality benefits by reducing long-
distance single-occupancy vehicle (SOV) trips and thereby reducing VMT. 
In some cases, rural commuter service into urban centers can be 
substantial, providing the benefits of those reduced (SOV) trips and 
congestion improvements on the corridor served. While this type of 
access may not be available everywhere, the potential for climate 
friendly transportation service that also addresses cleaner air for 
rural communities and access to education opportunities, healthcare, 
and economic and employment centers is certainly worthwhile.
    Climate change is having an impact in rural, suburban and urban 
communities, and transportation is the single largest contributor of 
carbon pollution. The steps we take to address the resiliency of our 
infrastructure, but also to provide cleaner transportation options, are 
appropriate in all communities.
    Rural regions of the country will likely transition slower to zero 
emissions vehicles, as density will be less and public charging 
infrastructure will likely be reduced in low density areas, including 
rural areas. By creating a focus on rural transit, efforts to electrify 
bus fleets in these rural areas can accelerate availability of shared 
public charging infrastructure, catalyze the modernization of grid 
infrastructure to support future electric vehicles, and also provide 
the benefits of zero emissions vehicles to regions that may be slower 
to transition.

    Questions from Hon. Michael Guest to Troy Rudd, Chief Executive 
                             Officer, AECOM

    Question 1. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. Vehicle Miles Traveled (VMT) proposals [or Mileage Based 
User Fees (MBUFs) or Road User Charges (RUCs)] are being looked at as 
options to address the projected decline in purchasing power of the 
federal gas tax, which is currently the central use-oriented revenue 
source for highway, bridge, and transit investments. Currently, the 
more a person drives on the road, the more gas they use and federal and 
state motor fuel taxes they pay. It may be imperfect, but it has served 
as the best user-oriented revenue source we have had to date. However, 
while the gas tax currently raises a very sizable stream of revenue, 
many experts see its role in the long term as a declining revenue 
source, especially as we move toward more fuel efficient and 
electrified fleets. A VMT-oriented approach is currently seen as the 
best alternative to the gas tax that would maintain the connection 
between use of our surface transportation system and the revenues 
needed to support the spending to repair and replace them.
    While many believe that a direct user pay model is also the fairest 
approach to charge those using the roads to help pay for them, there 
are certainly concerns among those in rural communities about how the 
approach will impact them. When considering the concerns of rural 
communities, it is important to understand that VMT (MBUF/RUC) 
approaches can be developed that recognize and adjust for rural equity 
concerns.
    The Road User Charge (RUC) is increasingly being viewed as 
potentially the fairest method to charge for the use of infrastructure. 
The RUC would replace the amount paid for gas taxes with a fee for road 
use. While the current gas tax may be seen as disproportionately 
impacting rural drivers as they drive more miles and often drive less 
fuel-efficient vehicles, a RUC can be designed to be a more progressive 
charge allowing for initiatives such as rebates, discounts, and even 
charging different amounts per mile by vehicle, time of day, or 
roadway. To be fair, all vehicles including electric vehicles, should 
contribute to pay for the use of our roadway system.
    The Eastern Corridor Coalition found that after participating in 
their RUC pilot, 83 percent of participants said RUC was as fair or 
fairer than the gas tax. The RUC can be a more equitable or fair method 
of collection than the gas tax because with RUC, all drivers using the 
roadway, including highly fuel-efficient and alternative-fuel vehicles, 
pay to maintain and operate the roadway network.
    In 2017, a report was issued on the RUC West Consortium entitled 
``Financial Impacts of Road User Charges on Urban and Rural 
Households.'' This report provided an analysis of the financial impacts 
of a revenue-neutral RUC for drivers in urban and rural counties for 
eight states in the RUC West Consortium--Arizona, California, Idaho, 
Montana, Oregon, Texas, Utah, and Washington. The report's analysis 
showed that households in rural census tracts will generally pay less 
under a road user charge than they are currently paying in gasoline 
taxes. In most states, households in mixed census tracts will also pay 
less under a RUC. Households in urban areas in all eight states could 
see a slight increase in payments.
    The National Surface Transportation Infrastructure Financing 
Commission (established by Congress as part of the SAFETEA-LU 
Authorizing legislation) studied the range of funding options and 
concluded that: ``a federal funding system based on more direct forms 
of ``user pay'' charges in the form of a charge for each mile driven 
(commonly referred to as a vehicle miles traveled or VMT fee system), 
has emerged as the consensus choice for the future.''
    We share the following links as resources to consider as this issue 
progresses:
    <bullet> https://www.rucwest.org/wp-content/uploads/2018/07/
RUC_RuralDrivers_
folio_final-LTR.pdf
    <bullet> http://www.mbufa.org/myth.html
    <bullet> https://financecommission.dot.gov/Documents/
NSTIF_Commission_
Final_Report_Exec_Summary_Feb09.pdf
    <bullet> https://tetcoalitionmbuf.org/states-are-exploring-new-
ways-to-pay-for-
transportation-our-latest-research-shows-addressing-public-opinion-
will-be-key/?subscribe=success#wp-widget-blog_subscription
    <bullet> https://tetcoalitionmbuf.org/wp-content/uploads/2020/07/
Coalition-MBUF-Equity-
_-Fairness-Tech-Memo_2019.pdf
    <bullet> https://itif.org/publications/2019/04/22/policymakers-
guide-road-user-charges

    Question 2. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. Investments in transportation that make the system more 
efficient and reduce congestion have the added benefit of opportunity 
to also reduce emissions. Improvements that address major deficiencies 
in infrastructure quality that result in reduced trip length, travel 
time, congestion and idling of commercial vehicles may have benefits on 
air quality, but the specifics of those improvements would be 
determining factors in how much improvement in air quality would 
result. There are also advances being made in materials that are 
showing promise for carbon emission reductions.
    Additionally, often exurban and rural communities depend on long-
distance bus services that rural transit operators provide for both 
commuter access to the nearest employment centers. Those options, in 
addition to providing mobility access, also provide climate and air-
quality benefits by reducing long-distance single-occupancy vehicle 
(SOV) trips. In some cases, rural commuter service into urban centers 
can be substantial, providing the benefits of those reduced (SOV) trips 
and congestion improvements on the corridor served. While this type of 
access may not be available everywhere, the potential for climate 
friendly transportation service that also address access to economic 
and employment centers is certainly worthwhile.
    Climate change is having an impact in rural, suburban and urban 
communities, and transportation is the single largest contributor of 
carbon pollution. The steps we take to address the resiliency of our 
infrastructure, but also to provide cleaner transportation options are 
appropriate in all communities.

Questions from Hon. Scott Perry to Troy Rudd, Chief Executive Officer, 
                                 AECOM

    Question 3. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Question 4. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer to questions 3 & 4. We see electrification of the 
transportation sector as a solution to a problem that our clients are 
raising with us, and one that is thoroughly achievable.
    We know that fossil fuels are contributing to greenhouse gas 
emissions. We also know that the transportation sector is currently the 
economic sector that is currently contributing the greatest amount to 
our carbon emissions total, making it the sector that has the most 
opportunity for reductions. A move towards electrification now will 
enable significant reductions in carbon emissions, and when coupled 
with decarbonization of the power sector, these changes hold great 
promise to help us achieve goals for reduced greenhouse gas emissions 
in the near and long term. A study by the American Lung Association 
found that with a nationwide transition to EVs by 2050, the U.S. could 
avoid 6,300 premature deaths, 93,000 asthma attacks, and 416,000 lost 
workdays each year. Over that time, it would add up to $72 billion in 
health benefits and $113 in climate-related benefits. Further, this 
transition would result in a 94% cut in greenhouse gas emissions, 
particularly for millions of Americans who live in counties where there 
are unhealthy levels of ozone and particle pollution.
    Technology advances over the last decade have driven prices down 
significantly, with battery pack prices falling 89 percent and many 
automakers stating they believe electric vehicles will cost the same 
price as comparable internal combustion engines by 2023. Electric 
vehicles are also less expensive to maintain, and this means cost 
savings for governments and businesses that operate and maintain large 
fleets. These governments and businesses are beginning to recognize 
that the technology has reached a point of maturity where fleet 
conversion is not only possible but is practical and makes financial 
sense due to cost savings derived from both power and maintenance. We 
regularly support government and commercial clients in their dual goals 
to reduce costs (saving taxpayers or clients money) and reduce 
emissions through energy efficiency and operations improvements. We 
think this makes good government sense, and good business sense.
    AECOM is working with clients to develop holistic approaches to 
transportation electrification that combine fleet conversion and 
charging infrastructure with grid enhancements (microgrids and 
distributed energy), energy efficiency improvements, and renewable 
energy applications. When combined together, the savings achieved and 
the energy applied have enormous potential to reshape our 
transportation systems for the better.

  Questions from Hon. Michael Guest to Rafael Santana, President and 
              Chief Executive Officer, Wabtec Corporation

    Question 1. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. Wabtec Corporation does not have a position on the Vehicle 
Miles Tax and its benefits for rural Americans. That issue is outside 
the scope of Wabtec's business which is freight rail locomotives and 
freight and transit rail components.

    Question 2. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. Wabtec Corporation generally supports increased investment 
in various infrastructure projects that might reduce emissions in rural 
America. As I discussed in my testimony, Wabtec believes that 
increasing freight rail utilization, capacity, and developing hydrogen 
locomotives will further reduce emissions in across America, including 
rural America where thousands of freight railroad lines connect cities 
and towns. Wabtec believes that increasing freight rail utilization by 
50% and deploying hydrogen freight rail locomotives by 2030 will 
eliminate 100 million tons of carbon dioxide in the United States every 
year.

Questions from Hon. Scott Perry to Rafael Santana, President and Chief 
                 Executive Officer, Wabtec Corporation

    Question 3. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Question 4. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer to questions 3 & 4. Wabtec is a locomotive manufacturer and 
does not have a position on tax credits for electric vehicles.

 Questions from Hon. Jared Huffman to Frederick W. Smith, Chairman and 
               Chief Executive Officer, FedEx Corporation

    Question 1. Mr. Smith, FedEx has made the business decision to have 
an entire fleet of zero vehicles (ZEV) by 2040. While this will have 
the environmental benefit of reduced emissions reduction, as a business 
you are first and foremost focused on your bottom line and the laser 
focus on total cost of ownership.
    Why did you conclude from a business perspective that rapid 
transition to ZEV's was the smartest move?
    Answer. As we announced on March 3, 2021, the transition to ZEV's 
will be via a phased approach that will occur over the next 19 years. 
We also announced interim goals for the FedEx Express pick-up and 
delivery (PUD) vehicle fleet, of which we expect 50% of our global PUD 
vehicle purchases to be ZEV by 2025 and 100% by 2030. These goals do 
not apply to our long-haul trucking fleet since the technological path 
to electrification for this class of vehicles is lagging light and 
medium-duty vehicles.
    In addition to being the right thing to do for the well-being of 
the communities where we operate, there are economic considerations in 
transitioning away from internal combustion engines in our PUD fleet.
    On average, FedEx anticipates that the savings achieved from 
electric vehicle use compared to continued use of internal combustion 
engine vehicles could be in a range of approximately 50% of current 
operating costs. We recognize that actual savings as a result of this 
transition will depend on external factors, such as changes in fuel 
costs over the 19-year transition, fluctuation in manufacturing and 
production costs, as well as capital expenditures to construct the 
supporting ground infrastructure needed for EVs.

    Question 2. Fast forward to 2040, when FedEx and other business 
competitors will have all or significant ZEV fleets.
    How much will FedEx save by 2040 with an all ZEV fleet?
    Answer. As noted above, we expect the savings from this transition 
to be in a range of approximately 50% of today's current vehicle 
operating costs. This estimate will likely change based on other 
external factors, such as future fuel costs over the course of the 19-
year transition, fluctuation in EV manufacturing and production, as 
well as capital expenditures to replace and electrify our network and 
pickup and delivery fleet. Much, if not all of this investment, will be 
recovered over time. Beyond the economic incentives for our company, 
this is an investment in the continued well-being of the communities we 
serve.

    Question 3. Do you think any major business focused on delivery of 
goods at your scale could compete in 2040 without a nearly all ZEV 
fleet, instead depending on outdated gas-guzzling technology?
    Answer. While I am not able to opine on the business decisions of 
FedEx's competitors, I think we will continue to see a transition away 
from ICE vehicles and toward EVs due to the clear and compelling 
economic and societal benefits, as well as consumer demand.

 Questions from Hon. Michael Guest to Frederick W. Smith, Chairman and 
               Chief Executive Officer, FedEx Corporation

    Question 4. As we've discussed, larger corporations and 
transportation system manufacturers are moving towards more efficient 
systems. In my opinion, this allows larger companies to sell more 
efficient used equipment to smaller operations or allow prices to be 
more affordable for small businesses while also not setting burdensome 
mandates or requirements for compliance by the federal government. We 
know this works because Americans moved to using more fuel-efficient 
cars when automakers worked to produce them. That's why our Highway 
Trust Fund is depleted.
    What do you see as the impact on small businesses in your 
industries if mandated emission standards were put in place vs. 
allowing the market to work through this process we just discussed?
    Answer. Emissions standards are currently regulated by the U.S. 
Environmental Protection Agency, and for the transportation industry, 
those standards are enforced by the relevant component agencies of the 
U.S. Department of Transportation. These standards are developed via 
the federal rulemaking process, which affords opportunity for public 
comment to allow the agency to fully consider the impact of these 
policy decisions on the affected stakeholders, including the 
consideration of alternatives that achieve the same objective yet 
minimize the burden on small businesses. When such policy changes are 
under consideration, we work closely with our independent service 
providers to assess the impact on our operation, as well as evaluate 
the rate of technology development and internal and external 
infrastructure modification and development that would be needed to 
support these changes to ensure these factors are considered by the 
relevant agencies.

    Question 5. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. As Americans continue to purchase and drive electric and 
hybrid passenger vehicles, receipts from motor fuel taxes paid into the 
Highway Trust Fund will continue to decline, thus further reducing 
resources needed to maintain the Federal highway system. An equitable 
and well-designed Vehicle Miles Traveled (VMT) tax could be implemented 
that builds on the existing user fee model for highways, while also 
balancing the needs of Americans living in rural areas. FedEx 
recognizes that such a policy shift is of interest to all who use the 
federal highway system and looks forward to working with Congress and 
the U.S. Department of Transportation in developing a system that 
builds upon the productivity of the nation's highways.

    Question 6. How might a VMT change parcel service business models, 
both large and small?
    Answer. Creating a stable source of funding to modernize and invest 
in infrastructure will increase safety and efficiency across our 
country's aging transportation system for all users--both passenger and 
commercial. The long-term benefits of this investment will be shared 
across the transportation companies, large and small, who move nearly 
70% of all U.S. freight tonnage by trucks.

    Question 7. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. Infrastructure is not limited to being a rural or urban 
issue. Our interstate system is over 60 years old, and many of our 
roads and bridges are dangerously deteriorated, as regularly reported 
by the U.S. Department of Transportation (DOT). In smaller, rural 
communities, when a bridge is not safe to cross, operators are often 
forced to drive miles out of their way to safely get to their 
destination, which only serves to increase vehicle emissions. 
Improvements in our infrastructure are necessary not only for reduction 
in emissions, but to keep our system safe for all users, and ensure the 
system is capable of sustaining and advancing the anticipated economic 
growth of all industries who rely on this system.

    Question 8. As widespread use of commercial parcel delivery by 
Unmanned Aerial Systems becomes more of a reality, how can UAS be best 
used to address emissions and traffic issues across the country? 
Mississippi State University in my district houses the FAA Center of 
Excellence for UAS and would be glad to help address that need.
    Answer. Continued investment in research and development of new 
technologies, including small unmanned aircraft systems, will result in 
safety and efficiency advancements for our team members and operations. 
As we have noted previously, it will take a portfolio of solutions to 
address the challenges of the anticipated growth in the e-commerce 
market. More research and development is needed to fully understand the 
impact and various use cases for small unmanned aircraft systems, which 
is why we continue to work with the U.S. Federal Aviation 
Administration via the agency's Beyond program to build on the findings 
of the U.S. Department of Transportation's Small Unmanned Aircraft 
System (UAS) Integration Pilot Program (IPP).

  Questions from Hon. Scott Perry to Frederick W. Smith, Chairman and 
               Chief Executive Officer, FedEx Corporation

    Question 9. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Question 10. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer to question 10. As evidenced by our long-standing history of 
leadership in sustainability, including our announcement on March 3, 
2021, businesses can and will lead in this effort. To do so, however, 
we need supportive policies that help advance innovation. Those 
policies can only come by working together to ensure alignment on 
investment and research and development priorities.
    We have to modernize our country's infrastructure to accommodate 
new and more sustainable technologies. Widespread deployment of 
electric vehicles, not just by FedEx but other large fleets, small 
businesses, municipalities, and individuals will have a profound impact 
on the power grid. We support public policy that strengthens this 
infrastructure and ensures that the electricity being generated comes 
from a diverse set of low and zero emission sources and is of 
sufficient supply to meet the demand of all users.
    I can't speak to the supply chains of individual EV manufacturers 
here in the U.S., but recent studies have shown that by shifting 50 
percent of all vehicles produced to electric would result in a global 
net total of ten million new jobs across all sectors of the economy. 
Incentives intended to speed the adoption of and transition to EVs or 
stimulate manufacturing of EVs would stimulate both job growth and the 
economy.

Questions from Hon. Peter A. DeFazio to Laurie M. Giammona, Senior Vice 
     President for Customer Care, Pacific Gas and Electric Company

    Question 1. Ms. Giammona, does PG&E support a change in Federal law 
to allow EV charging at park-and-ride facilities and rest areas? Would 
this help expand EV charging deployment and reduce range anxiety?
    Answer. PG&E is dedicated to working with our customers, 
communities, regulators and policymakers to advance solutions that 
increase access to electric vehicle (EV) charging and reduce range 
anxiety. Range anxiety is one of the key barriers customers cite to EV 
adoption. While newer models of light-duty EVs provide increased range 
comparable with internal combustion engine vehicles, access to charging 
including along the interstate highway system is needed to provide EV 
drivers convenient, dependable recharging options for longer trips. If 
the Federal government decides EV charging should be allowed at park-
and-ride facilities and rest areas, PG&E will be ready and willing to 
work with our customers to provide utility services needed to deploy 
charging at these locations.

    Question 2. Do you have any examples of partnerships with the 
retail fuel sector to provide EV charging?
    Answer. The role played by electric utilities is only one of many 
in the broader transportation electrification ecosystem. This ecosystem 
includes entities such as policy makers, automakers, EV charging 
companies, battery and component manufacturers, technology providers, 
utilities, and host sites for EV charging, including traditional fuel 
retailers. EV drivers will need multiple options for charging, and fuel 
retailers can play an important role in this space.
    Through PG&E's EV Fast Charge program, we are partnering with fuel 
retailers, including 7-Eleven, to install public EV fast charging at 
retailer locations. PG&E's EV Fast Charge program is investing $22 
million from 2020 to 2025 to install infrastructure that supports 
Direct Current Fast Charging (DCFC) that is publicly accessible 24 
hours a day, seven days a week. In February 2021, PG&E announced that 
the first public EV fast chargers installed through this program are 
now open at a 7-Eleven location in West Sacramento, and the companies 
are examining opportunities to install fast chargers at other 7-Eleven 
locations.\1\
---------------------------------------------------------------------------
    \1\ Pacific Gas and Electric Company, ``PG&E Launches EV Fast 
Charge Program to Help Accelerate Electric Vehicle Adoption in 
California'' (February 18, 2021), https://www.pgecurrents.com/2021/02/
18/pge-launches-ev-fast-charge-program-to-help-accelerate-electric-
vehicle-adoption-in-california/.

    Question 3. Ms. Giammona, can you expand on some of PG&Es efforts 
to ensure that EV charging infrastructure reaches all communities.
    How much has PG&E, and the electric utility sector, invested in 
helping communities deploy EV charging infrastructure?
    Answer. As part of our normal course of business, PG&E invests in 
upgrading and maintaining our electric distribution grid to accommodate 
all new loads, including the growing loads for EV charging. In 
addition, PG&E is making supplemental capital investments that total 
more than $400 million in approved infrastructure programs through 
2025--one of the largest utility-EV investments in the nation. These 
investments include:
    <bullet>  EV Charge Network: $130 million to install 4,000 to 5,000 
level-2 charging ports to support light-duty vehicle charging at 
workplaces and multi-unit dwellings. Through March 2021, 4,504 level-2 
charging ports have been installed at 184 sites.
    <bullet>  EV Fleet: $236 million to help 700+ organizations 
including school districts, transit agencies and small businesses 
electrify their fleet operations by supporting infrastructure for 6,500 
medium- and heavy-duty EVs. Through March 2021, EV charging 
infrastructure has been installed at 22 sites to support 237 electric 
fleet vehicles.
    <bullet>  EV Fast Charge: $22 million to install infrastructure to 
support public Direct Current Fast Charging (DCFC). Through March 2021, 
four DCFC ports have been installed at one site.
    <bullet>  EV Schools and Parks: $12 million in charging 
infrastructure at schools and state parks. As of April 2021, PG&E is 
currently accepting and reviewing applications from potential program 
participants.

    These charging programs include incentives for, and deployment 
targets in, disadvantaged communities, helping to ensure all customers 
can equitably access the benefits of EVs, and PG&E seeks to install up 
to 2,000 level-1 and level-2 home chargers for low-income customers by 
2023.
    While PG&E will continue to play a critical role deploying EV 
charging infrastructure in our service area, particularly in 
underserved communities, PG&E's investments alone will not meet the 
significant demand for EV charging in our service area. A recent EV 
charging infrastructure assessment performed by the California Energy 
Commission found that through September 2020 there were approximately 
67,000 shared public and private chargers in California.\2\ The 
assessment concluded the State would need nearly 1.5 million chargers 
by 2030 to support the number of vehicles envisaged by Governor Gavin 
Newsom's Executive Order setting a goal of phasing out sales of light-
duty internal combustion engine vehicles by 2035.\3\ The significant 
amount of charging infrastructure required demonstrates the need for 
support from EV markets and a multitude of stakeholders.
---------------------------------------------------------------------------
    \2\ California Energy Commission, ``Electric Vehicle Charging 
Infrastructure Assessment--AB 2127,'' https://www.energy.ca.gov/
programs-and-topics/programs/electric-vehicle-charging-
infrastructure-assessment-ab-2127.
    \3\ Office of Governor Gavin Newsom, ``Executive Order N-79-20'' 
(September 23, 2020), https://www.gov.ca.gov/wp-content/uploads/2020/
09/9.23.20-EO-N-79-20-text.pdf
---------------------------------------------------------------------------
    Industry-wide, the Edison Electric Institute (EEI), which 
represents all U.S. investor-owned electric companies, reports that as 
of the end of January 2021, 52 electric companies had received 
regulatory approval in 31 states for electric transportation 
filings.\4\ As a result, these electric companies are investing nearly 
$3 billion in customer programs to deploy charging infrastructure and 
accelerate electric transportation.
---------------------------------------------------------------------------
    \4\ Edison Electric Institute, ``Electric Transportation Biannual 
State Regulatory Update'' (February 2021), https://www.eei.org/
issuesandpolicy/electrictransportation/Documents/FINAL_
ET%20Biannual%20State%20Regulatory%20Update_February2021.pdf.
---------------------------------------------------------------------------

 Questions from Hon. Michael Guest to Laurie M. Giammona, Senior Vice 
     President for Customer Care, Pacific Gas and Electric Company

    Question 4. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. While PG&E does not have a position on federal vehicle 
miles traveled (VMT) proposals, we believe all drivers, including EV 
owners, should contribute to the Highway Trust Fund and support the 
infrastructure they utilize. Any proposal should recognize the 
environmental benefits and efficiency of EVs while also considering the 
equity implications proposals may have on some drivers, including those 
who have longer commutes with limited public transit options.

    Question 5. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. According to research sponsored by the National Science 
Foundation, traffic congestion increases vehicle emissions and degrades 
air quality, which leads to excess morbidity and mortality for drivers, 
commuters and individuals living near major roadways.\5\ Traffic 
congestion can be caused by various factors, including accidents, 
weather, work zones, poorly managed traffic controls, and physical 
bottlenecks due to insufficient or deteriorated infrastructure that 
cannot efficiently accommodate the volume of travelers.
---------------------------------------------------------------------------
    \5\ Zhang, Kai and Batterman, Stuart, ``Air pollution and health 
risks due to vehicle traffic'' (November 2014), https://
www.ncbi.nlm.nih.gov/pmc/articles/PMC4243514/#::text=Traffic
%20congestion%20increases%20vehicle%20emissions,on%20roads%20is%20very%2
0limited.
---------------------------------------------------------------------------
    Improved infrastructure could help reduce traffic congestion and as 
result help lower transportation emissions. Further, greater deployment 
of EVs, which emit no tailpipe emissions, will further reduce 
transportation pollution in all communities.

  Questions from Hon. Greg Stanton to Laurie M. Giammona, Senior Vice 
     President for Customer Care, Pacific Gas and Electric Company

    Question 6. Ms. Giammona, in your testimony, you described the 
importance of a partnership among public sector, private sector, and 
regulated utilities to facilitate electrification of the light duty 
vehicle fleet.
    What role has PG&E played in providing publicly available EV supply 
equipment, and how can utilities like PG&E partner with the public and 
private sector to advance the adoption of EVs?
    Answer. PG&E is actively collaborating with automakers, charging 
equipment providers, state agencies, customers, and communities to 
support the large-scale electric infrastructure needed to incorporate 
EV charging systems into the energy grid. Additionally, PG&E is making 
investments totaling more than $400 million in approved infrastructure 
programs through 2025--one of the largest utility-EV investments in the 
nation. These investments include $22 million to install infrastructure 
to support public Direct Current Fast Charging (DCFC) and $12 million 
in charging infrastructure at schools and state parks. All DCFC 
installed through PG&E's Fast Charge program will be accessible to the 
public 24 hours a day, seven days a week while charging infrastructure 
installed at certain schools and parks will also be available for 
public use. Other PG&E charging programs target infrastructure 
investments in medium- and heavy-duty fleet electrification and level-2 
charging at workplaces and multi-unit dwellings, which are not 
necessarily publicly accessible but will aid in efforts for fleets and 
individuals to transition to electric transportation.
    To help advance the adoption of EVs in Northern and Central 
California, PG&E partners with both the private and public sectors to 
overcome common barriers to adoption. PG&E provides vital assistance to 
help our customers overcome these barriers by expanding access to 
charging infrastructure, reducing the total cost of ownership of EVs, 
and engaging and educating customers about the benefits of EVs. PG&E is 
also working to optimize charging infrastructure siting and usage to 
maximize grid benefits and support customer affordability. To ensure a 
smooth transition to widespread EV adoption, PG&E strongly encourages 
our customers, policymakers, and regulators seeking to support EV 
charging in our service area to communicate early with PG&E so we can 
ensure the distribution grid is best prepared to meet these new demands 
in an efficient, timely manner. Utilities across the United States can 
take similar steps to aid public and private sector customers' 
transition to electrified transportation.

Questions from Hon. Nikema Williams to Laurie M. Giammona, Senior Vice 
     President for Customer Care, Pacific Gas and Electric Company

    Question 7. There is rising pressure to find sustainable solutions 
to combat climate change and protect our resources for the future 
generations to come.
    Ms. Giammona, in your testimony you suggested grant funding for 
public EVs and other forms of clean fuel infrastructure for deployment 
in disadvantaged communities.
    How can we ensure benefits of EVs are also available to 
disadvantaged communities and low-income customers? As we move to 
upgrade the grid and charging infrastructures in low-income 
communities, what obstacles do you see in terms of making it equitably 
available and what should Congress do to combat these?
    Answer. PG&E supports incentives and policies that ensure 
disadvantaged communities and low-income customers can benefit from 
EVs, including reducing the upfront costs of EVs, ensuring charging 
options are available in these communities, and working with schools, 
local transit agencies and fleet operators to electrify medium- and 
heavy-duty vehicles. California and PG&E have enacted policies and 
programs that specifically strive to ensure that disadvantaged 
communities are not left behind in the transition to EVs, and we 
believe federal policy can complement these activities and accelerate 
opportunities for these communities to realize the benefits of EVs.
    Of note, federal policies that provide point-of-sale rebates and 
used EV incentives will help lower the upfront cost of light-duty EVs 
for all customers, including those with limited tax liability. PG&E is 
working to reduce the overall cost of EV ownership through rebates and 
specialized electric rates that ensure owning and operating an EV can 
be cheaper than a gasoline-fueled alternative. In addition to federal 
tax credits, Californians are eligible for a point-of-sale price 
reduction of up to $1,500 for the purchase or lease of a new EV through 
the California Clean Fuel Reward program.\6\ PG&E also offers 
residential and commercial EV charging rates, that provide predictable, 
simplified and affordable rates for customers.
---------------------------------------------------------------------------
    \6\ California Clean Fuel Reward, https://cleanfuelreward.com/
---------------------------------------------------------------------------
    Federal policy can also provide incentives such as grants to ensure 
charging infrastructure is deployed in disadvantaged communities. At 
PG&E, we are investing more than $400 million through 2025 in 
infrastructure investments to expand EV charging, including level-2 
charging at workplaces and multi-unit dwellings, public fast charging, 
charging at schools and parks, and charging for medium- and heavy-duty 
fleets such as transit agencies and school districts. These charging 
programs include incentives for, and deployment targets in, 
disadvantaged communities, helping to ensure customers can equitably 
access the benefits of EVs. PG&E additionally seeks to install up to 
2,000 level-1 and level-2 home chargers for low-income customers by 
2023 as part of its Empower EV program.
    Finally, disadvantaged and environmentally burdened communities 
often suffer from poor air quality due to proximity to major 
transportation corridors (e.g., highways) or industrial areas that see 
a large flow of fleet vehicles (e.g., ports, railyards, etc.) and can 
benefit from improved air quality with greater deployment of EVs, 
particularly electrification of transit buses, school buses, and other 
fleet vehicles which produce a larger share of air pollution. Federal 
programs that provide grants and incentives can help advance the 
development and deployment of medium- and heavy-duty EVs and necessary 
charging infrastructure in these communities.
    The greatest barrier to EV adoption and charging deployment in 
disadvantaged communities remains the upfront cost of the vehicle and 
customer charging stations. For some EV charging providers, building 
charging in disadvantaged communities where EV adoption remains low may 
not provide a necessary return on investment. A recent study by the 
California Energy Commission on the distribution of EV chargers found 
that low-income census tracts have the fewest chargers per capita while 
high income census tracts have the most.\7\ For potential EV owners in 
these communities, the lack of accessible charging infrastructure--
combined with the higher upfront cost of some EV models--can discourage 
adoption.
---------------------------------------------------------------------------
    \7\ California Energy Commission, ``SB 1000 Electric Vehicle 
Charging Infrastructure Deployment Assessment'' (December 21, 2020), 
https://efiling.energy.ca.gov/GetDocument.aspx?
tn=236075&DocumentContentId=69078.
---------------------------------------------------------------------------
    To overcome these barriers, Congress should examine opportunities 
to provide grant funding and other incentives to deploy charging 
infrastructure in disadvantaged communities. Furthermore, opportunities 
to reduce the upfront cost of EVs, including point-of-sale rebates and 
used EV incentives, will help lower the upfront cost of light-duty EVs 
for all drivers, including low-income drivers who may have limited tax 
liability.

    Question 8. I'm proud to represent the Atlanta region, which is 
serviced by the public transportation system, MARTA. In 2019 the 
company announced that it would start to replace several diesel buses 
with zero-emission battery operated models. A shift that I would love 
to see with both public and private transportation systems across the 
country. However, I recognize that there are challenges to electrifying 
buses.
    What are some of the barriers to customers who want to electrify 
their medium and heavy-duty fleets and what is PG&E doing to support?
    Answer. The principal barriers to electrifying medium- and heavy-
duty vehicles are the capital and debt costs and availability of 
electric models in these vehicle classes; understanding and planning 
for a new refueling paradigm; and the cost and work associated with 
installation of charging infrastructure.
    Increasing federal and state policy certainty regarding a 
transition to cleaner vehicles as well as technology cost reductions 
have encouraged more vehicle manufacturers to produce electric versions 
of fleet vehicles needed for various medium- and heavy-duty purposes. 
PG&E encourages the Federal government to further this policy certainty 
and provide incentives for both manufacturers and consumers of these 
vehicles to help accelerate their financing, production and adoption.
    While direct financial support to lower the upfront costs of 
medium- or heavy-duty electric vehicles is outside of PG&E's supportive 
scope, PG&E does assist its medium- and heavy-duty fleet customers who 
are interested in transitioning to electric vehicles by providing 
education to demystify transportation electrification and learn about 
available models and purchase incentives. PG&E and electric utilities 
act as trusted energy advisors that customers seek to learn from, and 
we very much see this as an opportunity to help our customers 
transition to cleaner forms of transportation.
    PG&E further assists medium- and heavy-duty fleet customers with 
the installation of charging infrastructure necessary to transition to 
electric vehicles. Through PG&E's EV Fleet program, PG&E is investing 
$236 million through 2024 to help 700+ organizations including school 
districts, transit agencies and small businesses electrify their fleet 
operations by supporting infrastructure for 6,500 medium- and heavy-
duty EVs. Customers participating in the EV Fleet program can see the 
upfront costs of electrifying their fleet reduced significantly.
    Another concern for fleet operators has been the affordability and 
predictability of refueling costs. PG&E has developed an innovative 
business EV rate that replaces demand charges with monthly subscription 
charges that allow for greater price certainty. This rate provides 
business customers a rate of $1.77 per gallon equivalent, which is 
about 55 percent lower than current gasoline prices in California.\8\
---------------------------------------------------------------------------
    \8\ AAA, ``State Gas Price Averages'' (April 23, 2021), https://
gasprices.aaa.com/state-gas-price-averages/.
---------------------------------------------------------------------------
    Finally, customers seeking to expand their medium- or heavy-duty 
fleets should coordinate early with their utility to ensure the grid 
can effectively meet their charging needs. Large loads associated with 
medium- and heavy-duty charging can create a capacity gap on parts of 
PG&E's distribution system. If these capacity gaps exist, PG&E makes 
upgrades to effectively serve the increased load. To prevent timing 
issues, early coordination is key. PG&E is also seeking to expand its 
coordination with large customers, regulators and other knowledgeable 
parties to identify areas where we could see large influx of vehicle 
electrification and proactively upgrade those areas of the distribution 
grid to ensure capacity is available once customers are ready to 
electrify.

  Questions from Hon. Scott Perry to Laurie M. Giammona, Senior Vice 
     President for Customer Care, Pacific Gas and Electric Company

    Question 1. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Answer. Electrification of the transportation sector will provide 
benefits for our environment, public health, economy, and energy 
system--benefits which will be realized by all Americans, not just EV 
adopters. In California, transportation is the single largest 
contributor of greenhouse gas (GHG) emissions, accounting for 41% of 
GHG emissions, while electricity accounts just for 15% of statewide GHG 
emissions. Electrifying transportation will be necessary to meet 
science-based targets of reducing GHG emissions to net-zero by 2050 or 
sooner to avoid the worst consequences of climate change. Already, 
California is experiencing the impacts of climate change, including 
heat waves, more frequent and extreme storms and wildfires, drought, 
and other impacts. These events have resulted in the loss of life and 
property and will continue to pose safety and financial risks to 
communities across America unless we can mitigate the impacts of 
climate change.
    Transportation electrification will also improve air quality and 
public health as EVs do not produce any tailpipe emissions. In 
California, motorists drive more than a billion miles each day, 
producing 1,000 tons of smog-forming pollutants.\9\ High levels of air 
pollution can lead to asthma and other respiratory illnesses that 
especially affect children and seniors, and those living in communities 
adjacent to highways, ports and rail yards can suffer disproportionate 
effects.
---------------------------------------------------------------------------
    \9\ California Air Resources Board, ``Drive Clean CA.Gov,'' https:/
/driveclean.ca.gov/why-drive-clean.
---------------------------------------------------------------------------
    The transition to electric vehicles isn't just an environmental 
priority, it's also a generational and transformational opportunity for 
the United States to generate new jobs and drive economic output. As 
our nation seeks to recover from the COVID-19 pandemic and economic 
downturn, EV manufacturing and charging infrastructure buildout could 
create thousands of domestic jobs, adding to the more than 266,000 
American jobs already supported by the alternative fuel vehicle 
industry.\10\
---------------------------------------------------------------------------
    \10\ National Association of State Energy Officials and Energy 
Futures Initiative, ``2020 U.S. Energy & Employment Report,'' https://
www.usenergyjobs.org/.
---------------------------------------------------------------------------
    EV owners will also benefit from lower lifetime fuel and 
maintenance costs. EVs are less expensive to operate than gasoline-
powered vehicles, primarily due to fuel cost savings because 
electricity is less expensive than gasoline on an equivalent cost 
basis. Customers using one of PG&E's residential EV rate plans pay as 
low as $1.60 per gasoline gallon equivalent--60% less than the current 
average price of $3.98 per gallon of gasoline in California.\11\
---------------------------------------------------------------------------
    \11\ AAA, ``State Gas Price Averages'' (April 23, 2021), https://
gasprices.aaa.com/state-gas-price-averages/.
---------------------------------------------------------------------------
    EVs will even provide economic benefit to electric customers who do 
not choose to adopt them--namely through more affordable electric 
rates. As additional demand is added to our grid, the fixed costs of 
upgrading and maintaining the grid will be spread over more kilowatt 
hours, which will help lower costs for all customers. This is 
particularly true when EV users are incentivized to charge during off-
peak periods.
    Greater EV adoption will also provide PG&E more flexibility to 
manage the grid in a way that promotes better resilience and 
reliability. In our service area, there is an increasing penetration of 
solar resources available in the morning hours--when demand is lower--
and an increase in electricity demand in the afternoon and evening 
hours when the sun is down. Smart charging and incentives to EV owners 
to recharge during those peak solar hours will allow us to utilize more 
renewable energy and shift demand in a way that benefits all grid 
users.
    Given the multiple, economywide benefits of EVs, PG&E supports 
federal incentives and investments including for research and 
development that will help accelerate deployment of charging 
infrastructure, reduce the upfront costs of EVs, and ensure EVs 
integrate successfully onto the electric grid.

    Question 2. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer. PG&E agrees that market-based incentives and collaboration 
are essential to support the expansion of transportation 
electrification. The broader transportation electrification ecosystem 
includes policy makers as well as market participants such as 
automakers, EV charging companies, battery and component manufacturers, 
technology providers, utilities, and host sites for EV charging. 
Coordination and partnerships amongst private and public sector actors 
in this ecosystem help ensure deployment of EVs and charging 
infrastructure proceeds in an efficient, equitable manner that best 
meets customers' needs and demands. Federal policy to incent this 
transition in EV markets will help drive down the costs of EVs, expand 
charging infrastructure and encourage greater customer adoption.

Questions from Hon. Peter A. DeFazio to Tom Lewis, P.E., J.D., National 
 Business Line Executive for Climate, Resilience, and Sustainability, 
                                WSP USA

    Question 1. Mr. Lewis, your testimony references the ``Envision'' 
system, a framework for evaluating the sustainability and resilience of 
transportation projects.
    Do you think a similar model can or should be used by the U.S. DOT, 
State DOTs, MPOs, or transit agencies when making funding decisions?
    Are there any changes to federal procurement requirements that 
would facilitate the adequate consideration of resilience and climate 
benefits in transportation projects?
    Answer. Yes, the inclusion of standards and models that directly 
address sustainability and resilience concerns and inform project 
selection, funding and implementation should be a part of all types of 
projects--and this applies to transportation as well as other types of 
infrastructure. Taking such measures makes sense from many different 
perspectives--natural resource management, energy policy, and 
prioritizing and protecting the large investments made in 
infrastructure nationally from extreme events and/or changing 
environmental conditions possible with climate change.
    The American Society of Civil Engineers (ASCE) expects to publish 
the Standard Requirements for Sustainable Infrastructure Standard in 
late 2021 through the American National Standards Institute (ANSI) 
process. Once it is launched, this standard should be used to better 
inform and implement infrastructure development, specifically including 
the procurement process associated with infrastructure projects. These 
are consensus-based standards designed for transportation projects, 
supported by years of scientific and calibrated on actual 
transportation projects. Similarly, incorporating or at the very least 
incentivizing the use of a broad infrastructure rating system like 
Envision from the Institute for Sustainable Infrastructure (ISI) will 
help the government ensure that the right projects are being done, as 
well as being done right when it comes to sustainable and resilient 
infrastructure.
    When it comes to transportation, the USDOT and state and local 
transportation agencies in particular can also leverage more 
specialized tools such FHWA's Infrastructure Voluntary Evaluation 
Sustainability Tool (INVEST), and the Greenroads rating system to 
ensure that transportation projects are designed for long-term 
resilience and adaptability. The National Cooperative Highway Research 
Program (NCHRP) through the National Academies of Science 
Transportation Research Board (TRB) also expects to publish this year a 
guide on Mainstreaming System Resilience Concepts into Transportation 
Agencies that was led by WSP USA in collaboration with other 
transportation system resilience experts through an NCHRP project and 
funding.
    It is vitally important to encourage Project Sponsors, such as 
local public works agencies, state DOTs and transit agencies, to use 
such standards, tools, and guides to monitor and measure 
sustainability, resilience, and climate benefits staring from the 
initial project planning and development process, through procurement, 
construction, and maintenance and throughout the asset lifecycle. For 
transportation programs and projects, USDOT can send a clear message to 
the project sponsors that their request for funding and approvals will 
be evaluated based on evidence that the project has been developed in 
accordance with industry benchmarked sustainability, resilience, and 
equity standards and considers the entirety of the period when the 
asset will be in service. Requiring grant applicants or funding 
recipients to meet sustainability and resilience criteria and/or to 
design to sustainable and resilient infrastructure standards will lead 
to funding ``shovel worthy'' projects that are more sustainable, 
resilient, and equitable in their design and delivery, as mentioned in 
my testimony.
    Further, USDOT does not need to and should not act alone to prepare 
the country for a sustainable, resilient, and equitable future. 
Infrastructure serves communities and facilitates the economy. 
Transportation and infrastructure planning is also intricately linked 
with and can impact land use planning and housing policy, amongst other 
sectors. Through innovative programs like the Partnership for 
Sustainable Communities which brought USDOT together with HUD and EPA, 
USDOT has recognized its critical and interdependent role in the future 
of the communities in which it invests transportation infrastructure 
dollars. Interdisciplinary efforts like these can continue to have a 
necessary impact.
    Finally, I reiterate that federal procurement policies are a 
powerful tool to shape aspects of project selection and design, 
including at the state and local levels. The ``power of the purse'' is 
an opportunity for the government to establish expectations for project 
sponsors seeking the use of federal monies, and the new ASCE Standard 
Requirements for Sustainable Infrastructure Standard coming out in late 
2021 should be broadly leveraged accordingly to result in more 
sustainable and resilient infrastructure projects. Without clear 
requirements in the procurement solicitation and evaluation process for 
delivering sustainability, resilience, and equity outcomes throughout 
the project lifecycle, it is incredibly difficult to construct, operate 
and maintain a sustainable infrastructure project and system. ESG 
principles (Environment, Social, and Governance) are becoming an 
explicit tenet in how the private sector and government conduct their 
business and should also be considered during procurement and 
throughout the infrastructure project lifecycle.
    By requiring project applicants to follow the tenets of such 
programs and justify instead why their investments are not sustainable 
or not resilient (rather than the other way around, as is done 
currently) infrastructure funding allocated today can make a change for 
decades into the future. Policies and requirements are powerful tools 
for change, and such considerations should definitely be a part of 
transportation project decisions moving forward.

    Question 2. Mr. Lewis, one of the former Administration's proposed 
changes to the environmental review process is intended limit the 
consideration of cumulative effects, such as climate change, in the 
environmental review process.
    Given the cost of climate change to the government and the economy, 
do you believe it is appropriate that a NEPA analysis consider the 
impact of a proposed project on the climate?
    Answer. Yes, it is appropriate and very beneficial to include the 
impacts of transportation projects relative to climate considerations 
as an element of NEPA. The NEPA process is a powerful, structured 
delivery process that has provided a framework for projects for 
decades. Explicitly including climate concerns would be beneficial.
    Cumulative impacts analysis is a well-understood method for 
identifying a project's effects in the context of other project's 
effects that has been part of NEPA analyses for decades. Experienced 
NEPA practitioners are readily able to assess a project's impacts on 
climate change (emissions) through cumulative effects, however federal 
agencies can do more to provide guidance on how these assessments 
should be prepared. Prior to the September 2020 changes to the 
environmental review process, the structure established over many 
decades of NEPA provide a basis to further the assessment of cumulative 
effects and climate change as well as environmental justice. It is 
familiar to NEPA practitioners both from the preparation of NEPA 
documents as well as their assessment and affirmation of NEPA records 
of decision that underpin agency actions to approve and fund projects.
    Improved analysis of a project's climate profile can serve as a 
tool for communicating the importance of resiliency and the need to 
address climate change head on. This is an area that can be improved 
and made more useful as a metric to ensure that climate change and 
equity are integral to the decision-making process. CEQ and federal 
agencies can provide more specific criteria and methodology guidance to 
make these existing elements of NEPA more effective. Additionally, CEQ 
and federal agencies can consider encouraging agencies to include 
climate change goals and activities in the Purpose and Need statement 
for NEPA documents in order to indicate when the project's goals are 
oriented around climate action. This framework can introduce documented 
requirements for resilience that may not be a part of current baseline 
approach methods. As federal agencies reassess recent changes to the 
environmental review process, the time is ripe to consider providing 
practitioners with additional standards, guidance and tools such as 
those identified in response to question number one above to conduct 
these reviews.

 Question from Hon. Nikema Williams to Tom Lewis, P.E., J.D., National 
 Business Line Executive for Climate, Resilience, and Sustainability, 
                                WSP USA

    Question 3. Mr. Lewis, thank you for sharing WSP's innovative 
approaches to a more sustainable future. In your testimony you 
mentioned that our national approach to repairing and maintaining 
transportation infrastructure must urgently consider new ideas on how 
we design, manage, and invest to achieve both resilient and adapted 
standards as we transition to a low or net zero carbon economy that 
cognitively responds to the impact of carbon and other GHG emissions on 
communities.
    How are we to re-evaluate existing infrastructure to achieve 
sustainability and resiliency that considers equity and social justice 
impacts in the design and development?
    Answer. Generally speaking, I refer you to my answer to question 
number one above from Chairman DeFazio regarding the incorporation and 
leveraging of modern standards, systems, guides and other tools to 
better select, fund and implement sustainable and resilient 
infrastructure projects--specifically and importantly including during 
procurement activities.
    More specifically in answer to ``the how'' question, the key will 
be to broaden the considerations of investment in infrastructure to 
consider the entire period when the asset will be in place, its 
operation, the maintenance and repair requirements, and how these 
considerations should drive different decisions in the planning or 
design phase. This should include how future changes in community, 
economy, or technology may be considered now to ensure appropriate 
investments today. This broader, future oriented, perspective is not a 
part of traditional practices, so is the high-level basis of what needs 
to change. We should no longer be looking at historical conditions, or 
past ideas, to guide investments. We should be looking to implement new 
methods that enable better decisions.
    Importantly, potentially affected communities should be engaged at 
the beginning of project planning to inform the planning and 
implementation process regardless of the project type. Equity, when 
implemented effectively, is more enabling than traditional 
environmental justice perspectives that focus on the proportionality of 
impacts. Equity in investments should be toward providing equal 
opportunities to transportation service, regardless of income level or 
work type/location.
    With respect to achieving sustainability and resilience through 
repairing or maintaining existing infrastructure, we need to find ways 
to make a better case to provide adequate repairs to infrastructure 
that is failing. Federal investments in infrastructure have often been 
followed by the imposition of maintenance requirements on states and in 
many cases these states are very resource constrained and unable to 
keep up with the maintenance backlog. As we work towards ensuring a 
state of good repair, considerations of how to improve and modernize 
the aging infrastructure should include whether there are opportunities 
through these programs to also make improvements that address past 
environmental or social harms as well as address future climate change 
impacts and make facilities more resilient to damage/impacts, thus 
limiting the disruption costs to users. Every project that is begun to 
restore or replace existing infrastructure should evaluate 
opportunities to promote a more equitable distribution of project 
benefits and be designed to withstand the challenges of rising seas, 
stronger storms, and more extreme weather.

 Questions from Hon. Michael Guest to Tom Lewis, P.E., J.D., National 
 Business Line Executive for Climate, Resilience, and Sustainability, 
                                WSP USA

    Question 4. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. The basic premise of a VMT tax is to delink transportation 
funding only from a gas tax and instead distribute costs to all users 
equitably for those users of the highway system. Highway drivers that 
use only electric powered vehicles, as an example, are providing no 
revenue to maintain the highway network.
    To your question, you should note that a study conducted by a group 
called RUC West analyzed the financial impacts of a road usage charge 
(RUC) for urban and rural drivers in eight western states and found 
that rural drivers will likely save money under RUC schemes or a VMT 
tax. Using estimates of vehicle-miles traveled (VMT) by geographic 
area, vehicle registrations, and gas tax revenue data, researchers 
determined the per-mile fee required to potentially replace current 
state gas tax revenues. RUC West research projects that, on average, 
rural households will pay 1.9%-6.3% less and urban households will pay 
0.3%-1.4% more state tax in a RUC system than they currently pay in 
state gas tax. Ranges reflect the differences from state to state.\1\
---------------------------------------------------------------------------
    \1\ Financial Impacts of Road User Charges on Urban and Rural 
Households (RUC West in cooperation with ODOT).
---------------------------------------------------------------------------
    These findings are due to two key factors:
    1.  While rural residents will travel longer distances to reach 
urban areas, they tend to chain trips together. Meaning, a rural 
resident will combine a trip to the grocery store, the pharmacy, 
doctors appointments, etc. into one single trip as opposed to urban or 
suburban residents who will take each of those trips independently. The 
rural driver will actually travel less distance than their urban or 
suburban counterparts due to chaining trips together.
    2.  Rural drivers tend to drive less fuel-efficient vehicles. 
Should states who are exploring VMT programs choose to provide a credit 
to all motor fuel taxes paid, then rural residents may actually pay 
less in a VMT than their urban or suburban counterparts.

    In general, I believe a VMT tax is a way to more equitably 
distribute highway costs to all users and should be a consideration for 
funding.

    Question 5. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. The high costs of maintaining the highway system is 
requiring some infrastructure owners to make hard decisions on managing 
assets, including closure of roads and bridges that are expensive to 
maintain or repair/replace. These closures are limiting access, 
increasing mileage driven, increasing costs for those having to drive 
longer distances, and causing an increase in emissions due to the 
longer trips. The entire situation imposes costs that are undesirable.
    Better long-term investments in roads and bridges, including the 
leveraging of private investment to supplement and be synergistic with 
government funding, could benefit communities and business in rural 
areas and reduce emissions, in three primary ways. First, roads and 
bridges maintained at a state of good repair are safer and more 
efficient for vehicles to drive on, thus reducing overall fuel 
consumption. Secondly, investments made in roads and bridges with 
improved resilience perspectives as part of design and implementation 
requirements will reduce the likelihood of outages and requirements for 
costly repair. Finally, fully including sustainable practices as part 
of design and implementation would help facilitate better use of 
limited natural resource, and reduce effects including construction-
related emissions and other environmental impacts as described in my 
testimony regarding California High Speed Rail.
    Wise infrastructure investment could reduce/eliminate the 
requirements for facility closure, reduce costs associated with 
associated detours, and provide for more sustainable approaches to 
project delivery and ensure a more resilient future for assets.

  Questions from Hon. Scott Perry to Tom Lewis, P.E., J.D., National 
 Business Line Executive for Climate, Resilience, and Sustainability, 
                                WSP USA

    Question 6. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Question 7. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer to questions 6 & 7. As an infrastructure and planning firm, 
we work in the best interest of the communities we work for and respond 
to current conditions while also remaining at the leading edge of our 
industry. We do not establish policies, or create the market, we merely 
help to facilitate the needs of the communities we serve and help to 
provide for a sustainable, resilient, and efficient economy.
    This has been the case from the beginning as we helped to develop/
implement national transit and highway systems as they were put in 
place to serve the citizens based on the best technology available at 
that time. We do see indications of a need to adjust the systems put in 
place to accommodate petroleum powered vehicles and find ways to create 
similar infrastructure for developing technologies, like electric 
vehicles or hydrogen fueled systems, that seem to be growing in 
interest and market share. The commitment of major US vehicle 
manufacturers to expand the roll out of electrical vehicles into the 
future seems to indicate the need for a response.
    The transition to better EV infrastructure, bolstered by federal 
policy support suits both needs as identified in your two questions. 
First, the rapid deployment of EV infrastructure supports this 
developing and expanding technology, leads to reduction of particulate 
pollutants and greenhouse gases and has intangible public health and 
environmental quality benefits that cannot be achieved through the 
continued use of ICE vehicles. So, I believe it to be a responsible use 
of tax dollars.
    The automobile industry has indicated its commitment to 
electrification, which is a different condition from the past, 
unprecedented in fact. Most recently, GM released a commitment to only 
sell zero emission vehicles by 2035. Federal policies and programs that 
support this transition will be bolstering an industry with real 
momentum and providing a cleaner and healthier environment for future 
generations. The market is changing, the provision of a support network 
through targeted infrastructure spending would indicate a path to 
success.

Question from Hon. Peter A. DeFazio to Charles Hernick, Vice President 
   of Policy and Advocacy, Citizens for Responsible Energy Solutions

    Question 1. Mr. Hernick, your testimony supports provisions 
included in the Senate Environment and Public Works Committee's 
proposed Carbon Reduction Incentive Program and alternative fuel 
infrastructure grants, along with the Republican-proposed resilience-
focused ``PROTECT'' grants. The House-passed bill H.R. 2 includes 
similar provisions on carbon reduction, alternative fuel corridor grant 
fueling, and infrastructure resilience.
    Would you encourage the Republicans on the Committee to support 
those similar efforts in the House?
    Answer. Yes. As noted in my written and previously submitted 
testimony. The Promoting Resilient Operations for Transformative, 
Efficient, and Cost-saving Transportation (PROTECT) Grant Program (Sec. 
7001 of H.R. 7248 STARTER Act; Sec. 1407 of S. 2302 ATIA) would allow 
states to make resiliency improvements and help protect roads and 
bridges from natural disasters such as hurricanes, floods, wildfires, 
and mudslides. CRES supports this grant program as a good example of 
cooperative federalism, which is a hallmark of American environmental 
and transportation policy. The federal government can improve 
resiliency outcomes by empowering states and municipalities to make 
locally appropriate infrastructure investments.

Questions from Hon. Michael Guest to Charles Hernick, Vice President of 
     Policy and Advocacy, Citizens for Responsible Energy Solutions

    Question 1. Research has shown that the demand for travel has grown 
due to urban sprawl and low fuel costs that have allowed individuals to 
work in urban centers but commute long distances to town. We have 
discussed expanding transit systems and more efficient pedestrian 
travel to account for that. But as we know, there are also rural 
communities that require travel to get to school or work in their rural 
communities. We have discussed a proposed Vehicle Miles Travelled (VMT) 
Tax to promote more efficient collection of highway users in fees. 
Rural citizens are going to be the most against this and 
disproportionately affected in the short run.
    Would you be able to discuss how a VMT may be beneficial to rural 
Americans?
    Answer. CRES does not support a Vehicle Miles Traveled tax. Annual 
odometer readings would be vulnerable to rollback devices or 
manipulation changing a car's mileage readout. Alternatively, using a 
GPS tracker to monitor the distance a car travels would be an invasion 
of privacy by the Federal government. Both approaches would be a 
logistical nightmare to implement on all cars across the country every 
year.

    Question 2. Across much of rural America, there are closed roads 
and bridges that are creating longer trips and commutes for families, 
drivers, and delivery systems. The longer these trips are, especially 
compounded by something like a heavy logging area that is running 
trucks constantly in and out of that area, or daily parcel services, or 
school buses, the more emissions occur.
    How would long-term and robust investment in our roads and bridges 
across rural America best address emissions in rural America?
    Answer. Investing in infrastructure is an investment in America. 
CRES believes Congress should leverage private investment in clean 
energy with public infrastructure and incentives--not grow government 
into sectors traditionally led by the private sector and states. To 
that end, earlier this year our sister organization CRES Forum ran a 
multi-million campaign called: Let's invest in US.\1\ We have also 
prioritized specific infrastructure priorities in our recommendations 
from the 117th Congress.\2\
---------------------------------------------------------------------------
    \1\ See online at: https://letsinvestinus.com/
    \2\ Available online at: https://citizensfor.com/wp-content/
uploads/2021/02/CRESO-0026-
PC-US-CST-December-2020-Retainerver43.pdf
---------------------------------------------------------------------------
    Simply keeping roads and bridges in good condition is in itself a 
way of reducing emissions. According to a 2019 study led by Rutgers 
university, keeping roads and highways in good condition with 
preventive maintenance can reduce emissions by up to 2 percent; save 
drivers between 2 and 5 percent because of lower fuel consumption and 
vehicle maintenance and repair costs; as well as help transportation 
agencies cut spending by 10 to 30 percent.\3\
---------------------------------------------------------------------------
    \3\ Available online at: https://cresforum.org/climate-policy-
directives/
---------------------------------------------------------------------------

 Questions from Hon. Scott Perry to Charles Hernick, Vice President of 
     Policy and Advocacy, Citizens for Responsible Energy Solutions

    Question 3. I sincerely hope this hearing serves as a wakeup call 
to the American people about the degree to which our Nation's political 
and corporate elites are marching in lockstep behind President Biden's 
Green New Deal--and promise to electrify the transportation sector 
against the will of the American consumer.
    If this cooperative effort is to succeed, it will cause great harm 
to America's prosperity and security.
    While it appears nearly everyone testifying before the Committee 
today--and much of the broader corporate community--has accepted and 
embraced the radical, whole-sale approach to rapidly electrify our 
transportation sector, historical and recent consumption trends 
indicate that your consumers--and our constituents--don't share this 
warm embrace.
    These concerns will grow to disdain as the costs of all consumer 
goods continues to skyrocket.
    The near universal acceptance that electrification is inevitable 
must be met with the proper historical context--the electric vehicle is 
NOT some emerging technology that will breakthrough if enough taxpayer 
money is spent.
    As a matter of fact, electric vehicles are as old as motorized 
vehicles themselves.
    In 1896--yes, eighteen-ninety-six--Thomas Edison wrote to Henry 
Ford admitting the electric vehicle had been rendered obsolete by the 
cheaper, superior alternative, the internal combustion engine:

        ``Electric cars must keep near to power stations. The storage 
        battery is too heavy . . . Your car is self-contained--carries 
        its own power plant--no fire, no boiler, no smoke and no steam. 
        You have the thing. Keep at it.''

    125 years after this exchange, EVs are still plagued by largely the 
same deficiencies relative to ICEs--a lack of range, higher costs, and 
a lack of battery capacity per pound.
    More recent concerns about battery life-span, the diminished range 
of aging batteries, and the propensity for aging batteries to erupt in 
flames add to consumer weariness.
    Until these fundamental issues are resolved, American consumers 
will not adopt electric vehicles voluntarily as demonstrated by EV's 
anemic market share and the continual failure to meet projected sales 
figures.
    At the height of the Obama administration's taxpayer handouts for 
EV companies, he predicted there would be 1 million EVs on the road by 
2015--a figure that wasn't reached until the end of 2018.
    Over the past decade, the EV industry received $43 billion in 
federal subsidies and tax incentives to manufacturers and consumers--
plus state and local incentives--and electric vehicle sales made up 
only 1.9 percent of US retail car sales in 2020.
    Throwing helicopter money at charging infrastructure fails to 
rectify these underlying issues and thus will not spur widespread 
voluntary adoption by consumers.
    Can anyone please explain to my constituents:
    How this is a responsible use of their tax dollars; or
    Answer. CRES does not support the Green New Deal. The Green New 
Deal is a ``greatest hits'' of liberal policy that all intersect at 
climate change that would dangerously expand the reach of government. 
Conservatives can lead a principled approach to climate change. To that 
end, our sister organization CRES Forum, has put forward Eight 
Conservative Climate Policy Directives to inform better, lasting and 
significant policies that will protect the planet and our future 
economic growth for generations to come.
    As noted, corporate America is quickly moving forward on climate-
friendly practices, which is a testament to their read of the current 
market conditions. Government intervention in the economics of those 
markets would inevitably skew them and make it much more difficult for 
business leaders to make well-informed decisions.

    Question 4. What is so unique about the EV sector that fosters the 
unfounded belief that central planning will work this time when every 
previous attempt has failed?
    Answer. CRES does not support central planning by the federal 
government. The transportation sector is the largest source of domestic 
greenhouse gas emissions and is one of the most difficult to 
decarbonize. Therefore, it requires an all of the above approach 
including increasing fuel efficiency by scaling up innovation instead 
of imposing federal mandates, better utilizing alternative fuels, such 
as hydrogen, and electrification. A singular focus on electric vehicles 
by government is not advisable. CRES supports federal policy in all 
three categories: efficiency, alternative fuels, and electrification.
    Today, EVs account for a small percentage of total vehicle sales in 
the U.S. However, EVs are more cost effective each year, their range is 
improving, and the industry is working hard to communicate their 
benefits to the public on a voluntary basis. These trends should be 
encouraged.
    It is worth nothing that these benefits do not apply only to urban 
settings. While there is an initial cost involved in the purchase of a 
new electric vehicle, over the long run, rural households are actually 
expected to enjoy higher savings than urban households, given that they 
drive and repair their vehicles more often.

                              [all]

                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
